<html>
<title> - LEGISLATIVE HEARING ON H.R. 1197, H.R. 3008, H.R. 3795, H.R. 4274, H.R. 5155, H.R. 5448, H.R. 5454, H.R. 5709, H.R. 5954, H.R. 5985, AND H.R. 6032</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
              LEGISLATIVE HEARING ON H.R. 1197, H.R. 3008,
         H.R. 3795, H.R. 4274, H.R. 5155, H.R. 5448, H.R. 5454,
             H.R. 5709, H.R. 5954, H.R. 5985, AND H.R. 6032

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON DISABILITY
                    ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 12, 2008

                               __________

                           Serial No. 110-92

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                     U.S. GOVERNMENT PRINTING OFFICE
43-058 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
PHIL HARE, Illinois                  GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio               STEVE SCALISE, Louisiana
TIMOTHY J. WALZ, Minnesota
DONALD J. CAZAYOUX, Jr., Louisiana

                   Malcom A. Shorter, Staff Director

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JOHN J. HALL, New York, Chairman

CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado, Ranking
PHIL HARE, Illinois                  MICHAEL R. TURNER, Ohio
SHELLEY BERKLEY, Nevada              GUS M. BILIRAKIS, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             June 12, 2008

                                                                   Page
Legislative Hearing on H.R. 1197, H.R. 3008, H.R. 3795, H.R. 
  4274, H.R. 5155, H.R. 5448, H.R. 5454, H.R. 5709, H.R. 5954, 
  H.R. 5985, and H.R. 6032.......................................     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     4
    Prepared statement of Chairman Hall..........................    50
Hon. Doug Lamborn, Ranking Republican Member.....................     7
    Prepared statement of Congressman Lamborn....................    50

                               WITNESSES

Congressional Research Service, Library of Congress, Sidath 
  Viranga Panangala, Analyst in Veterans Policy..................    17
    Prepared statement of Mr. Panangala..........................    70
U.S. Department of Veterans Affairs, Bradley G. Mayes, Director, 
  Compensation and Pension Service, Veterans Benefits 
  Administration.................................................    38
    Prepared statement of Mr. Mayes..............................    89

                                 ______

Alderson, Lieutenant Commander Jack B., USNR (Ret.), Ferndale, CA    26
    Prepared statement of Lieutenant Commander Alderson..........    83
Allen, Hon. Thomas H., a Representative in Congress from the 
  State of Maine.................................................    13
    Prepared statement of Congressman Allen......................    61
ALS Association, Jeff Faull, McEwersille, PA.....................    27
    Prepared statement of Mr. Faull..............................    85
American Ex-Prisoners of War, Les Jackson, Executive Director....    22
    Prepared statement of Mr. Jackson............................    74
American Legion, Steve Smithson, Deputy Director, Veterans 
  Affairs and Rehabilitation Commission..........................    23
    Prepared statement of Mr. Smithson...........................    74
Bilirakis, Hon. Gus M., a Representative in Congress from the 
  State of Florida...............................................     9
    Prepared statement of Congressman Bilirakis..................    59
Filner, Hon. Bob, Chairman, Committee on Veterans' Affairs, and a 
  Representative in Congress from the State of California........     5
Institute of Medicine of the National Academies, Judith A. 
  Salerno, M.D., M.S., Executive Officer.........................    16
    Prepared statement of Dr. Salerno............................    67
Rehberg, Hon. Denny R., a Representative in Congress from the 
  State of Montana...............................................     3
    Prepared statement of Congressman Rehberg....................    54
Space, Hon. Zachary T., a Representative in Congress from the 
  State of Ohio..................................................     8
    Prepared statement of Congressman Space......................    56
Shea-Porter, Hon. Carol, a Representative in Congress from the 
  State of New Hampshire.........................................    11
Thompson, Hon. Michael, a Representative in Congress from the 
  State of California............................................     2
    Prepared statement of Congressman Thompson...................    51
Vietnam Veterans of America, John Rowan, National President......    25
    Prepared statement of Mr. Rowan..............................    78
Veterans Affairs of Scott County, IA, David Woods, Director......    30
    Prepared statement of Mr. Woods..............................    87
Wu, Hon. David, a Representative in Congress from the State of 
  Oregon.........................................................    12
    Prepared statement of Congressman Wu.........................    60

                       SUBMISSIONS FOR THE RECORD

Hon. Michael L. Dominguez, Principal Deputy Under Secretary of 
  Defense for Personnel and Readiness, U.S. Department of 
  Defense, statement.............................................    94
Braley, Hon. Bruce L., a Representative in Congress from the 
  State of Iowa, statement.......................................    95
Disabled American Veterans, Kerry Baker, Associate National 
  Legislative Director, statement................................    97
Fort McClellan Veterans Stakeholders Group, Susan R. Frasier, 
  Albany, NY, statement..........................................   100
Lachapelle, Commander Norman C., MSC, USN (Ret.), Administrator, 
  Bureau of Environmental Health/Emergency Regional Response, 
  Memphis and Shelby County Health Department, TN, statement.....   104
National Association of State Directors of Veterans Affairs, John 
  A. Scocos, President, and Secretary, Wisconsin Department of 
  Veterans Affairs, statement....................................   106
National Vietnam and Gulf War Veterans Coalition, Denise Nichols, 
  Vice Chairman, letter..........................................   108
Olsen, John E., ET-2, USN, Billings, MT, statement...............   108
Paralyzed Veterans of America, statement.........................   111
U.S. Military Veterans with Parkinson's (USMVP), Alan Oates, 
  Edinburg, VA, Member, statement................................   114

                   MATERIAL SUBMITTED FOR THE RECORD

Background, Followup Memorandum, and Administration Views:
    Figure S-1, entitled, ``Roles of the Participants Involved in 
      the Presumptive Disability Decision-Making Process for 
      Veterans,'' and Figures S-2, entitled ``Proposed Framework 
      for Future Presumptive Disability Decision-Making Process 
      for Veterans,'' Excerpted from the Study entitled, 
      ``Improving the Presumption Disability Decision-Making 
      Process for Veterans,'' 2008, by Committee on Evaluation of 
      the Presumptive Disability Decision-Making Process for 
      Veterans, Board on Military and Veterans Health, Jonathan 
      M. Samet and Catherine C. Bodurow, Editors, Institute of 
      Medicine of the National Academies.........................   118
    Sidath Viranga Panangala, Analyst in Veterans Policy, 
      Congressional Research Service, to Kimberly Ross, House 
      Committee on Veterans' Affairs, Subcommittee on Disability 
      Assistance and Memorial Affairs, Memorandum dated October 
      21, 2008...................................................   120
    U.S. Department of Veterans Affairs Views on H.R. 5954, a 
      bill to amend title 38, United States Code, to provide 
      veterans for presumptions of service connection for 
      purposes of benefits under laws administered by Secretary 
      of Veterans Affairs for diseases associated with service in 
      the Armed Forces and exposure to biological, chemical, or 
      other toxic agents as part of Project 112, and for other 
      purposes...................................................   121
Post-Hearing Questions and Responses for the Record:
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, Committee on Veterans' 
      Affairs, to Hon. Michael L. Dominguez, Principle Deputy 
      Under Secretary of Defense for Personnel and Readiness, 
      U.S. Department of Defense, letter dated June 23, 2008, and 
      DoD responses..............................................   123


              LEGISLATIVE HEARING ON H.R. 1197, H.R. 3008,
         H.R. 3795, H.R. 4274, H.R. 5155, H.R. 5448, H.R. 5454,
             H.R. 5709, H.R. 5954, H.R. 5985, AND H.R. 6032

                              ----------                              


                        THURSDAY, JUNE 12, 2008

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                  Subcommittee on Disability Assistance and
                                          Memorial Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:10 p.m., in 
Room 340, Cannon House Office Building, Hon. John J. Hall 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Hall, Lamborn, Turner and 
Bilirakis.
    Also present: Representatives Filner, Space and Brown of 
South Carolina.
    Mr. Filner [presiding]. The Subcommittee on Disability 
Assistance and Memorial Affairs of the House Veterans' Affairs 
Committee is called to order. Unfortunately, if you have heard 
the bells, we have three votes. Just for my colleagues, these 
are the last votes of the day, so we will be back in about a 
half hour. I apologize that with so many bills, we have to hold 
you. We apologize, but we will be back right after the votes.
    Mr. Thompson. Mr. Chairman, would you entertain a question?
    Mr. Filner. Yes, sir.
    Mr. Thompson. Would it be possible for Mr. Rehberg and I to 
make our statement before we recess?
    Mr. Filner. Yes, sir. With unanimous consent.
    Mr. Lamborn. Absolutely.
    Mr. Filner. So ordered. Thank you for the intelligent 
suggestion.
    Mr. Thompson. Thank you, Mr. Chairman. Each of us has an 
airplane to catch to get home. So we appreciate it. Thank you.
    Mr. Filner. Mr. Thompson will be recognized to talk on his 
bill, which is part of a whole theme we are considering today, 
and that is justice for veterans who have been lost through the 
cracks.
    Thank you, Mr. Thompson; thank you, Mr. Rehberg; thank you, 
Ms. Shea-Porter, for your commitment to our veterans.

   STATEMENTS OF HON. MICHAEL THOMPSON, A REPRESENTATIVE IN 
   CONGRESS FROM THE STATE OF CALIFORNIA; AND HON. DENNY R. 
REHBERG, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF MONTANA

               STATEMENT OF HON. MICHAEL THOMPSON

    Mr. Thompson. Thank you, Mr. Chairman and Members. The bill 
that we have would grant presumption of a service connection 
for veterans who have been exposed to dangerous chemicals or 
biological agents as part of a test called Project 112 and 
Project SHAD (Shipboard Hazard and Defense). These were Cold 
war-era chemical and biological warfare tests that were 
conducted on U.S. military personnel without their knowledge. 
These ran from about 1962 to 1974, and these tests exposed 
about 6,000 servicemembers to dangerous live agents such as VX 
nerve agent, Sarin gas, and E. coli (Escherichia coli).
    And as I said, for the most part these military personnel 
were unaware they were being used in this test. And for nearly 
30 years the Department of Defense denied that these tests ever 
took place.
    I have today with me, and you will hear from him later, 
Jack Alderson, who is a constituent of mine, who brought this 
issue to my attention in 1998. He is a former tugboat 
commander, and he participated in these tests. He was the guy 
in Project SHAD, and he will tell you how Project SHAD veterans 
are routinely rejected by the VA for medical care and for 
disability benefits.
    You are also going to hear from Dr. Salerno from the 
Institute of Medicine (IOM), who will testify that the study 
that they did found no connection between these substances and 
health problems with the SHAD veterans. I just want to be on 
record as stating that that study that she is going to talk 
about is terribly flawed.
    I want to submit for the record, if I could, I think with 
unanimous consent, the letter that Mr. Rehberg and I sent 
regarding the flaws in this study. And I think that is 
important.
    They took 5 years to do this study. They still have work to 
do, and these veterans can't wait any longer.
    I also want to submit for the record a bibliography that 
outlines all the citations. And I have them here, the 
Subcommittee is welcome to them. Every blue tab on this sheet 
indicates a scientific reporting of how these chemicals that 
the IOM studied said didn't have any connection do, in fact, 
have a connection. And I would like--I am willing to do just 
the bibliography, but I will leave the whole package with you.
    And thank you again for your help on this measure. And just 
to reiterate, these veterans did everything they were asked for 
from our country. They were exposed to dangerous chemicals. 
They are sick. They are suffering as a result of this, and they 
need our help. They can't wait another 5 years, they can't wait 
another 40 years. They were literally lied to for 40 years as 
to whether or not this project, this testing, took place and 
the effect it has had on them. And I appreciate this 
Committee's willingness to finally address the problems that 
they are having. Thank you.
    [The prepared statement of Congressman Thompson, and the 
attached letter and bibliography, appear on p. 51.]
    Mr. Filner. Thank you, Mr. Thompson. And your leadership on 
this for so many years is greatly appreciated. I think we are 
finally going to get justice for these veterans.
    Mr. Rehberg, thank you for your participation, with Mr. 
Thompson on this critical legislation.

               STATEMENT OF HON. DENNY R. REHBERG

    Mr. Rehberg. Thank you, Mr. Chairman and Members of the 
Subcommittee. And I would really and sincerely like to thank 
Mike Thompson, who has been a tireless advocate on this issue. 
It has been my pleasure to work with him to bring these tests 
to light and fight to get Project 112/SHAD veterans the 
benefits they deserve.
    When I was first elected to the House of Representatives in 
2001, I was approached by Billings resident John Olsen. John 
told me a disturbing tale of a government refusing to be 
accountable for its actions, a long line of healthcare 
problems, and a lack of care.
    In the early Cold war era, as Mike had mentioned, the 
Department of Defense and other Federal agencies conducted 
these series of tests. They used VX nerve gas, Sarin nerve gas, 
and E. Coli, and they were tested on unknowing military 
personnel. John is one of those victims. Over the years he has 
battled several health problems, including skin cancer, 
prostate cancer, and an adrenal tumor the size of a fist.
    Even worse, for more than 40 years the existence of these 
tests had been denied by the Department of Defense, despite 
reports from participating veterans like John that they were 
being stricken with unusual diseases. During that time, many of 
these veterans suffered and died while their government looked 
the other way.
    Finally, in 2001 the DoD did acknowledge that the tests 
took place; however, the Veterans Administration still wouldn't 
provide these veterans with health benefits and compensation 
for their diseases. Instead, the VA commissioned the study.
    We have problems with the study, as was mentioned before. 
While working on this issue, I have been alarmed by the 
deficiency of the program for notifying Project SHAD veterans 
of their exposure. Due to pressure from the Congress, initial 
search efforts began in 2000; however, they were and continue 
to be inadequate, bordering on negligence. Since 2003, the 
Department of Defense has stopped actively searching for 
individuals who were potentially exposed to chemical or 
biological substances during Project 112. At the same time, the 
Department of Defense reported it had identified 5,842 
servicemen and women, and estimated another 350 civilians were 
exposed.
    It is a true tragedy that our government, after exposing 
these servicemen and women to a witches' brew of chemicals, 
cannot be bothered to find and notify them of such. As I 
mentioned earlier, the Department of Defense did identify 
around 350 civilians that were potentially exposed; however, to 
date no effort has even been made to notify these civilians.
    This legislation will help set a standard of oversight for 
the Federal Government's treatment of our soldiers. We can't 
sweep the suffering of these veterans under the rug. We can fix 
the problem created 40 years ago, and this legislation will do 
that.
    Again, thank you for allowing me this opportunity. With 
unanimous consent, I would like to have John Olsen's testimony 
submitted for the record, as well as the U.S Government 
Accountability (GAO) Highlights that suggest DoD and VA need to 
improve efforts to identify and notify individuals potentially 
exposed during chemical and biological tests. It is not a 
pretty report. It needs to be in the record. And they need to 
do the right thing.
    Thank you for your support of this legislation.
    [The prepared statement of Congressman Rehberg, and the GAO 
Highlights, appear on p. 54.]
    Mr. Filner. So ordered on the submission of the testimony 
and reports.
    [The prepared statement of Mr. Olsen appears on p. 108, and 
the other reports will be retained in the Committee files.]
    Mr. Wu and Ms. Shea-Porter, we are going to take a 20-
minute recess to get our three votes in, and then we will be 
back. I am sure you will join us, and we will hear your 
testimony first when we return.
    Mr. Wu. Thank you very much, Mr. Chairman.
    Mr. Filner. Thank you very much, Mr. Thompson, Mr. Rehberg. 
We will provide that justice.
    We are recessed.
    [Recess.]

             OPENING STATEMENT OF HON. JOHN J. HALL

    Mr. Hall [presiding]. Good afternoon. The Veterans' Affairs 
Disability Assistance and Memorial Affairs Subcommittee 
legislative hearing will now come back to order. I would ask 
everybody to rise for the Pledge of Allegiance.
    [Pledge of Allegiance recited.]
    Thank you for your patience while we were across the street 
voting.
    First of all, I would like to thank all the witnesses for 
coming, and apologize for my missing the earlier part of the 
session when the Chairman of the full Committee, Mr. Filner, 
graciously filled in for me.
    Mr. Lamborn, our Ranking Member, will be back shortly, and 
at that point he will give his statement.
    We will try to move things along as quickly as possible as 
we consider the 11 bills, 2 of which have already been spoken 
on, H.R. 1197, H.R. 3008, H.R. 3795, H.R. 4274, H.R. 5155, H.R. 
5448, H.R. 5454, H.R. 5709, H.R. 5954, H.R. 5985, and H.R. 
6032. I left the titles out to keep it shorter, but we will 
hear them as we approach each bill.
    As a preliminary, it has already been granted, but I ask 
unanimous consent that Mr. Filner, Mr. Brown, and Mr. Space be 
invited to sit at the dais, which they have already done. 
Without objection, they will be allowed to continue.
    I know the many issues addressed in these bills are of 
utmost importance to many of you in attendance today who, like 
me, have constituents or loved ones who are directly impacted 
by the problems they seek to solve.
    Speaking of witnesses, I welcome you all who are here 
today, including my fellow Members of Congress, I must express, 
however, my disappointment that the DoD did not find it 
``efficient'' to provide a witness to testify, particularly on 
legislation that has clear DoD implications. Moreover, this 
notice came late last week, after testimony was due, and after 
the DoD had originally indicated that it intended to provide a 
witness.
    I hope to avoid this unnecessary wrangling in the future. 
Our veterans should be important enough to every Federal agency 
involved to send someone to testify. The nexus between the DoD 
and VA are undeniable. Invitations to testify should not be 
rebuffed by the DoD when we are attempting to examine issues 
that overlap on jurisdiction and responsibility. I do note for 
the record that yesterday DoD provided a written statement for 
the record. This fact aside, Congress deserves the right to 
question the appropriate DoD personnel in person, not just in 
writing; not to mention that our men and women who have given 
their all in service to our country deserve the right to have 
their elected officials question the executive branch. This is 
how our system of checks and balances must work to ensure our 
democratic way of governing remains intact.
    After our Ranking Member, Mr. Lamborn, returns we will 
recognize him for his opening statement. And right now I would 
like to recognize the Chair of the full Veterans' Affairs 
Committee to speak on a bill of his, Mr. Filner.
    [The prepared statement of Chairman Hall appears on p. 50.]
    Mr. Filner. Thank you, Mr. Chairman. You have a big list of 
bills. Thank you and Mr. Lamborn for taking up all of these 
bills. I think there is a common theme of long-delayed justice 
for veterans in all these, so I thank you for doing this.
    In addition, you talk about how sad it is that the 
Department of Defense did not send a witness. They did send a 
witness to yesterday's full Committee hearing, at which the 
Principal Deputy Under Secretary of Defense for Personnel 
Readiness said, when confronted with the facts that several 
hundred thousand of our Iraqi veterans and deployed troops have 
PTSD--he said, no, they have symptoms of PTSD. And this is a 
quote: Only a few have PTSD. And so that is what you get when 
you get them here. An incredible, display of irresponsibility 
from the executive branch.
    Mr. Hall. Creative diagnosis.

STATEMENT OF HON. BOB FILNER, CHAIRMAN, COMMITTEE ON VETERANS' 
  AFFAIRS, AND A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
                           CALIFORNIA

    Mr. Filner. So even when you get them here, they say really 
strange things.
    I want to thank you for this panel today. I want to talk 
about two bills: H.R. 3795, the ``You Were There, You Get Care 
Act,'' which would help radiation-exposed veterans of the Gulf 
War and subsequent conflicts; and, H.R. 6032, which would grant 
a presumption of service-connection for Parkinson's disease for 
Vietnam veterans.
    I might say, since I see the national president of the 
Vietnam Veterans Association here, we plan, at the full 
Committee level, working with Mr. Hall, to actually take the 
theme of ``You Were There, You Get Care Act'' for all of the 
Agent Orange claims for Vietnam Veterans. I don't care if your 
boots were not on the ground; you were in the blue water off 
the shore, you were in the blue skies above Vietnam, it is way 
past time for us to take care of all of those veterans, and we 
hope we can do that.
    Depleted uranium (DU), which is the subject of the first 
bill, is an incredibly effective weapon, but its residue has a 
half life of 4 billion years, and evidence indicates that it is 
a carcinogen. We know that many health problems can result from 
exposure to depleted uranium, and we know that if veterans have 
been exposed, we have a responsibility to care for them.
    The bill ``You Were There, You Get Care'' would ensure that 
veterans who served in the 1991 Gulf War and subsequent 
conflicts will be rated service-connected disabled for any 
illnesses currently covered by the Radiation Exposure 
Compensation Act, or RECA, passed by this Congress in 1990. The 
bill will provide payments to individuals who contract cancer 
and other serious diseases as a result of their exposure to 
radiation from above-ground tests of nuclear weapons or from 
employment in underground uranium mines, as well as any other 
diseases found by the VA Secretary to result from depleted 
uranium exposure.
    If this bill is enacted, veterans serving in the Gulf War 
1991 or those providing clean-up or servicing of vehicles or 
equipment that had been in the Persian Gulf would be considered 
exposed. If they become ill, this bill would ensure that the 
illnesses would be deemed service-connected, and VA healthcare 
and compensation would be provided.
    Second, approximately 20 million gallons of herbicides were 
used in Vietnam between 1962 and 1971 to remove foliage and 
vegetation that provided cover for enemy forces during the 
Vietnam War. Following their military service in Vietnam, some 
veterans reported a variety of health problems and concerns due 
to exposure to Agent Orange or other herbicides and pesticides.
    My second bill, H.R. 6032 would establish a presumption of 
service-connection for Parkinson's disease due to exposure to 
Agent Orange for Vietnam veterans.
    I was in Minnesota in Mr. Walz's district, last year, and 
the Vietnam veterans group there gave me a list of hundreds and 
hundreds of Vietnam veterans who had gotten Parkinson's in 
their early fifties, way earlier than, the general population 
typically becomes afflicted with this disease. It is clear 
there is some connection here.
    Although the Department of Veterans Affairs has developed a 
comprehensive program to respond to the Agent Orange-related 
medical problems, there is a lengthy list of diseases that are 
service-connected under title 38, section 1116, which is 
updated as evidence examined by the Institute of Medicine (IOM) 
dictates, however, the list does not include Parkinson's 
disease. Recently, the IOM's report indicated that the evidence 
is insufficient to establish an association between Parkinson's 
disease and the herbicides. But recently, two studies presented 
to the Committee from Stanford University and the Iowa 
Agricultural Health Study update of 2007 seem to indicate that 
Vietnam veterans are more than two-and-a-half times more at 
risk for contracting Parkinson's than the general population, 
and connect Agent Orange to an increased likelihood of 
contracting the disease.
    I believe there is an association between the degenerative 
effects of Parkinson's and Agent Orange, and I urge the IOM to 
consider the findings of those studies. At the very least, as 
pointed out by Chairman Hall, we need to examine the disconnect 
between modern medicine and the current provisions under 
section 1110, which only allow service-connection for chronic 
conditions that manifest within 1 year of service. Modern 
science clearly establishes that the symptoms of these many 
degenerative diseases can take decades to onset.
    So, I also look forward to exploring these discrepancies 
and the issue of insecticide exposure during military spray 
operations to control mosquitoes and to stop casualty rates due 
to malaria, but then, have other unintended harmful effects.
    Mr. Chairman, both these bills, H.R. 3795 and H.R. 6032, 
would make a bold statement if enacted: When our men and women 
volunteer for service or are drafted, they can count on their 
government to compensate them and to care for them if their 
service leads to illness.
    I thank the Chair.
    Mr. Hall. Thank you, Mr. Filner. You make a logical and 
forceful argument for these bills.
    Just to explain procedure, I am going to ask our Ranking 
Member, the Honorable Mr. Lamborn, first for his opening 
statement, and then the Members who are on the dais who have 
legislation before us, and then the Members at the witness 
table. So first Mr. Lamborn, you are now recognized.

             OPENING STATEMENT OF HON. DOUG LAMBORN

    Mr. Lamborn. Thank you, Mr. Chairman, and for yielding. I 
thank you and your staff for scheduling this hearing today.
    This afternoon we are considering several pieces of 
legislation, all of which are of interest and potential value. 
While I do have some policy concerns regarding a number of the 
provisions, I am primarily struck by the mandatory offsets that 
would be necessary to pass many of these bills under PAYGO 
rules.
    Mr. Chairman, as you know from the PAYGO problems with H.R. 
5892, it is always a challenge to find offsets within our 
jurisdiction, and that is something we need to keep in mind as 
we examine these bills today.
    The main policy concern I wish to express is that some of 
the provisions before us are similar to section 101 of H.R. 
5892 in that they would redefine ``combat with the enemy'' as 
it pertains to section 1154 of title 38. Mr. Chairman, my 
concerns with these types of provisions are not new to you or 
other Members of this Subcommittee, and I will not reiterate 
them here except to point out that a loose definition of 
``combat'' would diminish the immeasurable sacrifice and 
service of those who actually did face combat. While I 
understand and appreciate the effort to address problems 
regarding the VA claims backlog, I believe that they are 
generally the result from procedural problems, and we should 
address the problems accordingly.
    On another note, I look forward to the testimony of the 
representatives from the Institute of Medicine, IOM, who will 
hopefully enlighten the Subcommittee about the process involved 
in establishing a presumption of service connection for certain 
illnesses and disabilities. Experts at VA and IOM have years of 
experience in dealing with these issues, and I think it is 
important for Congress to avail itself of their expertise 
whenever possible.
    Mr. Chairman, I again extend my thanks to you and your 
staff for holding this hearing, and I look forward to hearing 
the testimony of our colleagues and the other witnesses today. 
I yield back.
    [The prepared statement of Congressman Lamborn appears on 
p. 50.]
    Mr. Hall. Thank you, Mr. Lamborn.
    The Chair recognizes Mr. Space for testimony on his 
legislation.

   STATEMENTS OF HON. ZACHARY T. SPACE, A REPRESENTATIVE IN 
   CONGRESS FROM THE STATE OF OHIO; HON. GUS M. BILIRAKIS, A 
  REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA; HON. 
CAROL SHEA-PORTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
 OF NEW HAMPSHIRE; HON. DAVID WU, A REPRESENTATIVE IN CONGRESS 
     FROM THE STATE OF OREGON; AND HON. THOMAS H. ALLEN, A 
       REPRESENTATIVE IN CONGRESS FROM THE STATE OF MAINE

               STATEMENT OF HON. ZACHARY T. SPACE

    Mr. Space. Thank you, Chairman Hall, and thank you, Ranking 
Member Lamborn, as well as the Members of the Subcommittee, for 
providing me with the opportunity to speak in favor of H.R. 
5709, the ``Veterans Disability Fairness Act.''
    At the end of last year, the Oversight and Investigations 
Subcommittee held a hearing on an Institute for Defense 
Analysis (IDA) report regarding the average disability payments 
received by veterans in each State. The hearing revealed that 
the VA's current data is lacking, and that regional cultures 
may be partly to blame for similarly disabled veterans 
receiving different ratings, and thus different disability 
payments.
    I introduced legislation specifically geared to correct 
these discrepancies. ``The Veterans Disability Fairness Act'' 
requires the VA to collect and monitor regional data on 
disability ratings. It requires the VA Secretary to conduct 
reviews and audits of the rating system. It requires the VA to 
submit a report on an annual basis to Congress to track the 
progress of the program. And it requires VA raters to take 
ownership of their ratings by assigning identification codes to 
all adjudications. The performance of specific raters will be 
then evaluated periodically for consistency and accuracy.
    The current short-changing in ratings is not reflective of 
our heroes' service, and there is no reason that a veteran from 
one State should receive less than veterans in other States. 
This legislation is an important step in addressing these 
issues and in providing needed oversight.
    Additionally, H.R. 5709 supplements this Subcommittee's 
work on Chairman Hall's 5892, the ``Veterans Disability 
Benefits Claims Modernization Act.'' Section 106 of that bill 
calls for an annual assessment of the quality assurance program 
that examines data from regional offices (ROs), the accuracy of 
evaluated claims, and creates automated, categorizable data to 
better identify trends. My bill will require accountability by 
enabling the specific identification of potentially problematic 
claims raters who may knowingly manipulate claims. 
Alternatively, this legislation will protect those claims 
raters who are doing their jobs with integrity.
    This bill is incredibly important to the veterans of Ohio. 
Our State was ranked dead last in average disability payments, 
and I cannot stand for this. According to the IDA report, the 
national average disability payment is $8,890. Ohio's average 
is $7,556. New Mexico, which had the highest in the country, is 
on average $12,395 annually. You can see that that is a 
significant discrepancy. And I believe that we must act to 
restore parity to the disability payment system to ensure that 
each veteran receives the full benefit of what he or she was 
promised. Senator Sherrod Brown, also of Ohio, and also a 
Member of the Senate Veterans' Affairs Committee, agrees, and 
he has introduced identical companion legislation in the 
Senate.
    I would like to thank you once again, Chairman Hall, along 
with Members of the Subcommittee for their consideration of 
H.R. 5709, and I am grateful for the opportunity to present 
this important piece of legislation. Thanks.
    [The prepared statement of Congressman Space appears on p. 
56.]
    Mr. Hall. Thank you, Mr. Space. We will give it every 
consideration, and the other panels will, I am sure, have 
comments to make on your bill, as well as the others before us 
today.
    The Chair would now recognize Mr. Bilirakis for 5 minutes 
to testify on his bill.

               STATEMENT OF HON. GUS M. BILIRAKIS

    Mr. Bilirakis. Thank you so much.
    I would like to start by thanking you, Chairman Hall and 
Ranking Member Lamborn, for including my legislation, H.R. 
1197, on today's hearing agenda. ``The Prisoners of War Benefit 
Act'' is a bill that my father, Congressman Mike Bilirakis, 
first introduced several Congresses ago. He was able to make 
some progress on this legislation before he retired in 2006, 
and I am pleased to be continuing his efforts on this important 
issue in the 110th Congress.
    ``The Prisoners of War Benefits Act'' is intended to 
improve the benefits currently available to former POWs. In 
1981, Congress established several service-connected 
presumptions for certain medical conditions that affect former 
prisoners of war. However, because of a very high level of 
research certainty, 95 percent was required before establishing 
presumptive status, many other medical problems common in POWs 
have been excluded.
    My legislation establishes service-connected presumptions 
for two additional medical conditions, Type 2 diabetes and 
osteoporosis. My staff has worked with the American Ex-
Prisoners of War to identify these conditions as having strong 
evidence of a relationship between the POW experience and the 
onset of the disease.
    Congress has passed legislation giving the Department of 
Veterans Affairs specific standards for determining whether the 
addition of new presumptive diseases for Vietnam and Gulf War 
vets is warranted. These standards require a positive 
association for the adoption of a presumptive condition. 
However, Congress has not established a process for VA to add 
to the list of former POW presumptive diseases established in 
1981.
    In 2001, the VA Advisory Committee on Former Prisoners of 
War recommended the burden for establishing POW presumptions be 
adjusted to match the standards used for other beneficiary 
groups. Therefore, H.R. 1197 includes a provision to establish 
a process by which the VA could determine future presumptive 
conditions for former POWs when there is a positive association 
between the experience of being a prisoner of war and the 
occurrence of a disease or condition. Under my legislation, the 
VA's Secretary would have to review the recommendations of the 
Advisory Committee on Foreign Prisoners of War and all other 
sound medical and scientific evidence, attachment, and analysis 
available when making this determination.
    Under current law, to be eligible for disability 
compensation for certain conditions presumed to be service-
connected for former POWs, a veteran must have been held in 
captivity for 30 or more days. At the time when some of the 
original POW presumptions were enacted, short-term prisoners of 
war were unusual. Prisoners of war from more recent conflicts 
have been confined for shorter periods of time. H.R. 1197 would 
remove the 30-day minimum requirement, making all former POWs 
eligible, regardless of how long they were held captive. This 
provision is based on the recommendations of the VA's Advisory 
Committee on Former Prisoners of War, which concluded in 2001 
that this 30-day requirement should be repealed.
    The 108th Congress did enact a partial repeal of the 30-day 
minimum requirements as part of the Veterans Benefits Act of 
2003. Specifically, this law eliminated the requirement that a 
POW be held for 30 days or more to qualify for presumptions of 
service connection for certain disabilities. Although I am 
pleased the Congress took this initial step, I believe that 
more can be done in this regard, and urge my colleagues to 
support H.R. 1197 for this reason.
    Before I close, Mr. Chairman, I would like to mention how 
pleased I am that we have also included H.R. 5454 to today's 
agenda. H.R. 5454, I believe sponsored by Representative Brown, 
which I have cosponsored as well, would establish a presumption 
of service connection for amyotrophic lateral sclerosis (ALS). 
I have heard from some of my constituents whose loved ones 
suffer from this devastating disease. They firmly believe there 
is a link between their loved one's military service and their 
developing ALS.
    In closing, Mr. Chairman, I want to thank you once again 
for including my bill in today's hearing. I hope that you and 
our other Members, our other colleagues on the Subcommittee, 
will support H.R. 1197 and H.R. 5454. I look forward to hearing 
the testimony from today's witnesses.
    Thank you, Mr. Chairman. I appreciate it.
    [The prepared statement of Congressman Bilirakis appears on 
p. 59.]
    Mr. Hall. Mr. Bilirakis, thank you very much for your 
eloquent testimony on behalf of those bills, and we will hear 
testimony from our other panels soon about them.
    But first we will turn to our fellow Members of Congress, 
starting with the Honorable gentlelady from New Hampshire, Ms. 
Carol Shea-Porter, speaking on her bill, H.R. 5155.

              STATEMENT OF HON. CAROL SHEA-PORTER

    Ms. Shea-Porter. Thank you, Chairman Hall and Ranking 
Member Lamborn, for taking up my bill, H.R. 5155, the ``Combat 
Veterans Debt Elimination Act.'' I am honored to testify before 
you today on behalf of our servicemembers and their families. 
Our soldiers, sailors, airmen, Marines and Coast Guardsmen are 
on the frontline of this generations' struggle against 
terrorism. Our Nation's bravest have answered the call, and in 
towns and villages around the world they are stepping into the 
breach to secure freedom, preserve liberty, and provide relief.
    Tragically, some die in service to our country. Mourning 
our fallen is a difficult and somber reminder that we are in a 
state of persistent conflict. For some families, though, the 
mourning process has been interrupted by an unfortunate 
bureaucratic procedure. Under Title 38 of the U.S. Code, the 
Veterans Administration is required to collect certain debts 
from the estates of servicemembers killed in combat. That 
procedure is wrong, and this bill is its best and only remedy. 
These collections, while not common, are unacceptable, and I 
believe an unintended consequence of a poorly drafted policy.
    This fix is simple, appropriate, and necessary. When our 
servicemembers give their last full measure of devotion, their 
sacrifice should have had no price tag. No debt is larger than 
the one we owe to our Nation's heroes and their families. ``The 
Combat Veterans Debt Elimination Act'' ends the Title 38 
requirement, and today we take the first step toward making 
this right.
    It is my firm belief that the VA and I agree on the intent 
of my legislation, and I expect that they will share those 
views later in this hearing. I am committed to working with the 
VA and with the Committee to ensure it provides a proper remedy 
to this problem without delay. Our interests and our goals here 
are the same. Together we can agree to right this wrong and 
prevent further attempts to collect these small, insignificant 
debts that amount to little more than a rounding error, roughly 
50 cents to every $30 million spent by the Federal Government, 
a mere pittance unless you are one of these family members.
    This country has made a promise to our servicemembers to 
honor their sacrifice and to care for their families while they 
do the work of our Nation. This Committee and this Congress 
have made tremendous steps toward fulfilling these promises. 
Today we continue that forward progress.
    I thank you again for this opportunity to testify before 
the Subcommittee.
    Mr. Hall. Thank you, Ms. Shea-Porter. I appreciate your 
thoughtful presentation about this very worthy piece of 
legislation.
    Next the Chair recognizes the Honorable gentleman from 
Oregon, Mr. Wu.

                   STATEMENT OF HON. DAVID WU

    Mr. Wu. Thank you, Chairman Hall, and Ranking Member 
Lamborn and distinguished Members of the Subcommittee, for the 
opportunity to testify today on behalf of my bill, H.R. 3008, 
the ``Rural Veterans Services Outreach and Training Act.''
    A few years ago I was made aware of a problem that directly 
affects millions of individuals who have defended our country. 
Due to budget cuts in many areas, including my home State of 
Oregon, county veterans service officers are not being funded 
at adequate levels. County veterans service officers provide 
veterans with advice, support, casework service, and other 
services about their VA benefits. There is a singular need for 
these services in our rural communities.
    There are approximately three million veterans living in 
rural areas in the United States. A 2004 report published in 
the American Journal of Public Health shows that veterans in 
rural areas are in poorer health than their urban and suburban 
counterparts. Without access to casework services, these 
veterans go without all the benefits they need, deserve, and 
have earned.
    Some may argue that veterans in rural areas can simply 
drive to the nearest VA regional office, but for many veterans 
and their caregivers, this is impractical. According to the 
National Rural Health Association, the average distance a rural 
veteran must travel to get care is 63 miles. For someone who 
has endured the trauma of a battlefield injury and begun the 
long, arduous process of rehabilitation, this is often simply 
too much to ask.
    Without access to a county veterans service officer, 
veterans must rely solely on customer service representatives 
over the telephone or the Internet in order to access their VA 
services. But anyone who has ever encountered an automated 
phone system knows how frustrating and discouraging this can 
be.
    Veterans who have suffered physical, emotional, or 
psychological injuries should not be forced to navigate the VA 
bureaucracy alone because they do not live near a VA Regional 
Office. Our veterans deserve better, have earned better, and 
will get better under this bill.
    County veterans service officers provide rural communities 
with more than just their expertise. I believe our veterans are 
best served by their fellow community members. Community 
members understand a veteran's needs as they relate to his or 
her community, job, and family and associated circumstances. 
Armed with this attachment, county veterans service officers 
can best advocate for the veterans they serve.
    With this in mind, I introduced the ``Rural Veterans 
Services Outreach and Training Act,'' which seeks to improve 
outreach and assistance to veterans and their families residing 
in rural areas. This bill establishes a competitive grant 
program at the Department of Veterans Affairs to help eligible 
States hire and train county veterans service officers for 
their own rural communities. The Rural Veterans Outreach and 
Training Act targets grant money to the communities that need 
it the most. This legislation requires that grants will be used 
only to supplement non-Federal funding sources, not supplant 
them.
    We have an obligation to ensure that veterans, wherever 
they reside, have access to the services they have earned and 
deserve. Our men and women in uniform give so much in service 
to our country, and I believe we should act accordingly to 
ensure that they have access to local assistance to find the 
help they need. Again, I appreciate the Subcommittee's 
consideration of the Rural Veterans Services Outreach and 
Training Act, and on behalf of a grateful Nation and veterans 
everywhere, I look forward to working with you on this 
important legislation.
    [The prepared statement of Congressman Wu appears on p. 
60.]
    Mr. Hall. Thank you, Mr. Wu.
    As one who represents a district that is in New York, which 
people think of as concrete and skyscrapers, but nonetheless 
has within it Orange County, the black dirt farmers and vast 
stretches of rural landscape stretching toward the Delaware 
River, I can identify, and my veterans can identify, with the 
problems you described.
    We will now turn to Mr. Allen for testimony on his 
legislation.

                 STATEMENT OF HON. THOMAS ALLEN

    Mr. Allen. Thank you, Chairman Hall and Ranking Member 
Lamborn, for holding this hearing. I am grateful for the 
opportunity to testify on my bill, which is H.R. 5448, the 
``Full Faith in Veterans Act.''
    What we now know as post traumatic stress disorder, or 
PTSD, is not a new phenomenon. The enormous stress of military 
service has long been recognized as the source of disabling 
psychological and emotional illness for many veterans. 
Unfortunately, as I have learned from Maine veterans, proving 
that PTSD is connected to service can be very difficult, and 
denial of service connection leaves these veterans without 
access to VA health benefits or disability compensation.
    The goal of my bill is to ensure that every veteran whose 
PTSD resulted from their service receives treatment and, if 
appropriate, disability compensation. Too often veterans with 
legitimate claims are met with skepticism and red tape. The 
story of one of my constituents highlights this problem.
    Terry Belanger is an Army veteran from Biddeford, Maine. 
During his service from 1969 to 1970, his supply vehicle came 
under enemy fire, he reports, practically every night. Close 
friends were killed in combat, another died in a stabbing. He 
witnessed the torture of Viet Cong officers, and he saw the 
truck ahead of his strike a mine. On one mission a young 
Vietnamese girl suddenly appeared in front of his truck, and 
his vehicle ran over the little girl, apparently killing her. 
Because his convoy was under fire, he could not stop. Terry's 
nightmares about this incident resurfaced years ago, after he 
nearly struck another child who darted in front of his car.
    When he returned from Vietnam, Terry was diagnosed by 
healthcare professionals as suffering from severe PTSD 
resulting from his service in Vietnam. In 1989, he filed a 
claim with the VA for service-connected PTSD. The claim was 
denied due to, and I am going to quote, lack of credible 
attachment of supporting stressors. For years Terry tried to 
get the Army to search for documents that would prove that 
these stressors had occurred. In 1993, the National Personnel 
Records Center basically told Terry to forget it because the 
requested records, quote, would rarely show specific details 
about a unit's activities and movements. They say the agency, 
quote, was unable to perform the extensive research requested 
due to staffing and budget limitations.
    But Terry continued the fight. Finally, in 2005, the 
National Archives found documents that verified that Terry's 
unit was in combat for months, but it took another 3 years for 
the VA to actually approve his claim, which they finally did a 
few weeks ago, 19 years after the claim was first filed.
    Under current law, the veteran bears the burden of 
producing documents to prove the trauma occurred. How is Terry 
Belanger supposed to find the records if the government 
couldn't? In these cases, when no records can be found to 
substantiate the claim, a veteran can also submit two buddy 
statements as evidence their claimed stressor actually 
occurred, but this is no easy task. Many veterans magazines 
contain ads like this one in the April 2008 issue of VFW 
magazine. The ad reads, 173rd Airborne Support Battalion, An 
Khe, Vietnam, 1968-69, seeking anyone who attended Airborne 
Jungle School when one of the instructors was accidentally shot 
by one of the other instructors next to me. Anyone there when 
the school and mess hall were shelled and three people were 
killed. Need substantiation for PTSD claim. William E. Young, 
Jr.
    Veterans should not have to take out classified ads in 
order to have their claims for PTSD approved by the VA. In 
Terry's case, doctors confirmed he had PTSD. His nightmares and 
flashbacks referred to his time in Vietnam. His government 
trusted him when he served his country. Why should we distrust 
him now?
    Under my bill, if a veteran is diagnosed by a certified 
mental health professional as suffering from PTSD relating to 
the veteran's military service, the VA must accept this finding 
as sufficient proof of service connection. The VA can rebut 
this finding of service connection by clear and convincing 
evidence to the contrary. The bill would ensure that the VA 
does a better job at diagnosing and treating this debilitating 
disorder.
    A broad array of veterans groups, including Veterans for 
Common Sense, Swords to Plowshares, and the Maine departments 
of the American Legion, AMVETS, the DAV, and the Veterans of 
Foreign Wars, along with Maine's Bureau of Veterans Services 
support my bill.
    For too long America has neglected our responsibilities to 
the men and women who carry the emotional scars that military 
service sometimes brings. Terry Belanger's wife wrote, ``This 
wonderful man left part of his soul in Vietnam.'' I hope and 
pray that with care and support, Terry and other veterans 
suffering from PTSD will be restored to full and productive 
lives. The Full Faith in Veterans Act can help achieve this 
goal.
    I thank the Subcommittee for the opportunity to testify, 
and would be happy to answer any questions.
    [The prepared statement of Congressman Allen and 
attachments appear on p. 61.]
    Mr. Hall. Thank you, Mr. Allen.
    I sympathize and agree wholeheartedly with the intent and 
the content of your bill. In terms of this presumptive 
stressor, which includes, among other things, PTSD, it may go 
beyond and be more thorough than the Disability Claims 
Modernization Act, H.R. 5892, which we approved out of the 
Subcommittee and the full Committee a few weeks ago.
    The most dramatic case that my staff and I encountered was 
a World War II veteran who came to us 60 years after he had 
been swimming in the Pacific Ocean for the second time, after 
two ships were blown out from under him in World War II. He had 
started trying in his seventies to get some kind of help for 
his emotional problems with the flashbacks and the depression 
and the inability to lead a normal life. Fortunately, he lived 
long enough that we were able to get him a correct diagnosis. 
The VA had diagnosed him as schizophrenic with a preexisting 
condition, meaning when he signed up at age 18, he must have 
been schizophrenic, but they didn't notice it. We got that 
turned into 100 percent PTSD classification just last year.
    So it is true this applies to any war; especially the wars 
in Afghanistan and Iraq, where the enemy is not in front of you 
and your support team behind you. It is sort of everybody is 
everywhere. And as in Vietnam, it is difficult to tell those 
who were working with you, be they translators or logistical 
people, from those, for instance in Iraq, who may turn on you 
with a bomb or a weapon at any time.
    So the stress--whether it is immediate or post traumatic 
stress--is real, and I congratulate you and commend you for 
your legislation.
    I am going to hold off on questions myself. Other Members 
of the Committee, would you like to question this panel? If 
not, we will excuse you. I know you have trains and planes and 
other modes of transportation to catch. I thank you so much for 
your legislation. We will be hearing testimony on it from our 
next panels.
    Congressman Wu, Congressman Allen, thank you very much.
    Mr. Allen. Thank you, Mr. Chairman.
    Mr. Hall. We will ask our second panel, Judith Salerno, 
M.D., M.S., Executive Director of the Institute of Medicine, 
National Academy of Sciences; Sidath Viranga Panangala, Analyst 
of Veterans Policy for the Congressional Research Service; 
Christine Scott, Specialist, Social Policy, Congressional 
Research Services (CRS); and Douglas Weimer, Legislative 
Attorney for the Congressional Research Services, Library of 
Congress.
    Thank you for joining us. Thank you for your patience. As 
usual, your written statement is entered into the record. So 
feel free to shorten it if you want, or embellish upon it if 
that is what you prefer.
    We will begin with Ms. Salerno. You are recognized for 5 
minutes.

 STATEMENTS OF JUDITH A. SALERNO, M.D., MS, EXECUTIVE OFFICER, 
  INSTITUTE OF MEDICINE OF THE NATIONAL ACADEMIES; AND SIDATH 
 VIRANGA PANANGALA, ANALYST IN VETERANS POLICY, CONGRESSIONAL 
RESEARCH SERVICE, LIBRARY OF CONGRESS; ACCOMPANIED BY CHRISTINE 
  SCOTT, SPECIALIST IN SOCIAL POLICY, CONGRESSIONAL RESEARCH 
 SERVICE, LIBRARY OF CONGRESS; AND DOUGLAS WEIMER, LEGISLATIVE 
 ATTORNEY, CONGRESSIONAL RESEARCH SERVICE, LIBRARY OF CONGRESS

            STATEMENT OF JUDITH A. SALERNO, M.D., MS

    Dr. Salerno. Good afternoon, Chairman Hall and Members of 
the Subcommittee. My name is Dr. Judith Salerno, and I am the 
Executive Officer of the Institute of Medicine. I am also 
honored to have served veterans for nine years while in the 
Veterans Health Administration.
    I am here today to address topics that are pertinent to 
several of the bills that are being discussed, the topics 
covered in seven reports that are authored by Committees of 
experts convened by the Institute of Medicine. The reports are 
part of a long history of the IOM applying its expertise to 
assist the Department of Veterans Affairs by evaluating 
scientific evidence in a fair and unbiased manner, and drawing 
conclusions regarding health effects associated with exposures 
experienced by our Nation's veterans.
    My written testimony provides greater detail on all of the 
studies that I will summarize today. The first three studies I 
will discuss are Congressionally mandated, and ask the IOM to 
examine health outcomes related to exposures during the Vietnam 
and Gulf wars. H.R. 3795 would add a presumption of radiation 
exposure for the purposes of service connection for veterans of 
Gulf war and subsequent conflicts in that theater. The bill 
also calls for an independent study to determine diseases that 
may have resulted from these exposures.
    H.R. 6032 would provide presumption of service connection 
for Parkinson's disease for Vietnam veterans exposed to 
herbicides. IOM expert Committees concluded that there was no 
evidence to either support or rule out an association with 
numerous health outcomes related to depleted uranium and, in 
the case of Parkinson's, for exposure to herbicides which were 
used in Vietnam. The IOM is currently conducting an update of 
its 2000 report on DU. It is expected to be released this fall. 
And the Parkinson's update is due in 2009.
    With regard to H.R. 5454, the IOM expert committee examined 
the available scientific literature on ALS and veterans, and 
that report was released in 2006. Only five studies on the 
topic were identified. The Committee found that there was 
limited or suggestive evidence of an association between 
military service and the development of ALS.
    The next three reports generally covered disability and 
compensation issues. H.R. 1197 addresses issues related to the 
establishment of presumptions of service connection. A 2008 IOM 
report proposes an alternative scientific framework for making 
decisions regarding service compensation. Its findings and 
recommendations were previously delivered to the Subcommittee 
in February, and in the interests of time, I won't repeat these 
findings here.
    H.R. 5448 includes provisions for VA to update the rating 
criteria used to evaluate PTSD for compensation purposes, and 
to create a training and certification program for VA employees 
who perform the ratings.
    Last year an IOM Committee identified areas where changing 
current practice could result in more consistent and accurate 
ratings for disability associated with PTSD. The Committee 
found that the current criteria are overly general for the 
assessment of PTSD, and recommended that new criteria be 
developed and applied specifically to PTSD symptoms, and that 
these be grounded in the standards set out in the Diagnostic 
and Statistical Manual of Mental Disorders IV, which is used by 
most mental health professionals.
    The Committee also recommended that VA establish a 
certification program specifically for raters who deal with 
PTSD claims, with the training to support it, as well as 
periodic recertification.
    H.R. 5709 would require annual reviews of the accuracy and 
consistency of decisions on disability compensation. This 
report recommended periodic evaluations of the accuracy, 
validity, and inter-rater reliability of ratings across all 58 
VA field offices and body impairment categories.
    The main finding of this report, however, was that the VA's 
schedule for rating disabilities is badly out of date, and 
recommended that VA update the ratings schedule using current 
medical knowledge.
    Finally, H.R. 5954 would establish a mechanism for 
determining presumptive service connection for diseases that 
could be related to participation in Project 112, which 
includes Project SHAD. The 2007 report on Project SHAD found no 
clear evidence that specific long-term health effects were 
associated with the participation in Project SHAD; however, 
because of the limitations of the studies, in response rates, 
and the size of the study, the report's finding should not be 
viewed as clear evidence that there are no possible long-term 
health effects related to SHAD involvement.
    The Institute of Medicine is pleased to have assisted VA 
and Congress with its expert evaluations. We hope that we have 
contributed to improving care for our Nation's veterans. Thank 
you for the opportunity to address the Subcommittee. I would be 
happy to take any questions.
    [The prepared statement of Dr. Salerno appears on p. 67.]
    Mr. Hall. Thank you so much for your testimony, Ms. 
Salerno.
    Next, Mr. Sidath Viranga Panangala. Is that close to the 
pronunciation?
    Mr. Panangala. You are right.
    Mr. Hall. You are recognized for 5 minutes, sir.

             STATEMENT OF SIDATH VIRANGA PANANGALA

    Mr. Panangala. Thank you, Chairman Hall, Ranking Member 
Lamborn, and Members of the Subcommittee. My name is Sidath 
Panangala from the Congressional Research Service. I am 
accompanied today by Christine Scott and Douglas Weimer, both 
from CRS. We are honored to appear before the Subcommittee 
today.
    As requested by the Subcommittee, my testimony will 
highlight major legislative milestones in the establishment of 
presumptions of service connection for veterans benefits. A 
copy of my full statement is submitted for the record.
    CRS takes no position on any legislation that is under 
discussion today. In general, a veteran is entitled to 
compensation for disabilities incurred or activated during 
Active military, naval, or air service.
    Currently, there are five ways to establish a disability is 
service-connected. First, there is direct evidence that the 
injury or disease was incurred while in military service.
    Second, in the case of a preexisting injury or disease, 
there is evidence that it was aggravated while in service.
    Third, through proximity to a service-connected condition; 
by example, veteran developing cardiovascular disease due to a 
service-connected amputation of the lower leg.
    Fourth, the injury or disease is caused by VA medical care 
or vocational rehabilitation.
    And finally, a service connection may be established by 
creating a presumption, either through statutory or 
administrative action, that a particular disease or diseases 
were incurred or aggravated by military service. Such 
presumptions, which are the focus of this testimony, relieve 
the veteran of having to prove that a particular disease was 
caused by exposure to a physical, chemical or biologic agent 
during his service.
    The legislative history of veterans' disease presumptions 
dates back to 1921, when Congress established a presumption of 
service connection with an amendment to the War Risk Insurance 
Act. This established presumption of service connection for 
tuberculosis and neuropsychiatric diseases, which today is 
known as psychosis, occurring within 2 years of separation from 
Active military service.
    In the following years, additions to the presumption lists 
were made by regulation, Executive Order, and legislation. The 
next major legislative change occurred with the enactment of 
Public Law 91-376 in 1970. This law established a presumption 
of service connection for seven categories of diseases and 
conditions for any veteran held as a prisoner of war.
    It should be noted that up until this time, all statutory 
presumptions had a presumptive period in which a disease or 
illness needed to have manifested itself. Typically this was 
about 1 year after separation from Active service.
    In the past 20 years, Congress has on three separate 
occasions created presumptive programs for three distinct 
groups of veterans, so-called atomic veterans, who were exposed 
to radiation from atomic above-ground nuclear tests and atomic 
bombs detonated in Japan; Vietnam veterans; and Gulf war 
veterans.
    In 1988, the Radiation-Exposed Veterans' Compensation Act 
established a presumption of service connection for 13 
specified types of cancers. That list was subsequently expanded 
first by legislation, later through VA administrative action, 
to 21 cancers.
    In 1991, the Agent Orange Act established for Vietnam 
veterans a presumption of service connection for diseases 
associated with exposure to Agent Orange and other herbicides. 
For the first time, this act required the VA to contract with 
the Institute of Medicine to conduct every 2 years a scientific 
review of the evidence linking certain medical conditions to 
herbicide exposure. The VA was instructed to use IOM's findings 
and other evidence to issue regulations establishing a 
presumption for any disease for which there is scientific 
evidence of an association with the herbicide exposure.
    In 1998, Congress enacted the Persian Gulf War Veterans Act 
and the Veterans Programs Enhancement Act. Similar to the Agent 
Orange presumptive program, these laws mandated regular and 
thorough reviews of the scientific and medical literature 
relevant to the health of Gulf War veterans by IOM.
    Next, as requested, I would briefly mention the IOM study 
on presumptive disability decisionmaking. In 2006, the Veterans 
Disability Benefits Commission requested IOM to provide a 
framework on how future presumptions should be made based on 
scientific principles. In 2007, IOM recommended the 
establishment of a permanent advisory Committee and a 
scientific review board. According to IOM, and I quote, the 
advisory Committee would consider and give priority to the 
exposures and health conditions proposed for possible 
presumptive evaluation, while the science review board, an 
independent body, would evaluate the strength of the evidence 
based on causation that links a health condition to military 
exposure, end of quote.
    Next, the independent science review board's report and 
recommendations would go to the VA for its consideration and 
implementation.
    In conclusion, since 1921, Congress has established 
numerous presumptions of service connection for a variety of 
health conditions affecting veterans. Establishing these 
presumptions, Congress and others have sought to balance the 
dual obligations of the VA to provide care for veterans who 
have been harmed by their service, and to do so in a manner 
that is equitable, scientifically sound, and accountable.
    This concludes my statement. I will be happy to answer any 
questions you may have. Thank you.
    [The prepared statement of Mr. Panangala appears on p. 70.]
    Mr. Hall. Thank you so much, Sidath. I appreciate your 
testimony. I just want to note that we are entering the 
attachments of the IOM studies referred to into the record, 
graphs and figures and so on that you were referring to, as 
part of the official record of this proceeding.
    Without objection, so ordered.
    [The attachments of the IOM study appear on p. 118.]
    Mr. Hall. Christine Scott, you are now recognized for 5 
minutes.
    Ms. Scott. Mr. Panangala presented testimony. We are here 
to help answer questions.
    Mr. Hall. Would you like to say anything?
    No. That is fine.
    Mr. Weimer.
    Mr. Weimer. Thank you, Mr. Chairman. My comments were 
delivered by Mr. Panangala.
    Mr. Hall. Thank you so much. They are in the record, and I 
appreciate you being here and submitting them.
    So we will now have, hopefully, a brief round of questions.
    Ms. Salerno, thank you again for joining us. The IOM's 
report, ``Improving the Presumptive Disability Decision-Making 
Process for Veterans,'' outlines a new paradigm for determining 
presumptions of disability compensation.
    Could you please elaborate on this new system, highlighting 
the differences with the current method? And please talk about 
the proposed science review board process.
    Ms. Salerno. Yes.
    The idea was to have a process which was clear and 
transparent. There seems to be--when charges come to the IOM or 
various committees to evaluate information, the charges vary as 
to how one should weigh criteria. With this new framework, 
there would be, first, an advisory panel, advisory to the VA, 
which would take into consideration all the views of 
stakeholders and evaluate the priorities for which conditions 
should be under consideration for presumption.
    Then the task would go to a scientific review board, which 
would evaluate, based on the best available scientific 
knowledge at the time, the process and make recommendations to 
VA.
    The VA would then take that information to the Secretary of 
Veterans Affairs, and based on clear and transparent criteria 
for what would be the threshold for presumption, would make a 
decision and put it into policy. So all along the way the 
process would be different.
    Mr. Hall. Thank you.
    Congressman Thompson introduced his joint letter, dated 
February 15, 2008, addressed to Dr. Rick Erdtmann of the IOM, 
detailing their issues with the IOM study.
    Were you aware of this letter, and can you give me an 
update on where the IOM stands on review and/or reopening of 
the 2007 study on the long-term health effects of participation 
in Project SHAD?
    Ms. Salerno. Yes, sir, I would be happy to.
    We did receive the letter and we looked at the five issues 
that were raised in the Congressman's letter. And we take their 
concerns very seriously, and we think they raise some very 
critical points for us to consider.
    So we have been open to thinking about how to discuss these 
issues that were raised, and we have decided that we would 
provide additional analyses of the data based on their concerns 
and questions. And we have done that.
    Now, these findings from the reevaluation of the data are 
being sent to an independent panel of national experts who have 
not been involved previously with any of the Project SHAD 
studies for an independent peer review. And then we will 
provide this information to the Congressman, and we hope it 
will address all of their concerns.
    Mr. Hall. With regard to point three of the letter, can you 
tell me what the potential impact on the results of the study 
was of omitting the health records of deceased Project SHAD 
participants, and is it possible that it skewed any of the 
results?
    Ms. Salerno. I have to see what point three is.
    Yes. The deceased for whom we didn't have any other 
information other than that they had died were, in the initial 
evaluation, not included except to note that they had passed 
away. It was a very small number relative to the over 5,500 
veterans who were exposed and included in the study. It was 
literally a handful.
    Attempts were made to obtain additional information on 
them, and we would be happy to consider additional information 
on these few veterans if and when they become available.
    Mr. Hall. Thank you. I think it is an interesting and valid 
question that Mr. Thompson and Mr. Rehberg were asking: If the 
cause-of-death information is available for those individuals, 
whether it is possible to measure what impact that information 
would have had on the outcome of the study.
    So if you could follow up on that and let us know.
    Ms. Salerno. Be happy to.
    Mr. Hall. I do not know in terms of relative size, what 
percentage you are talking about, but nonetheless I think it 
would be good to get an answer to that, if possible.
    I wanted to also ask briefly, Mr. Panangala, Parkinson's 
disease is already listed as a chronic condition under title 38 
of the U.S. Code, section 1101.
    In your opinion, is a separate presumption needed?
    Mr. Panangala. I believe the disease is in the title, but I 
think there is a time limit that is in the regulations and 
statute that you had to be diagnosed with. I believe the 
legislation needs to remove that time limit. That is my 
understanding.
    I can't say that that should be done or not, but that is my 
understanding of it, so I cannot comment beyond that 
explanation.
    Mr. Hall. If the 1-year presumptive window did not close 
for these conditions, would VA already be service-connecting 
those veterans affected by ALS even after a 1-year lapse after 
separation?
    Mr. Panangala. Can you repeat that question?
    Mr. Hall. Yes. If the 1-year presumptive window did not 
close, if it were not a factor in the VA's deliberations, would 
VA be service-connecting those veterans afflicted by ALS even 
after a year, post separation?
    Mr. Panangala. That means you are asking whether VA would 
go ahead and establish the presumption after----
    Mr. Hall. Does ALS manifest more than a year after 
separation or does the veteran sometimes take that long or 
longer to recognize the symptoms and come to VA?
    Mr. Panangala [continuing]. I cannot comment on that 
because I am not an expert. But we will be happy to get back to 
the Subcommittee after taking a look at that issue.
    [Mr. Panangala provided followup information in an October 
21, 2008, Memo, which appears on p. 70.]
    Mr. Hall. Thank you very much. My time has expired.
    I will now recognize Ranking Member Lamborn.
    Mr. Lamborn. I have some, but I am going to save them for 
another panel.
    Mr. Hall. In that case, Mr. Bilirakis.
    Mr. Bilirakis. I am fine, thank you. Thank you, Mr. 
Chairman.
    Mr. Hall. Mr. Bilirakis yields. So, you are in luck. Thank 
you so much for your testimony. It has been very helpful. You 
are now excused.
    Our second panel is excused. Have a lovely afternoon. Thank 
you for being here with us.
    Our third panel is called to the table. Les Jackson, 
Executive Director of American Ex-Prisoners of War; Steve 
Smithson, Deputy Director of Veterans Affairs and 
Rehabilitation Commission of the American Legion; John Rowan, 
National President, Vietnam Veterans of America (VVA); 
Lieutenant Commander Jack Alderson, USN, Retired, Ferndale, 
California; Jeff Faull, McEwersville, Pennsylvania, a disabled 
veteran, on behalf of the ALS Association; David Woods, 
Director of Veterans Affairs of Scott County, Iowa.
    We will take a moment while people get into their places. 
As usual, without objection, we will enter the written 
testimony into the record--without objection, so ordered--so 
other witnesses may feel free to shorten or lengthen their 
testimony as you like.
    Whichever it is, there is a five-minute clock. You will see 
the lights go from green to red, as usual.
    Thank you for joining us. Thank you for your patience with 
our having to run across the street and vote.
    Mr. Hall. We will start by recognizing Les Jackson, 
Executive Director from the American Ex-Prisoners of War.
    Mr. Jackson.

  STATEMENTS OF LES JACKSON, EXECUTIVE DIRECTOR, AMERICAN EX-
  PRISONERS OF WAR; ACCOMPANIED BY REV. JACK MATHISON; STEVE 
SMITHSON, DEPUTY DIRECTOR, VETERANS AFFAIRS AND REHABILITATION 
 COMMISSION, AMERICAN LEGION; JOHN ROWAN, NATIONAL PRESIDENT, 
   VIETNAM VETERANS OF AMERICA; LIEUTENANT COMMANDER JACK B. 
 ALDERSON, USNR (RET.), FERNDALE, CA; JEFF FAULL, MCEWERSILLE, 
PA (DISABLED VETERAN), ON BEHALF OF THE ALS ASSOCIATION; DAVID 
    WOODS, DIRECTOR, VETERANS AFFAIRS OF SCOTT COUNTY, IOWA

                    STATEMENT OF LES JACKSON

    Mr. Jackson. Mr. Chairman, I recently returned from the 
Blind Rehabilitation Center, operated by the Veterans 
Administration in Connecticut. I am unable to read my 
testimony, and I have asked another former prisoner of war, 
Reverend Jack Mathison, if he would read the statement that the 
American Ex-Prisoners of Wars has prepared for this statement.
    Mr. Mathison. Chairman Hall, distinguished Members of the 
Subcommittee on Disability Assistance and Memorial Affairs, and 
guests. Thank you for inviting us to participate in your 
legislative hearing on several bills now pending in the House 
Committee on Veterans' Affairs. We will confine our remarks to 
House Committee bill H.R. 1197, the ``Improved Veterans 
Benefits for Former Prisoners of War.''
    Ninety-nine percent of former prisoners of war are from 
World War II and Korea and are now living in their sunset 
years. We are grateful that Congress has, through the years, 
provided benefits for former prisoners of war where it has been 
determined that the causal effect of an injury or illness is 
from the captive experience.
    For more than 50 years, the National Academy of Sciences 
has been conducting scientific research to identify medical 
conditions that, beyond any doubt, are the direct consequences 
of the brutal conditions of captivity. There are two medical 
conditions cited that still deserve presumptive status. These 
are osteoporosis and diabetes. Osteoporosis is bone loss 
attributed to starvation during captivity. Similarly, diabetes 
is the result of prolonged stress and permanent damage to the 
body's basic defense system as a result of months and years of 
grossly inadequate diet as a prisoner of war.
    These two proposed presumptives have, again, been 
introduced by Representative Gus Bilirakis, Republican of 
Florida. We are deeply thankful to him and strongly urge your 
Subcommittee's support by codifying these two conditions into 
law without further delay.
    Also very important to former prisoners of war and their 
survivors is House bill 156 to amend 38 U.S. Code to provide 
for the payment of Dependents Indemnity Compensation (DIC) to 
survivors of former POWs who died before September 30, 1999, 
with the same eligibility as applied to payment of DIC to 
survivors of former POWs who die after that date. This will be 
of great financial aid to the surviving spouses of POWs.
    We thank you for giving us this opportunity.
    [The prepared statement of Mr. Jackson appears on p. 74.]
    Mr. Hall. Thank you, sir, for your testimony and for your 
service. Mr. Jackson, thank you for your service to our 
country.
    We now recognize Mr. Smithson for 5 minutes.

                  STATEMENT OF STEVE SMITHSON

    Mr. Smithson. Good afternoon, Mr. Chairman and Members of 
the Subcommittee. I appreciate the opportunity to appear before 
you this afternoon to offer the American Legion's views on the 
various bills being considered by the Subcommittee today.
    The American Legion is generally pleased with the intent of 
these bills. Due to the time constraints this afternoon, I am 
going to limit my oral remarks to just a few of the bills being 
considered.
    H.R. 5985, the ``Compensation for Combat Veterans Act,'' 
the purpose of this bill is to amend title 38, United States 
Code, to clarify the service treatable as service-engaged in 
combat with the enemy for utilization of nonofficial evidence 
for proof of service connection in combat-related disease or 
injury.
    A bill with similar intent, H.R. 5892, was recently passed 
by the Committee. Both title I of H.R. 5892 and this bill seek 
to define ``engaged in combat with the enemy'' under title 38, 
United States Code, section 1154(b) in a manner that is 
consistent with the realities of combat in today's world. The 
American Legion supports the intent of these bills.
    Given the evolving nature of modern warfare as reflected in 
the enemy's unconventional tactics in Iraq and Afghanistan, the 
American Legion is of the opinion that it not only makes sense 
to clarify the definition of ``engaged in combat with the 
enemy'' under 38 U.S.C. 1154(b) in order to adapt to the new 
realities of modern war. It is essential that we do so not just 
for those serving now, but for those who have served in the 
past and those who will serve in the future.
    H.R. 1198, the ``Prisoner of War Benefits Act of 2007,'' 
the American Legion supports this legislation. It represents a 
solid step toward ensuring that former POWs receive the 
compensation and medical care to which they are clearly 
entitled. However, in addition to those diseases that will be 
presumed service-connected, the American Legion recommends that 
the list also include chronic pulmonary disease where there is 
a history of forced labor in mines during captivity, and 
generalized osteoarthritis as differentiated from the currently 
listed disability of post traumatic osteoarthritis.
    H.R. 5155, the ``Combat Veterans Debt Elimination Act of 
2008,'' although we agree with the intent of this bill, the 
legislation contains limitations and restrictions we do not 
support. The American Legion supports prohibiting the 
collection of debts in the case of any veteran who dies as a 
result of service-connected disability, not just those who die 
of a service-connected disability incurred or aggravated while 
serving in a theater of combat operations or in combat against 
a hostile force during a period of hostility.
    A veteran's death due to a service-connected disability not 
related to combat is no less tragic for the veteran's family 
than a death due to a combat-related service-connected 
condition, and we see no justification in making such a 
distinction.
    This bill also leaves it up to the discretion of the 
Secretary of Veterans Affairs to determine if termination of 
collection of the debt is in the best interest of the United 
States. It does not set forth any standards or criteria in 
determining whether or not termination of collection is in the 
country's best interest.
    Unfortunately, such vagueness will likely result in a 
restrictive interpretation, which will, in turn, limit the 
beneficial impact that was obviously intended. The American 
Legion has concerns over the exclusion from the prohibition of 
collection of debts involving housing and small business 
benefit programs.
    H.R. 5454: This bill, if enacted, would establish 
presumptive service connection of ALS for veterans who develop 
the disease to the degree of 10 percent of more disabling 
anytime after military service. The American Legion fully 
supports this legislation. The very nature of ALS warrants an 
indefinite presumptive period, as delayed diagnosis and even 
misdiagnosis is common with this terrible disease.
    The timeliness and appropriateness of this bill is further 
supported by research and other evidence in the last several 
years, including a November, 2006, IOM report that has 
indicated that those who served in the military are at greater 
risk of developing ALS than those who never served in the 
military.
    The last bill I will discuss this afternoon, H.R. 5954: The 
American Legion fully supports this bill, as it will put in 
place the process for establishing presumption of service 
connection for diseases that have been scientifically 
associated with exposure to the various agents and chemicals 
used in Project 112.
    This concludes my testimony, Mr. Chairman. I would be happy 
to answer any questions you or Members of the Subcommittee may 
have.
    [The prepared statement of Mr. Smithson appears on p. 74.]
    Mr. Hall. Thank you very much, Mr. Smithson. We will get 
back to you with questions shortly.
    Next, we will recognize Mr. John Rowan, National President 
of the Vietnam Veterans of America.

                    STATEMENT OF JOHN ROWAN

    Mr. Rowan. Good afternoon, Mr. Chairman, Chairman Hall, Mr. 
Lamborn, Mr. Bilirakis. You folks have been busy, to say the 
least.
    We have a formal statement that I would submit for the 
record which comments on all of the legislation in more depth. 
But there are a couple we just wanted to touch base on. You 
will also hear more from our colleagues at this table about 
H.R. 5944, the SHAD and 112 Project legislation.
    VVA was very much out front on this very early on, and we 
worked Mr. Alderson and Mr. LaChapelle and others and had the 
Subcommittee of the VVA to go after this whole SHAD-Project 112 
thing. We applaud Representatives Thompson and Rehberg for 
introducing and fighting for this legislation.
    If we have a caveat on any of this piece of legislation, it 
is the issue of the date 1963. We believe that we should go 
much sooner or earlier--or later, depending how you look it at. 
Prior to 1963, there were all kinds of other programs going on, 
and the DoD is finally starting to dig into this and letting us 
know all of these different programs that exposed people to all 
kinds of different things in addition to the SHAD and 112, the 
incidents. So we think that those veterans also are entitled to 
compensation for anything that may occur from their being 
exposed to all kinds of interesting chemical, biological, and 
other kind of agents.
    We also support H.R. 3008, about giving more help for rural 
veterans. One of our concerns, however, is, we would like to 
see the veterans service organizations, including the 
possibility of receiving those grants to help assist providing 
claims compensation and other kinds of programs out in the 
field. Many of our organizations have service officers who are 
out there, as well as the State and county folks, and many of 
them are out in the rural areas, and we would like to see, 
possibly including the VSOs, possibly be getting some of that 
grant money to help us do that.
    The more service officers, the better, in my opinion. We 
never have enough of them out there at all. Far too many people 
lose their opportunity to get fully compensated for their 
service.
    H.R. 3070, an interesting bill. We are interested in how 
you came up with $234 as a dollar figure. We think that was 
kind of interesting, and kind of low. We are really concerned 
about a lot of these compensation issues and a lot of the 
dollar amounts, quite honestly.
    DIC is another one, frankly, that needs to be looked at in 
where we go. Of course, the whole DIC-Survivor Benefit Plan 
(SBP) breakdown, people lose money because they are getting a 
pension benefit, which makes no sense.
    Basically, we primarily support all of these bills. We have 
nuances on each one of them, or most of them anyway.
    H.R. 5448, we are glad to see the elimination of this 
onerous requirement to prove stressors. For those of us who 
have been out in the field and had to file claims with 
veterans, I can tell you, having done that for a couple of 
years myself after I had retired back in 2002, it was very 
disheartening to have to sit in front and talk to a veteran who 
had gone through a year in Vietnam, did all kinds of strange 
and horrible things, but couldn't get him any compensation for 
his PTSD because he didn't have the right badge and the right 
award.
    Today, of course, we now know the most dangerous job in 
Iraq probably is being a truck driver. There were many truck 
drivers back in the days of Vietnam, as well, and people like 
that who had to go out in the field and were engaged in combat, 
were fired upon, had all kinds of things; but because they 
didn't get the right designation or didn't get the right badge 
because they didn't have the right military occupational skills 
MOS or occupational thing, that they didn't get considered the 
right stressor. Then we have to go through a whole song and 
dance and try to prove that stressor.
    So we applaud the Subcommittee on its activity, its 
actions, its trying to catch up on things. I agree with the 
Chairman, Mr. Filner, a lot of the bills are long overdue 
justice.
    Thank you.
    [The prepared statement of Mr. Rowan appears on p. 78.]
    Mr. Hall. Thank you, Mr. Rowan.
    Lieutenant Commander Alderson, you are now recognized for 5 
minutes.

               STATEMENT OF LIEUTENANT COMMANDER
                 JACK B. ALDERSON, USNR (RET.)

    Commander Alderson. Thank you, Mr. Chairman, Ranking Member 
Lamborn, and distinguished Members of the Subcommittee. My name 
is Jack Alderson, I live in Ferndale, California. I am a 
retired U.S. Navy Reserve Lieutenant Commander.
    While on active duty, I was ordered to Project SHAD 
technical staff as officer in charge of the five Army Light 
Tugs. I was part of the technical staff for approximately 3 
years, and was involved in tests at Shady Grove, Big Tom, Half 
Note, and Folded Arrow; these tested biological weapons. The 
only ones that DoD has admitted to so far--and there were 
many--were Q fever and tularemia. Simulants used in the same 
conjunction were Bacillus Globigii, Serratia marcescens, and E. 
coli, all of which are known as hazardous to human health.
    We decontaminated the vessels using agents such as HTH, 
(chlorine), ethylene oxide, formalin, and betapropiolactone, 
all of which are highly carcinogenic.
    Each Army tug was manned by a Navy crew captained by a U.S. 
Navy lieutenant. The crews were hand-picked and had a security 
clearance of final secret. The mission of the tech staff, 
consisting of laboratory, ordnance personal and crews of the 
tugs, was to test at sea chemical and biological weapons. While 
in SHAD, I was involved in the training, planning and execution 
of tug operations.
    The written testimony describes test operations, including 
cleanup utilizing the named highly carcinogenic chemicals. 
Here, I stress, we know that the weapons and simulants 
penetrated the tugs. SHAD training used the simulants and 
chemical decontamination agents often in training; in other 
words, we were exposed to health hazards almost continuously, 
and what we used as training was what the other vessels that 
were involved in 112 and so forth considered as being in a 
test.
    When departing SHAD, we were forcefully debriefed to say 
nothing about our time in SHAD. With that secrecy, it was not 
until the early nineties that I became cognizant of the health 
problems of SHAD personnel. When health problems occurred and 
the SHAD personnel went to the VA, they were shown the door. 
Many went to their veteran service officers but were admonished 
that the U.S. Government would not treat service personnel that 
way.
    Let me give you three examples. Lieutenant Ken Frazier, who 
happens to also be Congressman Thompson's constituent, 
skippered the 2085. He received the letter from VA and twice 
traveled to the VA facility in Oregon with it in hand. He was 
turned away both times, as they didn't know anything about 
SHAD. Ken died of cancer of the esophagus and lungs in 2004. 
Ken's widow is worried about her health and her daughter's 
health.
    Larry Pilkinton was a hospital corpsman with 15 years 
commendable service. He had a final secret and interim top 
secret clearance. He was bit by serin while loading bomblets on 
the Big Island. He was transferred from Tripler to Oak Knoll 
Naval Hospital, where he was discharged as having prior mental 
problems before enlisting in the U.S. service. Larry received 
no help from the VA, and died May 29, 2007. His widow has no 
benefits.
    Homer Tack was a sailor in Copperhead on board the USS 
Power. He has very serious pulmonary problems. Recently, his VA 
tests and private tests have shown the seriousness of the 
problem. It has been over 200 days since the tests were given, 
and still no decision by VA.
    We were ordered to SHAD to test chemical and biological 
weapons and then clean up with after the test. The cleanup was 
done with harsh carcinogenic chemicals.
    DoD, for security reasons, has not disclosed all weapons 
tested in SHAD. In fact, in the Shady Grove fact sheet they do 
not even list the decontamination agents that I have listed 
here. I have just named them and can attest to what they were 
because I was involved in the utilization and the testing.
    Without full disclosure of the biological and chemicals use 
in SHAD operations, the VA cannot equate problems of health and 
SHAD exposure. The veterans seriously need H.R. 5954 to assist 
in helping with their problems acquired during their very 
unique service to our Nation.
    Thank you.
    [The prepared statement of Lieutenant Commander Alderson 
appears on p. 83.]
    Mr. Hall. Lieutenant Commander, thank you so much for your 
testimony and your service to our country and your service to 
your fellow veterans, especially those who were exposed during 
these tests.
    Next, we will recognize Jeff Faull, disabled veteran, on 
behalf of The ALS Association.

                    STATEMENT OF JEFF FAULL

    Mr. Faull. Good afternoon, Chairman Hall, Ranking Member 
Lamborn, Members of the Subcommittee.
    As you said, my name is Jeff Faull. I am from a small town 
in northeastern Pennsylvania, McEwensville. I appreciate the 
opportunity to speak with you this morning on behalf of the ALS 
Association and the veterans living with ALS. I hope that by 
sharing my experience with you today, you will gain a better 
understanding of how this disease impacts vets across country, 
and why H.R. 5454 is so urgently needed.
    Before I begin, I would like to thank Congressman Henry 
Brown and Congressman David Price for their leadership in 
introducing this vital legislation. Veterans with ALS across 
the country are truly grateful for their efforts.
    I joined the Navy in 1992 at the age of 24, and served two 
tours of duty as a nuclear electronics technician, including 4 
years aboard the USS Theodore Roosevelt. During that time I 
participated in Operation Southern Watch Deliberate Force, 
Allied Force, and Noble Anvil. Prior to my assignment aboard 
the Roosevelt, I was stationed at Knolls Power Laboratory 
Kesselring Site in West Milton, New York, located not too far 
from your district, Mr. Chairman.
    I left the Navy in 2000 to spend more time with my wife, 
Tammy, and our daughters Tiffany and Breanna. Like many other 
veterans, I never thought that my service in the military would 
cause health problems years after I left the service. I never 
thought that I would have to fight to obtain benefits from the 
VA. I never thought I would be sitting here today before you 
with a diagnosis of ALS, or Lou Gehrig's disease.
    For me and thousands of veterans across the country, the 
reality is that years or even decades after serving the country 
we are being diagnosed with ALS, and we are fighting for 
benefits at the same time we are fighting this disease.
    I was diagnosed with ALS just over a year ago in February, 
2007, at the age of 38, about 20 years younger than the typical 
person with ALS. At the time, I had no idea what ALS was. 
Amyotrophic lateral sclerosis meant nothing to me, as I am sure 
it means nothing to thousands of others when they are first 
diagnosed, but I can assure you it is a whole different story 
when the doctor looks at you and says, ``Unfortunately, you 
don't have cancer.'' That is when you begin to understand how 
serious ALS really is.
    ALS is a rapidly progressive and invariably fatal 
neurological disease that attacks the neurons responsible for 
controlling voluntary muscles. To put it simply, this disease 
will rob me of my ability to walk, talk, move, and breathe. 
There is little I can do to slow the progression, as there is 
no effective treatment and no cure. The disease is usually 
fatal in about 2 to 5 years. In fact, of the more than 2,000 
veterans who are enrolled in the VA ALS registry over the past 
4 years, less than 900 are still with us today.
    I first noticed the symptoms of ALS as early as 1999 when I 
experienced cramps and twitching in my left hand and arm. As 
time passed, I began to develop weakness, then loss of muscle 
mass, which eventually led to my diagnosis last year. Since the 
diagnosis, the weakness and atrophy have spread and gotten 
worse. Both hands and arms are now weak, walking is becoming 
more difficult; and as you can hear, my speech is beginning to 
be affected. I keep a pair of slip-joint pliers in the kitchen 
to open things. My wife, Tammy, who is with me here today, 
normally makes sure that things like cereal boxes are open for 
me. Otherwise, I have to ask for help from my daughters.
    Although they have no problems helping their old man, it is 
not how I pictured spending my time with them. I can't make the 
walk to see Breanna play soccer. I don't have the arm strength 
to shoot basketball with Tiffany. I will more than likely be in 
a wheelchair when it comes time to teach them to drive.
    These are the treasures this disease steals from thousands 
of veterans every year before it takes our lives. In fact, I 
understand that recent research, which has not yet been 
published, suggested ALS is occurring at even greater rates in 
those serving in the conflict in Iraq.
    Past studies have shown, a Harvard study, that all 
veterans, regardless of time and place of service, are almost 
twice as likely to develop ALS. What is alarming about this 
information and the evidence from prior research is that we are 
seeing ALS at an age when we generally do not see the disease. 
I was 38 when I was diagnosed. Most people diagnosed are in 
their fifties, sixties, or seventies.
    What will we see 10, 15, 20 years in the future as the men 
and women serving today leave the military? It is clear that 
regardless of when and where someone served the military, they 
are at a greater risk of dying from this disease than if they 
had not served in the military.
    Despite the evidence showing that all U.S. military 
veterans are at greater risk of ALS, the VA has not created a 
presumption of service connection for all veterans with ALS. 
Thousands of veterans continue to be left behind, and hundreds 
of thousands serving in the military today, including in Iraq 
and Afghanistan, continue to be at a greater risk of dying from 
this disease.
    The VA will respond that any veteran with ALS can be 
service-connected on the basis of specific evidence supporting 
their case. As someone who has been denied service connection 
and knows countless others who have, as well, I can tell you 
that this response demonstrates a lack of understanding of this 
disease.
    The reality is that the majority of veterans with ALS who 
do not fall under the current limited presumptions are forced 
to fight for their benefits, and we are usually denied. I have 
been attempting to establish service connection for over a year 
now and have submitted reams of scientific and medical 
evidence, including letters supporting my claim from my 
neurologist. Yet, that evidence has fallen on deaf ears.
    Part of the problem we face is the nature of the disease 
itself. ALS is an insidious disease. First, the symptoms, such 
as the ones I experienced while on active duty, are so benign, 
they often go unreported. How many of us in this room have 
experienced muscle cramps and twitching and thought nothing of 
it? They are symptoms of ALS. Yet, they are not documented in 
our service medical records simply because we did not think 
them a big deal at the time. How many of us on active duty 
actually thought we would succumb to muscle twitching?
    In addition, it can be years from discharge until the onset 
of symptoms or between onset and diagnosis, while after the 1 
year presumptive period has ended and there is no simple way to 
diagnosis ALS, no single test you can take that says you have 
ALS. Rather, there is a diagnosis of exclusion, ruling out 
every other possible diagnosis.
    The bottom line is that if you are not diagnosed while on 
active duty and did not serve in the Gulf, the VA likely will 
not consider ALS to be service-connected, despite the studies 
and the fact that the VA and DoD both recognize ALS is a high 
priority of research. In addition to the studies that I have 
referenced, there are multiple peer-reviewed studies linking 
ALS to many of the things our military personnel are exposed to 
on a regular basis. These include ionizing and nonionizing 
radiation, fuels, solvents, lead, vapors, and vaccinations.
    My question as a veteran with ALS trying to establish a 
connection is, what additional proof must I provide? How many 
more studies are needed? How many veterans have to develop ALS 
and die from it before the VA takes action?
    I can only hope this quick glance into my life with ALS and 
attempts for service connection grant you the understanding to 
see the importance of establishing a presumption of service 
connection for all veterans with ALS, which is exactly what 
H.R. 5454 will do.
    We have to fight for our lives. We should not also have to 
fight for the benefits the evidence shows we deserve.
    Abraham Lincoln's statement, which was later adopted by the 
VA as their motto states, ``To care for him who shall have 
borne the battle and for his widow, and his orphan.'' I, and 
the other veterans with this horrible disease, appreciate your 
time and effort to ensure that that statement is more than 
words. I urge you to support H.R. 5454 and help ensure that no 
veteran with ALS is ever left behind.
    Thank you again for your time and the opportunity to speak 
with you.
    [The prepared statement of Mr. Faull appears on p. 85.]
    Mr. Hall. Thank you very much, Mr. Faull. Thank you for 
your service to our country. Thank you to your family for your 
sacrifice as well.
    How many more studies are needed?
    Mr. Faull. That question I have now the evidence shows----
    Mr. Hall. It's a rhetorical question, you have enough 
studies.
    I am thinking about a Bob Dylan line about how many years 
must a mountain exist before it is washed to the sea. But we 
won't go into that at this time.
    Our next witness is David Woods, the Director of the 
Veterans Affairs for Scott County, Iowa.
    Mr. Woods, you are recognized for 5 minutes.

                    STATEMENT OF DAVID WOODS

    Mr. Woods. Mr. Chairman, thank you for allowing me to be 
here today to discuss Congressman Braley's bill on the 
compensation for combat veterans.
    I am the Director of Veterans Affairs for Scott County in 
Iowa. I am also a Vietnam veteran. I have been awarded the 
combat infantry badge (CIB), the Purple Heart and the Silver 
Star. I was wounded June 12, 1970. Happy anniversary. So I have 
a feeling for just what our veterans are going through today.
    My job as a veterans service officer in Scott County is to 
listen to these veterans, get them their medical help and the 
compensation that is due them. I also help them through the 
Veterans Administration, the tangle of paperwork that they have 
to go through, and make sure that they understand what they are 
entitled to for their benefits.
    Having witnessed, through my combat experiences, I 
understand and am able to talk to these veterans, and they will 
sit there and tell me things that they have never told their 
families, their wives, or anyone else. Because I have been in 
combat, they can talk to me about it.
    I have had veterans come into my office, and after asking 
them where were you at, when were you in a certain area, what 
unit were you with, or who was wounded or killed by you, they 
look at you and stare off into space because they have no idea. 
They forgot that stuff.
    Now, how about the Vietnam veterans who have been trying to 
forget about his time 40 years ago? The cases of PTSD have 
risen because of the Iraq-Afghanistan war. After 40 years of 
him trying to forget where he was at or what he was doing, and 
then now asking him to try to remember where he was at on a 
certain date or where he was at, what people were injured by 
him, it is just impossible. They look at you and they have no 
idea because they have been trying to forget this horrible 
memory for years.
    For our Iraq-Afghanistan veterans, there are times when 
that military police or engineer or even a cook might be pulled 
from his job and sent on convoy duty. Many times when that 
change happens, it is not documented in their files. Then, when 
he is sent on that job, he might not be working with his own 
unit or his combat buddies. Then, if they receive incoming 
rounds, it is not documented because it is an everyday 
occurrence for a lot of them over there.
    I have had National Guard veterans come into my office and 
apply for compensation, because they have come in and we have 
applied through the VA, they have been turned down by the VA 
mainly because his part of the unit has come back to the 
country; another part of his National Guard unit might still be 
overseas, and those records are still over there. So then that 
veteran has to go out there and, as mentioned before, find a 
buddy from his combat unit that witnessed something and write 
it up. Then we have to put it through the VA to have them 
accept it. This is not right.
    I have had an Iraqi veteran with TBI, traumatic brain 
injury, file for compensation, but because he had no CIB, 
Purple Heart, or other combat medal, he was turned down by the 
VA for his compensation. His DD 214, his discharge papers show 
that he was in Iraq, listing the date and unit, but nothing 
else. When we filed the compensation claim, that veteran was 
treated at the Iowa City VAMC medical center. He was found to 
have TBI and he was awarded his compensation.
    If you were to ask a combat medic what his job was, he 
would tell you that he was to keep that injured soldier alive 
and let the people in the background do the paperwork. If you 
were to look at my medical report, it says that I was injured 
in the left arm and the neck. Neither happened to me when I was 
hit. That medic did not carry a file for every soldier that is 
out in the field; that is not his job. So there is no way of 
knowing just what a soldier went through or where he was hit, 
or whatever, a lot of times until later on. It is still not 
possible today to keep these records.
    Case in point: I had a World War II veteran come into my 
office wanting to get his Purple Heart, which he had never 
received. His records were burned up in the big fire in St. 
Louis. He just kind of thought nothing of it, but his family 
wanted the Purple Heart.
    He came into my office. We filed the paperwork with the VA. 
They said, nope, can't find anything at all on him. So I did 
some phone calls, found out that I could write a letter to the 
Unit Records section down in St. Louis. We did that.
    The gentleman got his paperwork from the Unit Records 
section. He brought it into my office. I read it, and he said, 
What do you think, Woody? I said, You're dead in the water, 
because it had him down in the medical records for an illness, 
not being wounded over in Germany. As far as the buddy 
statement, his tank crew members were all killed when he was 
hit and injured. So his Purple Heart, I did not get.
    I have had a Vietnam veteran come into my office to apply 
for compensation for Agent Orange type 2 diabetes. That veteran 
was a deepwater Navy veteran. And when we applied for the 
compensation, of course, the VA came back with the Haas v. 
Nickelsen case, saying he was never in Vietnam. I asked the 
veteran if he had contact with any of his fellow Navy 
personnel, and the next day he came into my office with two e-
mail addresses.
    I sent off an e-mail to the gentleman. I got an answer back 
the very next day. The gentleman was the third ranking officer 
on his ship. His ship was permanently stationed right off of 
the tip of South Vietnam. The third officer sent me the letter 
saying it was common knowledge that replacement sailors would 
fly into Vietnam, take 2 days to truck down to the southern 
part of Vietnam, be boated out to the ship, and then, really to 
add insult to the VA and the Navy records, the same gentleman 
told me that every 2 to 3 months they would go onto an island 
off of South Vietnam and have volley ball and R&R.
    So definitely this gentleman was in country and definitely 
he should have been connected for his type 2 diabetes. We are 
still waiting from the VA on that case.
    These are just a fraction of the compensation claims that 
we are fighting with the VA.
    These last wars are not like World War I and World War II 
where you knew who your enemy was or where the frontlines were. 
Now we have no lines or enemies in a certain uniform. There are 
not many safe areas for our veterans of today, who can actually 
relax. It doesn't take much incoming to put stress and pressure 
on our veterans, and that is what we are finding out today.
    Thank you for letting me speak to you today.
    [The prepared statement of Mr. Woods appears on p. 87.]
    Mr. Hall. Thank you, Mr. Woods.
    Without objection, I will ask Mr. Bilirakis if he would 
like to start off our questioning at this time.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much. Thank you, gentlemen, for testifying today, and 
thank you for your service.
    Mr. Jackson, do you have an estimate on how many former 
prisoners of war are living today?
    Mr. Jackson. It seems to me that it is 2,000.
    No, 20,000
    Mr. Bilirakis. About 20,000. What is the average age, would 
you say?
    Mr. Jackson. I have been the average age for a long time, 
of our group, which is, today I am 87 years old.
    Mr. Bilirakis. Eighty-seven.
    How many would you estimate would benefit from this bill, 
H.R. 1197?
    Mr. Jackson. I honestly don't know. But I know that they 
are out there.
    Mr. Bilirakis. Okay. Thank you very much.
    Does anyone else want to answer those questions? Okay. 
Thank you very much. We will do the research. I appreciate it, 
Mr. Jackson. Thank you.
    No further questions.
    Mr. Hall. Thank you, Mr. Bilirakis. I would like to ask Mr. 
Jackson, I know that adding osteoporosis and type 2 diabetes 
have been priority presumptive conditions that your 
organization has wanted to add to the list, and that you are 
awaiting passage of S. 1315, which contains a provision to add 
osteoporosis for those afflicted with PTSD to this list.
    Are you aware of any other conditions that you think 
deserve presumptive status for former POWs?
    Mr. Jackson. No, sir, I am not.
    Mr. Hall. The VA's testimony states that it is unaware of 
studies that associate type 2 diabetes or osteoporosis with POW 
internment. What evidence is your organization aware of that 
they are not, which would show the connection to be more 
likely?
    Mr. Jackson. The National Sciences Foundation has done 
studies on it and presented them yearly for many years.
    Mr. Hall. We will make sure we pass it along to the VA.
    Mr. Smithson, pertaining to H.R. 3008, in your mind, what 
distinguishes rural veterans from veterans in metropolitan 
areas that would make this legislation necessary?
    Mr. Smithson. I'm sorry. Can you repeat that question?
    Mr. Hall. What distinguishes rural veterans from veterans 
in metropolitan areas, which would make H.R. 3008 necessary?
    Mr. Smithson. They often have a lack of resources, access 
to information. They may be far away from a VA facility. They 
may also not have access to service officers. A lot of rural 
areas have limited resources as far as county service officers 
and even veterans service organization service officers.
    Mr. Hall. I would imagine the cost of gasoline is probably 
complicating things, too
    Mr. Smithson. Probably, yes.
    Mr. Hall. Mr. Rowan, it sounds like VVA has had an involved 
history of advocating for SHAD veterans. What is your response 
to the IOM testimony that claims there is no clear evidence 
that associates Project SHAD participants with ill health 
effects? Does VVA have any additional data, a database of 
veterans who report being sick because of SHAD, and how would 
you suggest rewording the clause so that it better specifies 
the meaning of biological and chemical?
    Mr. Rowan. Actually, my friend, Mr. Alderson here, can 
probably answer those questions a lot better because they are 
much more familiar with it. Other than to say it was not only 
the fact of what they used and what the experiments were, but 
the cleanup was probably as dangerous as the original 
experiment because the caustic chemicals were just as bad.
    He has done a whole lot more study on this. One of 
interesting things, apparently DoD is starting to catalogue all 
these folks who have been exposed to all of these different 
programs. We can find out who they were.
    Mr. Hall. Let me take the suggestion and ask the same 
question of Lieutenant Commander Alderson.
    Commander Alderson. Yes, sir. One of the things that was 
disappointing to us is that they found that our crews of our 
LTs--each LT only had a crew of 10, with a lieutenant as 
commanding officer, for a crew of 11.
    But they did not count the laboratory people or the gunners 
mates who were loading and mixing the weapons, that were 
loading them onto the Marine aircraft that were coming over and 
escorting us. Those, we felt, were also part of the Project 
SHAD technical staff. But if you leave it just to the tug 
crews, you come down with this minor number.
    If you take the whole Project SHAD technical staff from the 
beginning to the end, with normal rotation because this is a 
permanent change of duty station, I would guess that there was 
somewhere between 400 and 500 veterans.
    They also didn't have a ship that they could compare the 
LTs to. I gave them the name of the U.S. Koka, which was a 
small Navy tug that operated out of the same area that we did 
on the docks there in Pearl Harbor.
    Mr. Hall. Commander Alderson, given your direct experience 
with Project SHAD, what would you like to see done in the way 
of followup to give veterans like yourself, who are suffering 
as a result of exposure to various elements used during these 
experiments, some measure of justice, although delayed justice?
    Commander Alderson. First of all, I would like to make sure 
that our health is taken care of. In cases where we are talking 
about, like Mrs. Pilkinton, she has no widow benefits, and she 
is definitely a widow of SHAD because we were there when Larry 
got bit.
    I would like to see those things happen. I would like to 
have--when studies of our operations done and our exposures 
examined, I would like to have Commander Norman LaChapelle and 
myself, people who were involved in the planning, operation, 
and execution of the tests, be part of the panel, at least be 
closely consulted with what actually occurred.
    I think one of the problems that is with the IOM study is 
that they never had a clear idea of what we did and how we did 
it. When they tested the rest of the United States Navy ships, 
they did not ask the crew what their job was, and the signal 
men on the flying bridge certainly had more exposure than the 
radar operator in the combat information center, who is in a 
temperature, dust and humidity-controlled atmosphere, or the 
guy in the firing flat in the boiler room, in the heat. He is 
standing under the heavy-duty air flowing down, not only to 
give him something to cool off and breathe, but that air goes 
in and fires the boiler. So he is under a tremendous amount of 
exposure.
    This is one of the major errors of trying to equate what 
that exposure was during the tests.
    Mr. Hall. Speaking as a sailor who has had a number of 
power and sailcraft--smaller ones, I am sure--at one time we 
had a diesel leak from one of the tanks that sprang a leak, and 
it took forever to get the odor out of the hull. No matter how 
many times you scrubbed it with different agents, it seemed as 
if it permeated the fiberglass, to some degree.
    I am sure the same is true of these agents that you were 
being tested with.
    Commander Alderson. I said that Mrs. Frazier was worried 
about her health and her daughter's health. When we were out on 
the test, using hot weapons, that was different. When we were 
working out of Pearl, and we were training on a daily basis 
using some of the same chemicals to clean up with and so forth, 
there were no washing machines on the tugs. When Ken came in, 
he took off his uniforms and so forth, and Leah washed his 
clothes with hers and her daughters.
    Mr. Hall. And they were all exposed to lower levels of the 
same contaminant?
    Commander Alderson. Yes, sir.
    Mr. Hall. Or weapon. Thank you very much for your testimony 
and for your service and your patience. I am sorry. I guess 
this is one of those times when somebody should apologize to 
you on behalf of your government. So I will presume to do that. 
I get e-mails from some of the test vets on a pretty regular 
basis, from all kinds of tests that can't be talked about 
because they are so highly-classified or secret, when I hear 
secret it kind of has a bad ring to it.
    But anyway, I would like to ask Mr. Faull, a 1-year time 
period does not seem to take into account the nature of ALS, 
since the disease is difficult to diagnose and can in fact go 
undiagnosed for some period of time. It is also a disease that 
may manifest itself years after discharge, well after younger 
veterans leave the service. Do you think the VA's current 
policy is adequate?
    Mr. Faull. No. As I said, I have been trying to establish 
service-connection for over a year now. You heard some of the 
testimony today talking of buddy letters, et cetera. I have 
given those. I have given the scientific proof. And as I said, 
deaf ears.
    Mr. Hall. You mentioned the Harvard study and the World 
Health Organization (WHO) guidelines. How are these different 
from the IOM study?
    Mr. Faull. The IOM study was a review of all the studies 
done to date. I think as we heard earlier, it was five. And 
that looked at all of those studies and said that ALS, as--the 
military as related to the development of ALS, it is an 
increased risk. The WHO studies, the guidelines were utilized 
at least in my case for the vaccinations, and came back as a 
possible cause of ALS.
    Mr. Hall. Thank you. Thanks again for your service and your 
sacrifice. Last, I would like to ask Mr. Woods, in your 
statement you identified two problems as a service officer, the 
first being with records that are still with the units on 
deployment or when documentation simply did not occur. I have 
also heard that getting documentation can be difficult when 
records are classified. So what do you do as a service officer 
when such problems exist? Second, in your opinion does VA give 
the veteran the benefit of the doubt as required by statute?
    Mr. Woods. I would like to answer that last question first. 
No. They definitely do not give the veteran the doubt at all. 
It should be that they should believe the veteran more, but 
they say, hey, by our records here we don't show it, so they 
shoot the veteran down. For me, I have learned now that I can 
go ahead and contact, like I said, the unit records section. 
Since the records were burned up in the personnel files, the 
unit records are still pretty much intact. Also by using the 
buddy statements, that is an important thing to use anymore. 
Sometimes the VA will accept the buddy statement.
    I have had a case where a gentleman came in, complained 
about a back injury. He jumped into a trench during incoming 
rounds, he had a gentleman land on his back, injured his back, 
had a couple of aspirin for it later on. Well, later on in life 
it bothered him more, and he remembered about the gentleman 
jumping on his back. The VA has no records of it because it was 
just, you know, a medic would give him some aspirins and that 
was it. We were able to actually track down the two veterans 
that were in on the case of jumping on the gentleman's back. I 
sent the information to the VA, along with the Social Security 
number, and we got a letter back from the VA saying, well, we 
need more information. What unit was he with? Because he came 
over with a Guard unit, actually, from over in Vietnam. So we 
had to send more information in. And it is hard to get them to 
accept that.
    Mr. Hall. Thank you, sir. My time is long expired. I will 
now recognize our Ranking Member, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. First of all, I want 
to thank you, Lieutenant Commander Alderson and Mr. Faull, for 
your service to our country. This question is for Mr. Rowan and 
Mr. Smithson. Understanding that we have some bills here that 
can be very beneficial to veterans, we still have to address 
the PAYGO issue. How do you suggest that we address PAYGO for 
bills, these bills, or bills like this? Help us with this 
situation.
    Mr. Rowan. One of my concerns about this whole PAYGO 
business, and we hear this not only in this, we have been 
hearing it in the GI Bill issue as well, we don't hear PAYGO 
when we hear how much we have to spend in Iraq every day. We 
never hear that. Why? Because it is part of a war. Well, I hate 
to say it, but we are all part of a war. We may be coming 20 
years after the war or 30 years after the war, but we are all 
part of the war. And so I think that I get a little concerned 
about PAYGO just as a political issue here being utilized when 
it comes to veterans benefits. That is number one.
    Number two is oftentimes the veterans benefits, unlike 
every nickel that is being spent in Iraq, will actually come 
back to help the society. It is given to the veteran. I mean, 
the veteran isn't going to run off and just make that money 
disappear. He is going to probably use it to pay for the gas 
that got increased last month or whatever, to pay for their 
life. By the time we end up getting these veterans these 
benefits it is oftentimes, and Mr. Woods can tell you, so far 
after the fact, when people have usually been beaten down into 
destitution, that this is barely compensating to keep them 
alive. And yet that money still gets recirculated back in their 
community and ends up having some sort of impact.
    Having spent a lot of life in government, I can tell you 
the economists tell you every nickel you give out ends up 
coming back about 16 times in various ways in the economy, 
which is why we give all these benefits away to corporations 
and things to do things, build things, and move people into 
their community. And I think that the veterans benefits, just 
again as a practical thing, is part of warfare. And if we are 
not willing to pay for it, don't send us anywhere.
    Mr. Smithson. I would just like to echo that. It is part of 
the cost of war. And several of these bills, it is about doing 
the right thing. And for example, H.R. 51--what is it, H.R. 
5985, recognizing the change in warfare today, in that for 
example the conflicts in Iraq and Afghanistan that anybody over 
there in those two theaters are exposed to combat no matter 
what they are doing. And changing the law to recognize that is 
the right thing. And changing that is a cost of war.
    So I understand your concerns about how to pay for it, but 
doing the right thing is doing the right thing. And there is 
always enough money to send troops into harm's way, but it 
seems when it comes time to pay for it after the fact we are 
always concerned about that. And again, doing the right thing 
is doing the right thing.
    Mr. Lamborn. And for the record, I didn't vote for the 
PAYGO rule. However, it is something that we are allegedly 
following, so I just had to ask that question, or these bills 
won't be able to go forward. So, thank you for your answer.
    I yield back, Mr. Chairman.
    Mr. Hall. Thank you, Mr. Lamborn. For the record, I would 
say that once upon a time the conservative approach would have 
been to pay for the war rather than have a war on borrowed 
money, and also pay for the veterans benefits. So we should 
probably be consistent and either pay for them both, all of it, 
or borrow all of it. But at any rate, I agree that we cannot 
consider the veterans to be separate from the war itself in 
terms of its urgency and its worthiness of funding.
    Mr. Rowan, you wanted to comment on that?
    Mr. Rowan. Yeah, I just wanted to add one other thing with 
regards to the gentleman with regards to the ALS. There are 
many instances where we see problems with disease that doesn't 
necessarily manifest itself until many years after the fact. I 
mean, I still get a laugh every time I read the fact when we 
talk about the presumptives of Agent Orange, and we had 
chloracne, but it has a year time. Well, my year after Vietnam 
actually I did, I had all kinds of chloracne, but I didn't know 
what the heck it was until 20 years later. So we get all of 
these crazy things.
    I have often seen, and we even had some adjudicated cases 
on it, and we actually won a case on a guy who had heart 
disease. And we proved that even though his diabetes came 
later, was diagnosed later, we actually proved he was probably 
prediabetic, which led to his heart condition, and got the 
heart condition as a secondary to the diabetes.
    So you got all of these things that take so long to do. And 
so I applaud the efforts to try to, especially ALS and 
Parkinson's, add them to the list.
    Mr. Hall. Thank you so much, Mr. Rowan, and thank you to 
our entire panel. We could have a long discussion about this, 
but given the lateness of the hour and the fact that there is 
another panel waiting, we will save that for another time. You 
are excused, and thank you very much for your testimony and 
your service to our country.
    And we will ask our fourth panel to join us at the table. 
Bradley G. Mayes is the Director of Compensation and Pension 
Service for the Veterans Benefits Administration (VBA), 
accompanied by Bradley B. Flohr, Assistant Director for Policy, 
Compensation and Pension Service of the VBA, and Richard 
Hipolit, Assistant General Counsel of the U.S. Department of 
Veterans Affairs.
    Thank you, gentlemen, for your patience, and it is good to 
see you again. Welcome. Of course without objection your entire 
statement is entered into the record and feel free to deviate, 
elaborate, or edit as you wish. Mr. Mayes, you are recognized 
for five minutes.

STATEMENT BRADLEY G. MAYES, DIRECTOR, COMPENSATION AND PENSION 
 SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF 
 VETERANS AFFAIRS; ACCOMPANIED BY BRADLEY B. FLOHR, ASSISTANT 
DIRECTOR FOR POLICY COMPENSATION AND PENSION SERVICES, VETERANS 
 BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
AND RICHARD HIPOLIT, ASSISTANT GENERAL COUNSEL, U.S. DEPARTMENT 
                      OF VETERANS AFFAIRS

    Mr. Mayes. Thank you, Mr. Chairman, Ranking Member Lamborn. 
Before I get started, I did want to recognize the members of 
the previous panel and thank them for their service and for 
helping educate me, Commander Alderson and certainly Mr. Faull. 
We can't know what Mr. Faull is going through, clearly.
    I am pleased to be here today to provide the Department of 
Veterans Affairs' views on pending benefits legislation. 
Accompanying me is Brad Flohr, Assistant Director for Policy in 
the Compensation and Pension Service, and Mr. Richard Hipolit, 
Assistant General Counsel.
    We are still reviewing H.R. 5448, and will provide views on 
that bill in a subsequent views letter.
    [The VA failed to provide Administration views for H.R. 
5448 and H.R. 3795.]
    I would like to begin by sharing our views on H.R. 5155, 
the ``Combat Veterans Debt Elimination Act of 2008.'' I believe 
that was introduced by Congresswoman Shea-Porter. This is the 
only bill I will be testifying on today which the 
administration is able to support.
    This bill would prohibit VA from collecting all or part of 
a debt owed to the United States under any program under the 
laws administered by VA who dies as a result of a service-
connected disability incurred or aggravated while serving in a 
theater of combat operations in a war after the Persian Gulf 
War or in combat during a period of hostilities after 9/11.
    Regarding H.R. 3008, the ``Rural Veterans Caregiver 
Compensation Act,'' VA does support the intent of this proposed 
legislation. However, we oppose the bill because we believe it 
would duplicate some ongoing efforts by the Veterans Health 
Administration's Office of Rural Health to address the 
healthcare needs of veterans in rural areas, as well as other 
outreach activities that we are conducting for vets in those 
rural areas. And further, it would divert existing resources 
away from direct service delivery, since there is no provision 
to fund this grant program of up to $1 million per State, as I 
read the bill.
    H.R. 4274, the ``Gold Star Parents Annuity Act of 2007,'' 
would provide a monthly benefit of $125 to parents of 
servicemembers who lost their lives while on active duty in 
military operations described by 10 U.S.C. section 1126(a). If 
more than one parent is eligible for the benefit, it would be 
divided equally among the eligible parents. VA honors the 
sacrifice of those who have lost their lives in the service of 
their country, and we recognize and honor the supreme sacrifice 
of Gold Star parents who have lost a son or daughter serving in 
the Armed Forces. However, we don't support the bill because we 
don't believe you can put a monetary value of this sort of a 
loss to servicemembers' life. And we already do provide a 
monthly benefit to certain qualifying parents based on need, 
our Parents Dependency and Indemnity Compensation (DIC) 
Program. Further, if parents are designated as the beneficiary 
of a deceased servicemember, then they are potentially entitled 
to DoD's death gratuity and Servicemembers Group Life 
Insurance. And these combined have the potential to add up to 
$500,000. Clearly, however, no amount of money can compensate 
for the sudden loss of a son or daughter.
    Regarding H.R. 5709, the ``Veterans Disability Fairness 
Act,'' the VA does not support this proposed legislation 
because we have already put in place measures that address most 
of the subjects covered in the bill. We are conducting quality 
reviews on a statistically valid sample of claims across ROs, 
Regional Offices. We began routinely monitoring the most 
frequently rated diagnostic codes this year, this fiscal year, 
to assess consistency of service connection determinations and 
degree of disability assigned for various disabilities across 
Regional Offices, across jurisdictions. And we conduct regular 
site visits. And locally, we pull random samples of cases that 
are adjudicated by employees responsible for deciding veterans 
claims in the administration of the local performance 
management plan.
    H.R. 5985, the ``Compensation for Combat Veterans Act,'' 
would require VA to treat certain veterans as having engaged in 
combat with the enemy for purposes of 38 U.S.C. 1154(b), thus 
permitting the use of lay or other evidence for proof of 
service occurrence of a combat-related disease or injury. The 
veterans who would qualify for this treatment are veterans who 
during active service with a U.S. military, naval or air 
organization during a period of war, campaign or expedition, 
served in a combat zone for purposes of section 112 of the 
Internal Revenue Code 1986, or a predecessor provision of law. 
In essence, the bill would equate that service in a combat zone 
with the current stipulation of engaging in combat with the 
enemy.
    We don't support the bill. The current regs relax the 
evidentiary requirements a combat veteran must meet to prove 
service occurrence or aggravation, and that language makes it 
clear that its purpose is to liberalize the method of proof for 
claims based on injuries incurred or aggravated while engaged 
in combat with the enemy. This provision recognizes the unique 
circumstances of combat which are not favorable for 
documentation of injury or illness because treatment for such 
injury or illness may be administered in the field. Supporting 
evidence is often difficult to obtain when a veteran later 
files a claim for disability compensation for a combat-related 
disability, hence the provision, as we heard earlier from the 
testimony. But this bill contemplates that all veterans in a 
combat zone are faced with the same difficulty in documenting 
treatment for injury or illness. However, it doesn't appear 
that the same difficulty does exist for servicemembers who, 
although serving in a combat zone, have access to a medical 
facility for treatment and whose treatment would be documented 
in service treatment records.
    The remaining bills, H.R. 1197, and I won't read the titles 
to be expedient, but H.R. 1197, H.R. 3795, H.R. 5454, H.R. 
5954, and H.R. 6032 all propose to modify existing presumptive 
provisions that are already in place, with the exception of 
H.R. 5954, which is the presumption to exposure to biological, 
chemical, or other toxic agents as part of Project 112. That 
bill contemplates creating a new presumption for veterans who 
participated in that project.
    Beginning with the latter bill, H.R. 5954, I would like to 
begin by correcting my written statement for the record. In my 
written statement I indicated that DoD estimates about 6,000 
veterans may have been involved in Project 112/SHAD and to date 
DoD has provided VA with the names of approximately 5,000 
veterans who participated in tests. VA has actually received 
the names of 6,440 military personnel who participated in tests 
related to Project 112/SHAD. Of this number, 385 could not be 
matched to a numeric identifier such as a Social Security 
number or service number and 733 were known to have been 
deceased. We sent notification letters to all veterans that we 
were able to identify, informing them that they had been 
identified by DoD as a Project SHAD participant. And we do 
continue to work with DoD; however, we are not aware of any 
additional test participants.
    [Additional Administration views from VA for H.R. 5954 
appear on p. 121.]
    Regarding presumptives in general, in conclusion, the VA 
has a process in place to review the scientific and medical 
evidence biennially for those veterans who were potentially 
exposed to herbicides in Vietnam or hazardous agents in the 
Persian Gulf War. Further, the VA has continuously added 
additional presumptive disabilities to the list of conditions 
related to internment as prisoner of war, most recently the 
addition of atherosclerotic heart disease and stroke and its 
complications. VA is not aware of any scientific or medical 
literature or study linking diabetes mellitus and/or 
osteoporosis to POW service; however, we will look at the 
previous testimony and pull those studies to look at them.
    We are unaware of any scientific or medical evidence 
linking exposure to depleted uranium and the radiogenic 
diseases already included as diseases associated with radiation 
exposure. Nor are we aware of evidence linking any disease to 
participation in Project 112/SHAD.
    And finally, the IOM, the Institute of Medicine of the 
National Academies has consistently determined that there is 
insufficient evidence to associate Parkinson's disease with 
herbicide exposure. And ALS, again the evidence doesn't appear 
to be sufficient to establish a presumptive condition at this 
time.
    That concludes my testimony, Mr. Chairman, Ranking Member 
Lamborn, and I would be pleased to answer any questions on 
these topics.
    [The prepared statement of Mr. Mayes appears on p. 89.]
    Mr. Hall. Thank you, Mr. Mayes. For scheduling reasons I am 
going to yield to or recognize our Ranking Member, Mr. Lamborn, 
first for questions.
    Mr. Lamborn. Thank you, Mr. Chairman, for taking me out of 
order. Mr. Mayes, do veterans who cannot show a service 
connection with PTSD, but need and want treatment for PTSD, 
whatever its source might have been, do they still receive 
treatment? And could you explain what their status is?
    Mr. Mayes. Yes. Currently, veterans returning from Iraq and 
Afghanistan are entitled to receive treatment for 5 years.
    Mr. Hipolit. I believe that is correct.
    Mr. Mayes. So it is 5 years after expiration of their term 
of service. So it is comprehensive healthcare through the 
Veterans Health Administration.
    Mr. Lamborn. Okay. How would that apply, or would it apply 
to a Vietnam veteran who was in Vietnam in the sixties or 
seventies?
    Mr. Mayes. Well, I am on the benefits side. I am a little 
bit outside of my lane. So in order to be completely correct, 
that is a question I would like to take back for the record and 
provide you a more thorough response. But I will say this, I 
know that if a veteran presents, for example, to a clinic or a 
counseling center and they are in distress they are not turned 
away.
    [The following information from VA was subsequently 
received:]

        Question: What happens if a Vietnam-era veteran who has not 
        filed a disability claim for PTSD came to VA seeking care for 
        PTSD symptoms?

        Response: A veteran who comes to VA with a need for medical 
        care would be assessed based on the nature of his or her needs 
        and urgency. If the veteran needs treatment, a VA medical 
        center or clinic can provide care by enrolling the veteran for 
        care if he or she is in an appropriate priority group or, even 
        if not, if he or she has urgent or emergent clinical needs. If 
        the veteran does not meet priority requirements, the veteran 
        could be referred to a Vet Center if he or she was a war zone 
        veteran. If not a war zone veteran, the veteran could be 
        referred to community mental health resources. Any of these 
        options would lead to diagnostic assessment and possible 
        service-connection for PTSD, which would then make the veteran 
        eligible for VA care.

    Mr. Lamborn. Thank you. Mr. Chairman, I yield back.
    Mr. Hall. Thank you, Mr. Lamborn. Mr. Mayes, would you for 
starters just comment on some of the cases that you heard about 
today from our previous panel?
    Mr. Mayes. Okay. Well, I think one of the questions that 
was posed earlier, if my recollection serves me correctly, was 
could we service-connect a condition like Mr. Faull's condition 
if the Lou Gehrig's disease did not manifest within the current 
1-year presumptive period? And we can. What we would need, 
though, is medical evidence that would establish a link between 
the disease or the disability and military service. And really 
that is the premise of this program, of the VA's Disability 
Compensation Program, is that we have a disease or injury that 
is incurred in, or aggravated by, military service. What 
presumptives do is really they lower the threshold, the 
evidentiary threshold for certain disorders, disease processes 
where it may be difficult to get the evidence. It might be that 
we have scientific or medical evidence in the case of some of 
the other presumptives that shows a relationship between some 
exposure and military service. And therefore, we just go ahead 
and extend the presumption. But even if veterans aren't covered 
by the presumption or the relaxed evidentiary threshold, we can 
still get there, but there just has to be the nexus.
    Mr. Hall. As you heard during the questioning of the IOM, 
there were inquiries on the proposed new paradigm for 
establishing presumptions outlined in its latest report. Can 
you inform us of the VA's views on the current manner of 
establishing presumptions for disability compensation and the 
proposed system offered by the IOM in its 2007 study? What does 
VA see as its role in both systems?
    Mr. Mayes. First of all, the VA is interested in giving 
veterans their due. I want to say that up front. If there is 
evidence of causation, if there is evidence that a presumptive 
is in order, then in many cases, in the past, we have through 
regulations added presumptives to the list of disabilities that 
are subject to whatever the exposure or, for example, 
radiogenic diseases or Agent Orange.
    So we are interested in that science, and Congress has 
legislated that the Institute of Medicine will look biennially 
at the Agent Orange presumptives and the diseases possibly 
associated with Agent Orange and diseases possibly associated 
with Gulf War service. So the way that works is that the 
Institute of Medicine conducts their study, they look 
extensively at the science and literature out there, it is 
peer-reviewed, they rely on peer-reviewed research, it is my 
understanding, and then they hand that over. We have a working 
group of experts, people from the Veterans Health 
Administration, Veterans Benefits Administration, the Office of 
General Counsel who review that and the recommendations. They 
make recommendations to a task force that is comprised of the 
Under Secretaries for Health, Benefits, General Counsel, and a 
couple of other people that are on that task force. And then 
they make a recommendation to the Secretary, and ultimately he 
makes the decision. That is the way it works now.
    Mr. Hall. Okay. If I could move along.
    Mr. Hipolit. If I could just clarify, what we are looking 
for in for example, the Agent Orange or Gulf War areas, is a 
positive association between the health outcome and the 
possible exposure in service. So we don't necessarily need to 
prove causation in order to create a presumption. We will do it 
based upon a positive association, looking at the credible 
evidence for or against the association.
    Mr. Mayes. Thank you, Dick.
    Mr. Hall. Could you tell us what your position is on the 
new system that IOM proposed?
    Mr. Mayes. I am not prepared to articulate a position at 
this point. That is still being considered within VA.
    Mr. Hall. Okay. Whenever you have to the point of having a 
position, we would appreciate hearing it.
    Mr. Mayes. Absolutely, Mr. Chairman.
    [The following information from VA was subsequently 
received:]

        Question: What is VA's view on the IOM's ideas for changes in 
        the process for establishment of presumptions that were 
        discussed in the hearing?

        Response: The Institute of Medicine (IOM) published 
        recommendations in 2008 for changes in the VA process for 
        establishing presumptive disabilities. The IOM recommendations 
        include creating two new advisory Committee panels. One would 
        accept and review nominations for presumptive disabilities from 
        veteran stakeholders. The other would be an independent 
        scientific review board with the task of investigating the 
        scientific basis for establishing any potential presumptive 
        disability. This scientific panel would base its conclusions on 
        the existence of a causal relationship between the military 
        event and the subsequent disability, rather than on just an 
        association between the military event and the subsequent 
        disability.

        VA views these recommendations as potentially beneficial but 
        there are some concerns. Of primary concern is the authority of 
        the Secretary of VA to make a final determination on 
        establishment of a presumptive disability. Creation of these 
        panels must be for informational purposes only and must not 
        interfere with the Secretary's final authority. In addition, 
        this process would have to be considered in light of 
        Congressional legislation already enacted that mandates 
        procedures for establishing certain presumptive disabilities. 
        The Agent Orange Act 1991, for example, already provides a 
        process for evaluating potential herbicide related presumptive 
        diseases. Any implementation of the IOM recommendations must be 
        integrated with such existing law. There is also a concern that 
        use of these panels may prolong the actual decisionmaking 
        process and inhibit the Secretary's ability to provide the 
        public with a timely response.

    Mr. Hall. And I would also like to just quickly ask you a 
couple more questions, since I am on the red light already. 
Since there is more up to date medical research on Parkinson's 
than ALS, it seems that onset does not necessarily occur in a 
year. So would section 1113(b) be the most appropriate 
provision to apply? What happens when these kinds of cases 
occur where the presumptive window has closed for the veteran 
claiming service connection for a chronic condition? Does VA 
deny chronic conditions simply because of the 1-year issue in 
section 1112?
    Mr. Mayes. No. We don't deny simply because the presumptive 
window has closed. We can't apply the presumption of service 
connection because the window has closed. But we look at the 
evidence to try and see if there is some kind of link between 
the disease and military service. For example, if a clinician 
suggested that there were symptoms that they saw in service, 
and is now attributing the disease process to those symptoms, 
that would be an avenue that we could arrive at service 
connection, even if the onset is outside of the presumptive 
window.
    Mr. Hall. It sounds to me like a legislative change to 
extend that 1-year window would make your job easier, because 
you wouldn't have to be fishing for a way to get around it in 
the case of a disease where frequently, if not most of the 
time, the disease is not actually diagnosed or doesn't reach a 
point where you can definitively say what it is until after the 
1 year has passed.
    Mr. Mayes. Yes. It would be easier. The evidentiary----
    Mr. Hall. You could spend your time getting the treatment 
rolling and moving on to another case instead of going and 
trying to get around the 1 year and find a way to get the 
person covered.
    Mr. Mayes. Of course we have a mandate to ensure that we 
are compensating for diseases or disabilities due to service.
    Mr. Hall. Right. And we are trying to help you do that. I 
appreciate that you want that, and that we are all after the 
same thing here.
    Does VA track the number of claims it has gotten from 
veterans with Parkinson's, ALS, or those exposed to DU or 
Project 112?
    Mr. Mayes. Well, yes. The claims from Project 112, yes, we 
do have those numbers. I don't know if I have those with me. We 
know how many letters we sent out to veterans. In fact, I do 
have that. But it was between 4,000 and 4,500. So it wasn't the 
full amount because we couldn't necessarily definitively 
identify the name that was handed us from DoD or we couldn't 
get an address.
    [The following information from VA was subsequently 
received:]

        Question: Does VA track claims for Parkinson's, ALS, Depleted 
        Uranium-connected, and Project SHAD-connected claims? If so, 
        please provide demographic information on these populations.

        Response: VA tracks the number of claims filed in certain 
        categories and other relevant information in recurring reports. 
        However, we do not capture demographic information. Available 
        information is provided below on the requested claim 
        categories.

                1.  Parkinson's disease

                        As of May 2008, VA identified 968 veterans 
                        currently receiving compensation for 
                        Parkinson's disease. The following table 
                        provides the breakdown by the combined 
                        evaluation:


------------------------------------------------------------------------
              Comb Evaluation                          Veterans
------------------------------------------------------------------------
 10%                                                                 26
------------------------------------------------------------------------
 20%                                                                 18
------------------------------------------------------------------------
 30%                                                                 82
------------------------------------------------------------------------
 40%                                                                 78
------------------------------------------------------------------------
 50%                                                                 67
------------------------------------------------------------------------
 60%                                                                 77
------------------------------------------------------------------------
 70%                                                                115
------------------------------------------------------------------------
 80%                                                                124
------------------------------------------------------------------------
 90%                                                                 93
------------------------------------------------------------------------
100%                                                                288
------------------------------------------------------------------------
Total                                                               968
------------------------------------------------------------------------

                2. Amyotrophic Lateral Sclerosis (ALS)

                        As of September 2008, VA has identified 871 
                        unique veterans who have submitted a claim for 
                        ALS. The following table provides the 
                        breakdowns by year and decision.


------------------------------------------------------------------------
                Fiscal Year                        Unique Veterans
------------------------------------------------------------------------
FY 2004                                                             133
------------------------------------------------------------------------
FY 2005                                                             184
------------------------------------------------------------------------
FY 2006                                                             148
------------------------------------------------------------------------
FY 2007                                                             183
------------------------------------------------------------------------
FY 2008                                                             227
------------------------------------------------------------------------


        3. Depleted uranium

                VA does not specifically identify claims for depleted 
                uranium.

        4. Project SHAD

                As of September 2008, VA has received 679 Project 112/
                SHAD claims; 65 are pending and 614 have been decided.

    Mr. Hall. Right. Maybe you could provide us after the fact 
additional information on these populations, such as 
demographic descriptions and how many have sought treatment. I 
wanted to ask you the current backlog stands, as I understand 
it, is at about 650,000 cases, claims that are waiting to be 
adjudicated. How many of these are for veterans who have been 
diagnosed with PTSD but lack a verified stressor? And that may 
be something you have to get back to us on, too, but I just 
wanted to ask you that question.
    Mr. Mayes. I don't know how many claims are pending right 
now today for PTSD. I do know the number of veterans who are on 
the rolls right now for PTSD. And that is 328--as of the end of 
May it was 328,923. And that compared to 1999 of only 122,070. 
So we know we are service connecting post traumatic stress 
disorder.
    [The following information from VA was subsequently 
received:]

        Question: How many PTSD claims are pending where there is no 
        verified stressor?

        Response: PTSD claims may be pending for several reasons. VA 
        does not record the number of claims pending where the stressor 
        has not been verified. Claims are generally pending because 
        development is being undertaken and evidence gathered.

    Mr. Hall. That is probably a good thing.
    Mr. Mayes. We think so.
    Mr. Hall. Not a good thing they have PTSD.
    Mr. Mayes. Yes, Mr. Chairman.
    Mr. Hall. But a good thing if they have it as a result of 
their service that they be treated and classified.
    So in light of the issues we have been discussing regarding 
chemical exposures, the Veterans Disability Benefits Commission 
(VDBC) recommended that VA create a health registry for 
veterans who served at Fort McClellan and were potentially 
exposed to PCBs and other chemicals. What are your thoughts on 
these findings? What has VA done so far to implement this 
recommendation?
    Mr. Mayes. I think that is one I would like to take for the 
record as well, because I believe it would likely be the 
Veterans Health Administration that would create the health 
registry and maintain it. So I can take that, and if you will 
indulge me, get back with you.
    [The following information from VA was subsequently 
received:]

        Question: What is VA's opinion on the recommendation of the 
        October 2007 Veterans' Disability Benefits Commission report 
        that VA initiate a registry and take other action with regards 
        to possible PCB exposure at Fort McClellan, Alabama?

        Response: While VA appreciates the recommendations and work of 
        the Veterans' Disability Benefits Commission, VA does not 
        support the creation of such a registry. Creating one is 
        unlikely to improve the health or otherwise benefit those 
        veterans who may have been stationed at a U.S. military base 
        that also had hazardous materials onsite.

        VA often hears from individuals and groups of veterans who are 
        concerned about how their health may have been affected by 
        exposure to environmental hazards at the U.S. military bases 
        where they were stationed. The military uses many common 
        hazardous materials at bases across the country. The U.S. 
        Environmental Protection Agency (EPA) tracks nearly 1,600 
        hazardous waste sites across the country, and more than 170 of 
        these are current or past military bases, including Ft. 
        McClellan.

        Moreover, a recent Department of Defense (DoD) evaluation 
        concluded that there is little or no PCB contamination 
        specifically at Fort McClellan that could have led to exposure 
        of Army personnel.

        However, Army personnel living off-base in the nearby town of 
        Anniston may have been exposed to PCBs located there. That is 
        why current scientific studies by the U.S. Department of Health 
        and Human Services (HHS) on the health of Anniston residents, 
        which include any veterans who may reside there today, are so 
        important. HHS scientists are currently conducting four studies 
        that evaluate PCB health effects for Anniston residents, 
        including neurological health, PCB blood levels, health status 
        of exposed children and adults, reproductive health issues, and 
        environmental PCB levels. VA closely monitors these studies, 
        particularly as they may turn out to relate to the health of 
        servicemembers who may have been stationed at Fort McClellan. 
        However, until they are completed, we have little or no data 
        that would indicate any health problems from PCB exposure 
        related to military service in or around Anniston.

        In addition, it would be difficult to conduct meaningful health 
        studies of veterans formerly stationed at Fort McClellan, even 
        if it were possible to establish records of who served there 
        during the relevant period. This is because of the difficulties 
        of identifying and locating personnel who served in the 
        relevant time period, finding accurate information about their 
        actual exposures, obtaining older military medical records, and 
        establishing a reasonable ``control'' or comparison group. 
        Therefore, the ongoing HHS study provides the greatest chance 
        of identifying a health risk from an environmental exposure.

        Fortunately, veterans enrolled for VA healthcare with health 
        problems related to PCB exposure while on active duty do not 
        have to wait for such a study to seek healthcare and disability 
        compensation from VA. The long-term health consequences of 
        exposure to PCBs are very well documented. If any veteran has 
        an illness related to PCB exposure and they can provide 
        evidence that they were exposed during military service, they 
        would have a good case for a related disability claim.

        Fact Sheet

        Polychlorinated biphenyls (PCBs) have been identified in at 
        least 500 of the 1,598 hazardous waste sites that have been 
        proposed for inclusion on the EPA National Priorities List 
        (Agency for Toxic Substances and Disease Registry, U.S. 
        Department of Health and Human Services, Toxicological Profile 
        for Polychlorinated Biphenyls (PCBs), November 2000, 
        www.atsdr.cdc.gov/toxprofiles/tp17.html).

        An analysis of the hazardous waste sites listed by HHS Agency 
        for Toxic Substances and Disease Registry (ATSDR) indicates 
        that 173 sites are current or past military sites, where 
        military personnel could have been exposed to hazardous 
        substances. One of these 173 sites was Ft. McClellan.

        A recent report from DoD's U.S. Army Center for Health 
        Promotion and Preventive Medicine Information Paper, MCHB-TS-
        RAO, 13 July 2006, ``Polychlorinated Biphenyls (PCB) 
        Environmental Contamination Sources at Ft. McClellan, Alabama 
        and Surrounding Areas'') concluded that ``there is little or no 
        environmental contamination at Ft. McClellan that may have 
        exposed Army personnel at Ft. McClellan to PCBs.'' However, 
        they also pointed out that ``Army personnel who have previously 
        resided or currently reside within the identified contaminated 
        areas in [the town of] Anniston may have been exposed to 
        concentrations above EPA action levels and suffer an elevated 
        health risk equivalent to the local non-Army population.'' That 
        is why the current ongoing HHS study on the health of Anniston 
        residents is particularly relevant.

        The U.S. Department of Health and Human Services, Agency for 
        Toxic Substances and Disease Registry (ATSDR) has a series of 
        four studies now underway at Anniston, and VA has been 
        regularly in contact with the investigators for this study to 
        monitor its progress and results.

        The first is looking at neurological health among adolescents 
        at Anniston, along with measuring blood levels of lead and 
        PCBs. The study is also checking the health status and exposure 
        of their parents.

        The second study is looking at the health of 1,200 adults for 
        all health outcomes, with a particular focus on type 2 
        diabetes, as well as PCB blood levels.

        The third study is looking at reproductive health issues among 
        women and children in Anniston.

        The fourth study is monitoring for PCBs in the environment, a 
        sort of ``geo-environmental'' analysis, with a focus on 
        schools, etc.

    Mr. Hall. That would be wonderful. Thank you.
    Last year IOM recommended that VA improve the quality of 
the claims adjudication process and improve its accuracy. As we 
heard from IOM, accuracy was 88 percent in 2006. Do you know 
what it is now? And what is the target?
    Mr. Mayes. Well, I believe the 88 percent number referred 
to the rating accuracies. So that would be the entitlement 
determinations. And I believe we are still at 88 percent.
    Mr. Hall. Okay. Do you have a target?
    Mr. Mayes. Yes, sir, we do. I believe it is 92 percent. The 
target is 92 percent. Now, I might add that we--Congress has 
been generous, and we have been able to hire over 3,000 
employees. And so what we see happening is we have an influx of 
new employees into the work force. And we are trying to get 
them up to speed, but their decisions are considered just as 
well as those decisions made by journey level decisionmakers. 
So it is, I believe, having some impact.
    Mr. Hall. Well, you are welcome.
    Mr. Mayes. Thank you.
    Mr. Hall. And we want to help, as you can tell.
    Last, I wanted to say and ask, you mentioned the VDBC 
report and the Center for Naval Analysis (CNA) analysis on 
training, which was complimentary in comparison with other 
Federal agencies. However, you did not address the Commission's 
concerns with the emphasis on production over training, which 
is complicated by the turnover rate and the inexperience of 
raters. How is the VBA addressing these issues?
    Mr. Mayes. Well, we frequently hear this. Brad Flohr and I 
both have been employees in the field. When you have veterans 
like we heard from today who have claims that are pending and 
you know they are behind you waiting for a decision, you want 
to push those through. I mean our employees don't like having 
this backlog. So there is a press to move the work. What I can 
say is that we manage individual performance by holding our 
employees accountable. We have a standard. And that standard 
includes both production and quality. So we do, on an 
individual basis at the RO, sampling. We pull cases, we review 
for quality. And an individual employee can be terminated, 
worst case scenario can be terminated for poor quality just as 
well as they can be for lack of production. So they have to do 
both, and they want to do both.
    Mr. Hall. Good. Well, thank you very much. I would like to 
turn to my new Ranking Member, Mr. Bilirakis, for his 
questions. Mr. Bilirakis.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman. I 
appreciate it. Director Mayes, in your written testimony you 
state that the VA does not support H.R. 1197 because of the 
timeline for the VA to make determinations and publish 
regulations for establishing procedures for determining future 
presumptions for POWs. You said that it was untenable. You also 
stated the VA is not aware of any credible scientific 
literature to show an association between the medical 
conditions covered in H.R. 1197 and POW internment.
    I was surprised by the VA's opposition to my legislation 
because the VA's previous testimony on H.R. 348 supported the 
bill. And my staff will give you the VA's previous testimony. 
In 2004, the VA testified, and I quote here, ``it strongly 
supports enactment of section 2(c) of H.R. 348, providing that 
Congress can find offsetting savings. No one can reasonably 
doubt that the stresses and privations endured by prisoners of 
war take heavy tolls on their health in ways that may never be 
fully understood. The majority of POWs, are aging veterans of 
World War II who are unable to wait for science to provide 
definitive answers. Moreover, former POWs as a group do not 
benefit from relatively relaxed statutory standards, such as 
the positive association standard applied in the case of all 
Vietnam veterans because of their potential for exposure to 
defoliants used there. So for weighing the scientific evidence 
regarding associations between their service experience and 
later occurring diseases. There is some scientific evidence 
suggesting an association between the POW experience and each 
of the illnesses covered by the bill, which is 348 in 2004. And 
because these veterans are particularly deserving of special 
consideration, they too should be afforded the benefit of the 
doubt''.
    Since my bill is virtually identical to H.R. 348, why is 
the VA now opposing this language? And what has occurred to 
justify the change in position? That is my first question.
    Mr. Mayes. The testimony that we submitted cited the 
reasons for the opposition. I do not know what the rationale 
was back in 2004. I know that was about the time I think that 
we actually added stroke and atherosclerotic heart disease. It 
might have been 2005. But I am going to go back and look, and I 
can provide you a more definitive answer.
    Mr. Bilirakis. Okay. Can you please get back to me?
    Mr. Mayes. Yes, sir. We will do that. We will reconcile 
those differences.
    [The following information from VA was subsequently 
received:]

        Question: Please explain why VA supported H.R. 348 in 2004 yet 
        opposed a very similar bill (H.R. 1197) today. Why are the 
        costs estimated by VA so much higher for H.R. 1197 than the 
        previous bill?

        Response: VA did support the addition of cardiovascular disease 
        and stroke to the presumptive list for former POWs (FPOWs) in 
        H.R. 348 and those conditions were subsequently added by 
        amendment to statute and regulations. VA also did not oppose 
        the addition of the other diseases mentioned in H.R. 348 
        although there was no strong evidence identified that would 
        support an association between the POW experience and 
        subsequent disease development.

        H.R. 1197, however, would eliminate the requirement of any 
        minimum internment periods. A veteran who was held 1 day or 
        even a few hours could be service-connected for diseases that 
        are generally associated with nutritional deficiencies 
        associated with extreme deprivation. Additionally, VA remains 
        unaware of any peer-reviewed studies that associate FPOW 
        experiences with the subsequent development of Type II diabetes 
        mellitus. Therefore, we do not support the addition of this 
        condition to the presumptive list. Subsequent to our testimony 
        on this legislation, however, the Secretary has become aware of 
        studies that provide a basis for determining that an 
        association exists between FPOWs who were held in captivity for 
        30 days or more and the subsequent development of osteoporosis. 
        VA has drafted regulations to add this condition to the list of 
        recognized presumptive conditions.

        In estimating the cost for H.R. 1197, VA applied prevalence 
        rates for osteoporosis and diabetes to more precisely identify 
        the population of veterans and survivors that would apply for 
        and be granted benefits. As a result, the population changed 
        significantly from the earlier estimate. Additionally, the 
        impact of the presumptions for POWs was revised. When providing 
        a cost estimate for the earlier bill, we assumed the average 
        service-connected disability payment was at the 30 percent 
        level, resulting in a combined 50 percent disability rating. 
        Currently the average disability payment for FPOWs is estimated 
        to be at the 40 percent level, which we anticipate would raise 
        the combined evaluation to 60 percent. In terms of monthly 
        disability compensation benefit payments, a disability payment 
        for the 50 percent combined evaluation 4 years ago was $646, 
        while a monthly disability payment for a 60 percent combined 
        evaluation currently is $921. The survivors benefit amount has 
        also increased from $967 to $1091.

    Mr. Bilirakis. Okay. And then in 2004 the VA estimated that 
H.R. 348, on the same subject, would cost approximately $589 
million over 10 years. H.R. 348 would have established 
presumptions for five conditions, heart disease, stroke, liver 
disease, Type 2 diabetes, and osteoporosis. The VA is now 
submitting that H.R. 1197, which establishes presumptions for 
only two conditions, Type 2 diabetes and osteoporosis, will 
cost almost $800 million over 10 years. Although I realize it 
has been over 4 years since the VA's last estimate, I am 
puzzled by this. As I said, our bill only covers the two 
presumptions. So if you can get back to me on that I would 
appreciate it as well.
    Thank you very much. Thank you, Mr. Chairman.
    Mr. Hall. Thank you, Mr. Bilirakis. And we thank you for 
your patience, Mr. Mayes, Director Mayes, Mr. Flohr and Mr. 
Hipolit. Thank you for being here and for your testimony. We 
look forward to receiving the written responses that we have 
asked for. Thank you for your insight and opinions. And this 
hearing stands adjourned.
    [Whereupon, at 5:16 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

           Prepared Statement of Hon. John J. Hall, Chairman,
       Subcommittee on Disability Assistance and Memorial Affairs

    Good Afternoon.
    The Veterans' Affairs Disability Assistance and Memorial Affairs 
Subcommittee Legislative Hearing will now come to order.
    I would ask everyone to rise for the Pledge of Allegiance--flags 
are located in the front of the room.
    I would first like to thank the witnesses for coming today to 
appear before the Disability Assistance and Memorial Affairs' 
Subcommittee for our fifth legislative hearing. Today we will examine 
11 bills which I will identify by bill number for the sake of brevity: 
H.R. 1197, H.R. 3008, H.R. 3795, H.R. 4274, H.R. 5155, H.R. 5448, H.R. 
5454, H.R. 5709, H.R. 5954, H.R. 5985 and H.R. 6032.
    As a preliminary, I ask unanimous consent that Mr. Filner, Mr. 
Brown and Mr. Space be invited to sit on the dais for today's hearing. 
Without objection, so ordered.
    I know the issues addressed in these bills are of utmost importance 
to many of you in attendance today, who like me, have constituents or 
loved ones who are directly impacted by the problems they seek to 
solve.
    The subjects of the bills range from establishing presumptions of 
service-connection for certain diseases to loan forgiveness for 
veterans who die in combat. I look forward to hearing the informed 
testimony of our invited witnesses today.
    Speaking of invited witnesses, I must express my disappointment 
that the DoD did not find it ``efficient'' to provide a witness to 
testify, particularly on legislation that has clear DoD implications. 
Moreover, this notice came late last week after testimony was due and 
after the DoD originally indicated that it intended to provide a 
witness. I hope to avoid this unnecessary wrangling in the future. Our 
veterans should be important to every implicated Federal agency. The 
nexus between the DoD and VA are undeniable and should not be rebuffed 
by the DoD when we are attempting to examine issues that overlap on 
jurisdiction and responsibility.
    I note that yesterday the DoD did provide a written statement for 
the record. This fact aside, this Congress deserves the right to 
question the appropriate DoD personnel in person, not just in writing. 
Not to mention that our men and women who have given their all in 
service to our country deserve the right to have their elected 
representatives question the executive branch. This is how our system 
of checks and balances must work to ensure our democratic way of 
governing remains intact.
    As I know that many of you in attendance are eager to ask questions 
of, or to hear answers from our knowledgeable witnesses, I will reserve 
the rest of my time for questioning. Since we have eleven bills under 
consideration today, I'll let everyone know how I intend to proceed. 
After Mr. Lamborn gives his opening statement, I will recognize Members 
of the Committee who have legislation pending before the Subcommittee 
today. I ask that other Members of the Subcommittee that do not have 
legislation pending to please submit your statements for the record.
    We will then proceed to Panel I to receive testimony from our 
colleagues who have sponsored legislation pending before the DAMA 
Subcommittee. We will then proceed to panels II, III and IV each to 
follow by a round of questions where each Member on the dais will be 
offered 5 minutes to ask questions of the witnesses on that panel, in 
order according to the Rules of the House.
    I now recognize Ranking Member Lamborn for his Opening Statement.

                                 <F-dash>
  Prepared Statement of Hon. Doug Lamborn, Ranking Republican Member,
       Subcommittee on Disability Assistance and Memorial Affairs

    Thank you Mr. Chairman for yielding and I thank you and your staff 
for holding this hearing today.
    This afternoon, we are considering several pieces of legislation, 
all of which are of interest and potential value.
    While I do have some policy concerns regarding a number of the 
provisions, I am primarily struck by the mandatory offsets that would 
be necessary to pass many of these bills under PAYGO rules.
    Mr. Chairman as you know from the PAYGO problems with H.R. 5892, it 
is always a challenge to find offsets within our jurisdiction and that 
is something we need to keep in mind as we examine these bills today.
    The main policy concern I wish to express is that some of the 
provisions before us are similar to section 101 of H.R. 5892, in that 
they would redefine combat with the enemy as it pertains to section 
1154 of title 38.
    Mr. Chairman, my concerns with these types of provisions are not 
new to you or other Members of the Committee and I will not reiterate 
them here, except to point out that a loose definition of combat would 
diminish the immeasurable sacrifice and service of those who actually 
did face combat.
    While I understand and appreciate the effort to address problems 
regarding the VA claims backlog, I believe that they generally result 
from procedural issues and we should address the problems accordingly.
    On another note, I look forward to the testimony of the 
representatives from the Institute of Medicine who will hopefully 
enlighten the Subcommittee about the process involved in establishing a 
presumption of service-connection for certain illnesses and 
disabilities.
    Experts at VA and IOM have years of experience in dealing with 
these issues, and I think it is important for Congress to avail itself 
to their expertise whenever possible.
    Mr. Chairman I extend my thanks to you and your staff for holding 
this hearing and I look forward to hearing the testimony of our 
colleagues and the other witnesses today. I yield back.

                                 <F-dash>
              Prepared Statement of Hon. Michael Thompson,
       a Representative in Congress from the State of California

    Thank you, Chairman Hall and Ranking Member Lamborn, for holding 
this hearing. I introduced H.R. 5954 along with Congressman Denny 
Rehberg to allow veterans who were unknowingly used as guinea pigs in 
chemical and biological tests by their own government to seek medical 
care and compensation for their resulting illnesses. These tests--known 
as Project 112, which included Project SHAD, exposed at least 6,000 
servicemembers without their knowledge to extremely harmful chemical 
and biological weapons--and we believe there are many more veterans out 
there that don't even know they were exposed. However, the Department 
of Veterans Affairs routinely rejects their claims for medical care and 
compensation. Our legislation will finally correct this injustice and 
get these men treatment they earned by honorably serving their country.
    I am honored that my constituent and former tug boat commander Jack 
Alderson is here to testify today and share his first-hand knowledge of 
Project SHAD with you. Jack has been a tireless advocate for the 
veterans who were subjected to these tests and has kept in touch with 
many of them.
    When I first questioned the Department of Defense (DoD) in late 
1999, they told me that Project SHAD did not exist. Then I was told 
that the tests existed, but only simulants were used. Finally, after 3 
years of investigating, the DoD finally revealed that these tests 
involved live agents, in some cases Vx and Sarin nerve gases and E. 
Coli, along with a whole host of other substances known to cause 
extreme illness in humans. But despite these shocking revelations, the 
DoD has without reason stopped looking for records of Project 112 
service personnel and notifying the veterans subjected to these tests. 
The VA still does not recognize any long-term health consequences from 
exposure to these agents. As Jack Alderson will testify today, members 
of his crew and other affected servicemembers have since developed 
abnormal cancers and acute respiratory issues but are routinely 
rejected by the VA.
    You will also hear today from Dr. Judith Salerno, Executive 
Director of the Institute of Medicine. In 2002, Congress directed and 
appropriated $3 million for the IOM to conduct a study of the health 
effects associated with the chemicals used during Project SHAD. Dr. 
Salerno will tell you that after 5 years of research, the IOM found no 
connection between the substances tested and the health problems of the 
SHAD veterans. With all due respect to IOM, I strongly believe their 
findings to be unsound. During the briefing on the IOM report, and 
utilizing the expertise of SHAD veterans Jack Alderson and John Olson, 
Congressman Rehberg and I identified serious deficiencies in the 
protocol used by IOM. For example, the health records of deceased 
Project SHAD veterans, who may have died as a result of health effects 
stemming from exposure during Project SHAD, were not examined. Such an 
omission could have a large impact on the results of the study. I 
hereby enter into the hearing record the letter sent to Dr. Rick 
Erdtmann of the IOM, which further outlines these issues and requests 
that the study be reopened. It is my understanding from the IOM that 
their review is ongoing and I look forward to hearing their results. 
But in the meantime, I want to also enter into the record a 
bibliography of fact sheet after fact sheet that have been prepared by 
other agencies and departments within U.S. Government that say exposure 
to these substances do in fact have long-term health consequences.
    It is incumbent upon Congress to ensure that any servicemember who 
participated in these tests is provided with treatment if they have 
health problems associated with these tests. We can not wait any 
longer, considering many of these brave men who served their country 
are now sick or have even passed away. Project 112 and similar cases of 
chemical and biological testing on servicemembers is an issue of trust 
and integrity. How can we expect the current generation of soldiers to 
put their lives on the line knowing that harm from the enemy may not be 
the only danger they encounter? Jack and other crewmembers are 
beginning or have already experienced health problems that may be 
associated with these tests, and every day that we wait, I fear that 
these brave veterans grow sicker. Thank you for your time and 
consideration of this very important bill. It is imperative for us to 
right our government's past wrongs and help these brave veterans who 
unknowingly participated in these tests.

                                 ______
                                 
                                      Congress of the United States
                                      U.S. House of Representatives
                                                    Washington, DC.
                                                  February 15, 2008

Dr. Rick Erdtmann, Director
Board on Military and Veterans Health
Medical Followup Agency
Institute of Medicine of the National Academies
500 Fifth Street, N.W.
Washington, D.C. 20001

RE:  Institute of Medicine (IOM) Study Long-Term Health Effects of 
Participation in Project SHAD

Dear Dr. Erdtmann:

    In November 2007, you and Dr. Bill Page briefed us on the results 
of the June 2007 IOM study that had been requested by the Congress. The 
study looked at the long term health effects on veterans exposed during 
the operation of Project SHAD (Shipboard Hazard and Defense). As you 
know, the study failed to link Project SHAD to health problems 
experienced by veterans exposed during the testing project. During our 
briefing, and utilizing the expertise of SHAD veterans Jack Alderson 
and John Olson, we identified what we believe to be deficiencies in the 
protocol and requested that IOM reopen the study. This letter outlines 
the principal concerns we discussed and represents a formal request to 
reopen the IOM study.

    1.  The study acknowledges that ``up to five Army light'' tug boats 
participated in ``several'' Project SHAD tests, but it claims that 
complete personnel rosters were never found by the Department of 
Defense (DoD) or by IOM. According to SHAD veterans, the rosters were 
provided. For instance, a roster of personnel involved in the 1965 
Shady Grove test, approximately 106 participants, was provided to IOM 
and confirmed by DoD. With the rosters identified and made available, 
we would expect the personnel to be considered in the study.

    2.  Personnel that were not exposed during Project SHAD were 
included in the study: a) the USS Granville S Hall (YAG 40), the Desert 
Test Center Command and Laboratory ship, was not exposed during Project 
SHAD; b) the USS George Eastman (YAG 39), participated only in some 
Project SHAD tests and not in others. We believe the inclusion of 
personnel from these two ships compromises the study results. We 
request that IOM examine how the inclusion of sterile personnel may 
have affected the results.

    3.  The health records of deceased Project SHAD Technical Staff, 
who may have died as a result of health effects stemming from exposure 
to Project SHAD, were not examined. We would like you to determine if 
the cause of death information for those individuals is available and 
measure what impact that information would have on the results of the 
study.

    4.  The study failed to account for the job and duty assignments of 
various personnel on board the ships, which resulted in different 
levels of exposure. Consideration should be given to the fact that 
personnel had different levels of exposure during training and testing 
to multiple weapons, experimental vaccines, trace elements, simulants, 
and decontamination agents. These considerations should be factored in 
to gain the most accurate results.

    5.  The description of the tests performed does not reflect the way 
in which the SHAD test was actually conducted. SHAD veterans must be 
consulted to ensure that any existing misconceptions in the IOM study 
are rectified.

    Finally, the IOM study delineated a number of conclusions that were 
reached after classified material was reviewed by you and Mr. Don 
Burke. (See the IOM Study, p. 8-9.) SHAD veterans contest some of these 
conclusions, such as the conclusion regarding animal studies, as well 
as the one regarding vaccines. We request that these specific concerns 
be discussed more fully at the working group agreed to at the meeting, 
which will include representatives from DoD, IOM, selected SHAD 
veterans, and our staff.
    We appreciate the briefing you provided and your willingness to 
review the items described above. By this letter, we formally request 
that IOM initiate the necessary steps to reopen the IOM study, and to 
work with DoD, as well as Project SHAD veterans, to address the above-
referenced concerns. If you have additional questions, please contact 
our staff, Tracy Varghese at (202) 226-7372 or Brent Mead at (202) 225-
3211.

            Sincerely,

    Mike Thompson
    Member of Congress
                                             Dennis Rehberg
                                         Member of Congress

                                ------                                

Bibliography of Facts Sheets of Chemical and Biological Agents used in 
                              Project SHAD
    ``Health Effects of Project SHAD Biological Agent: Bacillus 
Globigii,'' The National Academies, 2004, Contract No. IOM-2794-04-001.
    ``Health Effects of Project SHAD Chemical Agent: Betapropiolactone 
[CAS #57-57-8],'' The National Academies, 2004, Contract No. IOM-2794-
04-001.
    ``Health Effects of Project SHAD Biological Agent Coxiella Bumetii 
[Q-Fever],'' The National Academies, 2004, Contract No. IOM-2794-04-
001.
    ``Calcium Hypochlorite, CAS #7778-54-3; Sodium Hypochlorite, CAS 
#7681-52-9,'' Fact Sheet prepared by Agency for Toxic Substances and 
Disease Registry, U.S. Department of Health and Human Services, Public 
Health Service, April 2002.
    ``Calcium Hypochlorite (CaCl202)/Sodium Hypochlorite, (NaOCI), CAS 
7778-54-3/7861-52-9; UN 1748/1791,'' Agency for Toxic Substances and 
Disease Registry, U.S. Department of Health and Human Services.
    ``Di(2-ethylhexyl) phthalate (DEHP), CAS #117-81-7,'' Fact Sheet 
prepared by Agency for Toxic Substances and Disease Registry, U.S. 
Department of Health and Human Services, Public Health Service, 
September 2002.
    ``Concise International Chemical Assessment Document 52: Diethyl 
Phthalate,'' World Health Organization, Geneva, 2003.
    ``Chemical Information Profile for Diethyl Phthalate [CAS No. 84-
66-2]: Supporting Nomination for Toxicological Evaluation by the 
National Toxicology Program,'' National Institute of Environmental 
Health Sciences, National Institutes of Health, U.S. Department of 
Health and Human Services, November 2006.
    ``Diethyl Phthalate, CAS #84-66-2,'' Fact Sheet prepared by Agency 
for Toxic Substances and Disease Registry, U.S. Department of Health 
and Human Services, Public Health Service, September 1996.
    ``Bis(2-ethylhexyl) Phosphate, CAS No. 298-07-7,'' International 
Programme on Chemical Safety, October 2001.
    ``Escherichia coli,'' Centers for Disease Control, Department of 
Health and Human Services, March 27, 2008.
    ``Ethylene Oxide, CAS #75-21-8,'' Fact Sheet prepared by Agency for 
Toxic Substances and Disease Registry, U.S. Department of Health and 
Human Services, Public Health Service, July 1999.
    ``Formaldehyde, CAS #50-00-0,'' Fact Sheet prepared by Agency for 
Toxic Substances and Disease Registry, U.S. Department of Health and 
Human Services, Public Health Service, June 1999.
    ``Health Effects of Project SHAD Chemical Agent: Methyl 
Acetoacetate, CASD #105-45-3,'' The National Academies, Spring 2004, 
Contract No. IOM-2794-04-001.
    ``Health Effects of Project SHAD Biological Agent: Pasteurella 
[Francisella] Tularensis [Tularemia],'' The National Academies, Spring 
2004, Contract No. IOM-2794-04-001.
    ``Health Effects of Project SHAD Chemical Agent: Phosphorus-32 
[Radiotoxic Effects],'' The National Academies, Spring 2004, Contract 
No. IOM-2794-04-001.
    ``Q-Fever,'' Centers for Disease Control, Department of Health and 
Human Services, February 13, 2003.
    ``Health Effects of Project SHAD Biological Agent: Serratia 
Marcescens,'' The National Academies, 2004, Contract No. IOM-2794-04-
001.
    ``FDA Warns Public of Contaminated Syringes,'' Press Release, U.S. 
Food and Drug Administration, January 25, 2008.
    ``Staphylococcal Food Poisoning,'' Centers for Disease Control, 
Department of Health and Human Services, March 29, 2006.
    ``Sulfur Dioxide, CAS #7446-09-5,'' Fact Sheet prepared by Agency 
for Toxic Substances and Disease Registry, U.S. Department of Health 
and Human Services, Public Health Service, June 1999.
    ``Tularemia,'' Centers for Disease Control, Department of Health 
and Human Services, October 7, 2003.
    ``Toxicologic Assessment of the Army's Zinc Cadmium Sulfide 
Dispersion Tests: Free Executive Summary,'' National Academy of 
Sciences, 1997.

                                 <F-dash>
              Prepared Statement of Hon. Denny R. Rehberg,
         a Representative in Congress from the State of Montana

    H.R. 5954--To grant presumption of service connection to veterans 
of Project 112, including Project SHAD.
    Thank you Mr. Chairman and Members of the Subcommittee for allowing 
me to testify today on my legislation, H.R. 5954, to grant presumption 
of service connection to veterans of Project 112, including Project 
SHAD.
    I would also like to thank Representative Mike Thompson, who has 
been a tireless advocate on this issue. It has been my pleasure to work 
with him to bring these tests to light and fight to get Project 112/
SHAD veterans the benefits they deserve.
    When I was first elected to the House of Representatives in 2001, I 
was approached by Billings resident John Olsen. John told me a 
disturbing tale of a government refusing to be accountable for its 
actions, a long line of healthcare problems, and a lack of care.
    In the early Cold war era, the Department of Defense and other 
Federal agencies conducted a series of tests called Project 112. During 
these projects, a number of weapons containing chemical and biological 
agents such as VX nerve gas, Sarin Nerve Gas and E. Coli were tested on 
unknowing military personnel. John is one of the victims. Over the 
years, he has battled several health problems including skin cancer, 
prostate cancer, and an adrenal tumor the size of his fist.
    Even worse, for more than 40 years the existence of these tests was 
denied by the Department of Defense (DoD), despite reports from 
participating veterans, like John, that they were being stricken with 
unusual diseases. During that time, many of these veterans suffered and 
died while their government looked the other way. Finally, in 2001, the 
DoD acknowledged that the tests took place. However, the Veterans 
Administration (VA) still wouldn't provide these veterans with health 
benefits and compensation for their diseases.
    Instead, the VA commissioned a study which was conducted by the 
Institute of Medicine. Representative Thompson and I have questioned 
the validity of this study as it relates to the long term health 
effects on veterans of Project SHAD. Without going into too much 
detail, the study did not accurately portray the method in which these 
tests were conducted, and did not include sailors from the light tug 
boats participating in the tests and which my constituent John Olson 
served on. This was a deeply flawed study that should not be used as a 
basis to deny benefits to these veterans.
    While working on this issue, I've been alarmed by the deficiency of 
the program for notifying Project SHAD veterans of their exposure. Due 
to pressure from Congress, initial search efforts began in 2000; 
however, they were and continue to be inadequate bordering on 
negligent.
    Since 2003, the Department of Defense has stopped actively 
searching for individuals who were potentially exposed to chemical or 
biological substances during Project 112/SHAD. At that time, the 
Department of Defense reported it had identified 5,842 servicemen and 
estimated another 350 civilians were exposed during these tests.
    Since the 2003 report to Congress an additional 598 veterans of 
these tests have been identified as potentially exposed. 394 were found 
in the June 2007 Institute of Medicine study, 165 were provided by 
various veterans' advocacy organizations, and another 39 were found 
through the Government Accountability Office's efforts. All told, since 
the Department of Defense stopped looking, 598 veterans have been 
identified, 10 percent of the original total. Put simply, we do not 
know how many more veterans may be out there.
    It is a true tragedy that our government, after exposing these 
servicemen and women to a witch's brew of chemicals, cannot be bothered 
to find and notify them of such.
    As I mentioned earlier, the Department of Defense did identify 
around 350 civilians who were potentially exposed during the course of 
these tests. However, to date, no effort has ever been made to notify 
these civilians.
    H.R. 5954, in addition to the well-deserved presumption of service 
connection designation, would begin to draw a circle around the problem 
and correct it by implementing the recommendation from a February 2008 
GAO report on Project SHAD. The Department of Defense must reopen its 
search and notification efforts, or provide an adequate cost-benefit 
analysis as to why not.
    This legislation will help set a standard of oversight for the 
Federal Government's treatment of our soldiers. We can't sweep the 
suffering of these veterans under the rug. We can fix the problem 
created 40 years ago, and this legislation will do that.
    Again, thank you for allowing me the opportunity to testify. And 
with unanimous consent I would also like to include the written 
statement of John Olsen for the record.
    [The prepared statement of Mr. Olsen appears on p. 108.]

                                 <F-dash>
                 U.S. Government Accountability Office
                   Report to Congressional Requesters
 ``CHEMICAL AND BIOLOGICAL DEFENSE: DoD and VA Need to Improve Efforts 
to Identify and Notify Individuals Potentially Exposed During Chemical 
        and Biological Tests: Chemical and Biological Defense''
                       February 2008, GAO-08-366
                             GAO Highlights
Why GAO Did This Study
    Tens of thousands of military personnel and civilians were 
potentially exposed to chemical or biological substances through 
Department of Defense (DoD) tests since World War II. DoD conducted 
some of these tests as part of its Project 112 test program, while 
others were conducted as separate efforts. GAO was asked to (1) assess 
DoD's efforts to identify individuals who were potentially exposed 
during Project 112 tests, (2) evaluate DoD's current effort to identify 
individuals who were potentially exposed during tests conducted outside 
of Project 112, and (3) determine the extent to which DoD and the 
Department of Veterans Affairs (VA) have taken action to notify 
individuals who might have been exposed during chemical and biological 
tests. GAO analyzed documents and interviewed officials from DoD, VA, 
the Department of Labor, and a veterans service organization.
What GAO Found
    Since 2003, DoD has stopped actively searching for individuals who 
were potentially exposed to chemical or biological substances during 
Project 112 tests, but did not provide a sound and documented basis for 
that decision. In 2003, DoD reported it had identified 5,842 
servicemembers and estimated 350 civilians as having been potentially 
exposed during Project 112, and indicated that DoD would cease actively 
searching for additional individuals. However, in 2004, GAO reported 
that DoD did not exhaust all possible sources of information and 
recommended that DoD determine the feasibility of identifying 
additional individuals. In response to GAO's recommendation, DoD 
determined continuing an active search for individuals had reached the 
point of diminishing returns, and reaffirmed its decision to cease 
active searches. This decision was not supported by an objective 
analysis of the potential costs and benefits of continuing the effort, 
nor could DoD provide any documented criteria from which it made its 
determination. Since June 2003, however, non-DoD sources--including the 
Institute of Medicine--have identified approximately 600 additional 
names of individuals who were potentially exposed during Project 112. 
Until DoD provides a more objective analysis of the costs and benefits 
of actively searching for Project 112 participants, DoD's efforts may 
continue to be questioned.
    DoD has taken action to identify individuals who were potentially 
exposed during tests outside of Project 112, but GAO identified four 
shortcomings in DoD's current effort. First, DoD's effort lacks clear 
and consistent objectives, scope of work, and information needs that 
would set the parameters for its effort. Second, DoD has not provided 
adequate oversight to guide this effort. Third, DoD has not fully 
leveraged information obtained from previous research efforts that 
identified exposed individuals. Fourth, DoD's effort lacks transparency 
since it has not kept Congress and veterans service organizations fully 
informed of the progress and results of its effort. Until DoD addresses 
these limitations, Congress, veterans, and the American public cannot 
be assured that DoD's current effort is reasonable and effective.
    DoD and VA have had limited success in notifying individuals 
potentially exposed during tests both within and outside Project 112. 
DoD has a process to share the names of identified servicemembers with 
VA; however, DoD has delayed regular updates to VA because of a number 
of factors, such as competing priorities. Furthermore, although VA has 
a process for notifying potentially exposed veterans, it was not using 
certain available resources to obtain contact information to notify 
veterans or to help determine whether they were deceased. Moreover, DoD 
had not taken any action to notify identified civilians, focusing 
instead on veterans since the primary impetus for the research has been 
requests from VA. DoD has refrained from taking action on notifying 
civilians in part because it lacks specific guidance that defines the 
requirements to notify civilians. Until these issues are addressed, 
some identified veterans and civilians will remain unaware of their 
potential exposure.
What GAO Recommends
    GAO suggests that Congress direct DoD to develop guidance to notify 
potentially exposed civilians. GAO also recommends that DoD and VA take 
steps to improve their efforts to more effectively identify and notify 
individuals. DoD and VA generally agreed with most of the 
recommendations. However, DoD did not agree with the recommendation to 
conduct a cost-benefit analysis regarding additional Project 112 
research. As a result, GAO suggests that Congress direct DoD to conduct 
such an analysis.
    To view the full product, including the scope and methodology, 
click on http://www.GAO-08-9366. For more information, contact Davi M. 
D'Agostino at (202) 512-5431 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99fdf8fef6eaedf0f7f6fdd9fef8f6b7fef6efb7">[email&#160;protected]</a>

                                 <F-dash>
              Prepared Statement of Hon. Zachary T. Space,
          a Representative in Congress from the State of Ohio

    Thank you, Chairman Hall, Ranking Member Lamborn, and Members of 
the Subcommittee, for providing me with the opportunity to speak in 
favor of H.R. 5709, the ``Veterans Disability Fairness Act.''
    At the end of last year, the Oversight and Investigations 
Subcommittee held a hearing on an Institute for Defense Analyses report 
regarding the average disability payments received by veterans in each 
state.
    The hearing revealed that the VA's current data is lacking, and 
that ``regional cultures'' may be partly to blame for similarly 
disabled veterans receiving different ratings and thus, different 
disability payments. I introduced legislation specifically geared to 
correct these discrepancies.
    The Veterans Disability Fairness Act:

    <bullet>  Requires the VA to collect and monitor regional data on 
disability ratings.
    <bullet>  Requires the VA Secretary to conduct reviews and audits 
of the rating system.
    <bullet>  Requires the VA to submit a report yearly to Congress to 
track the progress of the program; and
    <bullet>  Requires VA raters to take ownership of their ratings by 
assigning identification codes to all adjudications. The performance of 
specific raters will then be evaluated periodically for consistency and 
accuracy.

    The current shortchanging in ratings is not reflective of our 
heroes' service, and there is no reason that a veteran from one state 
should receive less than veterans in other states. This legislation is 
an important step in addressing these issues and in providing needed 
oversight.
    Additionally, H.R. 5709 supplements this Subcommittee's work on 
Chairman Hall's H.R. 5892, the Veterans Disability Benefits Claims 
Modernization Act. Section 106 of that bill calls for an annual 
assessment of the quality assurance program that examines data from 
regional offices, the accuracy of evaluated claims, and creates 
automated, categorizable data to better identify trends. My bill will 
require accountability by enabling the specific identification of 
potentially problematic claims raters who may knowingly manipulate 
claims. Alternatively, my legislation will protect those who are doing 
their jobs with integrity.
    This bill is incredibly important to the veterans of Ohio; our 
state was ranked dead last in average disability payments, and I cannot 
stand for this. According to the IDA report, the national average 
disability payment is $8,890, and Ohio's average is $7,556. I believe 
we must act to restore parity to the disability payment system to 
ensure each veteran receives the full benefit he or she was promised. 
Senator Brown--a Member of the Senate Veterans' Affairs Committee--
agrees and has introduced an identical companion version of my bill to 
the Senate.
    Thank you again for your consideration of H.R. 5709. I am grateful 
for the opportunity to present this important piece of legislation to 
you.

                                 ______
                                 

        Veterans Disability Disparity State by State Rankings \1\
------------------------------------------------------------------------

------------------------------------------------------------------------

1. New Mexico----------------------------------------------------12,395-
------------------------------------------------------------------------
2. Maine                                                         11,734
------------------------------------------------------------------------
3. Oklahoma                                                      11,643
------------------------------------------------------------------------
4. Arkansas                                                      11,412
------------------------------------------------------------------------
5. West Virginia                                                 11,348
------------------------------------------------------------------------
6. Nebraska                                                      10,719
------------------------------------------------------------------------
7. Oregon                                                        10,677
------------------------------------------------------------------------
8. Louisiana                                                      9,815
------------------------------------------------------------------------
9. Vermont                                                        9,682
------------------------------------------------------------------------
10. Kentucky                                                      9,673
------------------------------------------------------------------------
11. North Carolina                                                9,549
------------------------------------------------------------------------
12. Arizona                                                       9,502
------------------------------------------------------------------------
13. Texas                                                         9,484
------------------------------------------------------------------------
14. Montana                                                       9,460
------------------------------------------------------------------------
15. Mississippi                                                   9,424
------------------------------------------------------------------------
16. Rhode Island                                                  9,337
------------------------------------------------------------------------
17. Washington                                                    9,156
------------------------------------------------------------------------
18. South Dakota                                                  9,125
------------------------------------------------------------------------
19. South Carolina                                                9,116
------------------------------------------------------------------------
20. Tennessee                                                     9,111
------------------------------------------------------------------------
21. Idaho                                                         9,063
------------------------------------------------------------------------
22. Hawaii                                                        9,047
------------------------------------------------------------------------
23. Wisconsin                                                     8,844
------------------------------------------------------------------------
24. California                                                    8,755
------------------------------------------------------------------------
25. Alabama                                                       8,752
------------------------------------------------------------------------
26. Missouri                                                      8,721
------------------------------------------------------------------------
27. Minnesota                                                     8,709
------------------------------------------------------------------------
28. Florida                                                       8,617
------------------------------------------------------------------------
29. Nevada                                                        8,606
------------------------------------------------------------------------
30. Colorado                                                      8,476
------------------------------------------------------------------------
31. Utah                                                          8,396
------------------------------------------------------------------------
32. Wyoming                                                       8,360
------------------------------------------------------------------------
33. Iowa                                                          8,348
------------------------------------------------------------------------
34. Massachusetts                                                 8,348
------------------------------------------------------------------------
35. New Hampshire                                                 8,317
------------------------------------------------------------------------
36. Alaska                                                        8,300
------------------------------------------------------------------------
37. New York                                                      8,278
------------------------------------------------------------------------
38. Pennsylvania                                                  8,270
------------------------------------------------------------------------
39. North Dakota                                                  8,237
------------------------------------------------------------------------
40. Georgia                                                       8,163
------------------------------------------------------------------------
41. Kansas                                                        8,052
------------------------------------------------------------------------
42. New Jersey                                                    8,032
------------------------------------------------------------------------
43. Michigan                                                      7,999
------------------------------------------------------------------------
44. Illinois                                                      7,816
------------------------------------------------------------------------
45. Connecticut                                                   7,737
------------------------------------------------------------------------
46. Virginia                                                      7,706
------------------------------------------------------------------------
47. Delaware                                                      7,679
------------------------------------------------------------------------
48. Maryland                                                      7,654
------------------------------------------------------------------------
49. Indiana                                                       7,573
------------------------------------------------------------------------
50. Ohio                                                          7,556
------------------------------------------------------------------------
Overall Average                                                   8,890
------------------------------------------------------------------------
\1\ Institute for Defense Analyses Analysis of Differences in Disability
  Compensation in the Department of Veterans Affairs Vol. 1: Final
  Report pg. C-15 (December 2006).


                                 ______
                                 
                                      Congress of the United States
                                      U.S. House of Representatives
                                                    Washington, DC.
                                                      July 20, 2007
President George W. Bush
1600 Pennsylvania Ave., NW
Washington, D.C. 20502

Dear Mr. President,

    In visits to Veterans County Service Offices around my district, my 
staff hears time and again that veterans in Ohio are concerned about 
inconsistencies in the processing of seemingly similar disability 
claims. This week, the Associated Press published a story outlining the 
findings of the Institute for Defense Analyses' VA-commissioned study 
on veterans' annual disability pay from state to state. I am incredibly 
concerned about the report's assertion that Ohio ranks dead last.
    According to the report, approximately one-third of disparities may 
stem from correctible factors, such as inconsistent training standards 
for claims evaluators and simply placing too much power in the 
subjective decisions of evaluators. While demographic factors also play 
a role in overall ratings, I believe the human component can be 
improved upon.
    Your administration has a responsibility to ensure that the 
processes the VA utilizes are of the highest industry standard, and 
that those charged with overseeing those processes are doing so. In 
fact, during Secretary Nicholson's 2005 confirmation hearings, he 
pledged to look into the existing discrepancies. This week, as you 
know, he submitted his resignation without having sufficiently acted to 
standardize disability pay across state lines.
    That's why I am writing to demand that the next Secretary of the 
Department of Veterans Affairs make this the highest priority. The new 
Secretary must ensure that veterans in Ohio and others are not being 
treated unjustly and unfairly relative to the rest of the country.
    Mr. President, we absolutely owe it to the veterans of Ohio to get 
the bottom of why they are being shortchanged. I would appreciate 
knowing your response to this matter.

            Sincerely,

                                                         Zack Space
                                                 Member of Congress

                                 <F-dash>
              Prepared Statement of Hon. Gus M. Bilirakis,
         a Representative in Congress from the State of Florida

    I would like to start by thanking Chairman Hall and Ranking Member 
Lamborn for including my legislation, H.R. 1197, on today's hearing 
agenda. The Prisoners of War Benefits Act is a bill that my father, 
former Representative Mike Bilirakis, first introduced several 
congresses ago. He was able to make some progress on the legislation 
before he retired in 2006, and I am pleased to be continuing his 
efforts on this important issue in the 110th Congress.
    The Prisoners of War Benefits Act is intended to improve the 
benefits currently available to former POWs. In 1981, Congress 
established several service-connected presumptions for certain medical 
conditions that affect former prisoners of war. However because a very 
high level of research certainty (95 percent) was required before 
establishing presumptive status, many other medical problems common in 
POWs have been excluded.
    My legislation establishes service-connected presumptions for two 
additional medical conditions: Type II diabetes and osteoporosis. My 
staff has worked with the American Ex-Prisoners-of-War to identify 
these conditions as having strong evidence of a relationship between 
the POW experience and the onset of the disease.
    Congress has passed legislation giving the Department of Veterans 
Affairs (VA) specific standards for determining whether the addition of 
new presumptive diseases for Vietnam and Gulf War veterans is 
warranted. These standards require a positive association for the 
adoption of a presumptive condition. However, Congress has not 
established a process for VA to add to the list of former POW 
presumptive diseases established in 1981. In 2001, the VA Advisory 
Committee on Former Prisoners of War recommended that the burden for 
establishing POW presumptions be adjusted to match the standards used 
for other beneficiary groups. Therefore, H.R. 1197 includes a provision 
to establish a process by which the VA could determine future 
presumptive conditions for former POWs when there is a positive 
association between the experience of being a prisoner of war and the 
occurrence of a disease or condition. Under my legislation, the VA 
Secretary would have to review the recommendations of the Advisory 
Committee on Former Prisoners of War and all other sound medical and 
scientific information and analyses available when making these 
determinations.
    Under current law, to be eligible for disability compensation for 
certain conditions presumed to be service-connected for former POWs, a 
veteran must have been held in captivity for 30 or more days.
    At the time when some of the original POW presumptions were 
enacted, short-term prisoners of war were unusual. Prisoners of war 
from more recent conflicts have been confined for shorter periods of 
time. H.R. 1197 would remove the 30-day minimum requirement, making all 
former POWs eligible regardless of how long they were held captive. 
This provision is based on the recommendations of the VA's Advisory 
Committee on Former Prisoners of War, which concluded in 2001 that this 
30-day requirement should be repealed.
    The 108th Congress did enact a partial repeal of the 30-day minimum 
requirement as part of the Veterans Benefits Act of 2003 (Public Law 
108-183). Specifically, this law eliminated the requirement that a POW 
be held for 30 days or more to qualify for presumptions of service-
connection for certain disabilities. Although I am pleased that 
Congress took this initial step, I believe that more can be done in 
this regard and urge my colleagues to support H.R. 1197 for this 
reason.
    Before I close, I would like to mention how pleased I am that we 
have also included H.R. 5454 on today's agenda. H.R. 5454, which I have 
cosponsored, would establish a presumption of service-connection for 
ALS. I have heard from some of my constituents whose loved ones suffer 
from this devastating disease. They firmly believe there is a link 
between their loved ones military service and their developing ALS.
    In closing Mr. Chairman, I want to thank you once again for 
including my bill in today's hearing. I hope that you and our other 
colleagues on the Subcommittee will support H.R. 1197 and H.R. 5454. I 
look forward to hearing the testimony from today's witnesses.

                                 <F-dash>
                  Prepared Statement of Hon. David Wu,
         a Representative in Congress from the State of Oregon

    Chairman Hall, Ranking Member Lamborn, distinguished Members of the 
Subcommittee:
    Thank you for the opportunity to testify today on behalf of H.R. 
3008, the Rural Veterans Services Outreach and Training Act.
    A few years ago, I was made aware of a problem that directly 
affects millions of individuals who have defended our country. Due to 
budget cuts in many areas--including my home state of Oregon--county 
veterans service officers are not being funded at adequate levels.
    County veterans service officers provide veterans with advice and 
casework service about their VA benefits. There is a singular need for 
these services in our rural communities. There are approximately 3 
million veterans living in rural areas in the United States. A 2004 
report published in the American Journal of Public Health indicates 
that veterans in rural areas are in poorer health than their urban and 
suburban counterparts. Without access to casework services, these 
veterans go without all the benefits they need, deserve, and have 
earned.
    Some may argue that veterans in rural areas can simply drive to the 
nearest VA Regional Office. But for many veterans and their caregivers, 
this is impractical. According to the National Rural Health 
Association, the average distance a rural veteran must travel to get 
care is 63 miles. For someone who has endured the trauma of a 
battlefield injury and begun the long, arduous process of 
rehabilitation, this is often, simply, too much to ask.
    Without access to a county veterans service officer, veterans must 
rely solely on customer service representatives over the telephone or 
Internet in order to access their VA services. But anyone who has ever 
encountered an automated phone system knows how frustrating and 
discouraging this can be. Veterans who have suffered physical, 
emotional, or psychological injuries should not be forced to navigate 
the VA bureaucracy alone because they do not live near a VA Regional 
Office.
    Our veterans deserve better, have earned better, and will get 
better under this bill. County veterans service officers provide rural 
communities with more than just their expertise. I believe our veterans 
are served best by their fellow community members. Community members 
understand a veteran's needs as they relate to his or her community, 
job, and family. Armed with this information, county veterans service 
officers can best advocate for the veterans they serve.
    With this in mind, I introduced the Rural Veterans Services 
Outreach and Training Act, which seeks to improve outreach and 
assistance to veterans and their families residing in rural areas.
    This bill establishes a competitive grant program at the Department 
of Veterans Affairs to help eligible states hire and train county 
veterans service officers for their rural communities.
    The Rural Veterans Outreach and Training Act targets grant money to 
the communities that need it most. This legislation requires that 
grants will be used only to supplement non-Federal funding sources, not 
supplant them.
    We have an obligation to ensure that veterans--wherever they 
reside--have access to the services they have earned and deserve. Our 
men and women in uniform give so much in service to our country, and I 
believe we should act accordingly to ensure they have access to local 
assistance to find the help they need.
    Again, I appreciate the Subcommittee's consideration of the Rural 
Veterans Services Outreach and Training Act. On behalf of a grateful 
nation and veterans everywhere, I look forward to working with you on 
this important legislation.

                                 <F-dash>
              Prepared Statement of Hon. Thomas H. Allen,
          a Representative in Congress from the State of Maine

    Thank you, Mr. Chairman, for convening this hearing on very 
important veterans' disability assistance bills, including my proposal, 
H.R. 5448, the ``Full Faith in Veterans Act of 2008.'' I am extremely 
grateful for this opportunity to testify before the Subcommittee about 
the need for my legislation, which I introduced in February of this 
year.
    The enormous stress of combat has long been recognized as the 
source of long-term, disabling psychological and emotional illness for 
many soldiers, sailors, marines and airmen. What we now know as post 
traumatic stress disorder, or PTSD, is not a new phenomenon. The wars 
in Iraq and Afghanistan, however, have been particularly stressful, 
given the unpredictability of ambushes and IED attacks, not knowing who 
is friend or foe, and repeated tours of duty. In addition, military and 
medical personnel more readily recognize the symptoms of this disorder. 
So it is not surprising that so many of our brave men and women return 
from Iraq and Afghanistan suffering from incapacitating fears, 
flashbacks, nightmares and other problems associated with their 
experiences. The Department of Veterans Affairs (VA) has diagnosed PTSD 
in about 67,000 Iraq and Afghanistan veterans. Because many veterans do 
not seek care for these problems, the true number is undoubtedly much 
higher.
    PTSD has affected those who have served in our Armed Forces since 
the days it was known as ``shell shock.'' Thousands of veterans from 
previous conflicts continue to struggle with the long-term effects of 
their service. Others have had their symptoms reemerge as a result of 
the extensive news coverage of the events of September 11, 2001, and 
the ongoing wars in Iraq and Afghanistan.
    The goal of the Full Faith in Veterans Act is to improve diagnosis, 
compensation, and treatment for veterans with PTSD.
    The primary component of the legislation seeks to ensure that every 
veteran whose PTSD resulted from their service receives treatment and, 
if appropriate, disability compensation.
    Veterans for Common Sense reviewed VA documents to determine the 
number of Iraq and Afghanistan veterans diagnosed with PTSD--about 
67,000. The organization also found the VA concluded that only about 
half of these veterans have a service-connected disability. This raises 
the question of the status for the other 30,000 or so veterans. Some 
veterans may not know they can file a claim or may still have a claim 
pending. But as I have learned from veterans in my district, proving 
that PTSD is service-connected can be very difficult, particularly for 
veterans of older conflicts. And denial of service-connection leaves 
these veterans without access to VA health benefits or disability 
compensation.
    I crafted my bill after listening to Maine veterans victimized by 
the current system. In many cases, the law appears to be stacked 
against them. Instead of the support and quality healthcare they were 
promised, the disabling trauma they suffered during military service 
has been met with skepticism and red tape. I would like to share the 
story of one of my constituents that brings these shameful 
circumstances to life.
    Terry Belanger is an Army veteran from Biddeford, Maine. He served 
in Vietnam from 1969-1970. Terry's principal duty was to serve as a 
light vehicle driver; his responsibilities included delivering and 
distributing ammunition to troops surrounding Chu Lai Air Base.
    Terry's time in Vietnam was harrowing. His vehicle came under enemy 
fire, he reports, ``practically every night.'' Close friends were 
killed in combat; another died in a stabbing over a game of cards; he 
witnessed the torture of Viet Cong officers, and saw the body of the 
driver of the truck ahead of his fly through a canvas top after the 
vehicle struck a mine; he slept in the mud and saw body bags being 
loaded on to U.S. planes. His captain was killed.
    On one mission, a young Vietnamese girl suddenly appeared in front 
of his truck and his vehicle ran over the little girl, probably killing 
her. Because his convoy was under fire, he could not stop. Terry's 
nightmares about this incident were rekindled a few years ago after he 
nearly struck another child who darted in front of his car.
    When he returned from Vietnam, Terry showed evidence of what 
several healthcare professionals have diagnosed as severe PTSD 
resulting from his service in Vietnam. It took him 6 months to want to 
hold his newborn daughter, but he didn't know why. In 1989, Terry filed 
a claim with the VA for service-connected PTSD. The claim was denied 
due to ``lack of credible information of supporting stressors.'' Terry 
would spend nearly two decades fighting his own government, a 
government he had fought to defend. Time and again, the VA denied 
service-connection due to lack of evidence that his condition was 
linked to his military service. All the while, Terry and his family 
suffered, for his government would neither pay for his medical care for 
PTSD, nor provide him with disability benefits.
    For 19 years, Terry tried to get the Army to search for documents 
that would prove that these traumatic events had occurred. In January 
1993, the National Personnel Records Center told Terry that the records 
he requested ``would rarely show specific details about a unit's 
activities and movements and that it was unable to perform the 
extensive research requested due to staffing and budget limitations.'' 
Finally, in 2005, the National Archives and Records Administration 
found over 4,500 pages that verified that Terry's unit was in combat 
for months, just as he had claimed. This was sufficient to establish 
service-connection. But because of an enormous backlog of veterans' 
claims, Terry had to wait another 3 years before the VA would grant his 
claim.
    Last month, he finally received the VA's decision that it would 
grant his claim. Terry says that it took him 3 days to stop being 
angry, and he'll never understand why it took them so long to validate 
his claim.
    It took that long because the law is unfair. The veteran, not the 
agency that possesses the records, has the burden of producing 
documents that prove the trauma occurred. How was Terry Belanger, a 
disabled veteran in Biddeford, Maine, supposed to find the records that 
the government said it didn't have the time or money to look for? His 
doctors confirmed he had PTSD. His nightmares and flashbacks referred 
to his time in Vietnam. The Army trusted him when he served his 
country. Why should we distrust him now, in his time of need?
    Indeed, what is remarkable about Terry's case is that the records 
were ever uncovered. It happened only because Terry was so persistent 
and would not let his family down. He kept filing and appealing until 
finally, after 16 years, someone in the National Archives found 
thousands of pages that they had missed before.
    Terry's story is similar to many I have heard from veterans in 
Maine and, I would wager, is much like the experience veterans in each 
of your districts have had. In many cases, no records are kept of 
traumatic experiences in a combat theatre. As Terry had been told 
earlier, military records ``would rarely show specific details about a 
unit's activities and movements.'' In the case of Terry Belanger, the 
records were there amid millions of others. Either way, bureaucratic 
mismanagement or red tape is no excuse to deny veterans the healthcare 
and compensation they have earned.
    When no records can be found to substantiate the claim, a veteran 
can also submit two ``buddy statements'' as evidence that their claimed 
stressor actually occurred. Again, the burden of proof is placed on the 
veteran to find fellow servicemembers who may remember and can 
corroborate the veteran's story. This is not an easy task, particularly 
when seeking individuals that the veteran may not have seen or spoken 
to for decades. One can turn to the back of many veterans' magazines 
and see ads submitted by veterans looking for others who can verify 
their claims, like these (all from the April 2008 issue of VFW 
magazine):

        ``173rd [Airborne] Support [Battalion], An Khe, Vietnam, 1968-
        69--Seeking anyone who attend [sic] [Airborne] Jungle School 
        when one of the instructors was accidentally shot by one of the 
        other instructors next to me; anyone there when the school and 
        mess hall were shelled and three people were killed; cooks and 
        supply people; Sergeant Provost and Jimmy Gibson; anyone who 
        was there when the mess hall caught on fire and we put it out; 
        anyone who witnessed an accidental shooting on April 9, 1968, 
        in the bunkhouse. Need substantiation for PTSD claim.--William 
        E. Young, Jr.''

        ``222nd Personnel Services [Company], Vietnam, early 1971--
        Seeking anyone in a convoy traveling between Vaung Tan and Long 
        Binh and saw Huey shot down. Need substantiation for PTSD 
        claim.--John Westbrook''

        ``4th [Infantry Division Artillery] Base Camp, Pleiku, Vietnam, 
        Sept. 1969-Nov. 1970--Seeking anyone attached to camp. Need 
        substantiation for PTSD claim.--Roger Carroll''

    Veterans should not have to take out classified ads in order to 
have their valid claims for PTSD approved by the VA.
    Under my common sense bill, if a veteran is diagnosed by a 
certified medical health professional as suffering from PTSD related to 
the veteran's military service, the VA must accept this finding as 
sufficient proof of service-connection. As with other disability 
claims, the VA must resolve every reasonable doubt in favor of the 
veteran. However, the VA can rebut this finding of service-connection 
by clear and convincing evidence to the contrary. Thus, if contrary 
evidence exists, and the VA produces it, the claim will not be allowed.
    Under my bill, veterans like Terry Belanger would not have to wait 
two decades for the VA to find the relevant records. The law would also 
help the many veterans whose traumatic experience in the service never 
made it into official records. The new standards in my bill would apply 
to all veterans diagnosed with PTSD, not just those from the wars in 
Iraq and Afghanistan. It would also acknowledge the inherent dangers of 
military service and be applicable to all those who served our Nation 
in uniform, not just those who faced combat. It also accommodates cases 
of PTSD related to military sexual trauma that may not have happened in 
a combat zone.
    In addition to establishing a fair system for establishing service-
connection for PTSD, the bill would also ensure that the VA does a 
better job at diagnosing and treating this debilitating disorder.
    The bill requires that VA employees who are responsible for rating 
disability compensation claims involving PTSD successfully complete a 
certification program that incorporates best practices issued by the 
VA's National Center on PTSD.
    It directs the VA to audit the examinations that VA mental health 
professionals conduct for veterans who submit claims for PTSD 
disability compensation. This will help ensure these employees take 
enough time to diagnose and accurately rate the severity of the 
disorder.
    H.R. 5448 requires that the documents mental health professionals 
and raters consider when evaluating or rating PTSD must include the 
veteran's records from VA Vet Centers, as well as written opinions of 
any medical professional providing mental healthcare.
    The bill also directs the VA to update the schedule for rating 
disabilities, beginning with PTSD, traumatic brain injury, and other 
disabling mental health conditions.
    Finally, my measure requires the VA to implement an approach for 
providing treatment for veterans with PTSD that combines treatment, 
compensation, and vocational assessment.
    This bill has received support from a broad array of veterans 
groups, including Swords to Plowshares, Veterans for Common Sense, the 
Maine Veterans Coordinating Committee and Maine's Bureau of Veterans 
Services, along with the Maine departments of the American Legion, 
AMVETS, the Disabled American Veterans, and the Veterans of Foreign 
Wars.
    For too long, America has neglected our responsibilities to the men 
and women who carry the emotional scars military service sometimes 
brings. They battled for us; now we must help them battle their demons, 
by treating them fairly and respectfully. Terry Belanger's wife wrote, 
``This wonderful man--left part of his soul in Vietnam.'' I hope and 
pray that with care and support, Terry and other veterans suffering 
from PTSD will be restored to full and productive lives. The Full Faith 
in Veterans Act can help achieve this.

                                 ______
                                 
                                               Swords to Plowshares
                                                 San Francisco, CA.
                                                      March 4, 2008
Hon. Thomas H. Allen
United States House of Representatives
1127 Longworth House Office Building
Washington, DC 20515-1901

Dear Representative Allen,

    I write on behalf of Swords to Plowshares to thank you for 
introducing the Full Faith in Veterans Act (H.R. 5448). Swords to 
Plowshares is a non-profit Veterans Service Organization founded by 
Vietnam Veterans in 1974 and dedicated to providing services and 
support to veterans of all eras. Our legal staff have assisted 
countless veterans through the complex Veterans Benefits Administration 
(VB A) claims process to secure compensation for Post Traumatic Stress 
Disorder (PTSD) incurred during service to our country.
    H.R. 5448 addresses serious flaws in the adjudication of PTSD 
claims. Under current law, veterans must have both a PTSD diagnosis and 
military documentation of the traumatic stressor which caused their 
PTSD, or two ``buddy statements'' describing the event. This process of 
identifying two ``buddies'' and eliciting their description of painful 
events causes undue trauma to all the veterans involved, and is 
triggered by a failure in military documentation for which the veteran 
has no control. The proposal to accept a diagnosis of PTSD by a mental 
healthcare professional that establishes a logical relationship between 
exposure to military stressors and current PTSD is a vast improvement 
over the current process.
    We also applaud the effort to establish standards in PTSD case 
review through: the requirement that VBA PTSD Ratings Analysts complete 
a certification program incorporating best practices issued by the VA's 
National Center on PTSD; the requirement that VA audit their mental 
health examinations to ensure that sufficient time is taken to 
accurately diagnose and rate the severity of PTSD; and, the requirement 
that the Ratings Analysts consider Vet Center records and written 
opinions of other treating medical professionals in assessing PTSD 
claims.
    Thank you on behalf of Swords to Plowshares for your leadership in 
veterans' issues and we look forward to working with you and your staff 
to support the Full Faith in Veterans Act.

            Sincerely,
                                                    Michael Blecker
                                                 Executive Director

                                 ______
                                 
                                          Veterans for Common Sense
                                                    Washington, DC.
                                                      June 10, 2008
The Honorable Thomas Allen
Member of Congress
U.S. House of Representatives
1127 Longworth House Office Building
Washington, DC 20515

Dear Representative Allen:

    Veterans for Common Sense (VCS) strongly supports your new bill, 
``The Full Faith in Veterans Act,'' H.R. 5448. VCS asks Chairman John 
Hall and the House Veterans' Affairs Committee's Subcommittee on 
Disability Assistance and Memorial Affairs to favorably report the bill 
at their hearing on June 12, 2008. Our VCS goal is simple: We want VA 
to quickly and accurately process post traumatic stress disorder claims 
so our veterans are not forced to wait months or years for disability 
benefits. We thank you for your leadership on this important issue.
    The Department of Veterans Affairs' (VA) disability claims process 
for Iraq and Afghanistan War veterans remains broken--as shown by the 
fact that VA takes, on average, more than 6 months to process an 
initial claim, and VA takes nearly four more years to process a 
disability claim appeal. Among the most difficult claims to process are 
PTSD claims. VCS supports a presumption of a PTSD stressor based on 
deployment to a war zone.
    VCS remains alarmed that VA denies more than half of the PTSD 
disability benefits filed by Iraq and Afghanistan war veterans. The 
latest publicly available information shows that only 37,000 Iraq and 
Afghanistan war veterans' VA disability claims for PTSD were approved 
among the 75,000 veterans diagnosed at VA hospitals with PTSD. While 
some cases may be pending or on appeal, VA's rejection rate is 
suspiciously high, and the enormous disparity warrants a prompt 
Congressional oversight investigation above and beyond enacting H.R. 
5448.
    Your bill, H.R. 5448, requires VA reports on PTSD. VCS urges 
Congress to pass H.R. 1354, ``The Lane Evans Veterans Health and 
Benefits Improvement Act,'' a bill that requires VA to collect data and 
prepare reports about the human and financial costs of the Iraq and 
Afghanistan wars. VCS believes Congress should also ask VA how many 
non-Iraq and Afghanistan war veterans are diagnosed with PTSD by VA, 
and how many of those have approved PTSD claims. This information 
should shed more light on the issue of how VA handles PTSD healthcare 
and for claims for all our Nation's veterans.

            Sincerely,
                                                      Paul Sullivan
                                                 Executive Director

                                 ______
                                 
       ``Vietnam Veterans Seek Proof Of Stress-Inducing Events''
                          The Hartford Courant
                By Ann Marie Somma, Courant Staff Writer
                              May 25, 2008
    A Vietnam veteran from South Carolina is searching for three scuba 
divers who helped him fish dead bodies out of Cam Rahn Bay in Vietnam 
in 1967.
    An air rescue medic now living in Maine is desperately seeking 
anyone who remembers him killing 18 North Vietnamese during the Tet 
Offensive between January and March 1968.
    A Brookfield vet is hoping to find someone else who saw the 
explosion of a F-100 fighter bomber aircraft at the Bien Hoa air base 
in Vietnam in 1966.
    Every month, the Vietnam Veterans of America's magazine website is 
clogged with personal ads posted by vets around the country diagnosed 
with post traumatic stress disorder. They may have survived harrowing 
experiences in Vietnam, but the U.S. Department of Veterans Affairs 
won't approve their claims for disability unless they can document the 
exact traumatic episode that triggered the disorder.
    Because the service records of so many Vietnam veterans are 
incomplete and inaccurate, often their only hope is to find a fellow 
soldier who will write to the VA confirming the traumatic event, known 
as an in-service stressor.
    The letters are known, affectionately, as buddy letters.
    Robert Chechoski, a Vietnam veteran in Bridgeport who volunteers 
his time to help other vets file PTSD disability claims, said the need 
to produce buddy letters and to prove their trauma is hurtful for those 
who still remember their bitter homecoming.
    ``They hid for 30 years. They tried to put Vietnam out of their 
mind. A lot worked the midnight shift, because they can't deal with 
people, a lot drank to forget,'' Chechoski said. ``Then something 
awakens in their head, they go get counseling and help and a lot get 
denied by the VA.''
Burning Embers
    The veterans seeking buddy letters served in every branch of the 
military. They saw soldiers die. Their lives were threatened in 
ambushes, rocket attacks and shelling in villages and the jungle.
    But their military records typically don't include an account of 
the single traumatic event they witnessed. Their DD214s, the military 
service records issued by the Department of Defense, are incomplete and 
inaccurate. Some troops left Vietnam with no records at all. Those who 
served in top secret government missions were, in essence, never there.
    Veterans advocates say the VA's arcane standard of requiring 
evidence of an in-service stressor has denied thousands of veterans 
disability pay and continues at a time when the number of Vietnam-era 
veterans being treated for PTSD in the VA system is increasing.
    A 2007 study by Robert Rosenheck and Alan Fontana, two Yale 
University researchers, found that the number of those vets being 
treated for PTSD increased from 91,043 in 1997 to 189,309 in 2005. Some 
experts believe the war in Iraq is triggering Vietnam memories, causing 
the spike in numbers.
    Before the government officially recognized PTSD in 1980, thousands 
of Vietnam veterans became homeless, turned to drugs and alcohol or 
died. The VA now considers PTSD a disability and uses a rating system, 
from 10 to 100 percent, to determine how the illness has affected a 
veteran's quality of life, relationships and ability to earn a living. 
Compensation ranges from a few hundred dollars to $2,500 a month.
    Chechoski, who served three tours in Vietnam and was diagnosed with 
PTSD in 1996, offered an explanation of the delayed effects of the 
disorder.
    ``Picture a Weber grill. You set a bag of charcoal on fire, then 
you douse it with a 10-gallon bucket of water. You think you got that 
fire out, but there is one ember that is still alive and it will ignite 
sooner or later,'' Chechoski said.
    Armand Flynn's ember ignited on Sept. 11, 2001, after smoldering 
for more than 30 years.
    The Brookfield veteran dealt with Vietnam by living a simple life. 
He graduated from college, married and raised three children with a 
career administering compensation benefits for major corporations. But 
he drank too much. The liquor quelled his panic attacks and insomnia.
    On Sept. 11, when the hijacked planes hit the World Trade Center, 
Flynn flashed back to Vietnam on Oct. 6, 1966.
    Flynn says he was working the flight line attached to the U.S. Air 
Force 6234 Tactical Fighter Wing when a plane loaded with cannons and 
air-to-air missiles caught fire on the runway at the Bien Hoa air base.
    ``I saw that pilot go by me minutes earlier, then his plane blew up 
like an atom bomb. There was fire and noise, stuff cooking off the 
plane,'' said Flynn, 63.
    After the flashback he had a breakdown, and shortly after that he 
sought help at the VA in West Haven. A doctor there diagnosed him with 
PTSD and prescribed a cocktail of pharmaceuticals to ease his 
depression, panic attacks and insomnia.
    The explosion is recorded in the history of Flynn's Air Force unit. 
But VA personnel trained to search military archives can't find a 
record of his service in Vietnam.
    Flynn says he flew from California for duty in Vietnam in August 
1966 and remained there until October before moving to his permanent 
assignment in Korat, Thailand. The VA says his service records place 
him only in Thailand.
    Last year, seeking a buddy letter to prove he was at the air base, 
Flynn placed an announcement in the Vietnam Veterans of America 
magazine.
    Hurbert Bradshaw in California responded to Flynn's post. He says 
he served with Flynn in the 6234 Tactical Fighter Wing in Vietnam and 
wrote the VA that Flynn was in Vietnam with him.
    ``I met [Flynn] in Bien Hoa, that's why I wrote the letter,'' 
Bradshaw said.
    The VA denied Flynn's claim, despite the letter. He is on his third 
appeal.
    ``This has been really painful. Every time I have to appeal, I have 
to reconstruct the stressors, all the things that I buried are coming 
back, the memories, the nightmares,'' Flynn said.
    He wonders how long he can battle the government, a quest, he said, 
that has strained his 37-year marriage. He no longer works and relies 
on VA health benefits. He attends a PTSD group therapy session at the 
VA every Thursday.
    ``Is there anything else I missed, anybody I need to contact? Maybe 
there is a second person? I don't know what to do,'' Flynn said.
Fixing The Process
    Veterans groups have lobbied the VA to modernize the PTSD claims 
process, and there are efforts in Congress to eliminate the rule that 
requires proof of an in-service stressor. Now, unless a veteran 
received a Combat Infantryman Badge or Purple Heart, their stressor 
must be documented.
    U.S. Rep. Tom Allen, D-Maine, introduced legislation in Congress 
this year that would eliminate the need for veterans to prove a 
stressor to receive disability compensation for PTSD.
    ``What these guys experienced transcends military records,'' Allen 
said. ``We owe it to them. We shouldn't deny them benefits and 
treatments on a technicality.''
    Under Allen's Full Faith in Veterans Act of 2008, a diagnosis of 
PTSD by a mental healthcare professional who establishes a logical 
relationship between exposure to military stressors and current PTSD 
symptoms is enough to prove that the PTSD is service connected.
    At a press conference earlier this year, Allen told a group of 
veterans that his father was the inspiration behind the bill. His 
father volunteered for the Navy after Pearl Harbor, working control 
towers on air bases in the South Pacific. The towers were bombed 
nightly.
    But what affected Allen's father the most were the pilots who never 
returned from missions.
    ``My father never told me a lot about what happened to him during 
the war, but I know that when he came back he had what today would be 
diagnosed as PTSD,'' Allen said.
    Allen said the VA system needs to be overhauled to deal with the 
impending flood of PTSD claims from those serving in Iraq and 
Afghanistan. A recent study conducted by the RAND Corporation found 
that one in every five soldiers, or 300,000 troops of the estimated 1.7 
million who have been deployed to Iraq and Afghanistan, have depression 
and some sign of PTSD.
    ``There are no frontlines in Iraq, and we are going to have the 
lingering effects of PTSD for a long time,'' Allen said.
    Aaron Entrekin, a Vietnam veteran from Tennessee, said he drank 
himself through two wives and countless jobs before seeking help at the 
local VA hospital. Doctors there diagnosed him with PTSD in 2001, but 
he hasn't found anyone to confirm his stressor.
    Entrekin said he ran over a Vietnamese boy while driving a truck in 
a convoy heading south from Da Nang. He doesn't remember the exact 
year; 1970 or 1971, he guesses. But he'll never forget the boy's face.
    ``His dad was holding him in his arms. I see him every night in my 
dreams and when I close my eyes,'' Entrekin said. ``He was trying to 
cry, he was bleeding out of his mouth, nose and ears.''
    Entrekin wanted to take the boy to the hospital.
    His lieutenant ordered him to keep driving.
    The U.S. Army has no record of the accident. The VA has denied his 
claim three times.
    His announcement in the Vietnam veterans magazine in search of a 
buddy letter reads, ``They called me Slim or Hillbilly.'' Entrekin 
hopes the nicknames will jar the memory of someone who served with him 
in the U.S. Army's 25th Infantry Division 18th Engineer Brigade.
    ``If you ain't got a Purple Heart, they don't want to help you,'' 
he said. ``There are a lot of bad things that happened to people in 
Vietnam who didn't get a Purple Heart.''

                                 <F-dash>
           Prepared Statement of Judith A. Salerno, M.D., MS,
   Executive Officer, Institute of Medicine of the National Academies

    Chairman Hall asked the Institute of Medicine (IOM) of the National 
Academies to provide testimony regarding several bills under 
consideration by the Subcommittee. In response, we have prepared this 
testimony on issues raised in these bills that are addressed by recent 
IOM reports.
    My name is Dr. Judith Salerno and I am the Executive Officer of the 
Institute of Medicine. I serve as IOM's chief operating officer and 
executive director of the Institute, and am responsible for managing 
IOM's research programs. My past work includes positions at the 
Department of Veterans Affairs (VA), where I directed the continuum of 
VA's Geriatrics and Extended Care programs across the country. I also 
previously served as Associate Chief of Staff at the VA Medical Center 
in Washington, D.C., where I coordinated clinical services for older 
veterans. I am honored to have had the opportunity to serve veterans 
for 9 years in these capacities.
    The reports I will be discussing today were written by committees 
of experts convened under the auspices of the Institute of Medicine. 
IOM was created in 1970 as a component of the National Academy of 
Sciences, which was chartered by Congress in 1863. The National 
Academies' role is to provide independent, non-partisan, evidence-based 
advice to the Government and the Nation. As an independent voice, we 
neither support nor oppose the legislation under discussion at today's 
hearing.
    I will address provisions in seven of the bills that touch on 
topics covered in IOM reports.
H.R. 1197: Prisoner of War Benefits Act of 2007
    H.R. 1197 addresses issues related to the establishment of 
presumptions of service connection. The 2008 IOM report Improving the 
Presumptive Disability Decision-Making Process for Veterans describes 
the current process for making presumptive decisions for veterans who 
have health conditions arising during military service and proposes a 
scientific framework for making such decisions in the future. The 
report was requested by the Congressionally constituted Veterans' 
Disability Benefits Commission. Its findings and recommendations were 
previously delivered to the Subcommittee in testimony presented on 
February 26, 2008 by Jonathan M. Samet, MD, MS, and, in the interest of 
brevity, won't be repeated here. H.R. 3795, 5454, 5954, and 6032--which 
also deal with presumptions of service connection--are discussed below.
H.R. 3795: You Were There, You Get Care Act of 2007
    H.R. 3795 would add a presumption of radiation exposure for the 
purpose of service connection for veterans of the 1991 Persian Gulf War 
and subsequent conflicts in that theatre. The bill also calls for an 
independent study to determine diseases that may result from exposure 
to depleted uranium.
    In 1998, VA asked the IOM to convene a committee and to evaluate 
the scientific literature regarding potential health effects from 
exposure to depleted uranium. The committee's report--Gulf War and 
Health: Volume 1. Depleted Uranium, Pyridostigmine Bromide, Sarin, and 
Vaccines--was released in 2000. It concluded that there was inadequate 
or insufficient evidence to determine whether an association exists 
between uranium exposure and 14 health outcomes--lymphatic cancer, bone 
cancer, nervous system disease, reproductive or developmental 
dysfunction, nonmalignant respiratory disease, gastrointestinal 
disease, immune-mediated disease, effects on hematologic measures, 
genotoxic effects, cardiovascular effects, hepatic disease, dermal 
effects, ocular effects, and musculoskeletal effects. The committee 
also concluded that there was limited or suggestive evidence of no 
association between uranium and clinically significant renal 
dysfunction and between uranium and lung cancer at cumulative internal 
doses lower than 200 mSv.
    IOM is preparing an update of this report, which will include 
reviews of new scientific literature available since publication of the 
2000 report. This update is expected to be released in the fall of 
2008. In addition, the IOM has been asked by the Department of Defense 
to determine if it is feasible to conduct an epidemiological study of 
veterans who were exposed to depleted uranium while on active duty. A 
report addressing this question will be released later this year.
H.R. 5448: Full Faith in Veterans Act of 2008
    H.R. 5448 includes provisions that instruct the VA to update the 
rating criteria used to evaluate Post Traumatic Stress Disorder (PTSD) 
for compensation purposes and to create a training and certification 
program for the employees who perform the ratings.
    In June 2007, a committee convened by the IOM at the request of the 
VA completed a report entitled PTSD Compensation and Military Service. 
The committee's review identified several areas where changes in 
current practice might result in more consistent and accurate ratings 
for disability associated with PTSD. Such ratings are performed by VA 
raters using information gathered in a compensation and pension 
examination and criteria set forward in the Schedule for Rating 
Disabilities. Currently, the same set of criteria is used for rating 
all mental disorders. They emphasize symptoms from schizophrenia, mood, 
and anxiety disorders. The committee found that these criteria are at 
best a crude and overly general instrument for the assessment of PTSD 
disability. It recommended that new criteria be developed and applied 
that specifically address PTSD symptoms and that are firmly grounded in 
the standards set out in the Diagnostic and Statistical Manual of 
Mental Disorders used by mental health professionals.
    Determining ratings for mental disabilities in general and for PTSD 
specifically is more difficult than for many other disorders because of 
the inherently subjective nature of symptom reporting. In order to 
promote more accurate, consistent, and uniform PTSD disability ratings, 
the committee recommended that VA establish a certification program 
specifically for raters who deal with PTSD claims, with the training to 
support it, as well as periodic recertification. Rater certification 
should foster greater confidence in ratings decisions and in the 
decisionmaking process.
H.R. 5454: To amend title 38, United States Code, to establish a 
        presumption of service connection of amyotrophic lateral 
        sclerosis for purposes of the laws administered by the 
        Secretary of Veterans Affairs
    H.R. 5454 would establish a presumption of service connection for 
ALS. The available research on ALS in veterans was evaluated in an IOM 
study requested by the VA that resulted in the 2006 report Amyotrophic 
Lateral Sclerosis in Veterans: Review of the Scientific Literature. 
Only five studies on this topic were identified. The committee charged 
with performing the review found that there was limited or suggestive 
evidence of an association between military service and development of 
ALS. It recommended that additional studies on the relationship between 
military service and ALS be conducted and that, in addition, research 
was needed to explore what might be causing ALS among veterans: for 
example, involvement in traumatic events, intensive physical activity, 
or chemicals or other substances or activities that might be 
encountered during military service.
H.R. 5709: Veterans Disability Fairness Act
    H.R. 5709 would require the Secretary of the Department of Veterans 
Affairs to perform annual reviews of the accuracy and consistency of 
decisions on disability compensation and take those results into 
account in reviewing the performance of Veterans Benefit Administration 
and Board of Veterans Appeals adjudicators. The June 2007 IOM report A 
21st Century System for Evaluating Veterans for Disability Benefits 
found that VA's quality assurance effort has improved the accuracy of 
disability benefit decisions from less than 60 percent in 2000 to 88 
percent in 2006, which is commendable but still leaves considerable 
room for improvement. This report was requested by the Veterans' 
Disability Benefits Commission.
    The 21st Century System report also found that VA's quality 
assurance system did not address consistency of decisions across VA's 
58 field offices. The report recommended ongoing or periodic 
evaluations of inter-rater reliability as well as the accuracy and 
validity of ratings across field offices and impairment categories 
(Recommendation 5-4). The report similarly recommended periodic 
assessment of the inter-rater reliability of the disability 
examinations performed by the Veterans Health Administration, which are 
a key input to the disability determination process (Recommendation 5-
3). It should be noted, however, that the report stated that 
variability cannot be totally eliminated in evaluating most disabling 
conditions, because there will always be conditions with significant 
subjective elements such as mental disorders and back and joint pain. 
The report, therefore, emphasized using quality assurance results to 
improve the controllable elements of the decisions making system, for 
example, by revising guidelines, training, and/or rater qualifications 
and performance standards. It should also be noted that the main 
finding of the 21st Century System report was that the VA Schedule for 
Rating Disabilities is badly out of date for certain body systems such 
as musculoskeletal disorders, thereby hindering raters from providing 
accurate assessments of veterans' disabilities. The report recommended 
that VA immediately update the Rating Schedule using current medical 
knowledge, which should itself improve the accuracy and consistency of 
rating decisions.
H.R. 5954: To amend title 38, United States Code, to provide veterans 
        for presumptions of service connection for purposes of benefits 
        under laws administered by Secretary of Veterans Affairs for 
        diseases associated with service in the Armed Forces and 
        exposure to biological, chemical, or other toxic agents as part 
        of Project 112, and for other purposes.
    H.R. 5954 establishes a mechanism for determining presumptive 
service connections for diseases that could be related to participation 
in Project 112, which included an effort referred to as Project SHAD. 
The 2007 IOM report Long-Term Health Effects of Participation in 
Project SHAD (Shipboard Hazard and Defense), which was requested by the 
VA, found no clear evidence that specific long-term health effects were 
associated with participation in Project SHAD. The IOM study compared 
the health of veterans who participated in SHAD with the health of a 
similar group of veterans who did not participate. Although more SHAD 
veterans have died of heart disease, overall mortality rates among both 
groups of veterans were similar. Moreover, the differences in the rates 
of medical symptoms and conditions experienced by each group were 
generally slight, and the committee responsible for the report found no 
consistent, specific patterns of ill health among SHAD veterans. 
However, because of limitations in the study response rates and the 
size of the study, the report's findings should not be viewed as clear 
evidence that there are no possible long-term health effects related to 
SHAD involvement. Additionally, there have been very few hypotheses 
about specific health problems that could be related to the materials 
used in the SHAD tests to serve as a starting point for further 
investigation.
H.R. 6032: To amend title 38, United States Code, to direct the 
        Secretary of Veterans Affairs to provide wartime disability 
        compensation for certain veterans with Parkinson's disease.
    The IOM has convened several committees under a mandate contained 
in the Agent Orange Act 1991 (Public Law 102-4), charged with 
evaluating the scientific evidence regarding associations between 
diseases and exposure to dioxin and other chemical compounds in 
herbicides applied during the Vietnam War. These committees have 
produced a series of reports on the topic, the most recent of which is 
Veterans and Agent Orange: Update 2006. Their work is supported under a 
contract with the VA.
    One health outcome examined in these reports is Parkinson's 
disease. The committee responsible for Update 2006 found that the 
evidence is inadequate or insufficient to determine whether there is or 
is not an association between Parkinson's disease and exposure to the 
herbicides used in Vietnam and their contaminants. Several studies have 
reported associations of Parkinson's disease with exposure to 
``pesticides'' or to ``herbicides'' in general, but none yet reviewed 
have established a relationship with the specific herbicides sprayed in 
during the war. This condition continues to be of great interest to the 
committee and the latest research on the topic will be a subject of the 
next update, which will be released in 2009.
    The reports discussed here addressed a number of other topics 
related to veterans health and disability policy and also reached a 
series of other recommendations regarding these topics. The National 
Academies would be pleased to provide Members of the Subcommittee with 
hard copies of these reports upon request. The reports are also freely 
accessible online at the URLs listed in the references below.
    Thank you for the opportunity to present this testimony before the 
Subcommittee today. I would be happy to address any questions you may 
have.
Institute of Medicine reports cited in this testimony
    A 21st century System for Evaluating Veterans for Disability 
Benefits. (2007). http://www.nap.edu/catalog.php?record_id=11885.
    Amyotrophic Lateral Sclerosis in Veterans: Review of the Scientific 
Literature. (2006). http://www.nap.edu/catalog.php?record_id=11757.
    Gulf War and Health: Volume 1. Depleted Uranium, Pyridostigmine 
Bromide, Sarin, and Vaccines (2000). http://www.nap.edu/
catalog.php?record_id=9953.
    Improving the Presumptive Disability Decision-Making Process for 
Veterans. (2008). http://www.nap.edu/catalog.php?record_id=11908.
    Long-Term Health Effects of Participation in Project SHAD 
(Shipboard Hazard and Defense). (2007). http://www.nap.edu/
catalog.php?record_id=11900.
    PTSD Compensation and Military Service. (2007). http://www.nap.edu/
catalog.php?record_id=11870.
    Veterans and Agent Orange: Update 2006. (2007). http://www.nap.edu/
catalog.php?record_id=11906.

                                 <F-dash>
            Prepared Statement of Sidath Viranga Panangala,
       Analyst in Veterans Policy, Congressional Research Service
                          Library of Congress
Introduction
    Chairman Hall, Ranking Member Lamborn, and Members of the 
Committee, my name is Sidath Panangala, from the Congressional Research 
Service (CRS). I am accompanied today by Christine Scott, Specialist in 
Social Policy, and Douglas Weimer, Legislative Attorney, also from CRS. 
We are honored to appear before the Committee. As requested by the 
Committee, my testimony will highlight major legislative milestones in 
the establishment of presumptions of service-connection for veterans' 
benefits. This is not an exhaustive list of legislation and regulations 
relating to the establishment of presumptions of service-connection.\1\ 
CRS takes no position on any legislation that is under discussion 
today.
---------------------------------------------------------------------------
    \1\ For a detailed legislative and regulatory history of 
presumptions see the following: National Academy of Sciences, Institute 
of Medicine (IOM), Improving the Presumptive Disability Decision-Making 
Process for Veterans (2008); Zeglin, Donald, ``Presumptions of Service 
Connection'', paper prepared for the Veterans' Disability Benefits 
Commission (VDBC) (March, 2006); and Department of Veterans Affairs 
(VA), ``Analysis of Presumptions of Service Connection,'' a report to 
Senate Committee on Veterans' Affairs, December 23, 1993.
---------------------------------------------------------------------------
Compensation for Service-Connected Disabilities
    In general, a veteran is entitled to compensation for disabilities 
incurred in or aggravated during active military, naval or air 
service.\2\ Currently, there are five ways to establish that a 
disability is service-connected:
---------------------------------------------------------------------------
    \2\ 38 U.S.C. Sec. 1110.

    1.  Through direct service-connection--that is, the facts, shown by 
evidence, establish that a particular injury or disease resulting in a 
disability was incurred while in service in the Armed Forces (38 CFR 
---------------------------------------------------------------------------
Sec. 3.303);

    2.  Through aggravation during service--that is, a preexisting 
injury or disease will be considered to have been aggravated while in 
service in the Armed Forces (38 CFR Sec. 3.306);

    3.  Through proximity--that is, a disability, which is proximately 
due to, or the result of a service-connected disease or injury which is 
considered to be service-connected (38 CFR Sec. 3.310). For example, a 
veteran developing cardiovascular disease due to a service-connected 
amputation of a lower limb.

    4.  Through a finding, the disability was caused by medical care or 
vocational rehabilitation provided by the Department of Veterans 
Affairs (VA)--Disabilities caused by VA provided medical care or 
vocational rehabilitation are treated as if they are service-connected 
(38 U.S.C. Sec. 1151).

    5.  Through the application of statutory presumptions--that is 
certain diseases as established by law or regulation are considered to 
have been incurred in or aggravated by service in the Armed Forces even 
though there is no evidence of such disease during the period of 
service (38 CFR Sec. 3.307);

    Today I will discuss the history of this fifth mechanism, the 
establishment of statutory presumptions.
What is a Presumption?
    In the context of VA claims adjudication, a presumption could be 
seen as a procedure to relieve veterans of the burden to prove that a 
disability or illness was caused by a specific exposure that occurred 
during service in the Armed Forces. In other words, a presumption 
shifts the burden of proof concerning whether a disease or disability 
was caused or aggravated due to service, from the veteran to the VA. 
Often presumptions are applied to chronic diseases or illnesses that 
manifest after a period of time (sometimes many years) following 
service, and that may also occur in individuals who have never served. 
According to the VA's Analysis of Presumptions of Service Connection:

        Generally, a legal presumption is a procedural device that 
        shifts the burden of proof by attaching certain consequences to 
        the establishment of certain basic evidentiary facts. When the 
        party invoking a presumption establishes the basic fact(s) 
        giving rise to the presumption, the burden of proof shifts to 
        the other party to prove nonexistence of the presumed fact. A 
        presumption, as used in the law of evidence, is a direction 
        that if fact A (e.g., manifestation within the specified period 
        of a disease for which a presumption of service connection is 
        available) is established, then fact B (service connection) may 
        be taken as established, even where there is no specific 
        evidence proving fact B (i.e., no medical evidence of a 
        connection between the veteran's disease and the veteran's 
        military service).\3\
---------------------------------------------------------------------------
    \3\ Department of Veterans Affairs (VA), ``Analysis of Presumptions 
of Service Connection'' a report to the Senate Committee on Veterans' 
Affairs, December 23, 1993, p. i.
---------------------------------------------------------------------------
Legislative History of Presumptions
    The legislative history of veterans' disease presumptions dates 
back to 1921 when Congress, to ease the disability decisionmaking 
process in VA disability compensation adjudications, used its authority 
to establish service-connection on a presumptive basis. Given below is 
a synopsis of major legislation.
1920s-1940s
    The first legislation that specifically established a presumption 
of service-connection was the amendment of August 9, 1921 (P.L. 67-47) 
to the War Risk Insurance Act (P.L. 63-193). This Act, among other 
things, established presumptions of service-connection for active 
pulmonary tuberculosis and neuropsychiatric disease (later known as 
psychosis) occurring within 2 years of separation from active duty 
military service. Prior to the passage of P.L. 67-47, disability 
compensation for World War I veterans was payable only for a disability 
directly related to military service. Broadly, the intent of this 
liberalization legislation was that ``as the period beginning with the 
end of the war lengthened it became increasingly difficult to establish 
service-connection for some ailments particularly tuberculosis and 
neuropsychiatric disease.'' \4\ The amendments to the War Risk 
Insurance Act also gave the then Veterans Bureau, authority to 
establish rules and regulations to carry out provisions in the Act. 
This allowed the agency to promulgate regulations establishing 
presumption of service-connection for certain diseases. As stated in 
VA's Analysis of Presumptions of Service Connection:
---------------------------------------------------------------------------
    \4\ U.S. Congress, House Committee on Veterans Affairs, The 
Provision of Federal Benefits for Veterans, An Historical Analysis of 
Major Veterans Legislation, 1862-1954, committee print, 84th Cong., 1st 
sess., House Committee Print No 171, December 28, 1955 (Washington: 
GPO, 1955), p. 21.

        Regulation No. 11 provided that chronic constitutional 
        diseases, other than active pulmonary tuberculosis or 
        neuropsychiatric disease, becoming manifest within 1 year 
        following the date of separation from active service would be 
        considered as incurred in service or aggravated by service 
        unless there were affirmative evidence to the contrary or 
        evidence establishing that some intercurrent disease or injury 
        which is a recognized cause of the disorder was suffered 
        between the date of separation from service and the onset of 
        the chronic disease.\5\
---------------------------------------------------------------------------
    \5\ Department of Veterans Affairs (VA), ``Analysis of Presumptions 
of Service Connection,'' a report to Senate Committee on Veterans' 
Affairs, December 23, 1993, p. 10.

    The next major piece of legislation that established presumptions 
of service-connection was the World War Veterans Act of 1924 (P.L. 68-
242) enacted on June 7, 1924. This Act made important changes to 
existing laws on presumptions related to tuberculosis and mental 
illness. Among other things, this Act added the following three 
diseases to the list of presumptive diseases: dysentery (amebic) 
(tropical disease added as chronic disease); paralysis agitans (now 
known as Parkinson's disease); encephalitis lethargica. Furthermore, 
this Act removed requirements that a veteran must show diagnosis by a 
medical examination conducted by a medical officer of the then Veterans 
Bureau or duly qualified physician within the presumptive period. 
``This provision alone brought within the purview of the legislation 
thousands of veterans who [until then] had been unable to connect their 
disabilities with the service so as to be eligible for compensation and 
[medical care].'' \6\
---------------------------------------------------------------------------
    \6\ U.S. Congress, House Committee on Veterans Affairs, The 
Provision of Federal Benefits for Veterans, An Historical Analysis of 
Major Veterans Legislation, 1862-1954, Committee print, 84th Cong., 1st 
sess., House Committee Print No. 171, December 28, 1955 (Washington: 
GPO, 1955), p. 23.
---------------------------------------------------------------------------
    Between the passage of the World War Veterans Act of 1924 and P.L. 
80-748 several additions were made to the list of presumptive diseases 
through regulation and executive order. More significantly, the chronic 
disease category was significantly expanded through the enactment of 
P.L. 80-748 on June 24, 1948.
1950s-1980s
    With the passage of the Veterans Benefits Act of 1957 (P.L. 85-56), 
Congress codified the existing list of presumptions and expanded this 
list by incorporating various presumptions of chronic diseases and 
disease categories that had been established by regulation and were in 
effect at that time. By the time P.L. 85-56 was enacted on June 17, 
1957, there were forty chronic diseases or disease categories and 
seventeen tropical diseases that were presumptively service-connected. 
The sixties did not see any significant legislative or regulatory 
changes affecting presumptions of service-connection.
    The next major legislative change occurred with the enactment of 
P.L. 91-376 in August 1970. This law established a presumption of 
service-connection for seven categories of diseases and conditions for 
any veteran held as a Prisoner of War (POW) in World War II, the Korean 
conflict, or the Vietnam War, and who suffered from dietary 
deficiencies, forced labor, or inhumane treatment in violation of the 
terms of the Geneva Conventions of July 27, 1929, and August 12, 1949.
    In August 1981, Congress passed the Former Prisoner of War Benefits 
Act of 1981 (P.L. 97-37). This Act, among other things, modified the 
list of statutory presumptions associated with POW status and also 
changed the presumptive period for eligibility. The Veterans' 
Compensation and Program Improvements Amendments of 1984 (P.L. 98-223); 
the Veterans' Benefits Improvements and Healthcare Authorization Act of 
1986 (P.L. 99-576); and the Veterans' Benefits and Services Act of 1988 
(P.L. 100-322) expanded the list of diseases in former POWs for which a 
presumption of service-connection was made. Prior to the passage of the 
Veterans' Healthcare, Training and Small Business Loan Act of 1981 
(P.L. 97-72), veterans who complained of Agent Orange-related illnesses 
were at the lowest priority for treatment at VA medical facilities 
because these conditions were not considered service-connected. P.L. 
97-72 elevated Vietnam veterans' priority status for healthcare at VA 
facilities by recognizing a veteran's own report of exposure as 
sufficient proof to receive medical care unless there was evidence to 
the contrary.
    After taking into consideration the ``apprehension and concern 
among some Vietnam veterans and their families . . . to the alleged 
ill-health effects among some Vietnam veterans . . . to exposure to the 
dioxin in Agent Orange,'' \7\ Congress passed the Veterans' Dioxin and 
Radiation Exposure Compensation Standards Act of 1984 (P.L. 98-542). 
The Act required the VA to develop regulations for disability 
compensation for Vietnam veterans exposed to Agent Orange.\8\ Veterans 
seeking compensation for a condition they thought to be related to 
herbicide exposure had to provide proof of a service-connection that 
established the link between the exposure and the disease onset. P.L. 
98-542 also authorized disability compensation payments to Vietnam 
veterans for the skin condition chloracne, which is associated with 
herbicide exposure. This law also established a program to provide 
disability compensation to radiation-exposed veterans who participated 
in the U.S. atmospheric atomic tests or in the U.S. occupation of 
Hiroshima and Nagasaki, Japan.
---------------------------------------------------------------------------
    \7\ U.S. Congress, House Committee on Veterans' Affairs, Veterans' 
Dioxin and Radiation Exposure Compensation Standards Act. Report to 
Accompany H.R. 1961, 98th Congress, 2nd sess., H.Rept. 98-592.
    \8\ Between 1962 and 1971, the U.S. Air Force sprayed approximately 
107 million pounds of herbicides in South Vietnam for the purpose of 
defoliation and crop destruction. The herbicides sprayed during the 
Vietnam era contained mixtures of 2,4-dichlorophenoxyacetic acid (2,4-
D), 2,4,5-trichlorophenoxyacetic acid (2,4,5-T), picloram, and 
cacodylic acid. The most extensively used defoliant compound, a 50:50 
combination of 2,4-D and 2,4,5-T, came to be known as ``Agent Orange'' 
because of the orange-colored band placed on each chemical storage 
container. For further information see CRS Report, RL34370, Veterans 
Affairs: Healthcare and Benefits for Veterans Exposed to Agent Orange, 
by Sidath Viranga Panangala.
---------------------------------------------------------------------------
    In response to atomic veterans' complaints about the difficulty of 
getting compensation under P.L. 98-542, Congress in 1988 enacted the 
Radiation-Exposed Veterans' Compensation Act (P.L. 100-321) which 
established a presumption of a service connection for 13 specified 
types of cancer. That list was subsequently expanded, first by 
legislation, later through VA administrative action, to 21 cancers.\9\
---------------------------------------------------------------------------
    \9\ For further information see CRS Report, RL33927, Selected 
Federal Compensation Programs for Physical Injury or Death, by Sarah A. 
Lister and C. Stephen Redhead.
---------------------------------------------------------------------------
1990s-2000
    In 1991, the Agent Orange Act (P.L. 102-4) established for the 
first time a presumption of service connection for diseases associated 
with herbicide exposure. Under the Agent Orange Act, veterans seeking 
disability compensation for diseases they thought to be associated with 
herbicides no longer were required to provide proof of exposure. P.L. 
102-4 authorized the VA to contract with the Institute of Medicine 
(IOM) of the National Academy of Sciences (NAS) to conduct a scientific 
review of the evidence linking certain medical conditions to herbicide 
exposure. For the first time the Act established a new process 
establishing presumptive service-connection for illnesses related to 
herbicide exposure. According to an article published in the Journal of 
Law and Policy: ``The [IOM] process has become an essential step in 
ensuring that new service-connection presumptions command scientific 
credibility.'' \10\
---------------------------------------------------------------------------
    \10\ Brown, Mark, ``The Role of Science in Department of Veterans 
Affairs Disability Compensation Policies for Environmental and 
Occupational Illnesses and Injuries,'' Journal of Law and Policy, vol 
13, (2005).
---------------------------------------------------------------------------
    The Veterans' Radiation Exposure Amendments of 1992 (P.L. 102-578) 
amended P.L. 100-321 by adding two more cancers to the presumptive 
list. This was based on the ``Biological Effects of Ionizing Radiation 
V'' (BEIR V) report by the National Academy of Sciences (NAS).\11\ This 
law also repealed the disability compensation requirement that diseases 
suffered by radiation-exposed veterans must be manifested within 40 
years of exposure.
---------------------------------------------------------------------------
    \11\ Committee on the Biological Effects of Ionizing Radiation 
(BEIR), National Research Council, is part of the National Academy of 
Sciences.
---------------------------------------------------------------------------
    In November 1994, Congress enacted the Persian Gulf War Veterans' 
Benefits Act (P.L. 103-446), allowing the VA to pay compensation 
benefits to veterans for Gulf War-related disabilities caused by 
undiagnosed illnesses. This Act also codified VA's regulatory 
presumptions based on exposure to herbicides for these types of cancer: 
Hodgkin's disease, multiple myeloma, and respiratory cancers; and 
porphyria cutanea tarda, a metabolic disease (must occur within 1 year 
of exposure).
    In 1998, Congress enacted the Persian Gulf War Veterans Act of 1998 
(P.L. 105-277), and the Veterans Programs Enhancement Act 1998, (P.L. 
105-368). Similar to the Agent Orange presumptive program, these laws 
mandated regular and thorough reviews of the scientific and medical 
literature relevant to the health of Gulf War veterans by the IOM.
    The Veterans Education and Benefits Expansion Act of 2001 (P.L. 
107-103) expanded the definition of ``qualifying chronic disability'' 
to include a ``medically unexplained chronic multisymptom illness (such 
as chronic fatigue syndrome, fibromyalgia, and irritable bowel 
syndrome) that is defined by a cluster of signs or symptoms.'' \12\ 
Further more, the Veterans Benefits Act of 2003 (P.L. 108-183) provided 
a presumption of service-connection for cold weather injuries, 
traumatic arthritis, and certain psychiatric disabilities in former 
POWs, without regard to length of internment.
---------------------------------------------------------------------------
    \12\ Subsection 202 (a) of the Veterans Education and Benefits 
Expansion Act of 2001 (P.L. 107-103), December 27, 2001.
---------------------------------------------------------------------------
    With passage of the National Defense Authorization Act, FY2008 
(P.L. 110-181), Congress established a presumption of service-
connection for purposes of VA medical care for any veteran of the 
Persian Gulf War who develops an active mental illness (other than 
psychosis) if such veteran develops such disability: (1) within 2 years 
after discharge or release from the active military, naval, or air 
service; and (2) before the end of the 2-year period beginning on the 
last day of the Persian Gulf War.\13\
---------------------------------------------------------------------------
    \13\ The term ``Persian Gulf War'' means the period beginning on 
August 2, 1990, and ending on the date thereafter prescribed by 
Presidential proclamation or by law (38 U.S.C. Sec. 101 (33)).
---------------------------------------------------------------------------
Institute of Medicine Study on Presumptive Disability Decision-Making
    Since an ``increasing proportion of service-connected disability 
compensation is paid through a presumptive decisionmaking process,'' 
\14\ the Veterans' Disability Benefits Commission (VDBC) in 2006, 
requested the IOM, to provide a framework on how future presumptions 
should be made based on scientific principles.\15\ In 2007, the IOM 
made several recommendations--which the VDBC generally endorsed--which 
would, among other things, create an advisory Committee and a 
scientific review board. The advisory Committee ``would consider, and 
give priority to the exposures and health conditions proposed for 
possible presumptive evaluation'' while the ``science review board, an 
independent body, would evaluate the strength of the evidence (based on 
causation) that links a health condition to a military exposure.'' \16\ 
Next, the independent science review board's report and recommendations 
would go to VA for its consideration and implementation.\17\
---------------------------------------------------------------------------
    \14\ Honoring the Call to Duty: Veterans' Disability Benefits in 
the 21st Century, Report of the Veterans Disability Benefits 
Commission, (October 2007), p. 153. The Commission was established by 
the National Defense Authorization Act for FY2004 (P.L. 108-136).
    \15\ Ibid. p. 17.
    \16\ National Academy of Sciences, the Institute of Medicine (IOM), 
Improving the Presumptive Disability Decision-Making Process for 
Veterans (2008), p. 3.
    \17\ Ibid. p.18.
---------------------------------------------------------------------------
Conclusion
    Since 1921, Congress has established numerous presumptions of 
service connection for a variety of health conditions affecting 
veterans. In establishing these presumptions, Congress and others have 
sought to balance the dual obligations of the VA, to provide care for 
veterans who were harmed by their service, and to do so in a manner 
that is equitable, scientifically sound, and accountable.

                                 <F-dash>
                   Prepared Statement of Les Jackson,
            Executive Director, American Ex-Prisoners of War

    Chairman Hall, Distinguished Members of the Subcommittee on 
Disability Assistance & Memorial Affairs, and Guests. Thank you for 
inviting us to participate in your legislative hearings on several 
bills now pending in the House Committee on Veterans Affairs. We will 
confine our remarks to H.R. 1197 Improved Veterans' Benefits for Former 
Prisoners of War.
    Ninety nine percent of former Prisoners of War are from WWII and 
Korea and are now living in their sunset years. We are grateful that 
Congress has through the years provided benefits for former Prisoners 
of War where it has been determined that the causal effect of an injury 
or illness is from the captive experience.
    For more than 50 years the National Academy of Sciences has been 
conducting scientific research to identify medical conditions that, 
beyond any doubt, are the direct consequences of the brutal conditions 
of captivity.
    There are two medical conditions cited that still deserve 
presumptive status. These are osteoporosis and diabetes. Osteoporosis 
is bone loss attributed to starvation during captivity. Similarly, 
diabetes is the result of prolonged stress and permanent damage to the 
body's basic defense system as a result of months and years of grossly 
inadequate diet as a Prisoner of War.
    These two proposed presumptives have again been introduced by 
Representative Gus Bilirakis (R-FL). We are deeply thankful to him and 
strongly urge your committee's support by codifying these two 
conditions into law without further delay.
    Also, very important to former Prisoners of War and their survivors 
is H.R. 156, to amend 38, U.S. Code, to provide for the payment of DIC 
to survivors of former POWs who died before September 30, 1999, with 
the same eligibility as applied to payment of DIC to Survivors of 
former POWs who die after that date. This will be of great financial 
aid to the surviving spouses of POWs. Thank you.

                                 <F-dash>
                 Prepared Statement of Steve Smithson,
    Deputy Director, Veterans Affairs and Rehabilitation Commission,
                            American Legion

    Mr. Chairman and Members of the Subcommittee:
    Thank you for this opportunity to present The American Legion's 
views on the bills being considered by the Subcommittee today. The 
American Legion commends the Subcommittee for holding this hearing.
H.R. 1197, Prisoner of War Benefits Act of 2007
    The purpose of this bill is to amend title 38, United States Code, 
(U.S.C.) to provide improved benefits for veterans who are former 
prisoners of war.
    Specifically, this bill would repeal the current requirement in 
title 38 U.S.C. that an individual had to have been detained or 
interned for a period of not less than 30 days in order to be entitled 
to presumptive service connection for certain Prisoner of War (POW) 
diseases. It would also expand the list of POW diseases presumed to be 
service-connected, currently set forth in title 38, U.S.C., section 
1112(b), to include diabetes type 2 and osteoporosis. The legislation 
would also specifically authorize the Secretary of Veterans Affairs to 
create regulations adding or deleting diseases enumerated in section 
1112(b), on the basis of sound medical and scientific evidence, to 
include recommendations from The Department of Veterans Affairs' (VA's) 
Advisory Committee on Former Prisoners of War.
    The issue of the welfare and well-being of those veterans who have 
endured the hardship and trauma of being held as a POW has long been 
one of the major concerns of The American Legion. To ensure that the 
government of the United States fulfills its obligation to these brave 
men and women, The American Legion has actively supported improvements 
in benefits provided to these individuals and their survivors. We are 
pleased to support the addition of the two conditions, specified in 
this bill, to the list of those currently presumed to be service-
connected. It is hoped this legislation will provide the impetus for 
continuing action to further broaden the list of presumptive diseases 
and disabilities, from which former POWs are known to suffer. Toward 
this end, we are encouraged that the bill recognizes and emphasizes the 
important role played by VA's Advisory Committee on Former Prisoners of 
War. This group of esteemed individuals, many of who, are themselves 
former POWs, provide the necessary mechanism and forum to evaluate 
scientific and medical studies on former POWs to make appropriate 
recommendations to the Secretary regarding needed changes in VA's 
outreach, benefits, and medical care program for this community of 
veterans.
    Additionally, The American Legion has long supported the 
elimination of the arbitrary 30-day requirement for internment. Studies 
have shown there can be long-lasting, adverse health effects resulting 
from even a relatively short period of confinement as a prisoner of 
war. Such findings are especially important considering the nature of 
today's warfare and the rather short period of confinement most 
American POWs have faced during the post-Vietnam era.
    This legislation represents a solid step toward ensuring former 
POWs receive the compensation and medical care to which they are 
clearly entitled. However, in addition to those diseases that would be 
presumed service-connected, The American Legion recommends that the 
list also include chronic pulmonary disease, where there is a history 
of forced labor in mines during captivity, and generalized 
osteoarthritis, as differentiated from the currently listed disability 
of post traumatic osteoarthritis.
H.R. 3008, Rural Veterans Services Outreach and Training Act
    The purpose of this bill is to amend title 38, U.S.C., to improve 
services for veterans residing in rural areas. Specifically, this bill 
would establish a competitive grant program to provide financial 
assistance to state entities for veterans' affairs for the training of 
rural county veteran service officers in order to improve outreach and 
assistance to veterans, their spouses, children and parents, who may be 
eligible to receive benefits under the laws administered by the 
Secretary of Veterans Affairs, and to ensure that such individuals are 
fully informed about, and assisted in applying for, any benefits and 
programs under such laws.
    Providing proper outreach and assistance to the Nation's veterans, 
has been, and will continue to be, a top priority of The American 
Legion. Although we do not have an official position, in the form of a 
resolution adopted by our membership, specifically addressing a grant 
program for such purposes, as proposed in this legislation, we would 
not oppose the Committee's favorable consideration of this bill.
H.R. 3070, Disabled Veterans' Caregiver Compensation Act
    The purpose of this bill is to amend title 38, U.S.C., to authorize 
additional compensation to be paid to certain veterans in receipt of 
compensation for a service-connected disability rated totally disabling 
for whom a family member dependent on the veteran for support provides 
care.
    As written, this bill would provide additional compensation in the 
amount of $234 per month to totally disabled service-connected veterans 
in need of regular aid and attendance only where the veteran is being 
taken care of by an adult family member who is dependent upon the 
veteran for support. It should be noted that veterans who are 
permanently disabled and in need of aid and attendance already receive 
an additional $618 per month (SMC L pays $3,145) over the 100-percent 
rate ($2,527). Therefore, this bill will raise the monthly benefit 
amount for this subset of veterans from $3,145 to $3,379.
    The additional money paid to veterans, who need aid and attendance, 
is intended, in part, to help veterans who require aid and attendance 
to hire people who could provide care. Obviously, this bill 
contemplates that the veteran could use the additional $234 to 
compensate the adult family member who is taking care of the veteran. 
It is unclear why this additional amount would be provided as separate 
from the regular aid and attendance benefit because the purpose of the 
aid and attendance benefit is to pay for such care as addressed in this 
bill. It is also unclear as to how VA will determine who qualifies as a 
family member dependent on the veteran for support. This being the 
case, The American Legion would support an increase in the overall aid 
and attendance benefit rather than a separate payment as set forth in 
this bill.
H.R. 3795, You Were There, You Get Care Act of 2007
    The purpose of this bill is to amend title 38, U.S.C., to provide 
that veterans of service in the 1991 Persian Gulf War and subsequent 
conflicts shall be considered to be radiation-exposed veterans for the 
purposes of the service connection of certain diseases and 
disabilities, and for other purposes.
    Depleted Uranium (DU) munitions were widely used in the Southwest 
Asia theater of operations during the 1991 Gulf War and have been used 
extensively in military operations since then, including the current 
conflicts in Iraq and Afghanistan. As a result, there have been 
thousands of military personnel exposed to DU fallout from these 
munitions, including some with retained shell fragments due to 
``friendly fire'' incidents. The American Legion supports the intent of 
this bill. The American Legion recognizes the potentially harmful 
effect of DU exposure. This legislation would provide for the 
presumption of service connection for diseases associated with such 
exposure for those suffering from such a disease who served in the 1991 
Gulf War and any subsequent conflict where DU munitions were used. This 
legislation would also include service in the theater of operations of 
that war or conflict or involved the clean-up or servicing of vehicles 
or equipment that had been used in such a theater of operations.
H.R. 4274, Gold Star Parents Annuity Act of 2007
    The purpose of this bill is to amend title 38, U.S.C., to provide 
for the payment of a monthly stipend to the surviving parents (known as 
Gold Star parents) of members of the Armed Forces who die during a 
period of war.
    The American Legion does not have a position on this legislation.
H.R. 5155, Combat Veterans Debt Elimination Act of 2008
    The purpose of this bill is to amend title 38, U.S.C., to prohibit 
the Secretary of Veterans Affairs from collecting certain debts to the 
United States in the case of veterans who die as a result of a service-
connected disability incurred or aggravated on active duty in a combat 
zone, and for other purposes.
    Although we agree with the intent of this bill, the legislation 
contains limitations and restrictions we do not support. The American 
Legion supports prohibiting the collection of debts in the case of any 
veteran who dies as a result of a service-connected disability, not 
just those who die of a service-connected disability incurred or 
aggravated while serving in a theater of combat operations or in combat 
against a hostile force during a period of hostilities.
    A veteran's death due to a service-connected disability not related 
to combat is no less tragic for the veteran's family than a death due 
to a combat-related service-connected condition and we see no 
justification in making such a distinction. This bill also leaves it up 
to the discretion of the VA Secretary to determine if termination of 
collection of the debt is in the best interest of the United States and 
does not set forth any standards or criteria that must be met in 
determining whether or not termination of collection is in the best 
interest of the United States.
    Unfortunately, such vagueness will likely result in a restrictive 
interpretation which will, in turn, limit the beneficial impact that 
was obviously intended. The American Legion also has concerns over the 
exclusion of debts involving housing and small business benefit 
programs from the prohibition of collection.
H.R. 5448, Full Faith in Veterans Act of 2008
    The purpose of this bill is to amend title 38, U.S.C., to improve 
the disability compensation evaluation procedure of the Secretary of 
Veterans Affairs for veterans with post traumatic stress disorder, to 
improve the diagnosis and treatment of post traumatic stress disorder 
by the VA Secretary, and for other purposes.
    The American Legion supports the intent of this bill to correct 
current deficiencies in the service connection and evaluation of post 
traumatic stress disorder.
H.R. 5454
    The purpose of this bill is to amend title 38, U.S.C., to establish 
a presumption of service connection for amyotrophic lateral sclerosis 
(ALS) for the purpose of the laws administered by the VA Secretary.
    ALS is an insidious disease involving degeneration of the nerve 
cells in the brain, the brain stem, or spinal cord. ALS is 
characterized by atrophy and almost always fibrillation of the muscular 
system of the body. Although the disease was first identified in 1869, 
we still do not know what causes it or how it can be prevented, 
effectively treated or cured. ALS in its primary stage is difficult, if 
not impossible, to diagnose since in this stage the condition may 
appear to be dormant with little or no progression of symptoms for many 
years, thus leading the individual and his or her doctor to believe the 
condition has become arrested and nothing more is done to establish its 
diagnostic entity.
    Specifically, this bill, if enacted, would eliminate the 1-year 
delimiting period currently in place for the presumptive service 
connection of ALS, allowing for the presumptive service connection of 
ALS for veterans diagnosed with the disease anytime after military 
service. The American Legion fully supports this legislation. In fact, 
we have formally voiced our concerns over the inadequacy of the current 
1 year presumptive period for many years.
    The timeliness and appropriateness of this bill is further 
supported by research in the last several years that has indicated that 
those who have served in the military are at greater risk of developing 
ALS than those who never served in the military. Moreover, the 
Institute of Medicine, in a November 2006 report entitled Amyotrophic 
Lateral Sclerosis in Veterans: Review of the Scientific Literature, 
concluded that current scientific evidence supports the increased risk 
of ALS in military veterans.
H.R. 5709, Veterans Disability Fairness Act
    The purpose of this bill is to amend title 38, U.S.C., to require 
the VA Secretary to carry out quality assurance activities with respect 
to the administration of disability compensation, and for other 
purposes.
    The American Legion supports this bill.
H.R. 5954
    The purpose of this bill is to amend title 38, U.S.C., to provide 
veterans for the presumptions of service connection for purposes of 
benefits under the laws administered by the VA Secretary for diseases 
associated with service in the Armed Forces and exposure to biological, 
chemical, or other toxic agents as part of Project 112, and for other 
purposes.
    The American Legion fully supports this bill as it would put in 
place the process for establishing presumption of service connection 
for diseases that have been scientifically associated with exposure to 
the various agents and chemicals used in Project 112.
H.R. 5985, Compensation for Combat Veterans Act
    The purpose of this bill is to amend title 38, U.S.C., to clarify 
the service treatable as service engaged in combat with the enemy for 
utilization of non-official evidence for proof of service connection in 
a combat-related disease or injury.
    A bill with a similar intent (H.R. 5892) was recently passed by 
this Committee. Both Title I of H.R. 5892 and this bill seek to define 
``engaged in combat with the enemy,'' under title 38 U.S.C. section 
1154(b), in a manner that it is consistent with the realities of combat 
in today's world.
    The American Legion supports the intent of these bills. Unless a 
veteran was wounded or received a specific combat decoration or badge 
(such as the Combat Infantryman Badge or Combat Action Ribbon) or award 
for valor, it is often very difficult to establish that a veteran 
engaged in combat with the enemy in order to trigger the combat 
presumptions under title 38, U.S.C., section 1154(b). We must 
recognize, however, that the very meaning of the term ``engaged in 
combat with the enemy'' has taken on a whole new meaning as the nature 
of warfare in today's world has changed. This is especially true of 
service in the combat theaters of Iraq and Afghanistan.
    Due to the fluidity of the battlefield and the nature of the 
enemy's tactics, there is no defined frontline or rear (safe) area. 
Military personnel in non-combat occupations and support roles are 
subjected to enemy attacks such as mortar fire, sniper fire, and 
improvised explosive devices (IEDs) just as their counterparts in 
combat arms-related occupational fields. Unfortunately, such incidents 
are rarely documented making them extremely difficult to verify.
    Servicemembers who received a combat-related badge or award for 
valor automatically trigger the combat-related presumptions of title 
38, U.S.C., section 1154(b), but a clerk riding in a Humvee, who 
witnessed the carnage of an IED attack on that convoy, doesn't 
automatically trigger such a presumption and proving that the incident 
happened or that he or she was involved in the incident, in order to 
benefit from the presumption afforded under title 38, U.S.C., section 
1154(b), can be extremely time consuming and difficult.
    Given the evolving nature of modern warfare, as reflected in the 
enemy's unconventional tactics in Iraq and Afghanistan, The American 
Legion is of the opinion that it not only makes sense to clarify the 
definition of ``engaged in combat with the enemy'' under title 38, 
U.S.C. section 1154(b) in order to adapt to the new realities of modern 
warfare. It is essential that we do so, not just for those serving now, 
but for those who have served in the past and those who will serve in 
the future.
H.R. 6032
    The purpose of this bill is to amend title 38, U.S.C., to direct 
the VA Secretary to provide wartime disability compensation for certain 
veterans with Parkinson's disease.
    Specifically, this bill, if enacted, would establish Parkinson's 
Disease as a presumptive disability associated with Agent Orange/
herbicide exposure in Vietnam. The American Legion strongly supports 
the addition to the presumptive list all conditions that have been 
scientifically shown to be associated with Agent Orange/herbicide 
exposure in accordance with provisions set forth in statute.
    If Parkinson's Disease does not satisfy such criteria at this time, 
The American Legion recommends further research to explore the 
relationship between Parkinson's Disease and exposure to herbicides.
                               Conclusion
    Thank you again, Mr. Chairman, for allowing The American Legion to 
present comments on these important bills. As always, The American 
Legion welcomes the opportunity to work closely with you and your 
colleagues on enactment of legislation in the best interest of 
America's veterans and their families.

                                 <F-dash>
                   Prepared Statement of John Rowan,
            National President, Vietnam Veterans of America

    Good morning, Chairman Hall, Ranking Member Lamborn, and other 
Members of this distinguished Subcommittee. On behalf of the members of 
Vietnam Veterans of America (VVA), we thank you for the opportunity to 
appear here today to share our views on several of the bills up for 
consideration. We ask that our full statement be entered in the record, 
and I will briefly summarize the most salient points of our statement.
    We'd like to begin with H.R. 5954, which would provide veterans for 
presumptions of service connection for purposes of benefits for 
diseases associated with service in the Armed Forces and exposure to 
biological, chemical, or other toxic agents as part of Project 112.
    We think some background is relevant here. Some 7 years ago, VVA 
first learned of the then top-secret tests done at the height of the 
Cold War under the rubric of Project 112. These included the SHAD tests 
conducted mostly in the waters of the South Pacific as well as on land 
in Alaska, Hawaii, and several other venues in the United States and 
Canada; these tests were designed to measure the lethality of 
biological agents and simulants for agents, e.g., bacillus globigii for 
bacillus anthraxis, and the ability of U.S. vessels to repel them. They 
also included tests of hallucinogens and other pharmacological agents, 
mostly but not exclusively at Edgewood Arsenal and Fort Detrick. In the 
former tests, sailors and other military personnel were participants, 
not test subjects; in the latter tests, military personnel were very 
definitely the test subjects. Some tests, like the SHAD tests, 
commenced under Project 112; others, particularly the testing at 
Edgewood and Detrick, began as far back as 1952.
    Thanks to the efforts of Navy veterans like Jack Alderson of 
California, and John Olsen of Montana, and Norman LaChapelle of 
Tennessee (although he wasn't always from there), VVA became very 
interested in the possible long-term health effects of exposure to the 
agents and simulants that had been tested and the chemical 
decontaminants that had been used to ``clean'' ships and tugs after a 
test, or individual trials in a test, were completed. When we first 
approached the Department of Defense, we were stonewalled; eventually, 
DoD owned up to having planned some 134 SHAD tests and having completed 
50 of them. We never learned as much as we would have liked to learn 
about the Edgewood and Detrick tests, in part because of the 
composition of our Task Force on Project 112/SHAD, which was heavily 
weighted with SHAD veterans.
    We applauded Congressmen Mike Thompson and Denny Rehberg when they 
introduced H.R. 4952 in the 109th Congress. We applaud them again for 
introducing H.R. 5954 in this Congress. We endorse H.R. 5954, but with 
these caveats:

    <bullet>  Because chemical and biological agents are not 
necessarily toxic, language concerning exposure to ``a biological, 
chemical, or other toxic agent . . .'' is not quite correct. Also, if 
pharmacological products and hallucinogens are not embraced under 
``biological agents,'' they must be specified at the risk of 
inadvertently eliminating from the pool of veterans covered by this act 
several thousand veterans who were in fact test subjects.

    <bullet>  By essentially covering veterans who served from 
``approximately 1963,'' those who participated in tests prior to that 
year also would not be covered. This would be a miscarriage of justice, 
inasmuch as testing conducted during the fifties was subsumed under 
``112'' when Secretary of Defense McNamara divvied up the functions of 
the Department of Defense into some 150 different functions. Covering 
these veterans does not represent a ``fishing expedition.'' DoD is now 
maintaining a registry of Project 112 veterans (as well as registries 
of veterans who participated in lewisite and mustard gas testing during 
World War II, and veterans who were part of any other tests of chem-bio 
agents not embraced under Project 112).

    VVA supports H.R. 5954, with the noted caveats, because it 
represents a simple measure of justice. Veterans whose health has been 
adversely affected by exposures during their military service warrant 
healthcare and compensation for conditions shown to be positively 
associated with such exposures.
    H.R. 1197, The Prisoner of War Benefits Act of 2007, would repeal 
the currently required 30-day minimum period of internment prior to the 
presumption of service connection for certain diseases for purposes of 
the payment of veterans' disability compensation; it would add diabetes 
(type 2) and osteoporosis to the diseases already covered.
    As with H.R. 5954, veterans (in this case former POWs) would be 
covered ``whenever the Secretary [of Veterans Affairs] determines, on 
the basis of sound medical and scientific evidence, that a positive 
association exists'' between an experience of military service and the 
occurrence of a disease in humans. This of course assumes that the 
Secretary of Veterans Affairs and that bureaucratic structure, 
including the notoriously anti-veteran bureaucrat's bureaucracy of 
Office of Management & Budget (OMB), will act in a fair and impartial 
manner. Often, nothing approximating veteran-friendly or even 
impartiality is evident. In fact the opposite is more often than not 
the case.
    The flaw in the scenario of looking to the scientific evidence is 
that quite often the government will not fund the needed research, and 
all too often there is no reason for others to provide the resources to 
do such research, so the veteran is left bereft as the government 
either will not give the veteran access to key information citing 
``national security'' when in fact it is only the desire to escape 
culpability for damage done to the long term healthcare of veterans, or 
they will not fund the research needed to prove the case one way or 
another.
    VVA endorses H.R. 1197, even though we recognize that it may be 
difficult to secure passage because of ``PAYGO'' rules, unless an 
appropriate offset can be found. Frankly, the Secretary of Veterans 
Affairs should immediately seek a full review by the Institute of 
Medicine (IOM) reading Parkinson's disease. If it turns out that there 
is too little epidemiological evidence regarding veterans as determined 
by IOM then the Secretary should be bound to fund such independently 
conducted research as to be able to provide sufficient evidence that 
will indicate whether there is evidence of statistical association or 
not.
    H.R. 3008, the Rural Veterans Services Outreach and Training Act, 
would direct the Secretary of Veterans Affairs to carry out a program 
to make competitive grants to provide financial assistance to state 
departments of veterans affairs for the training of rural county 
veteran service officers in order to improve outreach and assistance to 
veterans, as well as their spouses, children, and parents, who may be 
eligible to receive veterans' or veterans-related benefits and who are 
residing in rural counties.
    It is difficult to disagree with the goals of this legislation. 
However, before VVA can support H.R. 3008, it needs a bit of tweaking.
    Veterans service organizations, too, supply veteran service 
officers to assist veterans and their dependents and survivors in 
filing claims with the Veterans Benefits Administration. Should not the 
VSOs, too, therefore, benefit from the largesse of this act? To direct 
grants of up to $1 million annually exclusively to and for county 
veteran service officers does a disservice to organizations like VVA, 
DAV, VFW, and the American Legion who provide effective representation 
to veterans.
    Another weakness of this bill is that it does not recognize the 
reality that some state and county service officers do not provide 
representation before the Board of Veterans' Appeals, and other 
organizations, e.g., VSOs, will not take on the cases of veterans in 
the appeals stage. BVA representation ought to be mandatory for a 
county's application for funding to be granted should this bill be 
enacted.
    We must also quibble with the definition of a county veteran 
service officer. What is missing from this definition is that (s)he 
must be accredited by the VA. Without this proviso, the law opens up 
the possibility that uncertified service officers can be trained and 
employed who do not meet VA requirements.
    Last, there must be some sort of quality assurance and 
accountability mechanisms built into this bill to ensure that what is 
really needed--high quality representation by trained and dedicated 
individuals who will help veterans residing in rural areas know the 
benefits to which they are entitled and skilled help in receiving those 
benefits--is actually the outcome that this proposed program is likely 
to achieve.
    If modified to meet the above criteria, then VVA would endorse such 
a bill.
    VVA applauds the impetus behind proposals such as this as the shape 
of our current active duty force is the most rural we have had in a 
century. Almost 40 percent of this active duty force (including 
deployed National Guard and Reservists) come from towns of 25,000 or 
less, according to DoD sources. Therefore, we (collectively) must 
rethink the paradigm of the way in which we deliver veterans' benefits 
and services of all types, whether it be the size and location of 
national cemeteries, or medical care, or assistance in learning about 
and securing hard earned veterans' entitlements and services.
    H.R. 3070, The Disabled Veterans' Caregiver Compensation Act, would 
require the Secretary of Veterans Affairs to pay monthly compensation 
of $234 to a veteran if and while totally disabled and in need of 
regular aid and attendance and while unpaid aid and attendance is 
provided by an adult family member who is dependent upon such veteran 
for support.
    VVA's only question is: Why $234? Where did this figure come from? 
Is it subject to annual COLA increases? Despite these questions, VVA 
does support enactment of H.R. 3070, although we think that this 
monthly amount is ridiculously low, and demeans the quality of care now 
given by adult family members, and does not even begin to make up for 
income lost when a spouse or parent or other quits work or takes only 
part time work in order to have the time to care for the veteran.
    H.R. 3795, The You Were There, You Get Care Act of 2007, presumes 
specified diseases, and any other disease found by the Secretary of 
Veterans Affairs to result from exposure to depleted uranium or the 
byproducts of the burn-off that occurs when a depleted uranium munition 
penetrates a target, among those diseases that will be presumed to be 
service-connected (and therefore compensable) when appearing in 
radiation-exposed veterans.
    Perhaps the critical element in this bill is the provision for 
independent medical study to determine diseases that may result from 
exposure to depleted uranium. If, as is the case with dioxin, there is 
compelling medical and scientific evidence that points to a positive 
association between exposure and the onset of a particular disease, 
then an exposed veteran surely warrants care and treatment and 
compensation. If enactment of this bill leads to greater knowledge 
about the potential health effects of exposure to depleted uranium, if 
it can clear up some of the controversies over the claimed adverse 
health effects of exposure, then it is worth the time of Congress to 
enact it.
    Keep in mind, however, that depleted uranium has been in production 
since the late sixties and has been tested in weaponry at such places 
at the Davy Crockett range in Hawaii. Is it fair to troops who may have 
been exposed to DU in these tests not to be covered for possible harm 
incurred during their service?
    VVA supports H.R. 3795, but recommends expanding the group of 
veterans to include all who were potentially exposed, including those 
involved in testing this weapon.
    H.R. 4274, The Gold Star Parents Annuity Act of 2007, would direct 
the Secretary of Defense to pay a special pension to each person who 
has received a Gold Star lapel button as a parent of a member of the 
Armed Forces who died while serving.
    VVA has long supported a pension for Gold Star Mothers who, in 
their old age, we would like to believe would have been assisted by 
their son or daughter had (s)he not died during a period of war or 
afterward because of illness or injuries incurred during military 
service. Frankly, however, the starting point for date of death should 
be retroactive to at least include the parents of those killed in 
Vietnam, even though the payments would only begin from the date of 
enactment forward.
    VVA at every level, local, state, and national, has a great deal of 
contact with these wonderful people, many of whom are active in 
American Gold Star Mothers organization. Many of them are clearly 
struggling today. We would suggest that a further modification of the 
proposed legislation be made so that such payments would not begin 
until at least age 50, unless the individual recipient can show an 
extreme hardship.
    VVA also strongly urges the Committee to take action to end the 
``widows tax,'' and to work with your colleagues in other Committees of 
the Congress to stop the shameful action of offsetting Dependency & 
Indemnity Compensation (DIC) at VA by the amounts received under the 
Survivor's Benefits Program (SBP) at DoD. The current ``offset'' is 
akin to reducing the amount of DIC because the servicemember had a life 
insurance annuity with Metropolitan Life or some other private 
insurance company. They paid premiums into the SBP for many years, and 
so it a paid for benefit, and it is outrageous to deduct that amount 
from the DIC. It is nothing short of an unjust ``widows tax.'' It is 
way past time to rectify this injustice.
    Additionally, VVA has testified many times about the crying need to 
increase the amount of monthly payments under DIC. It is simply an 
egregiously paltry amount that is paid to these dependents, and leaves 
many Gold Star Wives below the poverty level. This is simply just not 
right nor just. The founding principle of veterans' benefits is ``To 
Care for Him who hath borne the battle, and for his widow and orphan'' 
in the great phrase of President Abraham Lincoln. Frankly, we are just 
not living up to our obligation in this regard, and DIC must be 
significantly increased as soon as possible.
    VVA applauds the motivation of Congressman Walsh and this 
distinguished body, but believes that it is the older parents who are 
in most dire need today, and deserve to be included as a priority. 
Further, the significant and valid needs of the surviving spouses must 
be addressed with at least as much urgency as the significant and valid 
needs of the older Gold Star parents.
    H.R. 5155, The Combat Veterans Debt Elimination Act of 2008, would 
prohibit the Secretary of Veterans Affairs from collecting certain 
debts owed to the government by any veteran who dies as a result of a 
service-connected disability incurred or aggravated while serving in a 
theater of combat operations in a war after the Persian Gulf War or in 
combat against a hostile force after September 11, 2001, if the 
Secretary determines that the termination of collection is in the best 
interests of the United States.
    It is hard not to endorse this bill. One quibble that is perhaps 
little more than theoretical: What if a veteran who owes the government 
money is called back into service, or chooses to reenlist, and then 
dies in a combat theatre of operations before a claim for a service-
connected disability has been adjudicated by the VA? VVA believes that 
debt should be negated if he or she died in the line of duty, and not 
passed on to the veteran's survivors.
    VVA also believes that given the disaster that has been made of the 
system of adjudicating claims that it is way past time to end the 
current rule of ``the claim dies with the veteran.'' VVA recommends 
that if a veteran dies, and a claim has been pending for more than 90 
days, that said claim automatically be turned into a DIC claim for the 
survivor(s), and that when finally settled, that if such a claim is 
successful that full benefits up until the hour of death be paid, and 
that the payments for DIC begin at that moment retroactively.
    The veteran and their family should not be penalized for the poor 
leadership and stewardship of the system that is supposed to adjudicate 
veterans' claims, for, as General Bradley was fond of saying when he 
led the VA: ``we are here to meet the veteran's needs, not our 
bureaucratic needs.''
    H.R. 5448, The Full Faith in Veterans Act of 2008, would direct the 
Secretary of Veterans Affairs to accept as sufficient proof of service-
connection of post traumatic stress disorder (PTSD) alleged to have 
been incurred in or aggravated by active military service a diagnosis 
of PTSD by a mental health professional, together with a written 
determination that such PTSD is related to the veteran's service, if 
consistent with the circumstances, conditions, or hardships of such 
service, notwithstanding that there is no official record of such 
incurrence or aggravation during such service.
    With all the focus on PTSD these days--Is the VA refusing in at 
least some locations to diagnose PTSD in cases to somehow save money? 
(VVA thinks this may be the case, as events at Temple VAMC in Texas 
have shown recently). Is there a battalion of ``shirkers'' out there 
who will fake symptoms in order to get some free money? (VVA has good 
reason to believe this to be a fevered delusion of one notorious 
``scientist'' who never has any real data, but who shouts out this 
garbage nonetheless.) does address some pressing and timely issues. It 
does, however, have certain flaws.
    Part of the purpose of H.R. 5448 is ``to improve the diagnosis and 
treatment of post traumatic stress disorder by the Secretary of 
Veterans Affairs.'' Well, Dr. Peake neither diagnoses nor treats 
personally, but more importantly, this bill has nothing to do with 
diagnosis and treatment; rather, it is about service-connection. Also, 
while this bill addresses PTSD, it neglects other mental disabilities 
linked to one's military service, which may also (and often is) 
directly linked to military service, particularly in dangerous 
situations.
    Furthermore, as evidence in support of this bill, VVA reminds the 
Committee that the Doherwend, et al. study published in August of 2006 
that revisited the National Vietnam Veterans Readjustment Study (NVVRS) 
went back to all who claimed exposure to traumatic events in that 1986 
survey/study. The researchers then tried through searching unit 
histories, after-action reports, newspaper and other news coverage, and 
other sources and tried to objectively show that the violent event did 
occur at the time and place self-reported by the veteran. What they 
found was that 91 percent of the claims could be verified as having 
occurred, at least there was written or printed materials that 
substantiated the veterans' professed exposure was either proven, was 
shown to be likely, or was at least proven to be plausible. Insofar as 
the other 10 percent or so of claims of traumatic events, the 
researchers stressed the fact that they could not find any 
substantiating records certainly did not mean that the event self-
reported by the veteran did not occur. War is by its very nature messy 
and confusing, and often things happen that are not fully recorded, 
even though neat and tidy documentation is supposed to always happen 
according to the military's bureaucracy. Those of us who have been in a 
war zone know that the reality is often different.
    Further, the VA Office of the Inspector General Report No. 05-
00765-137, ``Review of State Variances in VA Disability Compensation 
Payments'' randomly sampled about 2,300 claims folders that had been 
adjudicated as being 100 percent for PTSD (many were 100 percent only 
when combined with individual unemployability) from a number of VA 
Regional Offices, in both large states and rural states. After a 
protracted uproar regarding charges by the OIG in press statements 
alleging fraud, the 2,300 files were sent to the Office of the 
Undersecretary for Veterans Benefits. He assembled a team that went 
through each claim carefully to weigh the evidence, and thoroughly 
asses each case. Out of the roughly 2,300, only two were found to merit 
full scale investigation by the IG, and these two were forwarded back 
to IG to further investigate. Ultimately the IG found that there were 
significant errors made in these two cases, but could not find any 
evidence of fraud or intent to fraud.
    This stands as a solid testimonial to the integrity and honor of 
those who file PTSD claims. VVA believes that many who legitimately do 
suffer from PTSD have their claims denied because there are no 
immediate documents that the individual veteran can access to prove his 
or her case. (The VA has the resources and the access to secure the 
evidence if their ``duty to assist'' were not constantly being made 
into a mockery by the way they actually do business.)
    This legislation is long overdue, and is much needed. As long as 
reasonable plausibility is established as to the traumatic event, and 
the VA is directed to use proper diagnostic tools to determine that the 
individual in fact has PTSD (which they often do not, due to poor 
training, poor leadership, poor measurement metrics, and cost cutting 
taking precedence over best clinical procedures), VVA supports H.R. 
5448.
    H.R. 5454 would establish a presumption of service connection for 
amyotrophic lateral sclerosis if a veteran develops a 10 percent degree 
of disability or more at any time. Although it is unclear from what 
we've read of this bill, we assume that veteran must have served during 
the Persian Gulf War. This being the case, VVA supports enactment of 
this bill.
    H.R. 5709, The Veterans Disability Fairness Act, would require the 
Secretary of Veterans Affairs to carry out quality assurance activities 
with respect to the administration of disability compensation.
    This bill, while well-intentioned, seems to ask for the obvious: to 
help ensure ``the accuracy and consistency across different offices 
within the Department of the treatment of claims for disability 
compensation, including determinations with respect to disability 
ratings and whether a disability is service-connected.'' Yet anything 
that will help the VA achieve accuracy and consistency in this regard 
is to be commended. Competency based testing of all VBA employees and 
those accredited to represent claimants, full meaningful accountability 
for supervisors and managers, and generally solid leadership from the 
top down would go a long way toward cleaning up the mess that this 
system has become, as well. The lack of proper automation of this 
system has been covered by all concerned so often that the yawning need 
for progress on this front goes without repeating.
    Hence, VVA endorses H.R. 5709.
    H.R. 5985, The Compensation for Combat Veterans Act, would 
``clarify the service treatable as service engaged in combat with the 
enemy for utilization of non-official evidence for proof of service-
connection in a combat-related disease or injury.''
    While we had difficulty deciphering just what the above seems to 
mean, we do not have difficulty in understanding that the definition of 
a ``combat veteran'' under this act is a bit broad. While it is true 
that even a well-protected rear area in South Vietnam could be subject 
to mortar and rocket attacks and infiltration by sappers, the construct 
that simply to be in a combat zone means one should be treated ``as 
having engaged in combat with the enemy'' doesn't hold up. It demeans 
those troops who in fact do engage in combat with the enemy.
    A clerk in Long Binh in 1970, while in a putative combat zone, 
lived in effect in a city. To give him, or her, the same status as an 
infantryman is simply wrong. On the other hand, we know many veterans, 
of both Vietnam and the current conflicts, who had military jobs that 
were ostensibly ``non-combat'' such as engineers or truckdrivers who in 
some case had much more direct engagement with the enemy under hostile 
fire than some who had an infantryman's designation. Today the military 
recognizes at least some of these persons with a combat action badge. 
However, that is not the case for those who served in Gulf War I, 
Vietnam, or earlier conflicts.
    The notion that only those with a Combat Infantryman's Badge (CIB) 
have been exposed to combat, or the hazards of a combat theater of 
operations, is far too narrow. The notion is this bill may well be far 
too broad. There needs to be further development work regarding the 
intent of this bill, and whether there is a better way to achieve that 
objective. Further, at least part of what may be the intent of this 
bill may well be covered by H.R. 5448.
    VVA cannot endorse H.R. 5985 in its present form without further 
work, and without better understanding the aim of this proposal, which 
is not immediately ascertainable.
    H.R. 6032 would direct the Secretary of Veterans Affairs to provide 
wartime disability compensation for certain veterans with Parkinson's 
disease.
    There is significant scientific evidence that associates the onset 
of this malady with one's military service in Vietnam veterans in 
particular, due to exposure to Agent Orange, Agent Pink, and the 
potpourri of other poisons in the toxic soup in which we lived and 
fought during the Vietnam War. VVA has no difficulty in supporting 
enactment of this bill.
    On H.R. 6114, The SUNSET (Simplifying and Updating National 
Standards to Encourage Testing of the Human Immunodeficiency Virus) ACT 
of 2008, VVA takes no position.
    H.R. 6122 would direct the Secretary of Veterans Affairs to develop 
and implement a comprehensive policy on the management of pain 
experienced by veterans enrolled for VA healthcare services.
    It seems to us that the Veterans Health Administration already 
takes a pro-active interest in pain; certainly, just about every 
veteran who is examined by a nurse is asked about his/her level of 
pain. Still, while this bill seems a bit redundant with what the 
Department is already doing, VVA supports its enactment, particularly 
with regard to the VA's program of research into acute and chronic pain 
suffered by veterans.
    VVA thanks the Subcommittee for the opportunity to comment on these 
bills, and will be pleased to reply to your questions.

                                 <F-dash>
               Prepared Statement of Lieutenant Commander
              Jack B. Alderson, USNR (Ret.), Ferndale, CA

    Chairman Hall, Ranking Member Lamborn and Distinguished Members of 
the Committee. My name is Jack B. Alderson, and I live in Ferndale, 
California. I am a retired Lieutenant Commander from the U.S. Navy 
Reserves and am here today to describe my experiences within the 
``Project SHAD Technical Staff'' (PSTS).
    In 1964 I was a Lieutenant on active duty in the U.S. Navy and 
received orders to the ``Project SHAD Technical Staff'', as Officer in 
Charge of a Division of five U.S. Army Light Tugs (LTs) at Pearl 
Harbor. The mission of the PSTS and the LTs were to test at sea 
Chemical/Biological Weapons. I was there from September 1964 until 
August 1967. The LTs acted as sampling stations and read targets for 
disseminated weapon clouds.
    Each LT was manned by a Navy crew with a U.S. Navy Lieutenant as 
OinC. The LTs were Army vessels with Navy crews operating under a Joint 
Services Command. These were not volunteers, but hand picked personnel 
with ``Final Secret'' clearance ordered to do a job. That job was done, 
and done well. During the 3 years I was with the PSTS LTs, they never 
missed a commitment, and completed all tasks assigned while maintaining 
a fine safety record. This was, at times, a very dangerous job with 
stringent safety precautions and procedures in place.
    I herein stress, that we took every safety precaution within the 
technologies and knowledge available in the 1960's. Sometime later I 
became aware that some of the PSTS personnel were having health 
problems; namely, respiratory and cancer. A knowledgeable medical 
person connected with the tests stated to me that ``some of the 
materials used to decontaminate the LTs after a test are now known to 
be carcinogenic''. Decontamination agents used were Betapropiolactone, 
Formalin, Ethylene Oxide and HTH (Chlorine). Please see attachment. 
Further concern is here for the PSTS staff, as the FDA had not approved 
the inoculations administered to them. Security conditions precluded 
any of this being placed in our official health records. In fact, some 
of our health records are missing.
    Upon return to Pearl Harbor the PSTS, including the Light Tugs took 
part in training and in tests involving simulants. Named tests included 
Fearless Johnny, Big Tom, Folded Arrow and others on and around the 
Hawaiian Islands. Some of these simulants have now been shown to have 
harmful affect on humans when exposed. The decontamination agents and 
procedures are the same as for the live weapons tests.
    I also took three of the LT's on two Bird Cruises. Wherein we had 
on board scientists including ornithologists from the Smithsonian 
Institute. The purpose of the Bird Cruises was to make sure none of the 
indigenous birds of the central Pacific were carrying any residue of 
the tests.
    After I left the PSTS in 1967 they continued to operate for a 
number of years. Some of their operations were off the California 
coast. I know this because I was then assigned to ``Fleet Training 
Group San Diego'' where I wrote the weekly operation order assigning 
operating areas and training assets. In 1968 I received a request for 
operating areas for the USS Herbert J Thomas (DD833) and five Army 
Light Tugs. Since some tugs sailors and I had trained the DD I can 
guess what they were doing.
    My concern is for the personnel of the PSTS, who with full trust in 
their country, did what they were told to do and did it well. Many of 
these persons are dead, and many have health problems that may well 
have started with their participation in SHAD. Importantly, their 
present attending physician would not equate present health problems to 
something that happened many years ago.
    As I stated, I became aware of the problem some years ago when I 
heard from the SHAD veterans that they could not get care at VA clinics 
and were turned away because they could not fully describe what 
occurred to them. At first we were told that no such testing happened. 
The Army said they had concerns but took no action until forced. In 
fact, a letter dated August 23, 2000 from Maj. General J. M. Cosumano, 
Assistant Deputy Chief of the Army, states that everything remains 
classified but only simulants were used, and protective clothing worn . 
. . Untrue.
    During the initial efforts to expose what was happening to SHAD 
veterans I found I had a severe Malignant Melanoma and that brought 
home to me the concerns of other SHAD veterans. I now have other health 
concerns possibly attributable to SHAD operations.
    On September 13, 2001, DoD released three sets of FACT SHEETS. One 
set was for ``Operation Shady Grove'', listing as participating units 
the 5 LTs.
    Upon completing our training and inoculations we were considered 
ready to participate in test operations. We were ordered to standby to 
get underway on 2 January 1965. We were ready, and then told to stand 
down as the President has not signed the operational document. 
President Johnson did sign, and we were underway for Johnston Island on 
21 January 1965 for ``Operation Shady Grove'', the testing of 
Biological Weapons, simulants and trace elements. This operation was 
under control of the Deseret Test Center, Fort Douglas Utah and 
personnel from Dugway Proving Ground.
    The aforementioned ``FACT SHEETS'' are incomplete and contain 
erroneous information such as dates of test and not naming 
decontamination agents as examples.
    ``Operation Shady Grove'' was staged from Johnston Island. Prior to 
commencement, the LTs were scripted for the next 6 days of operation as 
radio silence was imposed. The LTs would pick up the test sampling 
material and animals from the USS Granville S Hall (YAG 40), Granny, 
and proceed to their assigned position on the grid. At twilight the 
monkeys were placed in cages topside, and the LT buttoned up. U.S. 
Marine A 4s would disseminate the agent, simulants and trace elements 
up-wind of the LTs and down wind of the Granny. The weapons cloud would 
then drift down over the grid while samples were being taken. In the 
morning, the exterior decontamination crew would exit the interior and 
decontaminate the exterior, including wrapping up the monkeys for 
transfer to the Granny. Even though the Light Tugs had air pressure and 
filtering systems, they leaked. We know this from the instruments 
inside the tugs. We were not worried as we were inoculated . . . Right?
    After 6 days of operations the LTs would return to Johnston Island 
for a three-day rest and repair. During this break sometimes the tugs 
were decontaminated on the interior. Our decontamination agents are now 
considered carcinogenic.
    Personnel from the Deseret Test Center and Dugway have often stated 
that LT crew should have been in protective clothing during a test and 
we were not. In fact, there was none on the LTs. The exterior 
decontamination crew wore cotton coveralls with rubber bootie and 
gloves, plus a gas mask. Exterior decontamination was done by a crew of 
three by hand using HTH in a soapy solution. These three were the only 
members with gas masks. When they completed decontaminating they 
stripped placing every thing they wore in a metal trashcan, taping it 
shut and through a fitting releasing an aerosol of Ethylene Oxide onto 
the clothing, entering the vessel through an air lock and showering on 
the way. There were no washing machines on the tugs, so the next day 
the exterior crew donned their equipment and did it again. Ethylene 
Oxide ia a known Carcinogen as is HTH.
    Periodically it was necessary to decontaminate the interior of the 
tugs. This was accomplished by using a fogging device with the fog made 
from Betapropiolactone and Formalin, both of which are highly 
carcinogenic. To make sure the fog penetrated everywhere every locker 
every drawer was open the only sealed item was the galley refrigerator. 
After a period of time the tugs were opened up and aired out. However, 
when we went inside the liquid was running down the bulkheads and the 
interior atmosphere caused our eyes to smart and some personnel 
received rashes. Our bunks and clothing were damp from the fog.
    I understand security classifications and the sensitivity of our 
operation. However, these were not volunteers but service personnel 
ordered to do a dangerous job and they did it, and did it well, now 
their Nation needs to take care of them.
    I thank Representative Mike Thompson who has stuck with us for a 
number of years even while members of the administration said there was 
no SHAD. Appreciation also goes to Representative Rehberg for joining 
in this task.
    I thank you Chairman Filner, Ranking Member Buyer, and Members of 
the Committee, and herein respectfully request that H.R. 5954 be moved 
from Committee to the Floor of the House with the recommendation for 
approval.
    If you have any questions I will try to answer them.

                                 <F-dash>
                   Prepared Statement of Jeff Faull,
  McEwersille, PA (Disabled Veteran), on behalf of The ALS Association

    Good afternoon Chairman Hall, Congressman Lamborn and Members of 
the Subcommittee. My name is Jeff Faull and I am from a small town in 
northeastern Pennsylvania called McEwensville. I appreciate the 
opportunity to speak with you this morning on behalf of The ALS 
Association and veterans living with ALS across the country. I hope 
that by sharing my experience with you today, you will gain a better 
understanding of how this disease impacts veterans across the country 
and why H.R. 5454 is so urgently needed.
    Before I begin, I would like to thank Congressman Henry Brown and 
Congressman David Price for their leadership in introducing this vital 
legislation. Veterans with ALS across the country truly are grateful 
for their efforts.
    I joined the Navy in 1992 at the age of 24 and served two tours of 
duty as a nuclear electronics technician (Navy Nuke), including over 4 
years aboard the U.S.S. Theodore Roosevelt. During that time I 
participated in Operations Southern Watch, Deliberate Force, Allied 
Force and Noble Anvil. Prior to my assignment aboard the Roosevelt, I 
was stationed at the Knolls Power Laboratory Kesselring Site in West 
Milton, NY located not too far from your district Mr. Chairman.
    I left the Navy in 2000 to spend more time with my wife Tammy and 
our two daughters Tiffany and Breanna. Like many other veterans, I 
never thought that my service in the military would cause health 
problems years after I left the service. I never thought that I would 
have to fight to obtain benefits from the VA and I never thought I 
would be sitting here before you today having been diagnosed with ALS, 
or Lou Gehrig's disease. But for me and thousands of veterans across 
the country, the reality is that, years--and even decades--after 
serving our country, we are being diagnosed with ALS and we are 
fighting for benefits at the same time we are fighting this disease.
    I was diagnosed with ALS just over a year ago in February 2007 at 
age 38, about 20 years younger than the typical person with ALS. At the 
time, I had no idea what ALS was. Amyotrophic lateral sclerosis meant 
nothing to me, as I'm sure it means nothing to thousands of others when 
they are first diagnosed. But I can assure you it's a whole different 
story when your doctor uses phrases such as ``unfortunately, you don't 
have cancer.'' That's when you begin to understand how serious ALS 
really is.
    ALS is a rapidly progressive, invariably fatal, neurological 
disease that attacks the neurons responsible for controlling voluntary 
muscles. To put it simply, this disease will rob me of my ability to 
walk, talk, move and breathe. There is little I can do to slow the 
progression of the disease as there is no effective treatment available 
for ALS, nor is there a cure. The disease is usually fatal in about two 
to 5 years. In fact, of the more than 2,000 veterans who have enrolled 
in the VA ALS registry over the past 4 years, less than 900 are still 
with us today.
    I first noticed the symptoms of ALS as early as 1999 when I 
experienced cramps and twitching in my left hand and arm. As time 
passed, I began to develop weakness then loss of muscle mass, which 
eventually led to my diagnosis last year. Since my diagnosis, the 
weakness and atrophy which began in my left hand has not only worsened 
but spread. Both hands and arms are now weak, walking is becoming more 
difficult and, as you can hear, my speech is beginning to be affected.
    I keep a pair of slip-joint pliers in the kitchen to help open 
things. My wife Tammy who's with me here today normally makes sure that 
things like cereal boxes are opened for me otherwise I have to ask for 
help from my daughters. Although they are more than happy to help their 
``old man'' this is not how I pictured spending my time with my 
daughters. I can't make the walk to see Breanna play soccer. I don't 
have the arm strength to shoot a basketball with my older daughter 
Tiffany. I will more than likely be in a wheelchair when it comes time 
to teach them to drive. These are the treasures this disease steals 
from thousands of veterans every year. That is, before the disease 
takes our lives.
    Several studies, including studies funded by the Department of 
Defense and the Department of Veterans Affairs have found that military 
veterans of the 1991 Gulf War are approximately twice as likely to 
develop ALS as those not deployed to the Gulf. As a result, the 
Secretary of Veterans Affairs established a presumption of service 
connection for those veterans with ALS who served in the SW Asia 
Theater of Operations from August 2, 1990 to July 31, 1991.
    However, the increased risk of ALS is not confined to veterans of 
the Gulf War, nor is it limited to veterans who served during a time of 
war. Researchers at Harvard University have found that military 
veterans from other eras, ranging from before World War II to after 
Vietnam, also are nearly twice as likely to develop ALS as those who 
have never served in the military. The study did not even consider Gulf 
War veterans. Moreover the study showed that veterans were at greater 
risk of ALS regardless of whether they served during a time of war or 
peace, or whether they served at home or abroad.
    The Institute of Medicine reviewed these and other studies and 
reported in November 2006 that existing evidence supports the increased 
risk of ALS for veterans. In fact, I understand that recent research, 
which has not yet been published, suggests that ALS is occurring at 
greater rates in those who are serving in the current conflict in Iraq. 
And what's alarming about this information, and the evidence from prior 
research is that we are seeing ALS in veterans at an age when we 
generally do not see the disease. I was 38 when I was diagnosed. Most 
people are diagnosed in their fifties, sixties and 70s. What will we 
see 10, 15, 20 years in the future as the men and women serving today 
leave the military?
    It is clear that regardless of when or where someone served in the 
military, they are at a greater risk of dying from the disease than if 
they had not served in the military.
    The Department of Defense and the VA also recognize that there is a 
relationship between military service and the development of ALS. In 
addition to Gulf War veterans, veterans who experience symptom onset or 
are diagnosed with ALS while on active duty or within 1 year of 
discharge are presumed service connected. DoD, VA and Congress also 
have invested funding for ALS research, including establishing the 
Veterans ALS Registry at the VA and creating the peer reviewed ALS 
Research Program at DoD, which is seeking treatments for veterans with 
ALS.
    However, despite the evidence showing that all U.S. military 
veterans are at a greater risk of ALS, the VA has not created a 
presumption of service connection for all veterans with ALS. Thousands 
of veterans continue to be left behind and hundreds of thousands 
serving in the military today, including in Iraq and Afghanistan, 
continue to be at a greater risk of dying from the disease.
    The VA will respond that any veteran with ALS can be granted 
service connection on the basis of specific evidence supporting their 
case. As someone who has been denied service connection, and knows 
countless others who have as well, I can tell you that this response 
demonstrates a lack of understanding of the disease.
    The reality is that the majority of veterans with ALS, who do not 
fall under the current limited presumptions, are forced to fight for 
their benefits. And we are usually denied. I have been attempting to 
establish service connection for over a year now and have submitted 
reams of scientific and medical evidence, including letters supporting 
my claim from my neurologist. Yet that evidence has fallen on deaf 
ears.
    Part of the problem we face is the nature of the disease itself. 
ALS is an insidious disease. First the symptoms, such as the ones I 
experienced while on active duty, are so benign that they go unnoticed 
or unreported. How many of us in this room have experienced muscle 
cramps and twitching and thought nothing of it? These are symptoms of 
ALS, yet they are not documented in our service medical records simply 
because we did not think they were a big deal at the time--after all, 
we were in the military. How many of us on active duty actually thought 
that we would succumb to muscle twitching?
    In addition, it can be years from discharge until the onset of 
symptoms or between onset and diagnosis--well after the 1 year 
presumptive period has ended. And there is no simple way to diagnose 
ALS, no single test you can take that says you have ALS. Rather it is a 
diagnosis of exclusion, made by ruling out every other possible 
diagnosis.
    The bottom line is that if you were not diagnosed while on active 
duty and did not serve in the Gulf, the VA likely will not consider ALS 
to be service connected. This, despite the studies and the fact that 
the VA and DoD both recognize ALS to a high priority for research.
    In addition to the studies that I have referenced and which are 
included in the ALS Association report, ALS in the Military; the 
Unexpected Consequences of Military Service, there are multiple peer 
reviewed studies linking ALS to many of the things our military 
personnel are exposed to on a regular basis. These include ionizing and 
non-ionizing radiation, fuels, solvents, lead, vapors and vaccinations. 
In fact, recent peer reviewed studies and World Health Organization 
guidelines link some of the vaccines given to our military personnel as 
a possible cause of ALS.
    My question, as a veteran with ALS trying to establish service 
connection is what additional proof must I provide? How many more 
studies are needed? How many veterans have to develop ALS and die from 
it before the VA takes action?
    I can only hope that this quick glance into my life with ALS and 
attempts with service connection grant you the understanding to see the 
importance of establishing a presumption of service connection for all 
veterans with ALS, which is exactly what H.R. 5454 would do. We have to 
fight for our lives. We should not also have to fight for the benefits 
that the evidence shows we deserve.
    Abraham Lincoln's statement which was later adopted by the VA as 
their motto states, ``to care for him who shall have borne the battle 
and for his widow, and his orphan''. I and the other veterans with this 
horrible disease appreciate your time and effort to ensure that 
statement is more than words. I urge you to support H.R. 5454 and help 
ensure that no veteran with ALS is ever left behind. Thank you again 
for your time and the opportunity to speak with you.

                                 <F-dash>
                   Prepared Statement of David Woods,
             Director, Veterans Affairs of Scott County, IA

    Mr. Chairman and Members of the Committee, thank you for allowing 
me to be here today to discuss Congressman Braley's bill, The 
Compensation for Combat Veterans Act. I am the Director of Veterans 
Affairs of Scott County in Iowa. I am also a Vietnam combat Veteran. I 
have been awarded the C.I.B., the Purple Heart and the Silver Star from 
being wounded June 12th 1970 in Nam. So I have a feeling for just what 
our Veterans are going through.
    My job as a Veterans Service Officer for Scott County is to listen 
to these Veterans, get them the medical help and compensation which is 
due them. I also help them through the Veterans Administration tangle 
of paperwork and to make sure that they understand what they are 
entitled to. Having witnessed my combat experiences, I understand and 
am able to talk and relate to what these Veterans are going through. 
They will tell me things that they have told nobody else, not even 
their wives or family.
    I have had Veterans come into my office asking him where, when, and 
what unit were you with, who was wounded or killed near you. He just 
stared at me and replied that he had no idea what the date was or maybe 
they were working with a different unit than his own, so he had no idea 
who the guy was that got wounded, but the Veteran was there.
    Now, how about our Vietnam Veterans who have been trying to forget 
his time in Vietnam, the cases of PTSD are rising since the start of 
the Iraq, Afghanistan Wars. After 40 years, have him try to remember 
when he was attacked or even the name of a buddy who was injured. I 
know that when most of us were in combat we did not have calendars with 
us and as to where we might have been, we just followed our leader's 
orders. Asking these questions sometimes just brings back bad memories, 
memories which we were trying to forget.
    For our Iraq, Afghanistan Veterans, there are times when that MP or 
engineer or even a cook might be pulled from his job and be sent on 
convoy duty. Many times when that change happens, it is not documented 
for the files. Then when he is sent on that job, he might not be 
working with his own unit or his combat buddies. If they receive 
incoming rounds it is not documented; it's just an everyday occurrence.
    I have had National Guard Veterans whom had been activated, come 
into my office for compensation claims, which we filed. The Veterans 
Administration has turned down these claims because part of the units 
were still on duty and all of the units' records were still over with 
the rest of the unit. Then we had to track down a buddy that might have 
witnessed what had happened to the Veteran. Now with the Guard you have 
to remember that they might not see that certain buddy until drill 
weekend, if they drill together in the same unit. Also their days also 
ran together and they had no idea when they were fired on. When they 
were in a certain village or city they at least knew that much.
    I have had an Iraqi Veteran with T.B.I. (Traumatic Brain Injury) 
file for compensation but because he had no C.B.I or Purple Heart or 
other combat medal, he was turned down by the VA for his compensation. 
His DD 214 showed that he was in Iraq listing the date and unit, but 
nothing else. When we filed the compensation claim, that Veteran was 
tested and treated at the Iowa City VA Medical Center. He was found to 
have T.B.I. and he was awarded his compensation claim.
    If you were to ask a combat medic just what his job was, you would 
be told that he was to keep that injured soldier alive and to let the 
people in the background do the paperwork. If you were to look at my 
medical report, it says that I was injured in the left arm and the 
neck. Neither happened to me when I was hit. That medic did not carry a 
file for each of us to report every little wound or knock to us. It was 
not possible and it's still not possible to keep track of these 
records.
    Case in point, I had a W.W. II Veteran come into my office wanting 
to get his Purple Heart which he had never gotten. His records were 
burned up in St. Louis and he really wanted it for his family. He was 
injured in Germany and sent to France for his medical treatment. While 
in the hospital in France he was told that his Purple Heart would be 
given to him when he got back to his combat unit. On returning to that 
unit he was informed that he should have received it while in France. 
He just wanted to get home so he forgot about it until his kids asked 
about his awards. While talking to him I found out what unit he was 
with and when and where he was injured. I sent a message to the Unit 
Records section in St. Louis; when we got the response with his name on 
the records, it said that he was in the hospital for illness not an 
injury. Since the other tank members were all deceased, he was dead in 
the water for his Purple Heart. Just another show of great military 
records keeping for the Veteran.
    I had a Vietnam Veteran come into my office to apply for 
Compensation for Agent Orange Type II Diabetes. This Veteran was a Navy 
deep water Veteran and when he applied for his compensation, the VA 
turned him down stating the ``Hass vs. Nickelsen'' case that he was 
never in Vietnam. I asked the Veteran if he had contact with any of his 
shipmates and the very next day he had e-mail addresses for two of his 
shipmates. I contacted one of the two, and it turned out that he was 
the third officer on the ship. His letter back to me was a statement 
telling that it was common knowledge that the replacements would fly 
into Vietnam, truck 2 days down to the tip of Nam, and then be boated 
out to the ship. Then to add insult to injury to the VA and the records 
keeping, he mentioned that every two or 3 months they would all land on 
an island beach off of Vietnam for volleyball and R & R. We are still 
waiting to hear from the VA on that case.
    These are just a fraction of the Compensation Claims which we are 
fighting with the VA. These last wars are not like W. W. I and not like 
W. W. II where you knew whom the enemy was or where the frontlines 
were. Now we have no lines or enemies in a certain uniform. There are 
not many ``safe areas'' when the Veterans of today can actually relax. 
It doesn't take much incoming to put stress and pressure on our 
Veterans and that is what we are finding out today.
    Thank you for letting me speak to you today.

                                 <F-dash>
                Prepared Statement of Bradley G. Mayes,
     Director, Compensation and Pension Service, Veterans Benefits
          Administration, U.S. Department of Veterans Affairs

    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to provide the Department of Veterans Affairs' (VA) views on 
pending benefits legislation. Accompanying me is Richard J. Hipolit, 
Assistant General Counsel. VA is still reviewing H.R. 5448 and will 
provide views on that bill in a subsequent views letter.
                               H.R. 1197
    H.R. 1197, the ``Prisoner of War Benefits Act of 2007,'' would: (1) 
repeal the current minimum 30-day internment period required for 
veterans who are former prisoners of war (POWs) to be entitled to 
presumptive service connection for the disabilities listed in 38 U.S.C. 
Sec. 1112(b)(3); (2) add type-2 diabetes and osteoporosis to the list 
of disabilities presumed service connected for former POWs; and (3) 
authorize VA to administratively determine, and establish procedures 
for such determinations, whether to add or remove diseases from the 
list of POW presumptions. The bill would require VA, in making such 
determinations, to take into account the recommendations received from 
the Advisory Committee on Former Prisoners of War and, whenever that 
Committee recommends that a presumption of service connection be 
established for a disease, to make the determination not later than 60 
days after receipt of the recommendation. VA would have 60 days after 
that to either propose regulations to implement a positive 
determination or publish a notice of a negative determination. Final 
regulations would be required not later than 90 days after any proposed 
regulations are issued.
    VA does not support this bill for the following reasons:
    The diseases already listed in section 1112 have been medically and 
scientifically associated with the harsh physical and psychological 
conditions associated with POW internment. It is unreasonable to assume 
that the extreme deprivation associated with the diseases listed in 
section 1112(b)(3) occurred during internment periods of less than 30 
days, particularly those diseases associated with nutritional 
deprivation. These diseases include avitaminosis, chronic dysentery, 
helminthiasis, malnutrition, pellagra, cirrhosis of the liver, 
peripheral neuropathy, irritable bowel syndrome, peptic ulcer disease, 
atherosclerotic heart disease or hypertensive vascular disease and 
their complications, and stroke and its complications.
    VA is not aware of any credible scientific or medical literature or 
study that has associated type-2 diabetes mellitus or osteoporosis with 
POW internment.
    The timeline S. 1197 would mandate for making determinations and 
publishing regulations is untenable. Determination of whether any 
particular malady should be added to the list of diseases warranting 
presumptive service connection must reasonably involve a lengthy 
process of scientific study. Sixty days is insufficient time for the 
Secretary to be able to evaluate a recommendation to create a new 
presumption.
    We estimate the benefit costs of this bill to be $61.1 million 
during fiscal year (FY) 2009, $440.1 million for 5 years, and $798.2 
million over 10 years. The bill would minimally affect workload, so 
full-time employee (FTE) costs would be insignificant.

                               H.R. 3008

    H.R. 3008, the ``Rural Veterans Services Outreach and Training 
Act,'' is intended to improve outreach and assistance to veterans and 
their dependents who may be eligible to receive VA benefits and are 
residing in rural counties, through the training of rural county 
veteran service officers. To this end, H.R. 3008 would establish a 
competitive grant program to provide financial assistance to state 
departments of veterans affairs.
    Although VA supports the intent of H.R. 3008, we oppose the bill 
because it would duplicate ongoing efforts by the Veterans Health 
Administration's Office of Rural Health (ORH) to address the health 
care needs of veterans in rural areas, as well as duplicate other 
outreach activities already conducted by VA for veterans in rural 
areas.
    The ORH has been initiating innovative programs to improve care and 
services for veterans who reside in geographically isolated areas, 
including the following:

    <bullet>  Rural Mobile Healthcare Clinic: The ORH recently 
disseminated a nationwide Rural Mobile Healthcare (RMHC) Clinic Pilot 
Request for Proposals, to extend access to primary care and mental 
health services in rural areas where it is not feasible to establish a 
fixed access point. Although the primary focus of RMHC is to enhance 
the delivery of care to rural veterans, secondarily it can address 
outreach and collaborate with community partners. The ORH expects to 
complete the selection of the pilot sites by the end of summer 2008.
    <bullet>  Veterans Integrated Service Networks Rural Consultants: 
The use of Veterans Integrated Service Networks (VISN) Rural 
Consultants was mandated by section 212 of Public Law 109-461. The 
consultants will enhance service delivery to veterans residing in rural 
areas, will lead activities in building an ORH Community of Practice to 
facilitate information exchange and learning within and across VISNs, 
and support a stronger link between ORH and the VISNs. The ORH recently 
disseminated a nationwide Request for Proposals and intends to fund 
eight consultants. We expect to complete selection of consultants by 
the end of 2008.

    VA believes the results of the RMHC Pilot Initiative and the VISN 
Rural Consultants program will enhance healthcare services for veterans 
and guide the future direction of other potential initiatives, such as 
those contemplated by H.R. 3008.
    In addition to the abovementioned rural healthcare initiatives, the 
following are examples of other outreach services occurring in rural 
areas:

    <bullet>  Vet Centers provide readjustment counseling and outreach 
services to all veterans who served in a combat zone. Certain services 
are also available for their family members. The goal of the Vet Center 
program is to provide a broad range of counseling, outreach, and 
referral services to eligible veterans to help them successfully 
readjust to civilian life. The Vet Centers are community-based and 
staffed by small multi-disciplinary teams of dedicated providers, many 
of whom are combat-veterans themselves. The Vet Center staff routinely 
visits rural communities to provide outreach and direct readjustment 
services. The Vet Center program has initiated its own community 
outreach vehicle project and is in the process of selecting sites for 
50 outreach vehicles. The measures outlined in H.R. 3008 would be 
duplicative of their efforts.
    <bullet>  VA is conducting a substantial amount of outreach, 
counseling, and education for returning Reserve and National Guard 
members and their families. Effective May 1, 2008, at the Secretary's 
request, an estimated 570,000 Operation Enduring Freedom and Operation 
Iraqi Freedom (OEF/OIF) veterans are being contacted and given 
information on VA medical services and other benefits available to 
them.
    <bullet>  VA currently engages in a range of activities to educate 
VA staff and other agencies and organizations involved in helping 
veterans and dependents, such as community service providers, school 
officials, lenders, service organizations.
    <bullet>  The Healthcare for Homeless Veterans Outreach program.
    <bullet>  The Tribal Veteran Representative programs.
    <bullet>  Seamless transition programs for OEF/OIF veterans.
    <bullet>  Educational patient support groups

    VA's outreach efforts also include activities that assist veterans 
generally, such as attending benefit fairs and exhibits at conferences, 
conventions, veteran service organization meetings, Federal boards, and 
townhalls, and participating in a range of Department of Defense-
related activities such as Transition Assistance Program (TAP) 
briefings and National Guard and Reserve component conferences.
    H.R. 3008 has insufficient detail to fully develop a cost estimate. 
The grant costs associated with this bill could range anywhere from no 
cost to $50 million annually. VA would incur additional costs to 
administer the program, but we are unable to determine FTE costs at 
this time.

                               H.R. 3795

    H.R. 3795, the ``You Were There, You Get Care Act of 2007,'' would 
add to the list in current law of diseases presumed to be service 
connected for a radiation-exposed veteran any other disease ``covered'' 
under 38 CFR Sec. 3.309 or 3.311, as well as any other disease found by 
VA to result from exposure to depleted uranium or the by-products of 
the burn-off that occurs when a depleted uranium munition penetrates a 
target. H.R. 3795 would also require that a veteran who served in the 
Persian Gulf War or any subsequent conflict in which depleted uranium 
munitions were used, if that service was in a theater of operations or 
involved the clean-up or servicing of vehicles or equipment that had 
been in such a theater of operations, be considered a ``radiation-
exposed veteran'' for purposes of the presumptions of service 
connection for such veterans. The bill would require the Secretary to 
provide for an independent in-depth medical study to be conducted by 
civilian medical entities to determine other diseases that may result 
from exposure to depleted uranium. Upon receiving the report of the 
study, the Secretary would have to transmit a copy of the report to the 
Congressional veterans' affairs committees.
    VA does not support this bill because it would create an overly 
broad presumption. Although the statutory provision the bill would 
amend provides a presumption for diseases associated with exposure to 
ionizing radiation, section 3.309 covers many conditions not associated 
with radiation exposure, such as chronic diseases, tropical diseases, 
diseases specific to former POWs, and diseases associated with exposure 
to certain herbicide agents. H.R. 3795 would extend the presumption of 
service connection for radiation-exposed veterans to all of these 
unrelated diseases.
    The scope of H.R. 3795 is also extremely broad in covering veterans 
who served in the theater of operations in a conflict in which depleted 
uranium munitions were used. Depleted uranium munitions are used 
primarily as anti-tank rounds. The bursting radius of those rounds is 
much smaller than that encountered in above-ground nuclear tests. 
Furthermore, the provision could be read to include ``in the theater of 
operations'' servicemembers who served at sea or in airborne operations 
whose service occurred far from where these weapons were used. Exposure 
to hazards from depleted uranium would be very unlikely, if not 
impossible for such servicemembers.
    We are developing a benefit-cost estimate for this bill and will 
submit it for the record. No additional FTE costs would be associated 
with this bill because a minimal impact on workload would be expected. 
We estimate that discretionary costs related to the study, based on 
previous contracts, would be less than $2 million.

                               H.R. 4274

    H.R. 4274, the ``Gold Star Parents Annuity Act of 2007,'' would 
provide a monthly benefit of $125 to parents of servicemembers who lost 
their lives while on active duty in certain military operations 
described by 10 U.S.C. Sec. 1126(a). If more than one parent is 
eligible for the benefit, it would be divided equally among the 
eligible parents.
    VA honors the sacrifice of the servicemembers who have lost their 
lives in the service of their country. VA also recognizes and honors 
the supreme sacrifice of Gold Star parents, who have lost a son or a 
daughter serving in the Armed Forces. However, VA does not support this 
bill because VA already provides a monthly benefit to certain 
qualifying parents.
    Parents' dependency and indemnity compensation (DIC) is a monthly 
benefit that is currently paid to eligible surviving parents of a 
veteran who died while on active duty, or after service as a result of 
service-connected disability. Parents' DIC is a need-based income-
support benefit.
    H.R. 4274 would authorize a small benefit, which would be divided 
among eligible parents if there is more than one. The administrative 
burden of paying this benefit would be great relative to its size. 
Additionally, the bill would provide disparate treatment. Although it 
may be appropriate for the Congress to distinguish between combat-
related deaths and other service-related deaths, the requirement that 
the servicemember have died while engaged in combat operations and on 
active duty fails to acknowledge that some post-service deaths, 
particularly in the early years following separation, can be tied 
directly to battle wounds and thus creates at least the appearance of 
disparate treatment.
    Costs for this bill cannot be estimated at this time.

                               H.R. 5155

    H.R. 5155, the ``Combat Veterans Debt Elimination Act of 2008,'' 
would prohibit VA from collecting all or part of a debt owed to the 
United States under any program under the laws administered by VA 
(other than a housing or small business program under chapter 37 of 
title 38, United States Code) by a veteran who dies as a result of a 
service-connected disability incurred or aggravated while serving in a 
theater of combat operations in a war after the Persian Gulf War or in 
combat against a hostile force during a period of hostilities after 
September 11, 2001, if the Secretary determines that termination of 
collection is in the best interest of the United States. The amendments 
made by the bill would be effective on the date of enactment and would 
apply ``with respect to collections of indebtedness of veterans who die 
on or after September 11, 2001.''
    VA supports the intent behind this bill, but does have a concern 
with the effective-date provision. That provision is unclear as to 
whether the prohibition on debt collection would apply retroactively to 
a debt already collected before the date of enactment or apply only 
prospectively. We recommend that the bill be amended to require VA to 
refund any amount of a debt of a covered veteran collected after 
September 11, 2001, but before the date of enactment.
    We estimate that enactment of this bill, if amended as recommended, 
would result in additional benefit costs of $5,000 for FY 2009 and a 
10-year cost of $50,000.

                               H.R. 5454

    H.R. 5454, would establish a presumption of service connection for 
amyotrophic lateral sclerosis (ALS), a rare disease of unknown cause, 
for any veteran who develops the disease to a compensable level at any 
time after separation from service.
    VA does not support this bill. Current evidence does not justify 
the establishment of a presumption for ALS. There is insufficient 
credible scientific evidence that ALS is caused by service or more 
likely to develop in veterans as opposed to the general population. 
Although the Institute of Medicine (IOM) found limited suggestive 
evidence of an association between the development of ALS and military 
service, the IOM clearly indicated that the disease's cause is unknown. 
A review of the literature cited seems to suggest that ALS is 
associated with vigorous people, as would be found in military service, 
but is not unique to the military.
    We estimate benefit costs of this bill to be $23.5 million during 
FY 2009, $214.2 million over 5 years, and $505.8 million over 10 years. 
This bill would minimally affect workload, so FTE costs would be 
insignificant.

                               H.R. 5709

    H.R. 5709, the ``Veterans Disability Fairness Act,'' would require 
the Secretary to carry out quality assurance activities with respect to 
the administration of disability compensation to ensure accuracy and 
consistency across different VA offices with respect to whether a 
disability is service connected and disability ratings. The Secretary 
would be required to retain, monitor, and store data for each claim for 
disability compensation, to include: (1) the state the claimant resided 
in when the claim was submitted; (2) the Secretary's decision with 
respect to the claim; (3) the regional office and individual employee 
responsible for evaluating the claim; (4) the results of adjudication; 
and (5) such other data as the Secretary determines is appropriate for 
monitoring the accuracy and consistency of decisions.
    H.R. 5709 would further require VA to conduct reviews and audits, 
at least annually, to identify and correct any adjudication 
inaccuracies or inconsistencies. The reviews and audits would have to 
include a sample large enough to draw statistically valid conclusions. 
Additionally, the Secretary would have to consider factors relating to 
consistency and accuracy when evaluating adjudication employees. The 
bill would require the Secretary to report to Congress, within 60 days 
of enactment, on the implementation of this legislation and to include 
information on consistency in the annual report required by 38 U.S.C. 
Sec. 7734(2).
    VA does not support H.R. 5709. VA already has measures in place, 
and is implementing additional measures, that address most of the 
subjects covered in H.R. 5709. VA has a robust quality assurance 
program. Quality reviews are conducted on a statistically valid sample 
of adjudicated claims. VA will begin routinely monitoring the most 
frequently rated diagnostic codes in FY 2008 to assess consistency of 
service-connection determinations and degree of disability assigned for 
various disabilities across regional offices. VA conducts regular site 
visits at VA regional offices to assess operations for consistency and 
accuracy. In addition, a random sample of cases adjudicated by 
employees responsible for adjudicating claims is reviewed for quality 
at the regional offices. The results of this review represent one 
element of employee performance.
    Training is an integral part of VA's quality assurance program. The 
Center for Naval Analyses reviewed VA's training efforts for the 
Veterans' Disability Benefits Commission and was highly complimentary 
of VA's training efforts in testimony before the Commission. Also, in a 
recent assessment of the Department of Defense (DoD) Disability 
Evaluation System, the Government Accountability Office referred to the 
VA Compensation and Pension quality review program as a favorable model 
for adoption.
    Because the bill would not affect benefit entitlement, no mandatory 
costs would be associated with it. There would be no additional FTE 
costs because the bill would not affect workload, and VA already 
maintains a staff to conduct quality and consistency reviews.

                               H.R. 5954

    H.R. 5954 would: (1) establish a presumption of service connection 
for any diagnosed disease determined by the Secretary to have an 
increased incidence in veterans exposed to a biological, chemical, or 
other toxic agent known or presumed to be associated with service 
during which the veteran was directly or indirectly subjected to a 
chemical or biological warfare test or project under Project 112; (2) 
require the Secretary to determine the presumptive period during which 
such disease must manifest itself to warrant a presumption of service 
connection; (3) establish a presumption of such exposure if the veteran 
was subjected to a Project 112 test; and (4) require the Secretary to 
notify, under regulations prescribed not later than 180 days after 
enactment, all veterans who were potentially exposed to any biological 
or chemical agent, simulant, tracer, or decontaminant during Project 
112 of the potential exposure.
    Further, this bill would require DoD, in consultation with VA, to 
submit to Congress, within 1 year after enactment, a report that would: 
(1) document the costs, benefits, and challenges associated with 
continuing the search for additional Project 112 participants; (2) 
provide a full accounting of all information known concerning Project 
112 participants; and (3) address other concerns regarding Project 112 
held by the VA, veterans, or veterans service organizations.
    Project 112 was a comprehensive program initiated in 1962 by DoD to 
protect and defend against potential chemical and biological warfare 
threats. Project SHAD (an acronym for Shipboard Hazard and Defense), a 
component of Project 112, encompassed a series of tests by DoD to 
determine the vulnerability of U.S. warships to attacks with chemical 
and biological warfare agents, and the potential risk to American 
forces posed by these agents. Project 112 also involved similar tests 
conducted on land rather than aboard ships.
    VA opposes this bill. VA has already contracted for a significant 
long-term study concerning the health effects on SHAD participants and 
received the report from the IOM. The Secretary has authority to 
contract for an additional study if it is deemed necessary. We believe 
that enactment of this bill is unwarranted at this time due to the lack 
of credible scientific and medical evidence that adequately 
demonstrates any statistically significant correlation between 
participation in SHAD tests and the subsequent development of any 
disease.
    DoD continues to release declassified reports about sea--and land-
based tests of chemical and biological materials associated with 
Project 112. VA is working with DoD to obtain information regarding the 
tests, including who participated, duration, and agents used. DoD 
estimates that about 6,000 veterans may have been involved in Project 
112/SHAD. To date, DoD has provided VA with the names of approximately 
5,000 veterans who participated in the tests. In May 2002, VA began to 
contact veterans who participated in Project SHAD about medical care 
and benefits to which they may be entitled.
    In October 2002, VA contracted with the IOM to conduct a 3-year, 
$3-million study of potential long-term health effects of tests 
conducted aboard Navy ships in the sixties. IOM's report, ``Long-Term 
Health Effects of Participation in Project SHAD,'' was published in May 
2007 and found no clear evidence that specific long-term health effects 
are associated with participation in Project SHAD.
    We are in the process of estimating the costs that would be 
associated with enactment of this bill, and we will provide them for 
the record.

                               H.R. 5985

    H.R. 5985, the ``Compensation for Combat Veterans Act,'' would 
require VA to treat certain veterans as having engaged in combat with 
the enemy for purposes of 38 U.S.C. Sec. 154(b), thus permitting the 
use of lay or other evidence for proof of service incurrence of a 
combat-related disease or injury. The veterans who would qualify for 
this treatment are veterans who, during active service with a U.S. 
military, naval, or air organization during a period of war, campaign, 
or expedition, served in a combat zone for purposes of section 112 of 
the Internal Revenue Code 1986, or a predecessor provision of law. In 
essence, this bill would equate service in a combat zone with engaging 
in combat with the enemy. VA does not support this bill.
    Section 112(c)(2) of the Internal Revenue Code 1986 defines 
``combat zone'' as any area that the President by executive order 
designates as an area in which U.S. Armed Forces are engaging or have 
engaged in combat. Section 112 governs the computation of gross income 
for tax reporting purposes based upon service and applies to all 
veterans who serve in a combat zone regardless of actual involvement in 
combat. The executive order designates which geographical areas are 
combat zones and the date of commencement of combat activities.
    Section 1154(b) of title 38, United States Code, relaxes the 
evidentiary requirements a combat veteran must meet to prove service 
incurrence or aggravation. The language of section 1154(b) makes it 
clear that its purpose is to liberalize the method of proof for claims 
based on injuries incurred or aggravated while engaged in combat with 
the enemy. This provision recognizes the unique circumstances of 
combat, which are not favorable for documentation of injury or illness 
because treatment for such injury or illness may be administered in the 
field under exigent conditions that do not permit concurrent 
documentation. Supporting evidence is often difficult to obtain when a 
veteran later files a claim for disability compensation for a combat-
related disability. This bill contemplates that all veterans in a 
combat zone are faced with the same difficulty in documenting treatment 
for injury or illness. However, the same difficulty does not exist for 
servicemembers who, although serving in a combat zone, have access to a 
medical facility for treatment and whose treatment would be documented 
in service treatment records. The purpose of section 1154(b) was to 
recognize the unique circumstance of actual combat.
    We cannot estimate benefit costs that would result from enactment 
of this bill because there are no data available upon which to estimate 
the number of claims for service connection filed by veterans for 
disabilities incurred in a combat zone.

                               H.R. 6032

    H.R. 6032 would establish a presumption of service connection for 
Parkinson's disease for any veteran who served in the Republic of 
Vietnam during a certain period and develops the disease to a 
compensable level at any time after separation from service.
    VA does not support this bill. The Agent Orange Act 1991, codified 
at 38 U.S.C. Sec. 1116, requires that, when the Secretary, on the basis 
of sound medical and scientific evidence, determines that a positive 
association exists between herbicide exposure and a disease, the 
Secretary will issue regulations providing a presumption of service 
connection for such disease. The Agent Orange Act further directs that 
the Secretary take into account reports from the National Academy of 
Sciences.
    The IOM of the National Academy of Sciences has consistently 
determined that there is insufficient evidence to associate Parkinson's 
disease with herbicide exposure. The IOM continued this determination 
in its most recent report, ``Veterans and Agent Orange, Update 2006.'' 
VA believes that it should recognize diseases as presumptively 
associated with service only if such association is adequately 
established by credible medical and scientific evidence. Such evidence 
has consistently failed to demonstrate an association between 
Parkinson's disease and herbicide exposure.
    We are in the process of estimating the costs that would be 
associated with enactment of this bill and will provide them for the 
record.
    This concludes my statement, Mr. Chairman. I would be happy to 
entertain any questions you or the other Members of the Subcommittee 
may have.

                                 <F-dash>
                Statement of Hon. Michael L. Dominguez,
            Principal Deputy Under Secretary of Defense for
          Personnel and Readiness, U.S. Department of Defense

    Mr. Chairman and Members of this distinguished Committee, thank you 
for the opportunity to provide views on draft legislation. Our comments 
on several of the bills are below.
    H.R. 3795, the bill provides that veterans of service in the 1991 
Persian Gulf War and subsequent conflicts shall be considered to be 
radiation-exposed veterans for purposes of the service connection of 
certain diseases and disabilities.
    The Department of Defense (DoD) opposes this legislation. This bill 
is very broad and assumes any participation in the 1990-1991 Persian 
Gulf War with subsequent development of diseases, as specified in 
sections 3.309 and 3.311 of Title 38 of the Code of Federal Regulations 
(cancers and other diseases) is based on radiation exposure. It 
eliminates any requirement for evidence of radiation exposure. More to 
the point, the premise that depleted uranium causes a radiation hazard 
that is sufficient to cause adverse health effects in humans is 
unsupportable. Uranium is a very common naturally occurring heavy 
metal, and depleted uranium is 40 percent less radioactive than natural 
uranium. There is no evidence that the extremely low radiation levels 
emitted by depleted uranium can cause illnesses in humans. There is no 
evidence that natural or depleted uranium exposure causes cancer in 
humans.
    H.R. 5454, the bill establishes a presumption of service connection 
of amyotrophic lateral sclerosis (ALS) for purposes of the laws 
administered by the Secretary of Veterans Affairs.
    DoD opposes this legislation. The scientific evidence does not 
support a presumption of service connection of ALS. Although there are 
a couple of reports that show a possible association between ALS and 
military service, there is currently insufficient evidence to conclude 
that ALS is caused by military service. In the general population, 
approximately 10 percent of cases are genetic and the causes of the 
other 90 percent of cases are unknown. Similarly, the causes of 90 
percent of ALS cases in military veterans are unknown. Several research 
projects are underway that will determine whether military veterans are 
at increased risk for developing ALS, compared with individuals who did 
not serve in the military.
    H.R. 5954, the bill provides veterans presumptions of service-
connection for purposes of benefits under laws administered by 
Secretary of Veterans Affairs for diseases associated with service in 
the Armed Forces and exposure to biological chemical or other toxic 
agents as part of Project 112.
    DoD opposes this legislation. The scientific evidence does not 
support a presumption of service connection for any diseases associated 
with exposure to biological, chemical, or other toxic agents that 
resulted from Project 112 (also frequently called Shipboard Hazard and 
Detection--SHAD, although SHAD was only a component of Project 112). 
Project 112/SHAD was a series of tests which took place in 1962-73. The 
Department of Veterans Affairs requested civilian medical experts in 
the Institute of Medicine (IOM) to perform a comprehensive study of the 
possible long-term health effects of participation in Project 112. The 
IOM study was published in 2007 and concluded that there was no clear 
evidence of specific health effects that were associated with 
participation in Project SHAD.
    In addition, having conducted an exhaustive search for information 
on Project 112/SHAD, DoD does not agree that additional archives 
searching would result in a more complete documentation. However, DoD 
will investigate any new information that may be presented and share 
that information with the Department of Veterans Affairs and the 
public.
    H.R. 5985, the bill clarifies the service treatable as service 
engaged in combat with the enemy for utilization of non-official 
evidence for proof of service-connection in a combat-related disease or 
injury.
    DoD opposes this legislation. This provision equates service in a 
combat zone with engaging in combat with the enemy for the purposes of 
establishing service connection for combat-related diseases or 
injuries. While supporting evidence is often difficult to obtain for 
disability compensation for a combat-related disability, this bill 
provides that all veterans in a combat zone are faced with the same 
difficulty in documenting treatment for injury or illness. However, the 
same difficulty does not exist for servicemembers who, although serving 
in a combat zone, have access to a medical facility for treatment and 
whose treatment would be documented in service treatment records.
    H.R. 6032, the bill directs the VA Secretary to provide wartime 
disability compensation for certain veterans with Parkinson's disease.
    DoD opposes this legislation. This legislation would provide a 
presumption of service connection for Parkinson's disease for veterans 
of the Vietnam War. From 1994 to 2006, the IOM has published seven 
exhaustive reports on the possible health effects of Agent Orange and 
other herbicides used during the Vietnam War, and another report will 
be published during the next year. The IOM has consistently concluded 
that there is insufficient evidence for a link between exposure and 
Parkinson's disease. Therefore, scientific evidence is lacking to 
support a presumption of service connection.

                                 <F-dash>
                   Statement of Hon. Bruce L. Braley,
          a Representative in Congress from the State of Iowa

    Thank you, Chairman Hall, Ranking Member Lamborn, and Members of 
the Subcommittee, for considering H.R. 5985, the Compensation for 
Combat Veterans Act, at your hearing today. It is an honor to testify 
before you in support of this legislation.
    I introduced the Compensation for Combat Veterans Act in May in 
order to address a problem faced by too many of our veterans. Today, 
combat veterans are required to provide official evidence that they 
were wounded in a specific combat incident in order to demonstrate that 
their injuries are service-connected. I believe that Congress should 
overturn this requirement, and that service in a combat zone should be 
sufficient evidence to demonstrate that a veteran received their 
injuries in combat.
    The Compensation for Combat Veterans Act would clarify that 
evidence in a veteran's record of assignment in a combat zone is 
sufficient for a veteran to prove their combat service when other 
military documents are unavailable. This bill would remove the 
documentation barriers that in some cases are preventing combat 
veterans from receiving compensation for their disabilities, or which 
cause unnecessary delays in providing veterans with the benefits they 
deserve.
    A law passed in 1941 liberalized the requirements for proof of 
service-connection in cases involving veterans who participated in 
combat. Under this existing law, veterans who can establish that they 
participated in combat do not have to produce official military records 
to support their claim that their disabilities or injuries are service-
connected.
    However, a Department of Veterans Affairs General Counsel opinion 
issued in 1999 requires veterans to establish by official military 
records or decorations that they ``personally participated in events 
constituting an actual fight or encounter with a military foe or 
instrumentality.'' Under this opinion, some veterans are being delayed 
or denied compensation for combat injuries because they are unable to 
produce official military documentation--like certain medals, unit 
reports, or news reports--proving their personal participation in a 
specific combat incident.
    While the VA accepts certain medals as proof of combat, only a 
fraction of those who actually participate in combat receive a 
qualifying medal. In addition, making, maintaining, and transmitting 
records in combat zones can be difficult and chaotic, and military 
records usually do not document actual combat experiences.
    Mr. Chairman, I believe that the last thing our wounded veterans 
returning home from war should have to do is engage in another battle 
with the VA to prove that they were wounded in a specific incident in 
order to receive disability benefits. How can the VA conscionably force 
a veteran suffering from Post-Traumatic Stress Disorder (PTSD), or from 
a physical injury incurred in combat, to track down official proof--
proof that may not even exist, considering the poor records keeping in 
combat zones--of their engagement in battle? How can the VA force 
wounded veterans to wait indefinitely for help as the VA conducts 
research to determine whether the veteran's unit engaged in combat?
    This requirement is just one more example of an unnecessary 
bureaucratic barrier, another piece of arbitrary red tape, which our 
wounded veterans must face. I am especially concerned with this 
bureaucratic hurdle because, as we saw at the Oversight and Government 
Reform Committee hearing at Walter Reed last year, the layers and 
layers of VA and DoD bureaucracy directly contributed to the systemic 
breakdown and the mistreatment of veterans there. Unless we start to 
peel away these bureaucratic layers, I'm afraid we are in danger of 
repeating the shame of Walter Reed and denying veterans the treatment 
and benefits they deserve.
    Indeed, unnecessary red tape and unnecessary delays in receiving 
benefits continue to plague veterans all over the country, and continue 
to be identified by veterans and those who work with them as one of the 
most significant problems facing returning veterans today. The 
astounding number of backlogged VA benefits claims--currently over 
648,000--is evidence of this problem. I am concerned that this number 
is only going to increase as more veterans return from the wars in Iraq 
and Afghanistan unless we address some of these paperwork and 
documentation problems. The Compensation for Combat Veterans Act would 
do just that: VA Regional Offices have estimated that the passage of 
this bill would speed up their claims processing by weeks.
    David Woods, the Director of Veterans Affairs for Scott County, 
Iowa, who is testifying before the Subcommittee today, estimates that 
he has helped 75-100 injured veterans who have had problems proving 
that they were injured in specific combat incidents. This includes 
veterans returning from Iraq and Afghanistan, as well as Vietnam 
veterans experiencing PTSD triggered after several decades by the 
current wars. As David has said, soldiers engaged in combat are often 
from several different units and do not know who is there fighting 
along with them when a battle breaks out. Soldiers engaged in combat 
are focused on survival--not documenting where and when the battle is 
taking place.
    My office has also worked with at least one veteran who has 
experienced this problem. This veteran came to my office last August 
asking for assistance with his service-connected disability claim for 
his wounded shoulder and other injuries. Though the VA treated his 
shoulder, since his medical records from Iraq are missing, the VA won't 
approve service-connection. This veteran has served two separate 
deployments in Iraq, and I believe that it is unacceptable that he is 
being denied the benefits that he deserves.
    That is why I believe it is so important to pass the Compensation 
for Combat Veterans Act. My bill would overturn the VA General Counsel 
precedent opinion, and allow for utilization of non-official evidence 
as proof of in-service occurrence for establishing service connection 
of combat-related diseases and injuries. This bill would eliminate the 
requirement for further evidence in cases in which a veteran can 
demonstrate service in a recognized combat area, alleges disabilities 
related to their service in that combat area, and has a disease or 
injury consistent with the circumstances, conditions, or hardships of 
their service in that combat area. This bill would lower the 
evidentiary standards for veterans suffering from physical injuries, as 
well as from mental wounds like PTSD or Traumatic Brain Injury, the 
hidden and hallmark wounds of the wars which often do not materialize 
for months after a veteran has returned home.
    Again, thank you for allowing me to testify in support of the 
Compensation for Combat Veterans Act today. I hope that the 
Subcommittee and full Veterans Affairs' Committee will act quickly to 
move this important legislation forward to ensure that combat veterans 
receive the benefits they deserve in a timely manner.

                                 <F-dash>
                       Statement of Kerry Baker,
  Associate National Legislative Director, Disabled American Veterans

    Mr. Chairman and Members of the Subcommittee:
    On behalf of the 1.3 million members of the Disabled American 
Veterans (DAV), I am honored to present this testimony to address 
various benefits bills before the Subcommittee today. In accordance 
with our congressional charter, the DAV's mission is to ``advance the 
interests, and work for the betterment, of all wounded, injured, and 
disabled American veterans.'' We are therefore pleased to support 
various measures insofar as they fall within that scope.

                               H.R. 1197

    The ``Prisoner of War Benefits Act of 2007'' (H.R. 1197), 
introduced by Congressman Bilirakis in February 2007, would provide 
improved benefits for veterans who are former prisoners of war (POW). 
Specifically, H.R. 1197 would repeal the minimum period of internment 
for presumptive service connection for diseases associated with POW 
status. The bill would also add type 2 Diabetes and osteoporosis to the 
list of diseases presumptively associated with POW status. The DAV has 
a standing resolution to support the expansion of benefits for former 
POWs; therefore, we support this bill.
    The bill also authorizes the Department of Veterans Affairs (VA) to 
establish additional diseases as presumptively related to a veteran's 
POW status. Such authorization instructs the VA to establish a new 
disease as presumptively related to POW experiences whenever credible 
evidence for the association is equal to or outweighs the credible 
evidence against the association. The DAV feels this criteria is very 
fair considering that a disease may not be considered presumptive 
unless evidence as a whole suggests no relationship and that such 
evidence is not outweighed by evidence that does suggest a 
relationship. The Nation's former POWs have earned no less.

                               H.R. 3008

    The ``Rural Veterans Services Outreach and Training Act'' (H.R. 
3008), introduced by Congressman Wu in July 2007, is meant to improve 
services to veterans residing in rural areas. The bill proposes to 
improve outreach and assistance to veterans, their dependents, and 
survivors through training of rural county veterans' service officers 
(CVSOs). The bill proposes to do this by making competitive grants to 
provide financial assistance to state departments of veterans affairs 
wherein the grants are determined by the Secretary of Veterans Affairs 
(Secretary) but shall not exceed $1,000,000.
    The DAV is concerned that providing Departmental funds to train 
CVSOs may not be the best use of such funds. Nonetheless, the DAV has 
no resolution on this issue and we therefore take no position on the 
bill.

                               H.R. 3070

    The ``Disabled Veterans' Caregiver Compensation Act'' (H.R. 3070), 
introduced by Congressman Peterson in July 2007, would authorize 
additional compensation, in the amount of $234.00, to be paid to 
certain veterans in receipt of compensation for a service-connected 
disability rated totally disabling for whom a family member dependent 
on the veteran for support provides care. This extra compensation would 
be paid ``[i]f and while rated totally disabled and in need of regular 
aid and attendance and while unpaid aid and attendance is provided by 
an adult family member who is dependent upon such veteran for support. 
. . .''
    The DAV supports this bill--we applaud it. However, clarification 
is needed. Title 38 defines ``child'' and ``parent'' as they relate to 
various veterans' benefits. Title 38 does not define ``dependent'' for 
benefits administered by the Secretary. Without such a definition, at 
least concerning the amendments made by this bill, it will be unclear 
who qualifies for this benefit. For example, an adult child caring for 
a veteran described by this bill may qualify as an ``adult family 
member'' but still not qualify as ``dependent upon such veteran'' if 
the child were not financially dependent on the veteran. Such a child 
could not qualify as a dependent, even if he/she had to relinquish 
employment in order to care for the parent because the child may no 
longer qualify as a ``child'' for VA purposes.
    We do not believe the bill's intent is to exclude those in the 
above scenarios, as well as others. Therefore, while we fully support 
the bill, we request the bill be amended to properly define who does 
and does not qualify for the benefit provided by the bill.
    Additionally, the amount of compensation listed herein ($234) is 
equal to the amount of compensation listed in section 1115 payable to a 
veteran with a spouse in need of aid and attendance. If this figure is 
no coincidence, which we do not believe to be the case, we must note 
that $234 is the figure for 2002. We asked that the bill be amended to 
reflect the current year's level of compensation.

                               H.R. 3795

    The ``You Were There, You Get Care Act of 2007'' (H.R. 3795), 
introduced by Chairman Filner in October 2007, would provide that 
veterans of service in the 1991 Persian Gulf War and subsequent 
conflicts shall be considered to be radiation-exposed veterans for 
purposes of service connection for certain diseases and disabilities, 
and for other purposes. This bill would provide presumptive service 
connection for any ``disease that is covered under section 3.309 or 
3.311 of title 38 of the Code of Federal Regulations and any other 
disease found by the Secretary to result from exposure to depleted 
uranium or the by-products of the burn-off that occurs when a depleted 
uranium munition penetrates a target. The DAV supports this bill.
    Those veterans covered by this bill are those that served during 
the Persian Gulf War or any subsequent conflict in which depleted 
uranium munitions are used, if that service is in the theater of 
operations of that war or conflict or involved the clean-up or 
servicing of vehicles or equipment that had been in such a theater of 
operations. The DAV does not have a standing resolution directly on 
point with this bill, we do however have resolutions calling for the 
support of enhanced benefits for Persian Gulf War veterans suffering 
from diseases associated with their service. Therefore, the DAV fully 
supports this bill.

                               H.R. 4274

    The ``Gold Star Parents Annuity Act of 2007'' (H.R. 4274), 
introduced by Congressman Walsh in December 2007, would provide for the 
payment of a monthly stipend to the surviving parents (known as ``Gold 
Star parents'') of members of the Armed Forces who die during a period 
of war. The DAV has no opposition to this bill.
    This bill would require the Secretary to pay a monthly pension to 
each person who has received a gold star lapel button under section 
1126 of title 10 as a parent of a person who died in a manner described 
in that section. The total amount of payment to a Gold Star parent 
would be $125. If there is more than one eligible parent, the total 
amount would be divided equally among the eligible parents.
    While the DAV has no opposition to this bill, we do not believe 
that $125, or $75 dollars each for two parents is adequate. These 
amounts cannot begin to honor the depth of a parent's sacrifice when 
their child, perhaps their only child, is lost forever on a distant 
battlefield. Death on the battlefield is unquestionably the greatest 
sacrifice a servicemember can make for his or her country, but it is 
also the greatest sacrifice that a parent can make. Therefore, while we 
respect the intent of this bill and thank Mr. Walsh for its 
introduction, we respectfully request the monetary amount described 
herein be substantially increased.

                               H.R. 5155

    The ``Combat Veterans Debt Elimination Act of 2008'' (H.R. 5155), 
introduced by Congresswoman Shea-Porter in January 2008, would prohibit 
the Secretary from collecting certain debts to the United States in the 
case of veterans who die as a result of a service-connected disability 
incurred or aggravated on active duty in a combat zone. The DAV has no 
resolution on this issue, which is essentially outside our mission 
scope. Therefore, we take no position on this bill.

                               H.R. 5448

    The ``Full Faith in Veterans Act of 2008'' (H.R. 5448), introduced 
by Congressman Allen in February 2008, would seek to improve the 
disability compensation evaluation procedures for veterans with post 
traumatic stress disorder and to improve the diagnosis and treatment of 
post traumatic stress disorder. The DAV has no opposition to this bill; 
in fact, we are on record as staunch supporters of a similar bill, H.R. 
5892.
    H.R. 5892 accomplishes many of the same goals as this bill and has 
already been moved out of Committee and into the full House. H.R. 5892 
is also more comprehensive than H.R. 5448, while achieving the same 
goals as this bill. Because of this, and even though we do not oppose 
this bill, we respectfully request that any resources that Congress 
would otherwise spend on this bill be diverted to support the passage 
of H.R. 5892.

                               H.R. 5454

    Congressman Brown introduced H.R. 5454 in February 2008. This bill 
would establish a presumption of service connection of amyotrophic 
lateral sclerosis for purposes of the laws administered by the 
Secretary. Essentially, this bill would amend section 1112 of title 38, 
United States Code, to provide for a presumption of service connection 
for amyotrophic lateral sclerosis when developing to a 10 percent 
degree of disability at any time after service. Although the DAV has no 
resolution on this issue, because of its positive impact on disabled 
veterans and their dependents, as well as the higher prevalence of this 
disease among the veteran population, we support this bill in full.

                               H.R. 5709

    The ``Veterans Disability Fairness Act'' (H.R. 5709), introduced by 
Congressman Space in April 2008, would require the Secretary to carry 
out quality assurance activities with respect to the administration of 
disability compensation. In order to carry out the quality assurance 
program under section 7731 of title 38, United States Code, with 
respect to the administration of disability compensation, this bill 
would require the Secretary to ensure accuracy and consistency across 
different offices within the Department of the treatment of claims for 
disability compensation, including determinations with respect to 
disability ratings and whether a disability is service connected.
    For each disability compensation claim, this bill would require the 
Secretary to track and monitor the following: (1) The state in which 
the claimant resided when the claim was submitted; (2) the decision of 
the Secretary with respect to the claim; (3) the regional office and 
individual employee of the Department responsible for evaluating the 
claim; (4) if the claim was adjudicated, the results of such 
adjudication; (5) the state of the claimant's residence; and (6) such 
other data as the Secretary determines is appropriate for monitoring 
the accuracy and consistency of decisions with respect to such claims. 
Once compiled, the Secretary would be required to use this information 
to conduct annual reviews to correct any inaccuracies or 
inconsistencies in disability ratings and the adjudication of claims 
for disability compensation. Such reviews and audits shall evaluate 
disability ratings and claims adjudication by regional office and by 
the employee responsible for each such rating or adjudication
    The DAV has long advocated for enhanced quality assurance and 
oversight of VA's disability claims processing system. We therefore 
support this bill and applaud Mr. Space for its introduction.

                               H.R. 5954

    Congressman Thompson introduced H.R. 5954 in May 2008. If enacted, 
this bill would provide veterans with presumptions of service 
connection for purposes of benefits under laws administered by the 
Secretary for diseases associated with service in the Armed Forces and 
exposure to biological, chemical, or other toxic agents as part of 
Project 112. This bill is one that all disabled veterans who were 
unknowingly harmed by military experiments and wrongfully denied 
disability benefits to which they were legally entitled should 
celebrate.
    This legislation will only be successful if the Department of 
Defense (DoD) releases the names of all participants of these military 
experiments, many of which may not even be aware of their involvement. 
For this reason, the DAV is pleased that this bill requires the DoD to 
release the information vital for the success of this bill. Without 
such a requirement, those affected by these unthinkable experiments 
will continue to be locked out of a system otherwise designed to 
provide the help this bill delivers.
    Since 2003, the DoD has stopped actively searching for individuals 
who were potentially exposed to chemical or biological substances 
during Project 112 tests, but have not provided any basis for that 
decision. In 2003, the DoD reported it had identified 5,842 
servicemembers as having been potentially exposed during Project 112, 
but also indicated that it would cease searching for additional 
individuals. In 2004, the government Accountability Office (GAO) 
reported that the DoD did not exhaust all possible sources of 
information.
    Since June 2003, however, non-DoD sources--including the Institute 
of Medicine--have identified approximately 600 additional names of 
individuals who were potentially exposed during Project 112. This fully 
supports the proposition that the DoD's actions were completely 
arbitrary. Until these issues are addressed, veterans will remain 
unaware of their potential exposure, and this monumental injustice of 
experimentation on U.S. servicemembers will continue to go unanswered. 
Congress must mandate that the DoD live up to its obligation of 
identifying every single veteran that may have had even the smallest 
potential of exposure. This bill is a large step in the right direction 
and the DAV supports it.

                               H.R. 5985

    The ``Compensation for Combat Veterans Act'' (H.R. 5985), 
introduced by Congressman Braley in May 2008, would clarify service 
treatable as ``service engaged in combat with the enemy'' for 
utilization of non-official evidence as proof of service connection in 
a combat-related disease or injury. The DAV supports this bill; 
however, we suggest amendments. This legislation establishes that a 
veteran who ``during active service . . . served in a combat zone for 
purposes of section 112 of the Internal Revenue Code of 1986, or a 
predecessor provision of law, shall be treated as having engaged in 
combat with the enemy in active service for purposes of that paragraph 
during such service in that combat zone.'' The legislation as currently 
written would allow, for example, an Iraqi War veteran who only served 
in Bahrain and was consequently never in danger of being exposed to 
combat, the same consideration as an Iraqi War veteran who served 
inside the combat theatre of operation.
    We therefore suggest an amendment to this legislation that would 
still consider a class of veterans as having been exposed to combat, 
but suggest that those veterans with service inside the borders of the 
combat theatre of operation receive such consideration, such as those 
serving inside the borders of Iraq, Afghanistan, Vietnam, etc.

                               H.R. 6032

    Congressman Filner introduced H.R. 6032 in May 2008. The bill would 
direct the Secretary to provide wartime disability compensation for 
veterans who served in the Republic of Vietnam and who have manifested 
Parkinson's disease to degree of 10 percent or more. The DAV is 
certainly not opposed to enhancing benefits for veterans who served in 
the republic of Vietnam. However, currently we are unaware of 
scientific evidence suggesting a positive association between 
Parkinson's disease and exposure to herbicides. Therefore, the DAV 
takes no position on this bill. If, however, such scientific evidence 
becomes available, or we are otherwise made aware of its existence, we 
will fully support this legislation.
    Mr. Chairman, this concludes my testimony on behalf of DAV. We hope 
you will consider our recommendations.

                                 <F-dash>
                     Statement of Susan R. Frasier,
              Albany, NY (Disabled Veteran), on behalf of
               Fort McClellan Veterans Stakeholders Group

    Thank you Mr. Chairman, for allowing us to make a brief appearance 
in writing for the record, and to speak on some of the breakthrough 
bills which appear on your docket today. Our remarks will be directed 
to H.R. 5954 which provides a long awaited justice to our military 
brothers of the Project 112 ship tests during the Cold war Era, and 
also to H.R. 3795 for the veterans of the Gulf War.
    I am the lead activist for the Fort McClellan Veterans Stakeholders 
Group. We formed this group in 2003 to advance our own pursuits for 
legislation and justice inside the VA disability system. We are mostly 
medical and disability patients who have served at Fort McClellan, 
Alabama from 1955 to 1978. We hold the Cold war Service Medals issued 
under the Clinton administration from years past. We do consider 
ourselves to be chemical exposure victims from our service at the base, 
and we can speak in verification about the ordeal the current VA 
disability system poses to any new and incoming Veterans who identify 
themselves as known or suspected exposure cases, regardless of the 
source.
    We applaud, endorse, and support the victories which are 
represented in your bills today by H.R. 5954 and H.R. 3795. Those 
exposure groups have worked long and hard along side our own group, to 
receive this day of justice in their names. The tests of Project 112 
and its loosely related counterpart, more commonly referred to out here 
in our Veterans arena as the Edgewood tests, were in some ways a freak 
of the times. We can only wonder what the military authorities were all 
thinking when they subjected these brave volunteers to various forces 
of contamination and then walked away without providing them with 
adequate followup reviews for medical tracking or to give them 
prioritized disability standing in the VA medical system.
    For our Gulf War counterparts, they too have been put through an 
ordeal that was prolonged, unnecessary, and preventable if only the VA 
had a working ``rapid response'' system in place to activate temporary 
support services while their Presumptive statuses were pending.
    The simple fact that it requires an act of Congress to rescue 
verified contamination medical patients inside the current structure of 
the VA disability system, speaks volumes about the ordeal that so many 
of us have been put through.
    While we are relieved, happy, and gratified that H.R. 5954 has 
finally arrived for our military brothers of Project 112, we caution 
that the rest of the Edgewood test population still should be addressed 
by separate legislation, and when that happens, our group will then 
exert a vested interest in that outcome too.
    Fort McClellan, Alabama from the years 1955 to 1978, also 
represents a freak of the times, and poses a new and unique situation 
to this legislating body of Congress. It is a situation which has never 
before been seen in the history of veterans disability claims. During 
the same and simultaneous time span of years, Fort McClellan was not 
only a part of the Edgewood series of open air chemical tests on the 
grounds of the base itself, but also, the same base was surrounded by a 
massive, PCB contamination zone by the nearby Monsanto chemical factory 
of it's day in our recreation district of downtown Anniston, Alabama. 
The PCB zone contaminated the air, the water, and the soil of much of 
the surrounding region leading up to the base, even though today's 
reports from the Environmental Protection Agency only addresses the 
modern day concerns and tests of the water and soil.
    The rate of spew from the broken Monsanto air stacks, based on our 
computations made from the original notes of the Monsanto pollution 
engineers back in the day, amounted to over 2,000 tons per month 
released into the air back in the day. Then in addition to that, the 
EPA has estimated the cloud cover from that spew to have an extended 
overhead smog life of 10 days in lingering. This is to say that the 
thousands of pounds of PCB's that spewed into the air on any 1 day, 
also remained overhead in that same region for yet another 10 days in 
lingering before releasing and dispersing out into the general 
atmosphere away from the geographic location. Then this overhead 
lingering was added into by yet more spew.
    Simultaneously, and without the knowledge of the nearby Monsanto 
disaster that was in the works, persons assigned to the Edgewood Cold 
war Era tests at Fort McClellan were conducting open air chemical tests 
on the base itself. These tests were done with inadequate attention 
applied to the protection of those volunteers who were actually in the 
tests, and with no protection whatsoever to those of us who were at 
other locations on the base and not involved in the tests. This was the 
time of the Vietnam War training maneuvers, which included Pentagon-
mandated gashouse training which involved the removal of face masks 
inside of active (CN) and (CS) gas discharges so that we could be war 
certified in completion of our boot camp training.
    We have contended that anyone of these exposure sources, or any 
combination of them in the hereafter, may be the causation of our 
modern day disabilities and diseases. We may actually be the very first 
known medical population to enter the military and VA system to declare 
ourselves as a ``bystander'' exposure population since we never knew 
the cause of either of these contamination scenarios.
    So you can see here the similarity of concerns and experiences that 
we bring to the legislative table when offering up our support and 
sympathy to our Project 112 military brothers and our counterparts of 
men and women from the Gulf War.
    The VA has been unresponsive to all of these exposure populations 
up until today, so it brings us a great sense of hope and celebration 
today to see with our own eyes, this day of victory and justice which 
is embodied in your bills of H.R. 5954 and H.R. 3795.
    The Department of Veterans Affairs should undergo massive 
reorganization to position themselves for the future to serve and 
support all hazardous exposure military veterans, regardless of the 
source of their exposure. The current VA system is broken beyond repair 
and sadly, there is not even a showing of interest in repairing it 
whenever we have approached Washington VA officials for resolve.
    The VA uses deprivation of services as the first course of action 
whenever they are approached by a new population of veterans who are 
suspecting themselves to be hazardous exposure medical patients. 
Without intervening legislation from Congress, their mistake will not 
likely be fixed. The VA has no understanding at all of the meaning of 
``emergency response.'' They will stand around in a spirit of inaction 
and delay, and literally allow veterans to die or have their hands 
forced into suicide from the prolonged suffering they endure, rather 
than to eat the embarrassments of correction and apology for their 
bureaucratic mistakes.
    At the Fort McClellan contamination zone, the veterans who served 
there are medically matched to the nearby civilian population, and yet 
even with this stunning development to our advantage, the VA holds onto 
their delay practices, their deprivation of services, and their no 
assistance to our service group as medical patients.
    In some ways, Project 112 and the related Edgewood tests are a 
symbol of what is also wrong at the VA. All of these matters are an 
outcome of excessive proofing requirements gone amuck. There reaches a 
point in most rational acts, where relentless questioning, unending 
verifying, and proofing above and beyond the norms of medical 
scenarios, (and the relentless demanding of the same), crosses a line 
beyond the normal limits of proper reason and travels straight over 
into a dark side where most of us would never go. There are people in 
this world who will spend all of their days questioning life itself: 
but that does not mean that the rest of us all have to go along for the 
ride.
    The VA requires individual medical patients to shed themselves of 
their hospital standing, and become mini-agencies in their own name to 
prove up, answer up, comply up, and provide the tonnage of science, 
medical, classified, unclassified, military, unmilitary, hospital and 
even childhood documents just to prove that which every other rational 
American in this country can blatantly see with their own eyes as true. 
We say, that this all has to stop, in the name of saving the lives of 
Veterans. Proofing of disease and disability, at the level of extremes, 
excessiveness, and over the top--even when the same logical conclusion 
is as plain as day to everyone else who reviews a veterans case, is 
causing the premature deaths of our veterans and it is causing them to 
die with no service connected benefits in place at all.
    Lack of information, concealment of information, and especially the 
absence of official NOTIFICATION to Veterans who may have been exposed 
to hazardous sources, wreaks havoc throughout the entire chain of 
process in both the VA and the Social Security systems. Veterans are 
first not officially notified of their exposure circumstances, and then 
are also burdened with elaborate and complicated ``nexus theories'' to 
succeed either in their individual disability claims or their pursuits 
for patient class recognition, which is known in the VA system as 
Presumptive Service Connected statusing.
    Official notification to Veterans who have come into contact with 
any potential contamination source during their military service, must 
be integrated into all legislation and policy changes at the VA because 
it is crucial information that we have to pass along to our caregivers. 
It is vital deciding information that a practicing physician weighs 
upon during the moment of diagnosis for these veterans. So notification 
must be treated equal in importance to all other features of rescuing 
hazardous exposure veterans at the VA.
    The VSO's do complicate this ordeal situation even further for us.
    Instead of taking on the system to force the VA to reorganize 
themselves into an ``emergency response'' program to intake and serve 
these exposure veterans, the VSO's force veterans to endure years of 
process to comply with the wholly malpracticed systems which the VA 
currently has in place.
    I have fired VSO's one by one in my own case for this very reason. 
Furthermore, VSO's only provide case-in-a-box assistance for claims.
    Claims which are far more complicated, and not as cut and dried as 
the run of the mill, case-in-a-box, which are presented to them, are 
simply refused assistance by the VSO's due to complexity and their 
inability to either comprehend the details of the case, or their 
inability to construct fast and simple workarounds to the barriers put 
up by the VA. Also, if they do accept the case for VSO handling the 
veterans are subordinated to unqualified and incompetent case people 
who are in over their heads and don't know it. In the end, these 
exposure cases in some cases, not always, remain unassisted by VSO's.
    We have repeatedly gone out to VSO's to obtain help for our Fort 
McClellan advocacies only to have the door slammed in our faces with 
either a wall of silence, (much like what the VA does), or a lousy 
``thank you for sharing'' letter to facilitate the VA's agenda of delay 
until death. I am almost 60 years old and mobility impaired with 
muscular disease and yet even identifying myself with that, VSO's have 
sided with the nonsense processes of the VA and not with us.
    We consider ourselves to be holding matching and textbook disease 
patterns to be commonly recognized markers held in all other chemical 
exposure populations. But it is only the VA who stands around spinning 
its wheels on process and burdening us with delay.
    Among the list of those refusing to help us as VSO's includes DAV, 
American Legion (Albany & Washington, DC), VFW, the WAC Veterans 
Association, Vietnam Veterans of America (the Womens Committee) the 
National Veterans Legal Services Corporation and the Veterans Pro Bono 
Consortium. Among those who have refused assisting us at the VA 
includes Dr. Mark Brown, Irene Trowell-Harris, the Center for Women 
Veterans, Comp & Pen, and the VA Secretary's Office himself. At the 
Dept. of Defense, the Office of Health Deployment sent us directly to 
the VA and would not talk to us any further after passing us to VA 
hands.
    Among other things, the VA also forces medical patients to 
``incorporate'' as non-profit corporations just so they can obtain 
legislative or medical recognition as a patient group class. We say for 
the record that we are opposed to such practices and insist here before 
you today, that these larger systemic issues of the VA be mandatorily 
halted in the future. To say to a body of medical patients that their 
only hope of advancing medical assistance is to form a corporation and 
become a company is just plain nonsense and is contrary to the 
treatment advisory of licensed medical practitioners.
    The Veterans Disability Benefits Commission of 2007, in their 
report to Congress in Chapter 5, has found in our favor as medical 
patients and has found against the practices of the VA. In combination 
with the Institute of Medicine and the Center for Naval Analysis, they 
have concluded that the Fort McClellan Veterans, whether involved in 
Edgewood tests or by their exposures to the Monsanto PCB contamination, 
should receive their day of legislative justice along with our 
counterparts represented in the bills before you today. They have also 
concluded that the VA's current process for Presumptive Service 
Connected statusing, should be wholly revised and undergo massive 
correction. Our Stakeholders Group did participate in the VDBC hearings 
and we gave our endorsements to these findings and conclusions when 
those topics came up for a floor vote by them. We implore upon you now 
to please change the VA presumptive system.
    There are 2 simple questions to be answered in all of this as I 
present it to you today:
    How much is ``enough'' for VA medical patients to have to endure 
without any assistance or services?
    And also,
    Why do individual medical cases have to endure excessive and over 
the top proofing requirements in exposure scenarios when the Dept. of 
Justice has already litigated cleanups on behalf of the Environmental 
Protection Agency for the nearby civilian population?
    These are fair questions to know and I bring them to you today in 
the name of our Stakeholders Group.
    I am not the U.S. Department of Susan R. Frasier, so why is the VA 
treating me as if I am a well-funded, fully staffed, and mobilized 
government agency without any health impairments?
    The Duty To Assist clause in the 38 CFR is also a complete disaster 
for us. All it does is allow the VA to obtain documents which actually 
verifies our cases, (without us ever seeing those documents first), and 
then gives the VA (not the veteran) the litigating advantage to turn 
around and use those documents against us to further deny the cases. In 
other words, if there is a mistake in the papers which the VA 
retrieved, then the individual medical patient is blamed for that 
mistake.
    In my own case, VARO Manhattan has sought to blame me personally 
for the fact that the Monsanto contamination zone in Alabama was never 
made publicly known until the late nineties. It is very much a matter 
of record that I was denied my 36 year old disability backlogged case 
because the Army failed to show in my hospital records that I was 
exposed at the Monsanto chemical zone, even though I had sent alternate 
information proving to the VA that the contamination was in the air 
during my army service.
    All of official Washington appears to be unanimous in their voices 
that the VA systems of now are in dire need of change and correction. 
The VA has possessed the VDBC Commission report to Congress since 
October of 2007, and they have possessed Chapter 5 specifically since 
January 8, 2008 when I hand delivered it to the VA Secretary's Office 
in Washington. And yet here we are 5 months later with no assistance 
and no change and no legislation from the VA Secretary to this very 
minute.
    Congress must look at the VA claims system with new eyes as if you 
are riding in a helicopter overhead to see the big picture.
    In medical environments, there reaches a point where excessive and 
unnecessary process must be set aside in the name of good medicine and 
fair justice.
    The proofing and evidencing requirements that we are burdened with 
as medical patients in the VA are extreme, excessive, over the top, and 
used only for purposes of delay and the causation of our premature 
deaths. It is done to literally stress and strain a genuinely sick 
veteran straight into his or her early grave with upset, despair, and 
relentless continuation in the scourge of poverty. These are inhumane 
practices which are done for the purpose of gaining legal advantage in 
a VA-sponsored disability litigation environment, and we call for its 
swift and decisive end. No other hazardous exposure veteran should have 
to endure what all of us have been forced to endure at the hands of the 
VA.
    We send our love, our celebration, and our salutes, to our military 
brothers of Project 112 and to our counterparts of the Gulf War era. 
Their ordeal and odyssey is now over and not a minute too soon either. 
We share in their important victory.
    We thank this Congress today, and to all who contributed to the 
development of H.R. 5954 and H.R. 3795 for the wisdom and rescue that 
both of these bills hold. We ask that you include ``notification to 
veterans'' in bills such as these in the future, to mandatorily require 
the VA to issue a letter and make an appropriate outreach effort to 
advise effected veterans that they have served in a potential 
contamination area. This notification is vital to the family 
information of those medical patients who are affected by contamination 
scenarios.
    And we call upon Congress to continue its important work on these 
matters of intervention, correction, and emergency for all other 
remaining hazardous exposure patient groups, including the Fort 
McClellan Veterans, who remain hopelessly trapped in a VA system that 
is broken, uncaring, and unserving to all who identify themselves as 
potential new exposure cases.
    Also Signed in Support, The Following Members of our group:

Carolyn Tyler--Wisconsin
Kathy Warren-Miller--Texas
Sandra Ashley--Washington
John Snodgrass--Alabama
Nancie Smith--Florida
Ellen O'Neill--Ohio
Carolyn Arnold--Ohio
John Kamps--Texas
Janie Lehman--Pennsylvania
William Brawley--North Carolina
Wanda Seay--California
Nancy Gower--Indiana

    The remaining members of our group wish to remain anonymous.

                                 <F-dash>
     Statement of Commander Norman C. Lachapelle, MSC, USN (Ret.),
    Administrator, Bureau of Environmental Health/Emergency Regional
       Response, Memphis and Shelby County Health Department, TN

    Chairman Filner, Ranking Member Buyer and Distinguished Members of 
the Committee. My name is Norman C. Lachapelle and I live in Memphis, 
Tennessee. I am a retired Commander, Medical Service Corps, U.S. Navy 
and presently Administrator, Bureau of Environmental Health/Emergency 
Regional Response Coordinator with the Memphis and Shelby County Health 
Department in Tennessee.
    I received orders to Project SHAD Technical Staff on board USS 
Granville S. Hall (YAG-40) in May 1965. My duty assignment was senior 
microbiologist and later technical operations officer charged with 
overseeing the microbiological and chemical functions in support of 
Deseret Test Center (DTC) SHAD tests. I served in that capacity until 
1970 interrupted by a 12-month deployment in Vietnam in 1967.
    In addition to the Division of five (5) light Tugs as described by 
the officer in charge's testimony, the technical staff of SHAD 
consisted of experienced Navy microbiologists, hospital corpsmen, 
laboratory technicians, gunners mate, meteorologists and photographers. 
This group was responsible for:
    <bullet>  Preparing and calibrating air monitoring equipment used 
on the five (5) Light Tugs that served as aerosol sampling platforms 
during open-air sea tests conducted with biological and chemical 
simulant released agents.
    <bullet>  Conducting quality control of ``munitions'' i.e., 
concentration of agent slurry used for aerosol dispersal from military 
jet aircraft.
    <bullet>  Analyzing test samples collected from Light Tugs for 
quantitative and qualitative microbiological evaluations.
    <bullet>  Preparing a summary of raw laboratory qualitative and 
quantitative analytical results and data submitted to DTC Test Director 
after the completion of each test trial. These data revealed the 
concentration of agents collected in the Light Tug laboratories after 
each test trial.
    For the most part, technical staff participants were informed of 
the nature of the tests, standard operating procedures and trained in 
precautionary safety techniques using best available practices in the 
1960's. In retrospect, based on my experience with DTC-SHAD sea and 
land base tests, more stringent safety measures should have been 
reinforced involving so called ``harmless'' simulants such as 
Escherichia coli (E-Coli) and Serratia marcescens (SM) which are now of 
medical concern and no longer used by military in biological aerosol 
testing. Most disturbing is the fact that in 1950 the Army sprayed SM 
off the Coast of San Francisco, and shortly afterwards patients at 
Stanford University Hospital began appearing with Serratia marcescens 
infections. This should have been a wake up call on the use of SM and 
other biologicals as simulants.
    Bacillus globigii (BG) was used as a simulant in the majority of 
DTC tests. However, BG, as reported in the Institute of Medicine (IOM) 
long-term health effects of participants in Project SHAD study report, 
is now considered a pathogen for humans.
    Of great concern was the application of beta-propiolactone (BPL) 
disseminated as a mist to decontaminate the interior of ships including 
the Light Tugs. The procedure involved sealing the vessel after the 
crew was evacuated and releasing the BPL from an electrical vaporizer 
for a period of time sufficient to destroy microorganisms. To my 
knowledge the concentration of BPL was not recorded or the testing of 
the interior spaces for residual BPL, to ensure safe re-entry. The 
International Agency for Research on Cancer (IARC) regards beta-
propiolactone as a possible Carcinogen and cautions that a single dose 
of exposure is enough to pose a significant risk of cancer.
    It is important to mention that high level DoD officials testified 
at a Senate Armed Services Hearing in 2003 that DTC test records 
indicated that sailors were vaccinated against Paternella tularensis 
(Tularemia) and Coxriella burnetti (Q-Fever) and that the Army had 
vaccines against those agents. Neither of these vaccines were FDA 
approved and considered experimental vaccines. To my knowledge, a 
medical followup on the health status of the SHAD participants that 
were inoculated was not conducted and the type and dosage of the 
vaccine were not entered in their medical records.
    Regretfully, all information and data about SHAD tests remained 
classified until 2001 when DoD began sharing some declassified DTC test 
information with Veterans Affairs. SHAD veterans were certainly at a 
disadvantage during this time, i.e., over 40 years post termination of 
Project SHAD in not having this information available when being 
evaluated for proper health care. It is of great value and help for 
attending physicians to know as much as possible about concentrations 
of hazardous materials that their patients have been exposed to.
    It was a privilege and honor to have served with shipmates that 
were unquestionably dedicated in accomplishing the dangerous and highly 
classified mission of SHAD.
    The many Project 112/SHAD participants, who unselfishly and 
willingly exposed themselves to hazardous biologicals and chemicals, 
oftentimes with minimum personal protection, deserve the highest level 
of quality healthcare that this government can provide.
    I join the many Project 112 and SHAD Veterans in expressing a 
heartfelt appreciation for all the hard and consistent work that 
Congressman Mike Thompson has done in our behalf and for Congressman 
Rehberg for joining the task.
    I thank Chairman Filner, Ranking Member Buyer, and Members of the 
Committee, and herein respectfully request that H.R. 5954 be moved from 
Committee to the Floor of the House with the recommendation for 
approval.
                                 <F-dash>
                      Statement of John A. Scocos,
President, National Association of State Directors of Veterans Affairs, 
                                  and
          Secretary, Wisconsin Department of Veterans Affairs

    On behalf of the National Association of State Directors of 
Veterans Affairs, this letter is to express our strong support for the 
efforts of the U.S. House Committee on Veterans' Affairs and its work 
in advancing bills of great importance to current, past, and future 
generations of veterans.
    We appreciate you holding this important Committee hearing on these 
many issues. Our positions on these bills are as follows:
H.R. 1197--Prisoner of War Benefits Act
    We support an expansion of presumptive service-connection benefits, 
liberalizing the requisite period of internment, and updating the 
determination of such presumption for former prisoners of war.
H.R. 3008--Rural Veterans Services Outreach and Training Act
    We support H.R. 3008 only if it is substantially amended as 
follows. The current language of H.R. 3008 is an excellent starting 
point for continuing a growing dialog on the need for expanded outreach 
to our Nation's veterans, though it does not yet reflect the benefits 
and service delivery system of the majority of the states. We strongly 
support the creation of a statutory definition of outreach that ensures 
a systematic, proactive approach, and we support the definition of 
outreach as contained in H.R. 3008, which appears to mirror the 
language contained in S. 1315 as recently passed by the U.S. Senate and 
now awaiting House action. We also strongly support the creation of a 
federal grant program to the States for the provision of outreach.
    However, while we generally support the grant structure, grant 
amounts, and grant-making process in H.R. 3008, two areas of this bill 
should be amended to more closely match the variations in the veterans 
benefits and services delivery system that exist across the 50 states, 
the territories, and the District of Columbia (hereinafter referred to 
as ``the states'').
    First, while we concur that there is need in many rural parts of 
the Nation to provide outreach to veterans in rural areas, we recognize 
that many of the Nation's 24 million veterans live in areas that are 
not rural. We recently noted with interest the VA's telephone call 
outreach campaign to 570,000 of the 1.7 million veterans of the wars in 
Iraq and Afghanistan who have not yet utilized VA services--presumably 
a mix of rural, suburban, and urban. Veterans of the early years in the 
war in Iraq may not be aware of new testing and treatment for brain 
injury following blast exposure, post traumatic stress disorder, 
treatment for the self-medicating but self-defeating effects of 
substance abuse that may have only recently emerged, and so on. There 
is much to be done with regards to providing desperately needed 
outreach and services to our Nation's veterans, not just in rural areas 
of the Nation, and H.R. 3008 brings us part way to reaching that goal.
    Additionally, in the years following each war, Congress has 
successively expanded healthcare and other benefits programs to meet 
the needs of these warriors, including presumptive service-connection 
and healthcare enrollment and specialized treatment for various 
categories of veterans, including those with exposure to Agent Orange, 
ionizing radiation, Project 112 including Project SHAD, Gulf War 
illness, and for veterans who are ex-prisoners of war, purple heart 
recipients, veterans with service after 1998, and more. More needs to 
be done to reach out to these veterans as well, who are also presumably 
a mix of rural, suburban, and urban.
    As it is currently drafted, H.R. 3008 targets the grants 
exclusively to outreach workers who are employees of counties. Less 
than half the states, including Wisconsin, have benefits and outreach 
workers who are county employees, most typically called county veterans 
service officers (CVSOs). The language of the bill as it is currently 
written could certainly benefit these states. However, the majority of 
the states employ a variety of other models to provide services and 
outreach to their state veterans.
    In many of the states, there are service officers who are state 
agency employees, typically called state service officers, including 
Tennessee, New Mexico, and Illinois, whose Director of Veterans 
Affairs, Tammy Duckworth, testified before this Subcommittee a few 
weeks ago about her state's service state-employee service officers and 
the need for the creation of an outreach grant.
    A number of states contract with veterans service organizations 
(VSOs) to provide veterans services, like Utah, or with other types of 
non-profits, like Massachusetts.
    In some states, including in New York, municipalities and other 
non-county local governments provide direct veterans services and 
outreach.
    Many states, including Oregon, have a combination of several of 
these outreach mechanisms.
    The one thing all the states have in common is a state agency led 
by a director charged to serve all veterans within the geographic 
borders of the state. In order to effectively achieve the outreach 
goals outlined in this bill, it must be amended with language broad 
enough to cover veterans residing in all areas of the country in ways 
that are locally effective.
    The ability of State DVAs to provide Federal outreach funds to 
reach veterans in the respective states, either through a grant or 
through a contract, should continue to be allowed as under the original 
bill. Therefore, use of the term ``non-profits'' should be retained.
    To date, NASDVA has supported S. 1314, the Veterans Outreach 
Improvement Act and the language it contains. For the reasons noted 
above, NASDVA and the National Association of County Veterans Service 
Officers (NACVSO) agreed to recommend that the following language be 
included in S. 1314, which we believe more appropriately captures the 
totality of the Nation's infrastructure available for the provision of 
outreach to veterans nationwide:

        A veterans agency of a State receiving a grant under this 
        subsection may use the grant amount for purposes described in 
        paragraph (1) or award all or any portion of such grant amount 
        to local governments in such State, other public entities in 
        such State, or private non-profit organizations in such State 
        for such purposes.

    Of note, the term ``non-profit'' includes VSOs, which are 
incorporated under one of the non-profit provisions of 501c of the 
Internal Revenue Code.
    H.R. 3008 is an important step in the right direction, and we 
appreciate the recognition of the need for more outreach and services 
by the bill's author, co-sponsors, and the leadership and Members of 
this Subcommittee in allowing today's hearing on this bill.
H.R. 3795--You Were There, You Get Care Act
    We support the expansion of presumptive service-connected 
disability benefits to veterans who served in the Gulf War theater of 
operations and other military operations involving depleted uranium. We 
also support the independent medical study to identify other conditions 
in addition to those already covered under existing laws covering 
radiation.
H.R. 4274--Gold Star Parents Annuity Act of 2007
    We support the creation of a stipend to surviving parents who are 
the recipient of the Gold Star lapel button.
H.R. 5155--Combat Veterans Debt Elimination Act
    We support the prohibition of collections on indebtedness for 
military servicemembers who die of a service-connected disability 
incurred or aggravated on active duty in a war or combat zone.
H.R. 5448--Full Faith in Veterans Act
    We support the implementation of new criteria for the service-
connection of PTSD that reduces the burden of proof on the veteran and 
requires the consideration for the inclusion of treatment records that 
updates the provisions of the disability rating schedule regarding 
PTSD, traumatic brain injury, and other mental disorders.
H.R. 5454--Presumption of service-connection for ALS
    Given the growing recognition of an inexplicable association of 
higher rates of amyotrophic lateral sclerosis among those with military 
service than those without similar service, we support the presumption 
of service-connection for ALS for wartime veterans.
H.R. 5954--Presumption of service-connection for Project 112 veterans
    We support the presumption of service-connection for diseases 
associated with biological, chemical, or other toxic agents for 
veterans who were participants in Project 112, including Project SHAD, 
regardless of whether their participation was knowing or unknowing, 
willing or unwilling.
H.R. 5985--Compensation for Combat Veterans Act
    We support the acceptance of records showing the veteran was 
entitled to combat zone compensation as proof of combat service of 
veterans for the purposes of certain veterans benefits. Given the 
nature of current military operations, it is highly possible that small 
groups of military servicemembers may be in combat operations and 
entitled to combat zone compensation exclusion, which may be the only 
publicly available evidence of their combat zone participation.
H.R. 6032--Wartime disability compensation for certain veterans with 
        Parkinson's disease
    Given the growing recognition of an inexplicable association of 
higher rates of Parkinson's disease among those with military service 
than those without similar service, we support the presumption of 
service-connection for Parkinson's disease for wartime veterans.

                                 <F-dash>
                      Statement of Denise Nichols,
    Vice Chairman, National Vietnam and Gulf War Veterans Coalition
                   National Vietnam and Gulf War Veterans Coalition
                                                    Washington, DC.
                                                      June 12, 2008

To:
            HVAC Subcommittee Disability Assistance

CC:
            House Veterans Affairs Majority Staff

Subject:
             Support for H.R. 3795--DU; H.R. 5954--BIOLOGICAL-CHEMICAL; 
H.R. 5454--ALS; H.R. 6032--PARKINSON

Dear Representative Hall,

    Today your Subcommittee is marking up excellent legislation that we 
would like to wholeheartedly support. All the bills being brought up 
should be supported fully. The bills we are most interested in H.R. 
3795, 5454, 6032, 5954 are long overdue! Each of these bills address 
urgent needs. The Gulf War veterans have a particular interest in H.R. 
3795 and we are putting this on our hottest priority list! WE are 
already pushing more Representatives to sign on and show their support 
as cosponsors! We want these bills passed into law as fast as possible.
    Bills H.R. 5454 and 6032 address two devastating diseases and the 
veterans that are diagnosed with these need direct and immediate 
attention. The numbers of both within the VA system are not 
overwhelming and of course much lower than PTSD and the current combat 
injured (amputations, etc) but they probably need more support long 
term and that is the least we can do. We need to lift the burden of 
continued claims battles these veterans face and these bills will 
certainly serve to get them through that battle more rapidly so that 
they can not be burdened by additional fights when they need to focus 
on healthcare and battling to maintain their health as their central 
issue. We complement the VA House Committee for bringing them the first 
step in long term relief to the veterans that suffer these devastating 
illnesses.
    Bill H.R. 5954 the relief for Project Shad Veterans is long 
overdue. Again the number of these veterans is small as compared to all 
other groups and they have been forgotten for too long. We fully 
support this bill moving forward rapidly.
    We also support

H.R. 1197--POW
H.R. 5985--COMBAT VETERAN
H.R. 5448--PTSD
H.R. 5709--QUALITY CONTROL ON CLAIMS
H.R. 5155---DEBT RELEASE
H.R. 3008--RURAL CARE

    Thank you for your efforts to make a real difference for all 
veterans!

            Sincerely,
                                             Denise Nichols
                                              Vice Chairman

                                 <F-dash>
                 Statement of John E. Olsen, ET-2, USN,
                              Billings, MT

    Chairman Hall, Ranking Member Lamborn and distinguished Members of 
the Committee. My name is John E. Olsen and I live in Billings, 
Montana. I am a former ETN-2 (64-65) and I write to describe my 
experiences within the ``Project SHAD Technical Staff'' (PSTS).
    I entered the U.S. Navy in 1961 after 3 years at Montana State 
University, including Advanced Army ROTC. After boot camp, I was 
assigned to ET `A' school for preparation as an Electronic Technician 
and assignment to the fleet. In 1964 I received orders to Project SHAD 
Technical Staff on board the USS Granville S. Hall for LT 2085. In 
normal transfers an enlisted person goes to the receiving station on 
the coast involved. In my case that should have been ``RECSTA Treasure 
Island'' in San Francisco bay. Instead, my orders were to the 
``Presidio'' in San Francisco. A suite in a fancy barracks, and I did 
not see anyone else in the building while I was there. A few days here, 
then transported to Treasure Island and immediately bussed to the 
airbase to catch a MATS flight to Pearl Harbor. The morning after 
arrival I was picked up by car and driven to a warehouse and told to go 
to an office in the back and up one flight. There I was met by a Chief 
Petty Officer and a LT(jg), who I later learned was the Personnel 
Officer for PSTS. Our conversation hinged on the concept of war; 
whether the old style of breaking things and killing people or would we 
rather just take over an ill populace. I was told that ``President 
Kennedy had personally believed this and he had chosen us to carry this 
concept into working order. We were the best at our primary jobs, could 
handle very well other jobs on board a ship, and we could pass the 
security clearance factor.'' Well, when our president wanted me for 
special work, who was I to say no! Of course I accepted the challenge. 
When the 2085 was tied up and the civilian crew had left, those of us 
already in Pearl went to the boat and met our skipper and chief 
engineer. Our skipper was a full Lieutenant and the Chief Engineer was 
a senior E-6 Engineman about twice my age. All this for a small boat, 
107 feet in length and mostly black in color. (Army colors) It needs 
grey, but first we find out that we do not wear our Navy uniforms. Then 
we gather on the Granville S. Hall for a security briefing that 
informed us that we would not leave the base without an undercover 
escort, one of which we may, or may not, figure out but there would be 
someone else also covering us. We went out on shakedown cruises, 
training on seamanship, and for our job in research. Then we had 
firefighting training. We were brought as a crew into a `classroom' 
setting and trained on the exposure suits and gas masks. This part of 
the training was filmed by an Army photo unit. Then to the G.S. Hall 
for shots, something special as we were only told the basics when we 
got them. Then decontamination of the interior of the vessel using 
challengers filled with betaPropilactone and formalin. I turned them on 
and left the area, closing the hatch behind me. After the challengers 
were empty they shut down and we opened the 85 and went back to our 
home. No one told us it was safe to re-enter the boat. We still had 
liquid running down the bulkheads in most of the vessel. We had sealed 
only the refrigerator and opened the rest of the interior to assure 
there were no bugs still on board. Now on to Emergency Ship handling 
school where an E-4 (me), an E-6 (one of our cooks), and three officers 
off a submarine, a Lieutenant Commander and two LTs (jg)'s made up the 
class taught by a Commander.
    We had five LTs and six crews, we were trained for our job, but 
there was a President who had not been elected, but had assumed the 
position after the death of our beloved JFK. Volunteers were requested 
to keep one crew in Pearl and transfer the balance back to the fleet. I 
elected to stay with the unit as I had earned advancement to E-5. 
During the down time we put in electronic spares on each boat, cared 
for the vessels, and a few excursions. One was the time a Russian 
Trawler had need of spare parts only available in the port of Honolulu. 
Well, on that day, while a Geodesic Survey ship and other `proper' 
ships of the line were in the harbor, we were out with one of the LT's 
equipped to spray agent, practicing our man overboard procedures. Grey 
harbor tug manned by people in civilian clothes with the ability to lay 
down a spray--and they had the long lenses and lots of film. Were we 
out there as bait of a sort, I so believe to this day?
    Election up coming, let's get up to strength by bringing in the 
other new crews. Now we are back on our proper vessels getting ready 
again to go into research, to work. Most of the engineering crew had 
some experience with tugs but most of the ET's came from destroyers or 
large vessels. But our Weathermen came off a carrier or a shore 
installation, never anything as bouncy as a tug. The placard said 
``This vessel not to be operated on ocean or coastwise waters, signed, 
commandant U.S. Coast Guard'' and seemed to have validity. I do know 
that one time I had a roll of 65 degrees and a pitch of 40 degrees as 
this was what was needed to throw the gyro out of kilter, and it did. 
OK, after the inauguration of LBJ we were ready to start Shady Grove. 
This was to take place near Johnston Island and we needed to transit to 
that site. We left Pearl Harbor on the 21st of January.
    After arrival in Johnston Island we again deConned the interior of 
the vessels before doing anything else. Our air group arrived, Marine 
A4's and the ground crews. The General paid a visit to each boat. Soon 
we were underway to run the initial test, and first series of trials to 
get us acquainted with the actual procedures. About a week out at sea 
then back into port for a couple days, then out to station again. The 
weatherman and I strapped the theodalite in and proceeded to do the 
wind balloons and information to control each evening, in code. Five or 
6 days at sea then a couple days in, then back out. The testing takes 
much of the night, then during the day a minimum crew operates the ship 
to the lab ship then back to station. Minimum crew was one person on 
the bridge and one person in the engine room, and I had been appointed 
to day watch. Of course, that meant that during the tests I was asleep 
in the sleeping quarters, never knowing what was leaking through the 
filters, and going into my lungs. Our filters got everything down to 1 
micron, but they were made of paper, and this was close to the ocean 
and there was actual seawater in the area. Salt water and paper made 
for paper changing its porosity, in other words, it leaked.
    My morning at sea began before sunrise as I assisted the navigator 
in shooting the stars to determine our position after the external 
decon of the vessel. As the ship was opened up for day operations most 
of the crew went to sleep and one engineer and myself brought the 
vessel to the lab ship to off load the samples and get the special 
supplies for the next nights tests. And so it went until April when we 
completed ``Shady Grove'' and I was on my way back to Montana State 
University. My field of study was Electrical Engineering and Business.
    By the end of my first quarter on campus I needed to get some work 
to keep me busy so I applied to the Electronic Research Laboratory. I 
started with the Digital Data Systems group where we would be working 
with Water Resources Research group. We developed the Snow Pack 
measuring devices that are put into the mountain areas of the west. And 
I built the prototype. After about 3 years of school, I finally earned 
a BS degree in Commerce (General Business).
    Now to work, and a large construction company looks like the place 
to put my varied experience to work. After completing the field 
training I am offered a position in the purchasing department of 
Southwest Operations of Chicago Bridge and Iron Company. Since I had 
more law courses in school I was given the pleasant chore of 
contracting our company attorney, and one of the choices available was 
Leon Jaworski and Associates. Good thing he had a number of attorneys 
on staff as he was called to Washington, D.C., to head the Watergate 
investigation. As we expand operations I am handed the steel buying and 
before long become probably the largest single consumer of steel on the 
Gulf Coast of the United States. About 1975 I was given the added 
responsibility of managing the annual audit of SW operations, and this 
is the year we go from `Over the Counter' to the New York Stock 
Exchange. About this time that I am handed one of the largest jobs I 
have ever had. Negotiating with and meeting the proposed supplier off 
and on for a few months then one morning I receive a call, then place a 
call to New York lasting about 10 minutes and I've spent over $10 
million. I also furnished most of the steel for the last greenfield 
refinery built in the U.S.
    Next was Chemtrol Corporation as the Purchasing Manager of this 
specialty insulation company. Fireproof and radiation proof insulation 
was important in the nuclear power field anywhere in the world. And we 
did it! I'm with the company only about a month when Three Mile Island 
happened, and this certainly put a crimp in our future. After less than 
a year I move to Sales Manager for an Electronics and Metrology 
Company. We handle everything from single meters to plant process 
control (Dow Freeport). We do temperature measuring of the GM first 
battery powered vehicles to clocks on the space shuttle. It is during 
this time that the first indication of possible troubles from SHAD 
arise. I'm 41 and have hypertension, but then I have a massive spasm of 
the heart muscle. The difference between a spasm and attack is a spasm 
leaves no damage to the heart muscle, even though it can kill just as 
dead. Very unusual as normal medications work only for a short time 
then fail as the pressure goes up higher than before. Soon I am again 
not getting paid so move back to Montana. The prognosis is not good.
    I finally cannot afford medical care so end up with the VA hospital 
in Miles City, still trying to nail this down. Finally a sophisticated 
test shows a probable tumor within the body so I am sent to the Salt 
Lake VA Hospital where the tumor is confirmed. I am scheduled for 
surgery, but first I needed to be switched from the normal anti-
Hypertensive to a quick acting variety when a timing fluke reared its 
ugly head. My blood pressure went up to over 300+/300+. The nurse told 
me I wasn't supposed to be there any longer, but I made it to the 
operating room and had an adrenal tumor removed. I did not feel, per 
what I had been told upon leaving SHAD, that I could tell the medical 
people that my internal fluids might be hazardous to their health. But 
I did survive this and went on to live without blood pressure problems 
for quite some time, but now have had a mild attack which took me to a 
cardiologist some 2 weeks after the event for one stent. Skin cancer, 
prostate cancer, replaced hip, arthritis, COPD, and now osteoporosis 
and scoliosis of the lower spine for me and only some cancer in the 
family history make me wonder, was it SHAD.
    From the age of 41 I have been unable to find work of a nature to 
fit my field of study, or that would pay anywhere near the amount I had 
earned at the electronic sales job that I had then. If that salary were 
brought to the present it would be in the neighborhood of $150,000, and 
with that I could have some funds set aside for retirement, but the 
best I have done since then has been below $18,000. That's not enough 
to leave a nest egg.

                                 <F-dash>
               Statement of Paralyzed Veterans of America

    Mr. Chairman and Members of the Subcommittee, on behalf of 
Paralyzed Veterans of America (PVA), we would like to thank you for the 
opportunity to submit a statement for the record regarding the proposed 
legislation. We appreciate the fact that you continue to address the 
broadest range of issues with the intention of improving benefits for 
veterans. We particularly support any focus placed on meeting the 
complex needs of the newest generation of veterans, even as we continue 
to improve services for those who have served in the past.

        H.R. 1197, THE ``PRISONER OF WAR BENEFITS ACT OF 2007''

    This legislation would repeal the requirement that a Prisoner of 
War (POW) be held captive for at least 30 days in order to receive a 
presumption of service-connection for the purposes of receiving 
benefits. This issue was first considered during the 108th Congress 
after American service personnel who were held captive in Iraq during 
the early stages of the war were released or rescued after less than 30 
days of internment. These men and women had sustained severe injuries 
as a result of combat actions and their subsequent internment. It seems 
only fair that any POW, regardless of time in captivity, be recognized 
as being eligible for service-connected benefits. PVA supports this 
provision.
    We likewise support the addition of the following diseases to the 
list of diseases presumed to be service-connected; Type II diabetes and 
osteoporosis. We have no objections to the requirements placed on the 
Secretary of VA for adding or subtracting diseases to the presumptive 
service-connection list. We would only caution that veterans and former 
POWs should be given the benefit of the doubt before any consideration 
is given to removing a disease from the list.
    The legislation also allows a survivor of a veteran to continue to 
receive dependency and indemnity compensation for the death of a 
veteran resulting from such disease on the basis of such presumption 
after a disease is removed from regulations. PVA supports this 
provision of the legislation.

  H.R. 3008, THE ``RURAL VETERANS SERVICE OUTREACH AND TRAINING ACT''

    The ``Rural Veterans Service Outreach and Training Act'' is 
intended to improve outreach activities performed by the VA. It does so 
by creating a grant program for states to help fund their rural county 
veteran service officers. A state is eligible to apply for a grant if 
it has at least one county where veterans reside, and that county does 
not have a service officer. State eligibility may also include a county 
that has a service officer working part time, or a county that has more 
that 1000 veterans residing in it and has a full-time county veterans 
service officer but can still demonstrate a need for additional 
services by a county service officer.
    The maximum grant amount available is $1,000,000 and states will be 
able to apply annually. States are required to provide a 20 percent 
match to receive the funds and states must use the funds to increase 
their outreach activities and not to supplement existing programs.
    We believe this program can demonstrate to new veterans, as well as 
veterans from past conflicts that state governments along with the 
federal government are making a real effort to ensure that they receive 
the information, services, and benefits that they have earned. PVA 
generally supports the provisions in this proposed legislation.

        H.R. 3795, ``YOU WERE THERE, YOU GET CARE ACT OF 2007''

    PVA supports H.R. 3795, the ``You Were There, You Get Care Act of 
2007.'' This legislation allows for the men and women who served in the 
1991 Persian Gulf War and conflicts since that date to be considered to 
be radiation-exposed for the purpose of service-connection as a result 
of exposure to depleted uranium. However, we believe that this 
legislation should be expanded to include veterans who served prior to 
the first Gulf War. During the eighties, U.S. Army armor units located 
in Germany and South Korea carried armor piercing shells that were made 
from depleted uranium. While servicemembers understood that there were 
hazards associated with depleted uranium, they still spent weeks at a 
time in the tanks with these shells radiating uranium. As such, these 
veterans should also be included in this category for presumptive 
service connection.

        H.R. 4274, THE ``GOLD STAR PARENTS ANNUITY ACT OF 2007''

    PVA has some serious concerns about this proposed bill. First, we 
question how this benefit would be applied in a situation where a 
veteran has a surviving spouse or dependents as well as surviving 
parents. We do not believe that this is an appropriate benefit if the 
veteran has a surviving spouse or dependents because those individuals 
already would be the designated beneficiaries for all survivor 
benefits. Payments under this bill would be nothing more than a 
secondary survivor benefit to the parents.
    While PVA always supports benefits that recognize the sacrifices 
made by our servicemembers, we believe that providing $125 per month as 
a recognition for the death of a service man or woman is a slap in the 
face at best. The value of this benefit suggests that the life of the 
man or woman who served and died honorably is worth almost nothing. 
Moreover, to create a situation where separated parents might receive a 
$62 per month reminder of their son's or daughter's service and death 
is beyond comprehension. While intentions for this legislation might be 
good, this bill will certainly create more heartache and pain rather 
than honorable recognition. With these thoughts in mind, this 
legislation should be reconsidered.

    H.R. 5155, THE ``COMBAT VETERANS DEBT ELIMINATION ACT OF 2008''

    PVA principally supports H.R. 5155, the ``Combat Veterans Debt 
Elimination Act of 2008.'' However, we have a couple of concerns with 
the proposal. First, we believe that the legislation should afford the 
same benefit to any servicemember who might have been killed while 
serving in the line of duty. We do not think that a special distinction 
should be made between a servicemember who was killed in a combat 
theater and a servicemember who was killed while serving at his or her 
home duty station. We would ask; ``What is the difference between 
having a tank roll over on the individual in Iraq or Afghanistan, or a 
tank roll over on the individual at Fort Hood, Texas?'' The benefit of 
this legislation should be afforded to any servicemember killed while 
serving this nation honorably.
    Second, we wonder why a special exception is made in this 
legislation for certain debts to be collected. As we understand the 
bill, the only debt that the VA will be permitted to collect upon a 
servicemember's death is a home loan or small business loan.

         H.R. 5448, THE ``FULL FAITH IN VETERANS ACT OF 2008''

    PVA supports H.R. 5448, the ``Full Faith in Veterans Act of 2008.'' 
This legislation will help address the high number of post traumatic 
stress disorder (PTSD) cases from Operation Iraq Freedom/Operation 
Enduring Freedom (OIF/OEF) as well as veterans from previous conflicts. 
As more information becomes available from the VA's Mental Health 
Centers of Excellence and other professional sources pertaining to the 
diagnosis and treatment of PTSD, this information must be available to 
all VA health care providers.
    The latest information must also be available to the VA's Vet 
Centers. Vet Centers are often the only VA representation in rural 
areas, and most Vet Centers are the first point of contact for veterans 
in rural areas with PTSD, as well as other mental health conditions.

                             H.R. 5454, ALS

    PVA supports H.R. 5454, a bill that provides a presumption of 
service connection for Amyotrophic Lateral Sclerosis (ALS) for any 
veterans that served during a period of war.
    Studies published in medical neurology journals indicate a higher 
level of ALS among servicemembers that served in the Gulf War than any 
other segment of the general population. Although, at this time there 
is no causal effect standard for determining presumption, more research 
should be funded by the VA for current veterans with ALS and future 
cases. We support this presumption of service connection for these 
veterans since there is currently no medical evidence to refute the 
increased incidence among veterans.

          H.R. 5709, THE ``VETERANS DISABILITY FAIRNESS ACT''

    PVA supports the provisions of H.R. 5709, the ``Veterans Disability 
Fairness Act.'' We hope that this legislation will correct the 
inconsistencies of ratings that veterans receive from different VA 
regional offices. We have heard testimony over the last couple of years 
about veterans that may receive a 70 percent rating in one location, 
and be rated 100 percent in another region. While we understand that no 
veterans' claims are the same, there is still a great deal of 
inconsistency in application of adjudication standards and regulations.
    This legislation requires the VA to conduct reviews and audits 
annually to identify and correct inaccuracies or inconsistencies in 
disability ratings and the adjudication of claims for disability 
compensation. The VA can use that information to address the 
differences that occur nationally. To minimize the variability among 
regional offices, the VA must increase training, improve rater 
qualifications, and increase the quality review system.
    In the Veterans' Disability Benefits Commission report, released in 
October 2007, the Institute of Medicine (IOM) recommended that 
educational and training programs for VBA raters and VHA examiners be 
developed, mandated, and uniformly implemented across all regional 
offices with standardized performance objectives and outcomes. These 
programs should make use of advances in adult education techniques. 
External consultants should serve as advisors to assist in the 
development and evaluation of the educational and training programs. We 
believe this legislation begins to address this recommendation, but it 
could do more.
    We look forward to working with the VA and Congress to improve the 
consistency in disability ratings for veterans throughout the system.

      H.R. 5954, PRESUMPTION OF SERVICE CONNECTION FOR PROJECT 112

    PVA supports H.R. 5954, a bill to provide veterans with a 
presumption of service connection for purpose of benefits for diseases 
associated with service in the Armed Forces and exposure to biological, 
chemical, or other toxic agents as part of Project 112.
    The Department of Defense (DoD), originally denied the occurrence 
of tests including chemical and biological agents until a government 
investigation identified these tests. Project Shipboard Hazard and 
Defense (Project SHAD) was conducted between 1962 and 1974. Of the 
20,000 veterans that may have been exposed to these chemicals, VX nerve 
gas, Sarin Nerve Gas and E.Coli, all known to be harmful chemicals, 
only 6,000 veterans have been identified. This bill will ensure that 
all veterans that may have incurred a disease as a result of exposure 
to these chemicals will receive the medical care they deserve.
    Section 2 of the bill requires the DoD to release all records that 
will allow the VA to identify the other 14,000 veterans involved in 
Project 112. It is time that the DoD finally sets the record straight 
and comes clean about all of the activities surrounding Project 112/
SHAD.

        H.R. 5985, THE ``COMPENSATION FOR COMBAT VETERANS ACT''

    PVA fully supports H.R. 5985, the ``Compensation for Combat 
Veterans Act.'' This proposed legislation is in accordance with a 
recommendation included in The Independent Budget for FY 2009. As 
stated in The Independent Budget:

        While VA recognizes the receipt of certain medals as proof of 
        combat, only a fraction of those who participate in combat 
        receive a qualifying medal [qualifying medals include combat 
        badges and medals received for valor]. Further, military 
        personnel records do not document combat experiences except for 
        those who receive certain medals. As a result, veterans who are 
        injured during combat or suffer a disease resulting from a 
        combat environment are forced to try to provide evidence that 
        does not exist or wait a year or more while the Department of 
        Defense conducts research to determine whether a veteran's unit 
        engaged in combat.

    This legislation will clarify the status of veterans that have 
served in a combat zone and have suffered a disease or injury. This 
will eliminate the need to establish evidence for proof of service-
connection. H.R. 5985, when signed into law, will save the veteran 
valuable time in developing their claim to submit to the VA when they 
seek the medical care for an injury or disease as a result of their 
combat service.
    It is important to note that this legislation would not eliminate 
or alter in any way the requirement that a veteran's claim for 
disability have an official diagnosis or that a clear connection 
between that claimed disability and military service exists. It would 
simply relieve the burden placed on veterans who served in a combat 
theater of proving that the claimed disability was combat-related. As 
it currently exists in law, service in a combat zone or theater does 
not necessarily meet the threshold that the VA has established for 
recognizing a combat veteran. This loophole needs to be changed to 
benefit the veteran and we believe this legislation will accomplish 
that task.

            H.R. 6032, PRESUMPTION OF SERVICE CONNECTION FOR
                           PARKINSON'S DISEASE

    PVA supports H.R. 6032, a bill that provides a presumption of 
service connection for Parkinson's disease for certain veterans who 
served in the Republic of Vietnam. The 109th Congress passed 
legislation that required the Secretary to designate six centers of 
excellence for Parkinson's disease research, education, and clinical 
activities. These facilities will have an arrangement with an 
accredited medical school that provides training in neurology and 
diagnosis and treatment of neurodegenerative diseases. Medical evidence 
has indicated a higher rate of Parkinson's disease among veterans that 
have served in Vietnam. With the passage of this legislation, a veteran 
that develops Parkinson's disease will be able to receive the latest 
treatment for this devastating condition.
    Mr. Chairman, we would like to thank you again for the opportunity 
to submit a statement for the record. We look forward to working with 
the Subcommittee to ensure that the best benefits are available to all 
veterans.

                                 <F-dash>
                        Statement of Alan Oates,
 Edinburg, VA, Member, U.S. Military Veterans with Parkinson's (USMVP)

    Dear Chairman and Committee Members,
    I am Alan Oates, a Vietnam Veteran. I have Parkinson's disease. I 
am a member of an organization called ``U.S. Military Veterans with 
Parkinson's'' (USMVP). Our organization and members haven't received 
any Federal Grant Funds nor do we have any contracts with the U.S. 
government.
    Parkinson's is a degenerative, progressive disease without a cure. 
The physical, mental and financial burden on Vietnam Veterans suffering 
with this disease and their families is devastating.
    Public Law 102-4 was passed to provide a better means to address 
Agent Orange and the health issues that Vietnam Veterans faced. 
Congress recognized the need for an agency outside of the VA to look at 
these issues. Especially since the VA's own report by Admiral Zumwalt 
stated that the VA's review Committee on Agent Orange was so biased to 
Veterans that they should be fired. The VA classified this report to 
keep it from the public.
    However due to flaws and failed implementation of Public Law 102-4, 
the system created by Congress to help these Vietnam veterans has 
failed them. It has failed the Veteran who recently emailed me, 
pleading for help as his Parkinson's had left him unable to work and 
almost homeless--. and the Veteran who at 58 years of age was left so 
helplessly immobile in bed that his wife has to cauterize him twice a 
day. Let there be no doubt that their Parkinson's is a result of their 
service to their Country in Vietnam.
    I have met with the staff of many of the Members on this Committee 
and have provided extensive documentation and justification for passing 
this bill. As in written testimony I am limited to ten pages total, I 
am only including selected exhibits.
    After extensive research we have found:

    <bullet>  Vietnam Veterans were exposed to a large number of toxic 
chemicals including Agent Orange and Organophosphates.
    <bullet>  Evidence that connects Parkinson's disease to service in 
Vietnam and to exposure to various chemicals used in military 
operations.
    <bullet>  The Department of Veterans Affairs and the system 
established under Public Law 102-4 to look at the disease in Vietnam 
Veterans has failed these Veterans.

        I.  Vietnam Veterans were exposed to a multitude of chemicals 
        during their military service in Vietnam. Agent Orange and 
        Malathion (Malaoxon) are two of those.

                A.  Agent Orange consisted of two herbicides, 2,4-D and 
                2,4,5-T. The production of 2,4,5-T created the toxic 
                dioxin, TCDD. This is considered one of the most toxic 
                dioxins known to man.

                        1.  The Institute of Medicine in the Agent 
                        Orange Review reports that the TCDD in Agent 
                        Orange could be up to 1,000 times more toxic 
                        than that in the same herbicide used outside of 
                        military operations (farming and home use). 
                        This is important as most studies using the 
                        2,4,5-T herbicide are based on a less toxic 
                        form than that used in Agent Orange.

        II.  Malathion is an organophosphate insecticide. 
        Organophosphates were developed by Nazi Germany in the late 
        1930's as a Chemical Warfare Nerve Agent. These agents impact 
        the Central and Peripheral Nervous System.

                A.  Operation Flyswatter exposed Vietnam Veterans to 
                Malathion routinely every 9 days weather permitting.
                B.  The long storage times, high heat and exposure to 
                sunlight cause Malathion to break down into a highly 
                toxic Malaoxon.

        III.  Agent Orange and Malathion individually and in 
        combination are scientifically associated to Parkinson's 
        disease.

        IV.  Evidence of Association between Parkinson's disease and 
        military service in Vietnam.

                A.  Stanford University Military Deployment Study 
                Abstract (Exhibit A) found an increase of 2.6 times in 
                the risk for Parkinson's disease in veterans who 
                deployed to Vietnam compared to those who did not.

                B.  Dr. Chris Reid provides a nexus between service in 
                Vietnam and Parkinson's.

        V.  Agent Orange Association

                A.  In the Iowa Agriculture Health Study Update 2007 
                (Exhibit B), Dr. Kamel found that 2,4,5-T (Agent Orange 
                herbicide) was associated with an increased risk in 
                Parkinson's disease.
                B.  In the BMC Neurology Study published March 28, 
                2008, a strong Odds Ratio was found between 2,4-D and 
                Parkinson's disease even though the association had not 
                reached a scientific significant level.
                C.  A study showing how 2,4-D can impact the portion of 
                the brain related to dopamine productions. 
                ``Intracerebral administration of 2,4-
                diclorophenoxyacetic acid induces behavioral and 
                neurochemical alterations in the rat brain. Bortolozzi 
                A.''
                D.  A study showing alterations in dopamine in basal 
                ganglia by 2,4-D in neonatal exposed rats, mediated by 
                a serotonergic modulation on the dopaminergic system.
                E.  A study shows that 2,4-D can damage the 
                cytoskeleton structure of brain cells and disrupts the 
                microtubule of neuron cells. (2,4-D Acid Disrupts the 
                Cytoskeleton and Disorganizes thee Golgi apparatus of 
                Cultured Neurons) Silvan B. Rosso April 5, 2000). 
                Another study shows that when the microtubule is 
                disrupted in a dopamine carrying cell, it causes 
                dopamine to leak from the cell and kill the dopamine 
                cells. (Jian Feng Microtubule: A Common Target for 
                Parkin and Parkinson's Disease Toxins). The loss of 
                dopamine cells causes Parkinson's disease.
                F.  A study (2,3,7,8-Tetracholorodibenzo-p-dioxin 
                exposure disrupts granule neuron precursor maturation 
                in the developing mouse cerebellum. Collins LL.) 
                Demonstrates the ability of alter neuron cells.

        VI.  Organophosphates Malathion Evidence of Association

                A.  The BMC Neurology Study published 28 March 2008 
                finds scientifically significant association between 
                Organophosphates (Malathion) and Parkinson's disease.
                B.  There are numerous studies showing how 
                organophosphates are suspect in the development of 
                Parkinson's disease.

        VII. Public Law 102-4 has failed the Vietnam Veterans.

                A.  The law failed to address the issue that were many 
                chemicals exposure and not just Agent Orange for 
                Vietnam Veterans and narrowly focused on only the 
                herbicides used in military operations.
                B.  The Institute of Medicine (IOM) in conducting its 
                research for the Agent Orange Reviews is limited to 
                researching only the Diseases as they are associated 
                with herbicides used in Vietnam.
                C.  The IOM charge is to look for a scientific 
                connection between a disease and the herbicides and not 
                to look for a connection between a disease and Veterans 
                service in Vietnam.
                D.  An example of this is in the IOM AO 2006 review as 
                cited by the Department of Veterans Affairs in the 
                Federal Register on presumptiveness for Peripheral 
                Neuropathy. A study found some association with service 
                in Vietnam but not to the chemicals of interest. The 
                focus should be, is there evidence of an association 
                between the disease and the Veterans service in 
                Vietnam.
                E.  IOM will not look at other chemicals such as 
                Organophosphates as their charge by law is limited to 
                herbicides. There are many cases where other chemical 
                exposures such as Organophosphates and solvent 
                contribute to or cause a disease.

        VIII.  The Department of Veterans Affairs (DVA) has failed to 
        implement requirements of the law.

                A.  Public Law 102-4 required the DVA to conduct 
                studies that were recommended by the IOM in the Agent 
                Orange Reviews.

                        1.  DVA failed to conduct studies recommended 
                        by the IOM in the Agent Orange Reviews.

                                a.  Since 1994 in each review IOM has 
                                stated the importance of seeing if 
                                there is an early onset of Parkinson's 
                                disease in exposed veterans.
                                b.  The importance of studies comparing 
                                exposed to non exposed veterans.

                B.  DVA failed to collect and review the clinical data 
                on illnesses and disease related to Agent Orange in 
                Vietnam Veterans.

                        1.  This is evident by the fact that the DVA 
                        has been unable to provide even the number of 
                        Vietnam War Zone Veterans they are treating for 
                        Parkinson's disease. A request was made on my 
                        behalf by Congressman Goodlatte on April 9 for 
                        information on Vietnam Veterans with 
                        Parkinson's, as of this date.

                C.  DVA has not provided this information. DVA failed 
                to recognize that a finding of a biologic plausible 
                mechanism in the IOM Agent Orange review is a causal 
                relationship.

                        1.  Public law 102-4 required the NAS (IOM) to 
                        look to see if there is evidence of a biologic 
                        plausible mechanism ``or other'' causal 
                        association.

                                a.  By using the words ``or other'' 
                                Congress and the law is clear that a 
                                finding of evidence of a biologic 
                                plausible mechanism is a causal 
                                association.

                        2.  The VA Appeal Board has found service 
                        connection for Parkinson's disease due to 
                        herbicide exposure in two cases that we have 
                        found. In one of those cases the VA admits a 
                        finding of Biologic Plausibility and the appeal 
                        court judge rules in favor of the Veteran based 
                        partly on that point.

        IX.  DVA is required by law to evaluate the evidence for and 
        against presumptiveness of a disease and rule in favor of 
        presumptiveness if the evidence for is equal to or greater than 
        the evidence against an association. DVA must also publish its 
        findings on presumptiveness in the Federal Register and give 
        the scientific basis for that finding.

                A.  In the 2006 Agent Orange Review, IOM stated, ``In 
                pursuing the question of statistical association, the 
                Committee recognized that an absolute conclusion about 
                the absence of association is unattainable. As in 
                science generally, studies of health effects associated 
                with herbicide exposure cannot demonstrate that a 
                purported effect is impossible or could never occur. 
                Any instrument of observation, even the most excellent 
                epidemiologic study, is limited in its resolving power. 
                In a strict technical sense, therefore, the Committee 
                could not prove the absence of an association between a 
                health outcome and exposure to any of the compounds of 
                interest. That contributed to the current Committee's 
                decision to re-evaluate findings on the health 
                endpoints classified in Update 2004 as having 
                ``suggestive evidence of no association.''

                    This is a dramatic change from the prior position 
                of the IOM. ``Studies of health effects associated with 
                herbicide exposure cannot demonstrate that a purported 
                effect is impossible or could never occur.'' Since a 
                negative association is not technically possible the 
                credible evidence provided by the IOM at the worst can 
                only be viewed as neutral by DVA when evaluating a 
                disease for presumptiveness.

        X.  Since a positive causal association exists, not only 
        because of the biologic plausibility but because of other 
        credible evidence, DVA should have already approved 
        presumptiveness for Parkinson's disease.

    The system and the DVA have failed Vietnam Veterans. We bring our 
issues to the Veterans' Affairs Committee and the House of 
Representatives (The People's House) to correct and right this 
injustice. We ask that the Committee do two things:

    <bullet>  First, pass H.R. 6032 and give these Veterans, who on the 
average have already suffered with this service connected disease for 6 
years and individually up to 25 years, the help they so desperately 
need. They can not afford to wait any longer for the system to be fixed 
and to then address this issue.
    <bullet>  Second, make the necessary changes to the system to 
insure that they will correct the problems and issues we have addressed 
in this document.

    Thank you for the opportunity to provide input on this important 
issue.

                                 <F-dash>
                         Excerpted Figures from
                 ``Improving the Presumptive Disability
                 Decision-Making Process for Veterans''
         Committee on Evaluation of the Presumptive Disability
                  Decision-Making Process for Veterans
                 Board on Military and Veterans Health
          Jonathan M. Samet and Catherine C. Bodurow, Editors
            Institute of Medicine of the National Academies

             FIGURE S-1--ROLES OF THE PARTICIPANTS INVOLVED
                     IN THE PRESUMPTIVE DISABILITY
                  DECISION-MAKING PROCESS FOR VETERANS

[GRAPHIC] [TIFF OMITTED] T3058A.001

          
---------------------------------------------------------------------------
    a Stakeholders include (but are not limited to) veterans service 
organizations (VSOs), veterans, advisory groups, Federal agencies, and 
the general public; these stakeholders provide input into the 
presumptive process by communicating with Congress, VA, and independent 
organizations (e.g., the National Academies).
    b Congress has created many presumptions itself; in 1921, Congress 
also empowered the VA Secretary to create regulatory presumptions; on 
several occasions in the past, Congress has directed VA to contract 
with an independent organization (e.g., the National Academies) to 
conduct studies and then use the organization's report in its 
deliberations of granting or not granting regulatory presumptions.
    c VA can establish regulatory presumptions; VA sometimes contracts 
with the National Academies to conduct studies and uses the 
organization's report in its deliberations of granting or not granting 
regulatory presumptions.
    d The National Academies (Institute of Medicine and National 
Research Council) submit reports to VA based on requests and study 
charges from VA.
---------------------------------------------------------------------------

         FIGURE S-2--PROPOSED FRAMEWORK FOR FUTURE PRESUMPTIVE

            DISABILITY DECISION-MAKING PROCESS FOR VETERANS
[GRAPHIC] [TIFF OMITTED] T3058A.006

          
---------------------------------------------------------------------------
    a Includes research for classified or secret activities, exposures, 
etc.
    b Includes veterans, veterans service organizations (VSOs), Federal 
agencies, scientists, general public, etc.
    c This committee screens stakeholders' proposals and research in 
support of evaluating evidence for presumptions and makes 
recommendations to the VA Secretary when full evidence review or 
additional research is appropriate.
    d The board conducts a two-step evidence review process (see report 
text for further detail).
    e Final presumptive disability compensation decisions are made by 
the Secretary, Department of Veterans Affairs, unless legislated by 
Congress.
---------------------------------------------------------------------------

                     CONGRESSIONAL RESEARCH SERVICE

    MEMORANDUM
                        October 21, 2008

    To:
                        House Committee on Veterans' Affairs,
                        Subcommittee on Disability Assistance and 
Memorial Affairs
                          Attention: Kimberly Ross

    From:
                         Sidath Viranga Panangala, Analyst in Veterans 
Policy, 7-0623

    Subject:
                         Follow-up to Question Posed at the Legislative 
Hearing on June 12, 2008

    This memorandum responds to a question posed by Chairman John Hall 
at the legislative hearing on June 12, 2008. During that hearing 
Chairman Hall asked the following question:
    Does ALS [Amyotrophic Lateral Sclerosis] manifest more than a year 
after separation or does the veteran sometimes take that long or longer 
to recognize the symptoms and come to the [Department of Veterans 
Affairs] VA?
    Studies done regarding military service and ALS are quite limited, 
and published literature does not provide a clear answer about the 
post-service timeframe over which such an association may be seen. This 
memorandum provides a brief summary of the Institute of Medicine (IOM) 
review done to examine an association between ALS and military service 
and discusses current VA policy establishing a presumption of service-
connection for ALS.
Introduction
    Amyotrophic Lateral Sclerosis (ALS), also known as Lou Gehrig's 
disease, is a rapidly progressive medical condition that affects a 
person's nervous system.\1\ The Institute of Medicine (IOM) of the 
National Academy of Sciences reports that ALS causes nerve cells in the 
brain and spinal cord to degenerate. This degeneration in turn causes a 
breakdown in communication between the nervous system and the voluntary 
muscles of the body, and eventually leads to muscle paralysis. 
Moreover, muscles responsible for breathing are affected, and 
respiration fails.\2\ It affects about 20,000-30,000 people--of all 
races and ethnic backgrounds--in the United States at any given 
time.\3\ Most people who are diagnosed with the disease die from 
respiratory failure within 3 to 5 years of the onset of symptoms.\4\ 
About 10 percent of patients with ALS survive for 10 or more years.\5\ 
It has been reported that the rate of progression of the disease varies 
from patient to patient.\6\
---------------------------------------------------------------------------
    \1\ National Institute of Neurological Disorders and Stroke, 
National Institutes of Health, ``Amyotrophic Lateral Sclerosis Fact 
Sheet,'' September 9, 2008, [http://www.ninds.nih.gov/disorders/
amyotrophiclateralsclerosis/detail_amyotrophiclateralsclerosis.htm].
    \2\ National Academy of Sciences, Institute of Medicine (IOM), 
Amyotrophic Lateral Sclerosis in Veterans: Review of the Scientific 
Literature  (2006) p. 7.
    \3\ Ibid.
    \4\ Ibid.
    \5\ National Institute of Neurological Disorders and Stroke, 
National Institutes of Health, ``Amyotrophic Lateral Sclerosis Fact 
Sheet,'' September 9, 2008, [http://www.ninds.nih.gov/disorders/
amyotrophiclateralsclerosis/detail_amyotrophiclateralsclerosis.htm].
    \6\ National Academy of Sciences, Institute of Medicine (IOM), Gulf 
War and Health: Health Effects of Serving in the Gulf War vol 4. 
(2006), p. 153.
---------------------------------------------------------------------------
Military Service and ALS
    Many returning veterans from the Persian Gulf War began reporting 
numerous health problems that they believed to be associated with their 
service in this war.\7\ Among the conditions reported were symptoms 
associated with ALS. Given this concern among veterans that there is an 
increased risk of developing ALS among those who served in the Persian 
Gulf War, the VA asked the IOM to conduct an independent assessment of 
the potential relationship between military service and the later 
development of ALS. The IOM Committee did not address, nor was it asked 
to consider, the timeframe over which ALS symptoms appeared in veterans 
who succumbed to the disease. Based on a review of the scientific 
literature, the IOM Committee concluded that ``there is limited and 
suggestive evidence of an association between military service and 
later development of ALS.'' \8\
---------------------------------------------------------------------------
    \7\ Ibid. p. 1.
    \8\ National Academy of Sciences, Institute of Medicine (IOM), 
Amyotrophic Lateral Sclerosis in Veterans: Review of the Scientific 
Literature (2006), p.36. According to IOM, ``limited and suggestive 
evidence'' would indicate that evidence is suggestive of an association 
between military service and ALS in humans, but the body of evidence is 
limited by the inability to rule out chance and bias, including 
confounding factors, with confidence.
---------------------------------------------------------------------------
Compensation for Disabilities Associated with ALS and Military Service
    In 2001, the then VA Secretary made a policy decision to give 
special consideration to ALS disability claims by Persian Gulf War 
Veterans who served during the period August 2, 1990-July 31, 1991. 
Under this policy veterans with ALS who served during other periods 
would not receive disability compensation.\9\
---------------------------------------------------------------------------
    \9\ Department of Veterans Affairs, ``Presumption of Service 
Connection for Amyotrophic Lateral Sclerosis,'' 73 Federal Register 
54691, September 23, 2008.
---------------------------------------------------------------------------
    The VA subsequently announced in September 2008 that it would 
establish a presumption of service-connection for ALS for any veteran 
who develops the disease at any time after separation from service.\10\ 
This would relieve the veteran of the burden to prove that ALS was 
caused by a specific exposure or activity that occurred during service 
in the Armed Forces. To be eligible for this presumptive service-
connection, a veteran must have served on continuous active duty for a 
period of 90 days or more. The VA made this decision based on the 
understanding that further research is unlikely to clarify this 
association between ALS and military service, and there is sufficient 
evidence indicating a correlation between ALS and activities in 
military service that supports establishment of a presumption of 
service-connection for ALS for any veteran with that diagnosis.\11\ VA 
also noted that it could revisit this presumption if scientific and 
medical advances in the future show that ALS is not associated with 
activities during military service.\12\
---------------------------------------------------------------------------
    \10\ Ibid.
    \11\ Ibid.
    \12\ Ibid.

                                 <F-dash>
H.R. 5954, 2nd Session of 110th Congress
    Presumptions of Service Connection for Purposes of Benefits under 
Laws Administered by Secretary of Veterans Affairs for Diseases 
associated with Service in the Armed Forces and Exposure to Biological, 
Chemical, or other Toxic Agents as part of Project 112
Issue
    H.R. 5954, Presumption of Service Connection for Diseases 
associated with Exposure to Biological, Chemical, or other Toxic Agents 
as part of Project 112.
Purpose
    H.R. 5954, proposes to amend subchapter 1, chapter 11, of title 38, 
United States Code, with the addition of a new section 1119 entitled 
``Presumptions of service connection for diseases associated with 
Project 112'' that will:

    <bullet>  Establish a presumption of service connection for any 
disease determined by the Secretary to have resulted from an increased 
incidence of exposure to a biological, chemical, or other toxic agent 
during service or having been directly or indirectly subjected to a 
chemical or biological warfare test under Project 112.
    <bullet>  Require the Secretary to determine the presumptive period 
that such disease must have manifest to warrant entitlement of service 
connection.
    <bullet>  Establish presumption of such exposure if the veteran 
participated in a Project 112 test and defines what constitutes Project 
112 test.
    <bullet>  Instruct the Secretary to notify all veterans that were 
potentially exposed as the result of Project 112 not later than 180 
days after enactment of the legislation. The Department of Defense will 
be tasked to transfer the records of active duty personnel and 
reservists that were potentially exposed within 30 days after 
enactment.
    <bullet>  Task VA to submit a report to Congress within 1 year 
after enactment concerning Project 112. The report will accomplish the 
following: (1) Document the costs, benefits, and challenges associated 
with continuing the search for additional Project 112 participants; (2) 
provide a full accounting of all information known concerning Project 
112 participants; and (3) address other concerns regarding Project 112 
held by the VA, veterans, or veterans service organizations.

Program Views on Proposed Legislation
Highlights
    This proposed legislation defines presumption of exposure for a 
Project 112 partcipant, directs the Secretary to determine what 
diseases are associated with such exposure and also to determine any 
presumptive time frame, instructs VA to contact potentially exposed 
veterans, and requires that VA deliver a report to Congress concerning 
the effects of Project 112.
Program Views
    Project SHAD, an acronym for Shipboard Hazard and Defense, was part 
of a larger effort called Project 112 which was a comprehensive program 
initiated in 1962 by the Department of Defense (DoD) to protect and 
defend against potential chemical and biological warfare threats. 
Project SHAD encompassed a series of tests by DoD to determine the 
vulnerability of U.S. warships to attacks with chemical and biological 
warfare agents, and the potential risk to American forces posed by 
these agents. Project 112 tests involved similar tests conducted on 
land rather than aboard ships. Project SHAD involved servicemembers 
from the Navy and Army and may have involved a small number of 
personnel from the Marine Corps and Air Force. Servicemembers were not 
test subjects, but rather were involved in conducting the tests. 
Animals were used in some, but not most, tests.
    DoD continues to release declassified reports about sea--and land--
based tests of chemical and biological materials concerning Project 
112. VA is working with DoD to obtain information as to the nature and 
availability of the tests, who participated, duration and agents used. 
DOD estimates that about 6,000 veterans may have been involved in 
Project 112/SHAD. To date, DOD has provided VA with the names of 
approximately 5,000 veterans who participated in the tests. VA began, 
in May 2002, to contact veterans who participated in Project SHAD about 
medical care and benefits to which they may be entitled.
    In October 2002, VA contracted with the Institute of Medicine (IOM) 
to conduct a three-year, $3 million study of potential long-term health 
effects of tests conducted on board Navy ships in the sixties. IOM's 
report, Long-Term Health Effects of Participation in Project SHAD, was 
published in May 2007 and found no clear evidence that specific long-
term health effects are associated with participation in Project SHAD.
    VA opposes this legislation. We have already contracted for a 
significant long-term study concerning the health effects of SHAD 
participants and received the report from the IOM. The Secretary has 
authority to contract for an additional study if it is deemed 
necessary. We do not believe that enactment of this legislation is 
warranted at this time due to the lack of credible scientific and 
medical evidence that adequately demonstrates any statistically 
significant correlation between participation in SHAD tests and the 
subsequent development of any disease.
Costs (Mandatory and Discretionary)
Mandatory Benefit Costs
    This bill provides disability compensation to veterans with 
diseases associated with toxic agents and disability indemnity 
compensation to survivors of such veterans. The Department of Defense 
estimates that 6,442 veterans are currently alive who were exposed to 
toxic agents through Project 112. Under this proposal, the Secretary 
would determine which diseases warrant a presumption of service 
connection for this population and publish decisions in regulations. 
The Institute of Medicine (IOM) of the National Academies released 
their report, ``Long Term Health Effects of Participation in Project 
SHAD'' on May 30, 2007. IOM could not clearly connect any conditions to 
toxic exposure in SHAD. VA therefore assumes that no conditions would 
be determined presumptive for service-connection based on involvement 
in Project 112. We are unable to provide a cost estimate for this bill 
without further support.
Discretionary GOE Costs
    There would be no discretionary costs as this proposed legislation 
would have no significant impact on workload.
Contacts
    For questions please contact Adrienne Foster, at 202-461-9690, C&P 
Service Budget Staff (211C) or Christina DiTucci, ORM Benefits Budget 
Division (244A), at 202-461-9928.

                                 <F-dash>
                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                      June 23, 2008
Hon. Michael L. Dominguez
Principle Deputy Under Secretary of Defense
for Personnel and Readiness
U.S. Department of Defense
1300 Pentagon Defense
Washington, DC 20301

Dear Mr. Dominguez:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs Legislative 
Hearing on H.R. 1197, H.R. 3008, H.R. 3795, H.R. 4274, H.R. 5155, H.R. 
5448, H.R. 5454, H.R. 5709, H.R. 5954, H.R. 5985 and H.R. 6032 on June 
12, 2008, I would appreciate it if you could answer the enclosed 
hearing questions as soon as possible.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Megan Williams by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-3608.

            Sincerely,

                                                       John J. Hall
                                                           Chairman

                                 ______
                                 
                        Questions for the Record
                 The Honorable John J. Hall, Chairman,
      Subcommittee on Disability Assistance and Memorial Affairs,
                   House Veterans' Affairs Committee
                             June 12, 2008
   Legislative Hearing on H.R. 1197, H.R. 3008, H.R. 3795, H.R. 4274,
         H.R. 5155, H.R. 5448, H.R. 5454, H.R. 5709, H.R. 5954,
                        H.R. 5985, and H.R. 6032
                               H.R. 3795

    Question 1: Please inform the Committee whether Depleted Uranium 
(DU) is widely used by the military, for example, in anti-tank weapons, 
tank armor and ammunition rounds.

    Answer: The United States military uses DU in armor penetrating 
munitions fired by Abrams tanks, Bradley Fighting Vehicles, and several 
aircraft systems, including the A-10. Depleted uranium also provides 
defensive armor for Abrams tanks. Depleted uranium is generally limited 
to combat situations involving enemy tanks, and, therefore, is not 
currently in wide use in theater. It also has some uses in the civilian 
community, including in stabilizers in aircraft and boats.

                               H.R. 3795

    Question 2: Does the DoD agree that Persian Gulf War veterans were 
exposed to greater amounts of DU than the average citizen?

    Answer: Most Persian Gulf War veterans had no greater exposure to 
depleted uranium (DU) than does the average U.S. citizen. The 
Department of Defense (DoD) and the Department of Veterans Affairs 
maintain DU medical management programs to assess Servicemembers and 
veterans for possible DU exposure. The Department classifies personnel 
into three possible levels of exposure, and requires DU testing for 
those personnel in the two groups at the highest risk of exposure. 
Personnel at lower risk of exposure may also undergo testing based on 
concerns of the medical care provider or the patient. Thus far, DoD has 
tested almost 2,500 personnel serving in Operation Iraqi Freedom for DU 
in their urine specimens. Of these, only 10 have been positive for DU, 
most of whom had elevated levels associated with the presence of 
embedded DU fragments. However, the remainder of the 2,500 personnel 
tested have not shown elevation of urine uranium above the expected 
background level of natural uranium.

                               H.R. 3795

    Question 3: According to an article published by the U.S. National 
Library of Medicine and the National Institutes of Health, American 
soldiers involved in ``friendly fire'' accidents during the 1991 Gulf 
War were injured with depleted-uranium-containing fragments or possibly 
exposed to depleted uranium via other routes such as inhalation, 
ingestion, and/or wound contamination. Through urine samples, it was 
found that most of these soldiers had above-average DU concentrations 
in their bodies. Those studies only pertain to ``friendly fire'' 
injuries, so these figures would likely be much higher if all veterans 
were taken into consideration. Given these facts, does the DoD think 
that there is a slight possibility that even some Gulf War Veterans 
were exposed to DU and hence may be at greater risk of developing 
cancer?

    Answer: The Department generally concurs with the conclusions of 
the National Academy of Medicine (NAM) in its analysis of depleted 
uranium (DU) exposures during the 1991 Gulf War, which to a great 
extent have been based on decades of data arising out of industrial 
exposures to natural uranium. It is important to note that neither 
occupational exposure to natural uranium nor military exposure to DU 
(which is 40 percent less radioactive than natural uranium) has been 
shown to cause cancer in humans. Much of what is known about the 
exposure to and absorption of DU is derived from the scientific 
literature on natural uranium, which the NAM discusses at great length.

    All humans are exposed daily to natural uranium through inhalation 
and ingestion, and excrete it in their urine. Servicemembers on the 
battlefield are also exposed to natural uranium. In some unusual 
situations, they may be exposed to DU. After studying the 
Servicemembers with the highest risk of exposure to DU, it has become 
clear that the presence of embedded DU fragments is the main factor 
that results in long-term DU exposure. Neither ``friendly fire'' 
victims without embedded fragments, nor other individuals with lesser 
exposures, have had increased uranium in their urine that would 
indicate levels of exposure to DU that would have an adverse health 
effect.
    Those Servicemembers and veterans at greatest risk for possible 
exposure to DU are required to undergo medical evaluation by DoD or the 
Department of Veterans Affairs. Urine biomonitoring is the most 
sensitive technique for determination of excessive intake of DU, 
including inhalation and ingestion, and exposures in excess of 
occupational safety and health guidelines are readily detectable 
through elevation of urine uranium. About 80 veterans involved in 
``friendly fire'' incidents have been extensively evaluated, some since 
1993. Despite elevations of urine uranium levels in those personnel 
with remaining embedded DU fragments, no medical conditions associated 
with uranium exposure have been detected in any of the examined 
veterans during comprehensive medical evaluations.
    Some individuals not involved in ``friendly fire'' incidents and 
without embedded DU fragments are undergoing urine screening for DU 
because of military occupations that require them to work on damaged 
tanks, or possibly subject them to other low-level exposures. The 
Department has not identified any individual in this group who has 
tested positive for DU in the urine, and significant DU exposures are 
unlikely to have occurred in the absence of DU in the urine. Based on 
the absence of associated disease occurring in individuals involved in 
``friendly fire'' incidents, and the negative biomonitoring results 
from others possibly at risk of exposure, DoD believes that those at 
risk of developing uranium-associated disease are limited to the small 
group invited to participate in long-term medical follow-up

                               H.R. 3795

    Question 4: Additionally, the World Health Organization lists lung 
tissue damage leading to a risk of lung cancer as a potential effect of 
inhalation of large amounts of radioactive DU, and a DU Follow-up 
Program conducted by the Baltimore Division of the VA Maryland 
Healthcare System in January of 2000 found that health effects are 
related not only to the presence of uranium, but also to the amount of 
time or duration a person is exposed. It seems that any health effects 
are due to the total amount of exposure, not just the effects of a 
single incidence. Did the DOD take into account the duration of the 
exposure and the potential effects the length of time might have on 
servicemembers?

    The Committee has been apprised of a study conducted by a Northern 
Arizona University biochemist in 2006 that reveals that uranium can 
bind to and has profound and debilitating effects on human DNA. The 
findings seem to establish that when cells are exposed to uranium, the 
uranium binds to DNA and the cells acquire mutations, triggering a 
whole slew of protein replication errors, some of which can lead to 
various cancers. Please provide a response to these findings and 
indicate whether the DoD concludes that this research may shed light on 
the possible connection between exposure to depleted uranium and Gulf 
War Syndrome?

    Answer: The Department follows with interest the results of all 
relevant literature and research on the effects of uranium or depleted 
uranium (DU) on humans and mammalian systems. These must be interpreted 
based on whether they use in vivo (live animal) or in vitro (cell 
culture) models and what the studies are designed to measure. Medical 
science has evaluated health effects of natural uranium for more than 
50 years and DU for more than 20 years. Because DU is a heavy metal 
with minimal radioactivity, it would exert a toxic effect mainly as a 
chemical hazard rather than radioactive hazard. A few industrial 
workers (not 1991 Gulf War veterans) have developed kidney disease 
after taking in large amounts of uranium, due to its chemical 
properties. However, no human cancer, including lung cancer, has been 
linked to exposure to either natural uranium or DU.

    According to the World Health Organization, because ``DU is only 
weakly radioactive, very large amounts of dust (on the order of grams) 
would have to be inhaled for the additional risk of lung cancer to be 
detectable in an exposed group.'' The Institute of Medicine concluded 
that there was suggestive evidence of no association between exposure 
to uranium and lung cancer at doses 2-10 times higher than the maximum 
dose estimated in the DU Capstone Study. The Army's DU Capstone Study 
assessed DU dust levels in scenarios in which DU munitions struck 
vehicles, and calculated the incremental cancer risks of occupants in 
those vehicles under a variety of conditions, some of which were 
extreme. One of these conditions was the length of time occupants 
remained in the vehicle. The analysis supported the view there would be 
little or no long-term impact on the health of personnel from 
inhalation of DU particulates inside tanks or other vehicles struck by 
DU munitions.
    The Department is aware of publications by Diane Stearns and 
Virginia Coryell, of Northern Arizona University, in 2005 and 2006, 
which examined survival of Chinese hamster ovary cells exposed to a 
form of DU. While the results of the study suggest possible 
genotoxicity from the chemical effects of uranium exposure in a 
mammalian tissue culture system, these results must be viewed in 
perspective. Uranium is an element that is found everywhere in our 
environment, although some parts of the Earth contain higher 
concentrations of it in the soil. On average, more than four tons of 
natural uranium exists in the top foot of soil in every square mile on 
Earth. All humans are exposed to low levels of uranium on a daily 
basis, including in food, water, and the air we breathe. Everyone has 
about 80 milligrams of naturally occurring uranium in their body as a 
result of natural exposure, and excretes uranium in the urine. Most 
substances that we encounter have adverse effects in certain situations 
or concentrations, and studies of undesirable effects from excess 
exposures must be interpreted by comparison to usual exposures, or the 
norm. However, there is no way to compare the Northern Arizona 
University results with what would constitute a normal exposure.
    Furthermore, Service members evaluated for DU exposure are measured 
against a norm of low levels of natural uranium, rather than the total 
absence of uranium. Personnel with confirmed elevations in uranium 
levels are referred to the DU program for long-term medical follow-up. 
Significant elevations in urine uranium levels are associated with the 
presence of embedded DU fragments, and represent continuing exposures. 
Even after more than 15 years of follow-up for some individuals with 
embedded fragments of DU, no health effects resulting from their DU 
exposures have been detected other than wounds caused by the DU 
fragments. In addition, no birth defects have been observed in any of 
the offspring of these veterans. From Operation Iraqi Freedom 
deployments, about 2,500 personnel at elevated risk of DU exposure have 
undergone testing, and only 10 have been confirmed positive and 
referred for continued follow-up.

                               H.R. 5454

    Question 5: Please inform the Committee when the results of these 
research projects you mention in your Statement for the record (DAMA 
Subcommittee hearing, June 12, 2008) will be available.

    Answer: Two of the ongoing research projects will finish in 2009:

    <bullet>  Harvard University--``Prospective study of Amyotrophic 
Lateral Sclerosis Mortality Among World War II, Korea, and Vietnam 
veterans;'' and
    <bullet>  University of Cincinnati--``Biomarkers for Amyotrophic 
Lateral Sclerosis in Active Duty Military''

    Other projects should complete in 2010.

                               H.R. 5454

    Question 6: You admit that there are a few reports that show a 
possible association between ALS and military service, but you maintain 
that this is still insufficient evidence. So what would you consider to 
be sufficient evidence that would lead the DoD to conclude that there 
is some level of causation between military service and ALS?

    Answer: The Department concurs with the conclusion of the Institute 
of Medicine (IOM). The IOM published a report on Amyotrophic Lateral 
Sclerosis (ALS) in November 2006, entitled ``Amyotrophic Lateral 
Sclerosis in Veterans: Review of the Literature.'' Based on the 
strength of the scientific evidence, the IOM concluded that there was 
``limited and suggestive evidence of an association between military 
service and later development of ALS.'' This means the IOM concluded 
the evidence was not strong enough for causation. A causal relationship 
requires stronger scientific evidence than an association requires.

    The IOM stated that about 5-10 percent of ALS cases in the general 
population are inherited, and the causes of the remaining 90-95 percent 
of cases are not known. Similarly, in the studies of ALS in veterans, 
about 10 percent of the cases were inherited, and the causes of 90 
percent of the cases were not known. IOM pointed out that there have 
been many ALS studies in the general population that examined 
occupations, physical trauma, strenuous physical activity, and 
lifestyle factors, but there have been no consistent results.
    The IOM made a recommendation to ``conduct further corroborative or 
exploratory studies to elucidate ALS risk factors relevant to military 
service.'' There are several ongoing research studies that are 
evaluating the possible relationship between military service and later 
development of ALS. When completed, these studies will provide 
additional evidence on whether military veterans are at increased risk 
for developing ALS, compared with individuals who did not serve in the 
military.

                               H.R. 5454

    Question 7: On June 12, 2008, there was testimony delivered during 
the DAMA Subcommittee hearing by a veteran diagnosed with ALS (Jeff 
Faull) who cited a study funded by the DoD that found that veterans of 
the 1991 Gulf War are approximately twice as likely to develop ALS as 
those not deployed to the Gulf. Would the DoD consider this as 
sufficient evidence to conclude causation between ALS and military 
service?

    Mr. Faull also referred to a study conducted at Harvard that 
concluded that veterans from other eras, ranging from before World War 
II to after Vietnam, are also twice as likely to develop ALS as those 
who have never served in the military, regardless of whether the 
service was during time of peace or war, or at home or abroad? 
Moreover, the study indicated that veterans were at greater risk of 
becoming afflicted with ALS regardless of whether they served during a 
time of war or peace, or whether they served at home or abroad. Is the 
DoD aware of this study? If not, please inform the Committee of the 
DoD's opinion on the results of the aforementioned study now that it is 
aware.

    Answer: The Department is aware of the study, ``Occurrence of 
Amyotrophic Lateral Sclerosis, Among Gulf War Veterans,'' published in 
the medical journal, Neurology, in September 2003. The Institute of 
Medicine (IOM) published a report on ALS in November 2006, entitled 
``Amyotrophic Lateral Sclerosis in Veterans: Review of the 
Literature.'' On pages four and five of this report, the IOM states, 
``the results of a single study are not sufficient evidence to conclude 
causation between Amyotrophic Lateral Sclerosis (ALS) and military 
service.'' The Department of Defense (DoD) concurs with IOM's 
conclusion that the results of a single study are insufficient.

    The Department is aware of the study conducted by Harvard 
University researchers, ``Prospective Study of Military Service and 
Mortality from Amyotrophic Lateral Sclerosis,'' published in Neurology 
in January 2005. The Department reviewed this study and determined that 
it used appropriate methods. In fact, DoD provided funding to the 
Harvard University researchers to perform additional research on ALS in 
veterans of World War II, Korea, and Vietnam.

                               H.R. 5954

    Question 8: Has the DoD provided the Department of Veterans Affairs 
with all of the names of participants in the Project SHAD and Project 
112 testing?

    Answer: The Department of Defense (DoD) has provided the Department 
of Veterans Affairs (VA) with all the names of the participants in 
Project 112 and Project Ship Hazard and Defense (SHAD) that it has 
discovered to date. The Department vigorously pursues any new leads it 
receives on possible exposures in Project 112/SHAD. If during our 
investigations of these leads, we find new Project 112/SHAD exposures, 
DoD immediately notifies the VA.

                               H.R. 5954

    Question 9: Please provide a response to the U.S. Government 
Accountability Office's claims that the DOD needs to provide a more 
objective analysis of the costs and benefits of actively searching for 
Project 112 participants and that until then your efforts are 
questionable? The Committee adds that the GAO also stated that the 
American public cannot be assured that the DoD's current effort is 
reasonable and effective until you address the following limitations:

    a.  DOD's effort lacks clear and consistent objectives, scope of 
work, and information needs that would set the parameters for its 
effort.
    b.  DOD has not provided adequate oversight to guide this effort.
    c.  DOD has not fully leveraged information obtained from previous 
research efforts that identified exposed individuals.
    d.  DOD's effort lacks transparency since it has not kept Congress 
and veterans service organizations fully informed of the progress and 
results of its effort.

    Answer: In late 1991 and continuing for approximately 5 years, the 
Department of the Army, as the Department of Defense (DoD) executive 
agent, responded to several congressional inquiries on behalf of three 
possible Project Shipboard Hazard and Defense (SHAD) veterans. In 1992, 
the Army confirmed the existence of Project SHAD and provided, in 
relation to these specific inquiries, vessels involved, test locations, 
and substances used. In 1994, the Army provided unclassified or 
redacted documents. In 1998, renewed interest in the release of 
additional information on the Project 112 test program developed. In 
August 2000, the Department of Veterans Affairs (VA) asked DoD to 
provide more information on SHAD tests. At that time, VA wanted 
information on three tests--Autumn Gold, Copper Head, and Shady Grove--
to satisfy pending claims.

    In September 2000, DoD assigned responsibility for the 
investigation to the organization now known as Force Health Protection 
and Readiness (FHP&R). FHP&R personnel held weekly meetings with VA to 
ensure that DoD's search produced information that would be useful 
information to VA. This information included dates/location of tests, 
vessels involved, lists of agents, stimulants, tracer material, and 
decontaminants used. VA did not request agent concentration 
information. VA decided that if an illness was linked to an exposure, 
the veteran would receive compensation.
    DoD's investigation indicated that the Desert Test Center (DTC) 
planned both shipboard and land based testing. Investigators quickly 
determined that there were a significant number of tests conducted. In 
all, DTC personnel planned for 134 tests and conducted 50. DoD decided 
that veterans of individual tests should not have to wait for a full 
report of the investigation. Investigators prepared fact sheets for 
each test and delivered the names of exposed individuals to VA as soon 
as they compiled and declassified the necessary information. DoD 
provided information on Autumn Gold, Copper Head, and Shady Grove to VA 
on September 13, 2001, and simultaneously posted fact sheets relating 
to these tests on the FHP&R web site. DoD continued this procedure 
(develop fact sheets on tests, identify veterans possibly exposed, post 
the fact sheets on the FHP&R Web site, and notify VA of the individuals 
exposed on those tests) until the investigation was completed.
    In researching Project 112/SHAD, DoD investigators compiled over 
34,000 pages of relevant material. Locations searched for documents 
included West DTC, Dugway Proving Grounds, Navy Historical Center, 
Naval Surface Warfare Center, Edgewood Chemical and Biological Center, 
United States Army Chemical Center and School, Defense Technical 
Information Center, National Archives, Office of Naval Research, and 
the Office of the Secretary of Defense Historical Office. The discovery 
of DTC annual and semi-annual progress reports was a major breakthrough 
in the investigation that allowed a better understanding of the 
universe of tests planned. Many of these documents remain classified 
for national security reasons. However, without compromising national 
security, DoD investigators declassified portions of relevant documents 
and used this declassified material to build fact sheets for each test 
that accurately reflects the nature of Project 112 testing.
    During its investigation, DoD found no test specific medical 
records or classified medical records. Technical reports on tests did 
not include personally identifiable information on the health effects 
of exposures. The purpose of these tests was to assess dissemination 
characteristics and operational countermeasures, not health effects on 
personnel.
    Identification of Navy personnel was straightforward. Test 
documents identified the dates of the test and the trials associated 
with each test. Using these dates and the Enlisted/Officer Distribution 
and Verification Report (Quarterly listing of the ship's crew), ship's 
deck logs, and the ship's personnel diary, investigators identified 
personnel on-board during tests. Unfortunately, these documents are not 
available for the Navy tugs involved in several tests and complete 
information on these vessels is still lacking.
    Identifying individuals on land-based tests proved more difficult. 
DoD investigators identified military personnel who participated in 
these tests from test officers' log books, temporary duty orders, 
country clearance measures, overtime reports, letters of commendation, 
and similar documents. DoD investigators were able to identify 
personnel on only one-third of the land-based tests.
    Investigators could not totally identify three other groups of 
Project 112 personnel: the aircrews who loaded the spray tanks used on 
some SHAD tests, the pilots who flew spray missions, and members of the 
Project 112 technical staff.
    In August 2003, we provided Congress with a complete report, 
detailing our efforts to identify Project 112/SHAD testing and the 
individuals possibly exposed during this testing. Since our 2003 report 
to Congress, DoD received numerous phone calls and letters from 
veterans relating to participation in Project 112. These veterans have 
shared with us temporary duty orders, letters of commendation, etc., 
that enabled us to identify additional Service members involved in 
Project 112. However, these individuals were not able to identify 
locations that might contain additional SHAD documents.
    Additionally, the Institute of Medicine (IOM) conducted a study of 
the ``Long-Term Health Effects of Participation in Project SHAD,'' 
publishing its report in 2007. In support of this effort, DoD provided 
IOM with the Project 112 Exposure database. Using the same documents 
used by DoD, IOM reviewed the database and identified additional 
personnel possibly exposed. Working with IOM, DoD validated an 
additional 394 SHAD participants.
    The Department is currently identifying all non-Project 112/SHAD 
personnel possibly exposed to chemical and biological agents from World 
War II to the present. The DoD contractor conducting research for this 
effort completed a review of documents available at Dugway Proving 
Ground. During this review, they found no new individuals associated 
with Project 112 tests. They did find some additional tests for a few 
civilians already identified as participating in known Project 112 
tests.
    Having conducted an exhaustive search for information on Project 
112/SHAD, DoD does not concur that any degree of searching records 
archives for a long ago terminated program would result in a more 
complete documentation of all aspects of the program. The evidence 
found produces an accurate picture of Project 112/SHAD. We currently 
know of no other investigative leads that would meaningfully supplement 
that picture. We instructed the current contractor looking for non-
Project 112/SHAD exposures to collect the names of any individuals they 
discovered exposed in Project 112. FHP&R will investigate any new 
information that may be presented and share that information with VA 
and the public.
    The DoD program and actions address the intent of the GAO 
recommendations. The GAO stated that DoD had ``agreed to and has in 
some cases begun taking action to respond to the five 
recommendations.'' The Department updated its program goals and 
objectives to identify individuals who were possibly exposed during 
chemical and biological tests outside of Project 112. The revised 
statement of work, implementation plan, and concept of operations 
ensure consistent guidance and deliverables that are responsive to the 
GAO recommendations.
    The Office of the Special Assistant for Chemical and Biological 
Defense and Chemical Demilitarization Programs oversees the current 
program and has established an implementation plan with the Deputy 
Assistant Secretary of Defense (Force Health Protection and Readiness) 
(DASD(FHP&R)) delineating program oversight responsibilities. The 
following controls are in place: monthly reporting, quarterly program 
reviews, and data reviews with key personnel from the office of the 
DASD(FHP&R). As recommended by GAO, the DoD program manager conducts 
quarterly site visits.
    Under the revised statement of work, the support contractor 
conducts research to identify other organizations performing similar 
work. During quarterly reviews, the contractor presents analyses and 
reports on those sources that it recommends should be coordinated with 
and leveraged to identify additional individuals possibly exposed. As 
noted in DoD written comments to the draft GAO report, DoD continues to 
identify Project 112 participants when new leads or information is 
shared with us or VA from any source, including former Service members 
and others knowledgeable of these tests. DoD continues to develop and 
provide guidance to individuals possibly exposed during these tests.
    The DASD(FHP&R) continually adds information to its website to 
update the public on DoD's current efforts. FHP&R is upgrading this Web 
site to include information on possible exposures outside of Project 
112/SHAD. In February 2008, representatives of the DASD(FHP&R) briefed 
the veterans and military service organizations on our efforts and the 
DASD(FHP&R) will continue to brief these organizations on a periodic 
basis.

                               H.R. 5985

    Question 10: If this bill is not enacted, how would the DoD suggest 
making, maintaining, and transmitting military records amidst the often 
chaotic environment in which they are created in combat?

    a.  What does/would the DoD do in a situation where a 
servicemember's combat records are lost or otherwise irretrievable?

    Answer: The proposed amendment does not improve the likelihood of a 
fair hearing in these cases, because it proposes the addition of a 
provision to establish Service connection that would require 
information from official records. Lost records place an unfair burden 
on a veteran who is seeking to establish Service connection for a 
disease or injury. The Department provides assistance to reconstruct 
lost records, but this is not a guarantee that the information needed 
to prove Service connection will be recovered.

    Current law already addresses cases where official records cannot 
be used to provide Service connection. Title 38, United States Code, 
section 1154, subsection (b) clearly establishes a different burden of 
proof for the veteran and the government in cases where Service 
connection is called into question. This is evidenced by two provisions 
in the subsection:

    <bullet>  First, the Secretary of Veterans Affairs shall accept 
satisfactory lay or other evidence that the disease or injury was 
incurred or aggravated by service, which involved the engagement of the 
enemy in combat as sufficient proof of Service connection. If there is 
no official record that the disease or injury was incurred or 
aggravated by such service, the Secretary shall resolve every 
reasonable doubt in favor of the veteran.
    <bullet>  Second, the criterion for a rebuttal of a claim for 
Service connection is the presentation of clear and convincing evidence 
to the contrary.

    The legal framework for a reasonable evaluation of the evidence and 
a fair decision concerning a claim for Service connection is already 
established. The addition of a criterion to consider service in a 
combat zone to be equivalent to service, which involves engaging the 
enemy in combat, really does not address the issue of lost records.

                               H.R. 5985

    Question 11: Given the changing dynamic of combat in the current 
OEF/OIF conflicts (where there are virtually no lines or enemies in a 
certain uniform and where there are not many ``safe areas'') please 
explain how the DoD identifies a combat area, i.e., an area where a 
servicemember would engage in combat with the enemy?

    Answer: There may be several definitions of ``an area where a 
Service member would engage in combat with the enemy,'' depending 
whether the context is operational or for other purposes. For the 
purpose of establishing eligibility for tax benefits under section 112 
of the Internal Revenue Code, the Department identifies a potential 
``combat zone'' as an area, both land and sea, where combat operations 
are either occurring or likely to occur. Once a consensus is reached on 
the area, the Department drafts an Executive Order and recommends that 
the President sign the order, formally establishing the Combat Zone.

                               H.R. 5985

    Question 12: Service Medals are typically presented on a unit 
basis. Please describe how the DoD defines ``engaged in combat with the 
enemy'' for the purposes of awarding service medals. How does the DoD 
award service medals to those service members who ``engaged in combat 
with the enemy'' apart from his/her assigned unit, i.e. truck drivers 
on a convoy, etc.?

    Answer: The term ``Department of Defense Service medals'' 
encompasses all of the Department of Defense (DoD) Campaign, 
Expeditionary, and Service medals, including the Afghanistan Campaign 
Medal (ACM), Iraq Campaign Medal (ICM), Global War on Terrorism 
Expeditionary Medal, Global War on Terrorism Service Medal, Kosovo 
Campaign Medal, National Defense Service Medal, and many others. Many 
of these medals include criteria that authorize award based on a 
Service member being engaged in combat with the enemy. Specifically, 
the ACM and ICM criteria authorize award for being ``engaged in combat 
during an armed engagement,'' regardless of the amount of time spent in 
the area of eligibility. It is the responsibility of unit commanders, 
many of whom are on the ground in Iraq and Afghanistan, to determine if 
a Service member's specific situation constitutes actual combat during 
an armed engagement that would warrant award of the ACM or ICM. The 
Department and the Services do not define ``engaged in combat during an 
armed engagement'' for the purpose of awarding the ACM and ICM in order 
to allow as broad an interpretation as possible.

    The majority of Service members are awarded DoD Service medals, not 
for being engaged in combat, but for serving the required number of 
days in the specified area of eligibility. For those Service members 
who are authorized the award based on combat engagements, it is the 
Service member's responsibility to request award based on the ``engaged 
in combat during an armed engagement'' criteria and to notify their 
local chain-of-command of the qualifying combat engagement. The local 
commander verifies eligibility based on witness statements from other 
personnel present at the time of the combat engagement. The authority 
to authorize award of DoD Service medals has been delegated down to the 
local command level in order to expedite processing of such requests.
                               H.R. 5985

    Question 13: On average, what is the waiting period for a deserving 
servicemember to receive a medal for military service?

    a.  Please describe the process for awarding service medals.
    b.  Are there avenues to expedite this process?

    Answer: The Department of Defense (DoD) Service medals include 
Campaign, Expeditionary, and Service medals. Examples of DoD Service 
medals include the Iraq Campaign Medal (ICM), Afghanistan Campaign 
Medal (ACM), Global War on Terrorism Expeditionary Medal, Global War on 
Terrorism Service Medal, and National Defense Service Medal, to name a 
few. Each military department is responsible for prescribing 
appropriate regulations for administrative processing and awarding of 
DoD Service medals.

    The Services do not track the waiting period for a Service member 
to receive a DoD Service medal. As one would expect, processes for 
award of Service medals vary for each Service based on its respective 
regulations and award systems. However, since determining eligibility 
is basically an administrative review to ensure eligibility criteria 
have been met, the timeframe between providing proof of eligibility and 
updating personnel records is minimal, normally less than 30 days. 
Award authority is delegated to the local commander in order to 
expedite the award process. The Department is aware of no avenue to 
further expedite this process nor is there evidence to suggest that 
there is a problem with the timely award of DoD Service medals.

                               H.R. 6032

    Question 14: Please comment on the results of the most recent IOM 
Report on the possible health effects of Agent Orange and other 
herbicides used during the Vietnam War?

    Answer: The Institute of Medicine (IOM) report ``Veterans and Agent 
Orange Update 2006'' was released in late 2007. The update fulfills the 
mandates of the Agent Orange Act 1991 and the Veterans Education and 
Benefits Expansion Act for the National Academy of Sciences, which 
require a comprehensive evaluation of scientific and medical 
information on the health effects of exposure to Agent Orange, other 
herbicides used in Vietnam, and the chemical components of those 
herbicides.
    The Department of Veterans Affairs (VA) established an internal VA 
Work Group to formally review the report. The Department awaits the 
completion of VA's formal review. This update will assist in the 
development of VA policy related to disability determination for 
Vietnam veterans claiming injury from Agent Orange exposure.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
